<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2016 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-28, Part 2]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 114-28, Pt. 2

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1356

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2016 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 2

                                SEAPOWER

                               ----------                              

                       MARCH 11, 18 AND 25, 2015


         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



		Available via the World Wide Web: http://www.fdsys.gov/

                               -------------
         
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-642 PDF                    WASHINGTON : 2016                       

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  



  


                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                 ______

                        Subcommittee on Seapower

                 ROGER F. WICKER, Mississippi, Chairman

JEFF SESSIONS, Alabama               MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          BILL NELSON, Florida
MIKE ROUNDS, South Dakota            JEANNE SHAHEEN, New Hampshire
THOM TILLIS, North Carolina          RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
TED CRUZ, Texas                      ANGUS S. KING, JR., Maine

                                  (ii)


                            C O N T E N T S

                              ----------                              

                             march 11, 2015

                                                                   Page

Marine Corps Ground Modernization................................     1

Glueck, Lt. Gen. Kenneth J., Jr., USMC, Deputy Commandant, Combat 
  Development and Integration, Commanding General, Marine Corps 
  Combat Development Command.....................................     5
Dee, Thomas P., Deputy Assistant Secretary of the Navy, 
  Expeditionary Programs and Logistics Management, Office of the 
  Assistant Secretary of the Navy, Research, Development, and 
  Acquisition....................................................     7

Questions for the Record.........................................    43

                             march 18, 2015

Navy Shipbuilding Programs.......................................    51
Stackley, Hon. Sean J., Assistant Secretary of the Navy, 
  Research, Development, and Acquisition.........................    54
Hilarides, VADM William H., USN, Commander, Naval Sea Systems 
  Command........................................................    67
Mulloy, VADM Joseph P. USN, Deputy Chief Of Naval Operations, 
  Integration of Capabilities and Resources [N8].................    68

Questions for the Record.........................................   100

                             march 25, 2015

 Navy and Marine Corps Aviation Programs.........................   117

Grosklags, VADM Paul A., USN, Principal Military Deputy, 
  Assistant Secretary of the Navy for Research, Development, and 
  Acquisitions...................................................   120

Questions for the Record.........................................   159

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                   MARINE CORPS GROUND MODERNIZATION

    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-222, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Ayotte, Tillis, 
Sullivan, Blumenthal, Hirono, and King.

     OPENING STATEMENT OF SENATOR ROGER F. WICKER, CHAIRMAN

    Senator Wicker. It is precisely 9:30 a.m., and this hearing 
of the Senate Armed Services Seapower Subcommittee will come to 
order.
    Before we begin, I think Senator Hirono and I would both 
like to express our concern for the seven marines and four 
soldiers missing after a helicopter crash early this morning in 
Florida. I understand that the search and rescue mission 
continues, and we are anxious to receive any news we can. 
Perhaps our witnesses might have some information about that as 
they begin their testimony.
    The Senate Armed Services Subcommittee on Seapower convenes 
this morning to examine Marine Corps ground modernization 
programs. This is the Seapower Subcommittee's first hearing for 
the 114th Congress.
    I welcome my friend and colleague from Hawaii, Senator 
Hirono, who serves as ranking member of this subcommittee. I 
look forward to working with Senator Hirono to ensure that our 
sailors and marines remain the best trained, best equipped, and 
most professional maritime fighting force in the world.
    This morning, we welcome Mr. Thomas P. Dee, Deputy 
Assistant Secretary of the Navy for Expeditionary Programs and 
Logistics Management, and Lieutenant General Kenneth J. Glueck, 
who serves as Deputy Commandant for combat Development and 
Integration. General Glueck is also the commanding general of 
the Marine Corps Combat Development Command. Our subcommittee 
thanks you, and we thank the nearly 185,000 marines who are 
operating in over 40 countries around the world for your 
service to our Nation.
    Over the past several years, the Marine Corps has been in a 
transition period moving from counterinsurgency and stability 
operations in Iraq and Afghanistan to the Marine Corps' more 
traditional role as a ready and capable rapid response force. 
This transition has been and will continue to be complicated by 
fiscal uncertainty, the prospect of sequestration, reductions 
in end strength and force structure, and challenges with combat 
vehicle modernization.
    Today, our efforts will update us on their efforts to build 
a global crisis response force of amphibious, combat, and 
tactical ground vehicles. This force should meet the Nation's 
requirements for maneuver from the sea that is technologically 
achievable and affordable. I would like our witnesses to 
elaborate on the Marine Corps' strategy for modernizing its 
vehicle fleet, including the amphibious combat vehicle, ACV, 
and joint light tactical vehicle, JLTV. I would be interested 
to learn how the Marine Corps plans to meet its ground vehicle 
requirements within current and projected budget constraints 
while still maintaining high operational capability and 
readiness.
    I understand the Marine Corps has restructured the 
amphibious combat vehicle and will release a request for 
proposals this year. I remain concerned that substituting 
wheeled armor personnel carriers for amphibious track vehicles 
could erode the Marine Corps' amphibious assault capability, 
the capability that separates the Marine Corps from the Army. 
So perhaps we will hear testimony about that.
    I look forward to hearing how the Marine Corps ACV 
acquisition strategy will reduce fielding time and deliver 
vehicles incrementally.
    Now, with regard to the JLTV, I am encouraged by the 
progress that the Marine Corps and the Army have made on this 
multi-service program. The JLTV program office is scheduled for 
milestone C and the low rate production contract award in this 
fiscal year. The Marine Corps budget request supports the 
achievement of initial operational capability in fiscal year 
2018. I trust that our witnesses will reassure this 
subcommittee that the Marine Corps JLTV design and requirements 
are stable. Such stability would ensure that the Marine Corps 
will be able to afford to field this important replacement for 
our High Mobility Multipurpose Wheeled Vehicle's (HMMWV) as 
soon as possible.
    With regard to acquisition of the ACV and JLTV vehicle, I 
understand that the Marine Corps relies on competition to gauge 
early on what is technologically feasible and affordable. But 
competition requires viable competitors, which we do not always 
have. So maybe we will hear about that. I would like our 
witnesses to provide their best assessment of the state of the 
U.S. industrial base for ground combat and tactical vehicles. 
Perhaps they will suggest what can be done to sustain the 
viability of our manufacturing base at the contractor and 
supply chain levels.
    Now, with regard to sequestration, the Marine Corps faces 
significant budget challenges, as do all of our Services. 
Unless Congress acts, sequestration will return in October of 
this year. And I feel like I am singing a song from 2 and 3 
years ago. As a member of both the Armed Services Committee and 
the Budget Committee, I know that tough decisions must be made 
across the Federal Government. However, I would remind everyone 
that national defense is solely a Federal responsibility. 
Defense spending is also a twofer, supporting both our national 
security and our high tech manufacturing workforce. 
Sequestration was designed to be so onerous that we would never 
even proceed to it. And frankly, it is unthinkable that having 
experienced it once, we would once again move to it later on 
this calendar year.
    The Marine Corps' budget accounts for approximately 6 
percent of the Department of Defense's (DOD) total budget. I am 
concerned that sequestration could disproportionately impact 
the Marine Corps on everything from modernization to readiness. 
As such, I hope our witnesses today will elaborate on the 
impact that sequestration will have on our expeditionary 
marines, their ability to execute our country's national 
security strategy, and the vitality of our defense industrial 
base.
    Senator Hirono.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you very much, Mr. Chairman.
    And thank you to the witnesses who are here. Thank you for 
your service.
    Mr. Chairman, I share your concerns regarding the missing 
marines and soldiers after a helicopter accident in Florida, 
and our thoughts are with the families and the members.
    Before I begin, of course, I want to acknowledge my delight 
in being the ranking member on this committee with you, Mr. 
Chairman, and I certainly look forward to working with you.
    The Marine Corps continues its transition from providing 
forces to support operations in Afghanistan and Iraq back to 
its more traditional role of a force in readiness, forward 
deployed at sea or stationed ashore, and ready for crises 
responses. This transition has been complicated unnecessarily 
and some might say even dangerously by a fiscal uncertainty 
associated with the Budget Control Act and the threat of 
sequestration, which the chairman has already highlighted.
    The broader context for this hearing, as you all know will 
carry over to our shipbuilding and aviation hearings, is much 
more challenging than just marine ground systems modernization. 
We are justifiably concerned about the synchronization, 
stability, technical achievability, and affordability of 
several long-term, complex and expensive sea, air, as well as 
land system modernization programs that are necessary to 
rebuild our amphibious capability. In this regard, several 
amphibious ship and connector modernization programs are 
essential to achieve the Navy's and Marine Corps' requirements 
for a fully capable, globally postured, and ready amphibious 
force.
    As Commandant of the Marine Corps General Joseph Dunford 
recently said, there is an amphibious ship and connector 
capability gap that we must deal with if we are to revitalize 
amphibious forces and meet global demand. Any break or weakness 
in the chain of transfer or maneuvering of land forces from 
ship to connector to shore undermines the military power we 
expect to project with amphibious operations.
    While today's focus is primarily on ground capabilities, we 
want an update from our witnesses on how the Marines' fiscal 
year 2016 request and future years defense program, FYDP, is 
synchronize to rebuild modern amphibious forces. We are 
interested in learning how the Marine Corps will develop and 
deliver combat and tactical vehicles that are technologically 
advanced and affordable. We are particularly interested in 
learning more about current and future requirements, 
capabilities, and technical feasibility for armored amphibious 
assault and how Marine plans for an end state force with as 
many as three different vehicles is justified and affordable.
    Unfortunately, we must recognize that the stability and 
achievability of the Marine Corps' carefully considered plans 
for ground system readiness and modernization is at risk if 
sequestration level cuts are triggered for fiscal year 2016 and 
beyond. We are interested to hear how sequestration at any 
point compounds challenges to the Marine Corps' size, force 
structure, readiness, and modernization programs. If necessary, 
what tradeoffs will the Marine Corps make?
    For example, we know that the Marine Corps has gotten 
smaller and may continue to reduce its end strength to meet 
Budget Control Act (BCA) caps. How will the Marine Corps 
analyze and distribute reductions to end strength and force 
structure among its U.S. and forward-stationed locations? How 
will the Marine Corps ensure sufficient readiness in its non-
deployed forces to maintain strategic depth available for 
unforeseen contingencies? Will the Marines cancel or delay its 
new systems development programs, delay the upgrade of current 
capabilities, or both?
    And finally, we would like our witnesses to address the 
potential impact or risk on its modernization plans under 
extraordinary budgetary pressures, pressures associated with 
new or continuing support for ongoing operations around the 
world.
    Of course, our Nation could not be more proud of what the 
Marine Corps does, what our Marines and their families have 
accomplished over the past 14 years of war.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you very much.
    I note that our two witnesses have submitted a joint 
statement, and without objection, it will be included in the 
record in its entirety at this point.
    [The prepared statement of General Glueck and Mr. Dee 
follows:]

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Wicker. Which of you gentlemen would like to 
proceed?
    General Glueck. I can go first.
    Senator Wicker. General Glueck, thank you very much. And if 
you could, tell us what you know about this morning's 
helicopter crash.
    General Glueck. Well, as far as I know right now, you know, 
it is under investigation as time goes on. We know that it 
occurred just outside of Eglin Air Force Base, and it included 
both U.S. Army, I believe, special forces, as well as our 
Marine special operations forces as well. They do a lot of 
training down in that area in the panhandle of Florida, and 
from indications I heard this morning that there is potential 
that there could be a problem with weather. So that is about 
what we have at this present time, sir.
    Senator Wicker. Thank you.
    General Glueck. But thank you to both of you for your 
condolences.
    Senator Wicker. Well, we appreciate that update.
    If you will, then proceed, as you will, to summarize your 
testimony.
    General Glueck. Chairman Wicker, Ranking Member Hirono, and 
distinguished members of the subcommittee, thank you for this 
opportunity to testify before you today.
    The Marine Corps' ability to serve as our Nation's premier 
crisis response force is due, in large part, to this 
subcommittee's continued strong support, and on behalf of all 
our marines, I would like to say thank you very much.
    A forward-deployed Marine Corps provides our Nation a 
universal tool that can be immediately employed. This force can 
serve as the leading edge of the larger joint force or deploy 
and sustain itself in even the most austere of environments. 
Our ability to rapidly respond to developing crisis not only 
ensures that the combatant commanders have the right force in 
the right place at the right time, but provides national 
leaders with valuable decision space.
    To execute this mission, the Marine Corps pursues 
technologies that allow us to develop and sustain a ready, 
balanced force that is flexible, survivable, lethal, and highly 
expeditionary. Combatant commanders will task this force to 
operate across a range of military operations in smaller and 
distributed formations.
    Our modernization programs are aimed at equipping these 
forces with the necessary capabilities to achieve success no 
matter what the mission or who the adversary. As the Department 
of the Navy and your Marine Corps confront the challenges of 
budget constraints of sequestration, we are evaluating 
priorities and making hard choices that are necessary to 
maintain the right balance in capacity, capability, and 
industrial base sustainment. With the smallest modernization 
budget in the Department of Defense, the Marine Corps 
continually seeks to leverage the investments of the other 
services, carefully allocating our modernization resources to 
those investment areas which are the most fiscally prudent and 
those which promise the most operationally effective payoffs.
    Innovative warfighting and can-do leadership are hallmarks 
of our corps, but these cannot overcome the vulnerabilities 
created by our rapidly aging fleet of vehicles. Long-term 
shortfalls in modernization have a detrimental impact on 
readiness, degrade our crisis response capability, and will 
ultimately cost lives.
    We are seeking to balance the increasing costs and 
inefficiencies of maintaining legacy programs with required 
investments in modernization. Our ground vehicle modernization 
strategy is to sequentially modernize priority capabilities, 
reduce aging equipment inventories whenever possible, and 
judiciously sustain remaining equipment.
    The future security environment requires a robust 
capability to operate from the sea and maneuver ashore to 
positions of advantage. The amphibious combat vehicle, or ACV, 
is the Corps' highest ground modernization priority. This 
program, when coupled with the improvements to our existing 
fleet of amphibious assault vehicles, AAVs, generates a 
complementary set of capabilities for both littoral forceful 
entry and high-speed operational maneuver.
    In parallel with these modernization efforts, a science and 
technology portfolio is in development to continue our 
exploration for high water speed technology. These efforts will 
develop the knowledge necessary to reach an informed decision 
by the mid-2020's on the feasibility, affordability, and 
options for developing an extended range high water speed ship-
to-shore capability.
    The second highest priority within our portfolio remains 
the replacement of a portion of our legacy HMMWV fleet. These 
trucks performed well in combat conditions, but lacked the 
maneuverability and force protection required to meet both 
current and future enemy threats. In partnership with the Army, 
the Marine Corps has sequenced the JLTV program to ensure 
affordability of the entire ground tactical vehicle portfolio.
    These Corps modernization efforts have been designed in a 
manner to ensure their affordability. However, if the budget is 
sequestered in fiscal year 2016 or beyond, it will jeopardize 
both the timing and resources required to undertake this 
strategy.
    In addition to our critical investments in mobility, the 
fiscal year 2016 budget includes a request for the next 
generation radar which will replace five of our legacy systems. 
The ground-air task-oriented radar is a multi-role, ground-
based expeditionary radar that provides greater operational 
reach, volume, and precision to identify and track both 
friendly and hostile forces and interfaces with our Navy 
systems to project land and sea power beyond the littorals.
    A critical enabler for our future force remains our 
advanced command and control systems. As we design our force to 
operate more rapidly across greater distances, the ability to 
communicate and utilize the most up-to-date information becomes 
a critical capability gap. It is within this portfolio that we 
will begin to see the creeping costs of reduced budgets. While 
our highest priority programs are either partially or fully 
funded, the ability to maintain their currency in the future 
years is uncertain. This puts at risk our ability to conduct 
near-term and future joint and combined operations.
    The Marine Corps continues to prioritize near-term 
readiness above the other attributes of the force. However, 
that readiness must be balanced in terms of accepting risk by 
sustaining legacy systems and modernizing key programs to 
ensure effectiveness on the future battlefield. The demand for 
the expeditionary capabilities that marines provide to the 
Nation will only increase. The marines tasked with executing 
these missions will be asked to do so with the equipment 
provided by our modernization programs today, but we must be 
mindful that by sacrificing today's modernization efforts, we 
will actually be degrading our future readiness.
    Priorities reflected in the fiscal year 2016 budget are the 
modernization efforts that we must have to remain the most 
ready when the Nation is least ready. In partnership with the 
Navy, the Marine Corps look forward to working with you to 
address these issues.
    Thank you for this opportunity to be here and I look 
forward to your questions, sir.
    Senator Wicker. Thank you.
    Mr. Dee, do you have any additional testimony to add at 
this point?
    Mr. Dee. Yes, sir, if I may make a very brief opening 
statement.
    Senator Wicker. Please.

 STATEMENT OF THOMAS P. DEE, DEPUTY ASSISTANT SECRETARY OF THE 
                NAVY, EXPEDITIONARY PROGRAMS AND
LOGISTICS MANAGEMENT, OFFICE OF THE ASSISTANT SECRETARY OF THE 
                NAVY, RESEARCH, DEVELOPMENT, AND
                          ACQUISITION

    Mr. Dee. Chairman Wicker, Ranking Member Hirono, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify before you today.
    General Glueck has highlighted the importance of our Marine 
Corps as America's expeditionary force in readiness to the 
security of this Nation, and he commented on a few of the 
priority modernization programs for which we are requesting 
funding in fiscal year 2016.
    Yesterday, the Commandant of the Marine Corps testified 
before the full committee and outlined the risks associated 
with the specter of sequestration should the Budget Control Act 
of 2011 be implemented this year or in future years.
    But regardless with what happens with sequestration this 
year or next, the Marine Corps already has the most austere 
investment budget of any service with only about 10 percent of 
their total obligation authority, or only about $2 billion, 
requested in fiscal year 2016 for the research and development 
and procurement accounts. These funds need to cover the range 
of Marine Corps ground force capabilities from combat and 
tactical vehicles to artillery and missiles, enterprise 
information technology, command and control radars, unmanned 
aerial systems, personal protective equipment, small arms, 
ammunition, generators, tents, and everything in between. With 
the need to stretch so few dollars over so many critical 
capabilities, the Marine Corps is especially conscious of 
making every dollar count and of the opportunity costs of 
making less than optimal decisions.
    So for that reason, we are committed to using every option 
in the acquisition toolbox to control costs as we deliver the 
finest equipment to our marines and balance the imperative of 
current readiness with the requirement to modernize and assure 
our future readiness. Competition, contract incentives, 
affordability caps, should-cost goals all help us to execute 
affordable modernization programs. And of course, we need 
stable and realistic requirements, and through early and 
extensive collaboration among our combat developers, our 
programmers, our engineers, and our acquisition professionals, 
we avoid pursuing the unachievable or unaffordable requirements 
that will place undue risk on our programs.
    We also need stable budgets. Over the past few years, the 
Navy and the Marine Corps team has been diligent in making 
difficult trades to balance risk within our modernization 
portfolios. Unpredictable budgets, continuing resolutions, and 
other uncertainties inhibit our ability to effectively plan and 
execute the programs that will ensure that the Marine Corps 
will remain America's expeditionary force in readiness well 
into the future.
    Mr. Chairman, thank you for the support you and your 
committee have provided and continue to provide to our Marine 
Corps. I look forward to answering your questions.
    Senator Wicker. Thank you.
    This clock in front of me says 6 minutes. So I think that 
is a good enough suggestion for us, so we will begin with 6-
minute rounds.
    Let me start, General Glueck, with you. On the fiscal year 
2016 budget request, does that account for sequestration 
returning?
    General Glueck. Mr. Chairman, no, it does not.
    Senator Wicker. Well, I think that points up a challenge 
that we have at the subcommittee level and also as an entire 
Congress. Sequestration right now is the law of the land. I 
think we all understand that. Unless the law changes, 
sequestration is back in October of this year. If that should 
occur, what are your plans to manage risk and program 
development in that eventuality, General?
    General Glueck. Mr. Chairman, as stated yesterday by the 
Commandant and also by the Secretary of the Navy, if we do not 
deal with the sequestered budget, then we will have to go ahead 
and do mission analysis of the Defense Security Strategy. And 
based on that, then the Marine Corps would go into do a deep 
dive analysis on exactly how we best can be organized, trained, 
and equipped to be able to support the mission that we have for 
the future.
    Senator Wicker. I honestly hope that Congress is taking 
this seriously enough, but I have seen it play out before.
    How well positioned are you to do this deep dive on a 
fairly expedited basis? Because October 1st is going to be here 
before we know it.
    General Glueck. Yes, Mr. Chairman, I understand that. We 
have been working on this program for quite a while looking at 
different eventualities. But a lot of it will come down to the 
strategy and how the joint force and OSD and how we determine 
what the strategy for the future will be and how the Marine 
Corps will best fit into that for us to actually come to the 
real clarity that you are looking for.
    Senator Wicker. Mr. Dee, I was interested to hear you say 
that even without sequestration, the Marine Corps budget is the 
most austere of the services. Why is that? Is that a decision 
that we made at the congressional level or is it something that 
DOD decided we could live with? Help us understand that.
    Mr. Dee. So the Marine Corps, along with the Army, but to a 
greater extent than the Army, is reliant on the individual 
marine. So the bulk of the Marine Corps budget is expended on 
manpower costs, manpower training operations, et cetera. So 
once you pay those bills, the manpower costs and the O&M costs, 
the operating forces costs add up to about 90 percent of the 
Marine Corps budget, over 60 percent for manpower alone. So 
that only leaves about 10 percent for investment, and that is 
the primary reason why the Marine Corps' budget is so low.
    Senator Wicker. General, how is the transition going from 
the Iraq and Afghanistan counterinsurgency and stability model 
to the more traditional role as a ready and capable rapid 
response force?
    General Glueck. Thank you for that question, sir.
    I think the transition is going extremely well. You know, 
we never walked away from our amphibious roots. Even during the 
time that we were conducting operations in Iraq and 
Afghanistan, we still had our marine expeditionary units that 
were forward-stationed and forward-deployed around the world.
    As we have come back out of Afghanistan and Iraq, at this 
point what we needed was to take a look at a new strategy. And 
based on that, we wrote a capstone concept for the Marine 
Corps, which is entitled Expeditionary Force 21. That was 
signed last year in March, and that kind of laid out the 
guideline for the next 10 years of how we intend to operate 
across the range of military operations. And to this point, 
that has been highly successful.
    We were able to take that concept, Expeditionary Force 21, 
and the Commandant signed it in March of 2014. And just here in 
Bold Alligator here just last September - October, the forces 
down at II MEF and the naval forces that were assigned as well 
actually took that and moved it into actual execution. So I 
think that is a pretty strong message that we have actually 
been able to go ahead and take a strategic concept at a service 
level and be able to get it down to both the operational and 
tactical level, and it is being embraced very well.
    Senator Wicker. Thank you. I think it is a matter of where 
the emphasis is, and the capability has to be there for both.
    I have been saying this to everybody that would listen. I 
think we have had great success in Afghanistan. I do not think 
the American people perhaps understand how successful our 
operation has been there. And I would just hope that we as 
decision-makers and particularly the commander in chief as a 
decision-maker would make sure that we not leave too early 
based on a political agenda in Afghanistan and that instead, we 
do the things necessary to solidify our gains there and make 
sure that what has happened in a somewhat different but 
somewhat analogous situation in Iraq do not occur in 
Afghanistan.
    My congratulations to our outstanding troops for getting us 
where we are, and that is on the cusp of success in 
Afghanistan. Thank you very much.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    The fiscal uncertainty that we have been operating under 
for too many years has resulted in a chronic and increasingly 
dangerous disconnect between strategy, military requirements, 
budget estimates, appropriations, and the efficient and 
effective execution of funds to support current operations, 
build and sustain readiness, and prepare for a dangerous 
future. In fact, General, you noted at the beginning of your 
testimony that what is certain about the future is its 
uncertainty.
    I have several questions about this fiscal environment and 
how the Marine Corps will manage its way through a number of 
scenarios.
    First, either one of you can respond, General or Mr. 
Secretary. What have you learned in this environment of 
uncertainty about estimating and executing your budget to 
mitigate or build flexibility, a word that I note you used 
several times in your testimony, General, into your programs 
and achieve, as best you can, your most important priorities?
    General Glueck. Thank you for that question.
    When you look at readiness for the future, the way the 
Commandant defines it is in five pillars: the personnel unit, 
modernization of equipment, the infrastructure, and of course, 
our ability to support the combatant commanders, which is 
warfighting. So as we move forward in that, it is about 
maintaining that balance. And even in the 2016 budget, while 
there is a certain balance--we put priority, of course, in our 
near-term readiness of our forces that would be forward-
stationed and forward-deployed. So we took reductions, of 
course, modernization and also in our infrastructure.
    What we really look forward to do in the 2016 budget and 
beyond, we would like to be able to put stability in there so 
that we can have particularly the fiscal stability for 
procurement of the weapons systems that we need to modernize 
for our force. You know, today when you look at an amphibious 
assault vehicle, it is well over 40 years old. You are looking 
at a HMMWV that is over 30 years old. I mean, those vehicles 
are old, they are tired, they need to be replaced. We will do 
what we can to go ahead and bring some of those up to an 
acceptable standard. But to be the Marine Corps that you want I 
think and our Nation needs for the future, it is time that we 
need to do some modernization. And the way we look at these 
vehicles is that they are fully complementary with one another 
for the missions that we see particularly coming from the sea.
    Senator Hirono. So, General, your priorities were for near-
term readiness as we were in Afghanistan and Iraq, and you are 
saying that we delayed the modernization priorities for too 
long and we really need to move forward on that with your aging 
vehicles. I think that your testimony noted that the 
modernization of all of these vehicles will amount to hundreds 
and hundreds of millions of dollars. So within that context, 
how do you determine which vehicles are the most important to 
modernize, which vehicles are you going to try to get longer 
life from? You have already done those kinds of assessments?
    General Glueck. Yes, we have. We have done exhaustive 
assessments on this and worked this very, very closely.
    You know, we believe that the number one priority, as the 
Commandant has stated, is the amphibious combat vehicle, which 
is number one. We have about 1,062 AAV's that we have been 
operating for the past 40 years. Some of those amphibious 
assault vehicles we will do a survivability upgrade on, which 
will be about 392 of those vehicles. And that will enable us to 
maintain a forceful entry capability for all seven of our 
Marine Expeditionary Units, as well as our two Marine 
Expeditionary Brigades, which we are required by law to be able 
to maintain the forceful entry capability of two brigades 
simultaneously. So that 392 will address that.
    So the overall requirement that we have for our marines is 
to have armored lift for 10 battalions of infantry. With our 
AAVs, the 392 that get the survivability upgrade, they will be 
able to carry four infantry battalions. With the ACV 1.1 and 
the 1.2, they will account for an additional six infantry 
battalions. So that is where you are going to get your 10 
battalions' worth of lift to be able to take us into the 
future.
    And so we looked at these vehicles as being complementary 
in nature. It is not that they only have to be complementary 
amongst themselves, but they have to be complementary to our 
overall objective of operational maneuver from the sea. And if 
you look at the amphibious ships, you look at the connectors 
that are required to support the sea basing, it is all 
complementary in nature and it is all about having a family of 
vehicles that are tied and linked together to be able to give 
us that operational capability reach that we want.
    Senator Hirono. So I realize that that is your current plan 
right now, which does not take into account sequestration. So 
if we do not deal with sequestration in the way we should, 
which is to eliminate it, would you just then decrease the 
number of battalions? Would you just impose numbers? Would it 
be a numbers decision for you?
    General Glueck. It will actually be a capability decision. 
You know, as our Commandant has stated, we are only going to be 
as big as we can be good. That is a strong statement. And it is 
not just about numbers. It is about quality and capability of 
the force. So if we are sequestered, it will come down to 
priorities. Like I said, the number one priority would be the 
amphibious combat vehicle. At some point, what you will find is 
that programs get stretched out. You have to take cuts in other 
programs, and we are willing to do that if necessary to be able 
to meet the objectives that will come from the strategy.
    Senator Wicker. You can take another round.
    Senator Hirono. Am I done? Oh, my goodness. How time flies. 
I will go into a second round. Thank you, Mr. Chairman.
    Senator Wicker. Senator Sullivan, does this uniform look 
familiar to you?
    Senator Sullivan. Yes, Mr. Chairman. It is a sharp looking 
uniform if I do say so myself.
    Thank you, Mr. Chairman. And gentlemen, thanks for your 
testimony.
    General Glueck, I appreciate in particular the emphasis in 
your testimony, particularly during the challenging times we 
are all seeing with regard to the budget, on the frugality or 
what I like to refer to in testimony yesterday with the 
Commandant and the Secretary of the Navy as the bang for the 
buck that the Marine Corps provides. I think it is good for the 
American people to know that. It does not get out there a lot. 
I know Marines take a lot of pride in that frugality, and you 
know, the number that the Commandant mentioned yesterday, 6 
percent of the DOD budget, 21 percent of the infantry 
battalions--and it is not just the quantity. It is the quality. 
Those infantry battalions are some of the best in the world, 
and I think that is a statement that is irrefutable in my view.
    So what I would like to focus on a little bit initially is 
the rebalance to Asia and the discussion particularly with 
regard to the ground forces. And I think you know, General, 
this committee for years has been looking at some of the 
rebalancing that the Marine Corps has been doing from Okinawa 
to Guam. And as part of our oversight responsibilities, some of 
the members of this committee will be heading out to the region 
relatively soon to get a more detailed look at some of those 
issues.
    So I was just wondering from the perspective of how you 
would have us think through those issues, do you think that 
that redeployment is going well? And what are the big issues 
that you would want us to be focusing on?
    General Glueck. Sir, thank you very much for that question.
    Prior to this assignment, I was the commanding general of 
the 3rd Marine Expeditionary Force in Okinawa. So I am fairly 
conversant on that.
    Our Marines in Okinawa--you know, the mantra that we had 
for them was they need to be prepared to fight the night, and 
that would be in Korea. That is probably our most dangerous 
scenario.
    As we look at the rebalance, for us, when I got there, we 
did not even have our Unit Deployment Program (UDP). Our unit 
deployment plan had been in support of Afghanistan and Iraq 
over the years. So we lacked our infantry battalions. And 
thanks to the foresight of the Commandant, as soon as we were 
pulling out, we reconstituted those forces and put those 
battalions back into Okinawa. So that was a major step forward, 
and that was even before the shift in the strategy.
    So as you stand today, the intent is to maintain 22,500 
marines west of the International Date Line. So it comes down 
to where are those Marines going to be positioned.
    Senator Sullivan. Can I ask about that? Because, you know, 
the Commandant talked about that a little bit yesterday. You 
have the Date Line, but you also have--I was looking at a map 
yesterday. The Marines in Darwin are actually further from 
Korea than troops in Anchorage, Alaska. And I am not advocating 
yet for a Marine Corps base in Alaska, but that could be 
coming. But I mean, there is this kind of Date Line issue, but 
there is also proximity. And Darwin is pretty darned far from 
Northeast Asia.
    General Glueck. That is true. But also, as you know, Asia 
is a very big Area of Responsiblity (AOR). And if you look at 
what we had down in the southern region, we really had nothing 
at that time. You know, we started off with Darwin. We actually 
put a rifle company down there. It was the very first element 
that we stuck down there. And I think they were probably the 
most publicized rifle company in the Marine Corps history when 
they went down there. It actually disappointed the Australians 
on well behaved they were.
    So we have taken that and actually the intent is to take 
that up to about a level of about 2,500, and that is going to 
be based on the infrastructure that actually is down there 
working with our host to be able to support that. This last 
detachment that went down there or element that was there was 
in the neighborhood of about 1,200. So we are going to continue 
to increase that size to be able to take some of that pressure 
off of Okinawa.
    But you also know that down in Darwin you can only train 
for about 7 months out of the year because of the monsoon 
season that comes in there. So we are a little bit limited on 
that. But as a commander of III MEF no matter where I was going 
to put forces, whether it was going to be in Darwin or I am 
going to put them in Guam, to me it came down to operational 
capability and what you can do with that capability. You know, 
it is the marines. It is the infrastructure that supports those 
marines. It is the equipment. It is the training, the ability 
to be able to sustain yourself and proficiency, and then it is 
the strategic lift to be able to move those marines someplace 
to do something.
    So the area I think that we need to focus on here, 
particularly when you look at Darwin in particular, is what is 
the strategic lift that we are going to go ahead and tie to 
them to be able to use them as force in readiness, whether it 
is crisis response or whatever the case may be. The same thing 
with Guam. It is those five factors. So if you want to have an 
operational capability, you have got to have all of those five 
factors.
    Senator Sullivan. Thank you.
    Let me switch to another issue that has been coming up in a 
lot of the testimony, and that is the challenges in the Arctic. 
You know, the Russians are making a very bold, in many ways, 
very definitive move into the Arctic with building several new 
airfields. General Dempsey mentioned in his testimony with 
Secretary Carter recently the Russians are looking at 
increasing brigades, up to six brigades, four of which will be 
based in the Arctic. And in terms of new icebreakers, they have 
a fleet of 40, 6 new ones, 5 additionally planned. I think we 
are number five in the country in terms of icebreakers. So, you 
know, we put out pieces of paper on the Arctic while the 
Russians are literally moving very aggressively in the Arctic.
    I will just throw this out for both of you gentlemen. You 
know, I was a little disappointed to see Expeditionary Force 21 
had, I do not think, a single sentence on the Arctic. And the 
Marine Corps, as you know, General, has a proud history of 
being the kind of northern flank protector in terms of Norway 
and other places in previous OP plans.
    What are the thoughts on the Arctic, and are there any 
thoughts with regard to the Navy's budget to have an 
icebreaker? It is going to be a critical area. The Russians are 
eyeing it and moving into it, and yet we seem to be, at least 
from the Army's perspective, looking at removing combat 
brigades from Alaska, which I think would send a really, really 
bad signal to Vladimir Putin and others. So if you wish to 
comment just on your thoughts on the Arctic, both of you 
gentlemen.
    Sorry, Mr. Chairman. I went a little long.
    General Glueck. If I could on Expeditionary Force 21, when 
we wrote the document, we knew that it was going to require 
updates, and our plan is to do updates annually here and we 
have got one that is due to the Commandant here within the next 
few months. So that is one of the updates I am sure that we 
will put some retention on.
    I was just out at the Mount Warfare Center here about just 
a couple weeks ago. And that is where we do a lot of our cold 
weather training up there. And one of our companies was 
actually coming out of the field from being up there for about 
10 days and looking at the equipment. And I had an opportunity 
to talk to the commander up there as well and about the 
equipment that they have. And quite frankly, we need to do 
better. He is the actual advocate for cold weather training, 
and so I tasked him to make sure that he looks at what we need 
to be able to update ourselves to be able to have a good 
capability, a solid capability in cold weather operations and 
the training what was going to be required from the doctrine.
    Senator Sullivan. Thank you.
    Senator Wicker. Senator King?
    Senator King. Thank you, Mr. Chair.
    First, I would like to associate myself with your comments 
both today and yesterday about Afghanistan. It would be 
absolutely tragic if we squandered the success that we have 
achieved and that the Afghan people have achieved by 
prematurely pulling out according to some date on a calendar. 
To me it is equivalent of fumbling on the 5-yard line. With a 
modest additional investment and particularly of authority to 
the troops that are there, I think we can secure a really 
significantly brighter future for the people of Afghanistan. So 
I agree.
    Also, in terms of the Arctic, we have one heavy icebreaker, 
Coast Guard. We have one that is old that is essentially out of 
service, and one medium icebreaker. And that is the highway of 
the Arctic, if you think about it. And I agree with the Senator 
from Alaska. This is a major area where the Russians are moving 
very aggressively, and I think we need to take account of that, 
but also we just need to take account of the importance that 
this region is going to have both in terms of energy, commerce, 
trade, transit. They may not get all the way to Mississippi, 
but it is important to the entire country. So I agree with 
that.
    Mr. Dee, how much do the complex and arcane rules of 
procurement drive up the cost of a given piece of equipment? 
Procurement is an issue that the whole committee is concerned 
about particularly in these tight budget times. And my sense is 
that it is so complicated and arcane and so many rules that 
have to be followed that it ends up--that is how we end up with 
devices that cost twice as much as they should.
    Mr. Dee. Sir, there are a lot of rules, and there is a lot 
of oversight. Just as background, I am aware that the Secretary 
yesterday showed our DAU chart for the acquisition for how that 
works.
    Senator King. Yes. It would have made Rube Goldberg 
ashamed.
    Mr. Dee. Yes, sir.
    And those rules reflect both statute, regulation, and 
policy. So some of it begins here with statute. Some of it gets 
translated into regulation, and some of it becomes policy 
within the Department. All of those rules at whatever level we 
are putting them in are there to reduce risk in some way. There 
were instances in the past where we had overrun programs and 
waste. So everything that is in there was largely the result of 
lessons learned, that somebody is trying to make the system 
better by reducing risk and providing more oversight to make 
sure that the Department does well.
    Senator King. The road to hell is often paved with good 
intentions.
    Mr. Dee. Yes, sir. So that is part two.
    So all of these rules are in there to reduce risk, but 
there is also operational risk that we have to be able to 
balance. The rules that are in place are to reduce the risk to 
the U.S. taxpayer on wasting dollars. There is risk to the 
Marine Corps, to the operational forces of not getting capable 
equipment out there, timely equipment. We demonstrated during 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom 
(OIF) that we can deliver equipment quickly. We can deliver it 
capably, but there is a cost that comes with that and there is 
a little increased risk on the cost side of it in order to 
reduce the risk on the operational side and on the schedule 
side. So there is a way to do that.
    Again, back to the Secretary's chart that he showed 
yesterday, there are three parts to that, three layers of that. 
There is a requirements side. There is an acquisition side, and 
there is a programming and budget side to it. The best way and 
what we have begun doing within the Marine Corps--the best way 
to reduce that risk and to get things done is to have early 
collaboration between those three communities so that we are 
not pursuing very difficult and unachievable requirements so 
that the requirements community is aware of what is actually 
within the art of the possible, and that is collaboration with 
our engineers with the acquisition community, collaboration 
with the budgeteers and the programmers to ensure that what we 
are building will be good enough to meet the requirements but 
we are not stretching so far that we are introducing tremendous 
risk in terms of performance or schedule or cost.
    So the acquisition community would very much like to see 
reduced oversight and rules at whatever level, statute, 
regulation, policy. But we also know we can mitigate the risk 
that is involved in that process somewhat by better 
collaboration early on in the process.
    Senator King. Well, I am not suggesting that we should 
diminish oversight, but I just think it might be a timely 
exercise to go back and look at this structure that has been 
built up and accreted over the years and see if there is a way 
to simplify, make it a little more straightforward because the 
taxpayers are paying the cost. And again, as you say, it is a 
matter of weighing risk against cost.
    Mr. Dee. If I may, sir, on that. Within the last iteration 
of our 5000, the DOD policy on acquisition, Secretary Kendall 
included a enclosure in there to talk specifically about how to 
do things more quickly, rapid acquisition. And the trigger for 
that is some sort of urgent need, and if there is an urgent 
need, then the gates are opened to allow you to take a little 
more risk in terms of all of the policy that is in place in 
order to be able to deliver a capable system quicker to the 
force.
    Senator King. I have the greatest respect for Secretary 
Kendall. I think he is one of the most able people we have.
    According to the budget documents, most of your equipment 
maintenance, General, has come out of Overseas Contingency 
Operations (OCO) funding, and OCO funding is almost certainly 
going to go down. Does that negatively affect your ability to 
maintain your equipment?
    General Glueck. It will have an impact, yes, sir. Currently 
our request for OCO for 2016 is at $1.3 billion. But we are 
also in the process of also resetting our equipment that we are 
bringing back from Afghanistan, and that has been a good news 
story. I would have to say that our marine logisticians have 
done yeoman's work there in being able to get all of our 
equipment accounted for and get it back.
    I would like to talk just for a second on that. About 60 
percent of it has been reset today. Another 40 percent is in 
work. And we expect to have all that equipment reset by 2016.
    So we think within the budget is $365 million to go ahead 
for a reset, but we will also be looking at OCO funds to make 
up any differences.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. General Glueck, Darwin is farther away from 
our most likely hotspot in Alaska and it is not operational 
half the time. Was Darwin a good decision?
    General Glueck. I think that Darwin was a good decision at 
the time because we wanted to increase our presence down in 
that particular region of the Pacific, and I think that is 
going to meet our objectives in the future. I think there are 
ways that we can probably mitigate the distance. Out in III 
MEF, sir, we do about 75 exercises, activities, operations in 
any given year, for example. One of the largest exercises we do 
is in Cobra Gold in Thailand, for example. And that is in that 
general vicinity as well. If you look at the number of forces 
that we send down there for that particular exercise, which is 
the largest joint combined exercise in the world today, there 
is mitigation in risk that you accept just sending them down 
there as well. I think as long as we have the strategic lift 
tied to those marines, then we will be able to go ahead and 
move them to the right place at the right time.
    Senator Wicker. How soon can you get those troops to Korea?
    General Glueck. Well, it would be a function of strategic 
lift to be able to get it down there. So it would be a 
prioritization within the theater commander to say that I want 
C-17 lift to go down to Darwin to pick our marines and move 
them up to Korea. But they would not be the first responders, 
sir. They would be the marines that are coming out of Okinawa 
and the 31st MEU would be your first response.
    Senator Wicker. But how soon?
    General Glueck. How soon? I would have to take that for the 
record and actually put a little bit of thought to it. But I 
would say that you are not talking weeks. If strategic lift is 
identified, you are talking in a matter of about 48 hours.
    [The information referred to follows:]

    Your question regarding the decision to place Marines in Darwin, 
Australia, considering the considerable distance and travel time to the 
Korean peninsula, is a good one. To understand our force posture in the 
Pacific, we must understand the variety of missions in that theater and 
the troops laid against each one.
    To your direct question, assuming no advanced notification or 
preparation, it would take up to two weeks from the identification of 
need to Marines from Darwin arriving in Korea. However, as I mentioned, 
based on prioritization and availability of strategic airlift assets, 
actual transit time is closer to 48 hours. However, the mission of the 
Marines assigned to Marine Rotational Force-Darwin (MRF-D) is not 
oriented exclusively toward responding to a contingency on the Korean 
peninsula. The MRF-D as an assigned force to III Marine Expeditionary 
Force (MEF), is just one unit available to respond to contingency on 
the Korean Peninsula. In fact, the MRF-D is focused primarily on 
Theater Security Cooperation (TSC) exercises to build partner capacity 
and interoperability throughout the South Pacific and to respond to 
crisis or contingency operations in that region. This mission has been 
successful and we are looking to expand the size of that unit, and 
increase the scope of their mission. It is true that parts of Alaska 
are geographically closer to Korea than Darwin is, but basing the unit 
there would present additional challenges to the execution of their 
primary mission.
    The Marines of the 31st Marine Expeditionary Unit (MEU), 4th Marine 
Infantry Regiment, and 12th Marine Artillery Regiment are a combination 
of forward stationed and rotational forces available for immediate 
crisis response. These units maintain readiness and availability to 
meet the deployment and employment requirements associated with the 
Korea operation and contingency plans. They are based in a more 
geographically advantageous position, have strategic lift assets 
assigned to them, and focus on training and equipping for that mission. 
In an unclassified setting, I can confidently say that their response 
time is significantly shorter.
    Having all of these units as well as the majority of III MEF forces 
west of the International Date Line allows us to service the myriad 
missions that this enormous theater requires.

    Senator Wicker. And what is the plan for monsoon season?
    General Glueck. Well, for monsoon season, we do not send 
the marines down there.
    Senator Wicker. All right.
    General Glueck. They look for other training opportunities 
within the Pacific region.
    Senator Wicker. Mr. Dee, I mentioned concerns about 
substituting wheeled armored personnel carriers for amphibious 
track vehicles. Could you response to that, and could you 
respond to this statement? The Marine Corps has evolved over 
the last 3 years from a cancelled EEV to a similar concept for 
high water speed ACV. Studies conducted during that time by the 
Marine Corps and armored vehicle makers have led to the 
conclusion that while high water speed is technologically 
feasible, it remains unaffordable. So instead, we are going to 
pursue the 1.1 version of ACV. Would you respond to that and 
enlighten the subcommittee?
    Mr. Dee. Yes, sir. Let me take the second part first.
    So EFV was cancelled back in 2011 for affordability and 
some concerns about reliability that then translated into 
affordability issues. Following the cancellation, ACV was 
initiated. We did an analysis of alternative to see what 
potential solutions we may have for the replacement of the AAV. 
A very in-depth study was initiated. It was conducted by the 
executive director of MARCORSYSCOM, along with scientists, 
engineers, operators, budgeteers, again the collaboration I 
talked about earlier that took place over the course of a year. 
We looked at all of the trades would be required in order to 
produce a high water speed vehicle. We have demonstrated it is 
technologically feasible. We have prototypes from the EFV that 
are available to ride and get up on plane and go very fast. But 
the trades that were required to get there, not just in terms 
of cost, but largely in terms of the protection levels that you 
can get----
    Senator Wicker. Where can we see one of those?
    Mr. Dee. They are out in San Diego, Camp Pendleton, sir. We 
have prototypes.
    Senator Wicker. Great.
    General Glueck. If I could. We also have one out--or a 
couple out at the Nevada facility, out in Nevada.
    Mr. Dee. So we do that extensive study and we looked at the 
trades, and high water speed is achievable. High water speed 
would require us to accept lesser levels of protection, and 
with the lessons learned from Afghanistan and Iraq with 
improvised explosive devices, that was not a trade that the 
Marine Corps was willing to make right now. It also requires 
lesser levels of lethality in terms of the amount of weight. It 
all comes down to weight and how much Reserve buoyancy can you 
get out of a vehicle. So how much more armor can you put on it? 
How many more weapons can you carry? How big of a weapon can 
you carry, et cetera? So with all of that and the imperative to 
replace the AAV, the decision was made in order to focus on 
the, as General Glueck had mentioned earlier, the ground 
mobility capabilities of the vehicle, and we will forego for 
now the high water speed capability in order to begin having a 
suitable replacement for the AAV, with a decision down the 
road, technology investments to continue in looking at how to 
mitigate some of those trades that we had to make, a decision 
down the road, a decade down the road probably on revisiting 
the high water speed vehicle.
    On the capabilities of the wheeled vehicle versus the track 
vehicle. So a lot has changed in time since the AAV was 
designed and built. The capabilities from heavy industry on 
wheeled vehicles has improved tremendously with things like 
independent suspension and variable inflatable tires, et 
cetera, and all kinds of computer controls. We have tested. We 
had the Nevada Automotive Test Center build a demonstrator 
vehicle that we actually tested in actual conditions for an 8-
wheeled vehicle to serve initially as an MPC prototype and now 
is an ACV prototype. Performance was very good, and for a 
medium-weight vehicle, it was the equivalent basically to what 
we would be able to get out of a track vehicle. It may not be 
as maneuverable or as mobile in off-road conditions in certain 
cases as is the M-1 tank, but it is as certainly as 
maneuverable as we are going to get in that class of vehicle.
    Senator Wicker. So it does not erode our capability.
    General Glueck. No, sir. It actually improves our 
capability, sir, from an operational perspective. You know, we 
found, if I could--what we found that high water speed was 
technologically feasible, we could get a track vehicle and get 
it up on plane and it could go 25 knots. But all the 
development that we were putting into it--we were trading away 
operational capability ashore. So we were designing a vehicle 
that was optimized to operate on the water but not optimized 
for 90 percent of its mission that was going to be ashore. And 
I am convinced that the decision that we have made to move 
forward on the ACV wheeled vehicle is the right answer for us 
to be able to provide the greatest capability in terms of 
maneuver, fire power, as well as survivability to our marines 
ashore.
    Senator Wicker. I did not know there was enough water in 
Nevada to test something like----
    General Glueck. They do most of the ground testing there, 
and then actually the water testing is done around the 
coastlines. But I have seen some of the water testing by a 
couple of the major manufacturers, and so far they have been 
very good. They have actually focused not on just the 1.1 
version. They have really focused their builds on the 1.2 
version because they want the entire contract. And that would 
be able to give us the capability to have the same or better 
swim capability than the AAV currently has.
    Senator Wicker. I would like to see that.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to shift a little bit in terms of modernization to 
one of the key challenges in my view, although it may not 
involve hardware in the most direct sense, and that is the 
downsizing of our force and how we develop and retain the key 
skills that are necessary to operate the new machinery that we 
are discussing here. How do we keep the best and the brightest 
at a time when the Marine Corps is going to go from--I am bad 
on numbers, but I think it is 202,000 down to 182,000, more or 
less, and go from, obviously, a wartime mission to one that 
intermittently involves conflict but not the same kind of 
ongoing constant challenges, which may have an impact on the 
interests of our marines to stay in the Corps. So that is, I 
realize, a broad question, but I would welcome any thoughts you 
have about it.
    Mr. Dee. Let me talk about the civilian workforce, and I 
will defer the marines to General Glueck.
    So we do have critical skills especially in our maintenance 
world in our depots for civilians. The Marine Corps maintains 
two depots, one in Barstow, California, one in Albany, Georgia. 
And we need to maintain a certain level of work to ensure that 
we have the core capabilities necessary, the skills in order to 
maintain and reset the equipment that we talked about earlier. 
So the current program has sufficient work going into those two 
depots in order to do that through the FYDP. Of course, we will 
become challenged, as in everything else, should those numbers 
diminish tremendously and we cannot maintain the maintenance. 
So we are concerned about the technical skills, the 
craftsmanship of our civilian workforce, especially in terms of 
maintenance, and we are working to maintain the core levels of 
work at those two depots.
    General Glueck. Thank you for that question, sir.
    You are correct. We are coming down from 202,000. And the 
announcements that we have done is that an optimized Marine 
Corps to be able to meet crisis response and contingency 
response challenges that we face today and to be able to 
maintain a one-to-three dwell for our marines--so every 7 
months you are gone, you have 3 months back before you go 
again--is at 186.8. Currently for fiscal year 2016, we are 
looking at a force that is going to be at 184,000. In fiscal 
year 2017, we will be continued down to 182,000.
    So what that means to the force is that we are going to be 
on--many of our low-density, high-demand capabilities we have 
out there, the marines that are part of that--they will be on 
one-to-two or less dwell. So some of our B-22 squadrons, some 
of our deploying infantry battalions, and those that are 
deployed the heaviest will be at a one-to-two dwell.
    The Commandant's focus is going to be on maintaining 
quality over capacity. So, you know, he is looking to make sure 
that we can maintain the right leader-to-lead ratios as we 
downsize to make sure that we do not give up--if we give up 
capacity, but we make up for it in quality. And so, like I 
said, he is willing to focus on the Marine Corps is only going 
to be as big as we can be good.
    Senator Blumenthal. And let me drill down a little bit if I 
may. As a personnel management function, how does the Marine 
Corps plan to accomplish that goal?
    General Glueck. Well, there is an effort ongoing right now 
to make sure that we get the right leadership and at the right 
levels. For example, one of the critical areas that the 
Commandant is most concerned with, both in the infantry 
battalions and our flying squadrons, is where are the 
sergeants. Where are those mature men and women that we need to 
lead the infantry squads as well as to be the critical quality 
inspectors that we have within the squadrons and the mechanics? 
There are a lot of requirements out there, and what we are 
finding right now is that probably the majority are not where 
they need to be for one reason or another. And so he has got an 
effort on track right now, and he is personally involved to 
make sure that we can identify how do we improve this 
capability in the leadership and get them in the right place.
    Senator Blumenthal. Thank you. Thank you very much. Thank 
you both for your service.
    Senator Wicker. Thank you, Senator Blumenthal.
    Senator Hirono?
    Senator Hirono. Thank you.
    I know we had quite a bit of discussion regarding ACV 1.1. 
From what I got from the discussion is that what I have been 
told was more of an interim system, the ACV 1.1, because it 
will not be in the strict sense a fighting vehicle. It will 
have limited swimming capability. It may not carry a full 
infantry squad because the previous vehicles would carry 14 
marines, and the ACV 1.1 will carry 10 and on an equal lift 
basis weigh more and take up more space on transport ships.
    So I did have a question about how the Marine Corps is 
approaching the tension between capability and affordability 
between the tracked ACV and the wheeled what I have been 
informed is a less capable ACV 1.1. Would you like to just go 
over that again for us briefly?
    General Glueck. I could. Let me talk about the capability 
of tracks versus wheeled technology. Out at the Nevada test 
facility--and I would invite any of the members that would like 
to come out to go out there--we have every combat vehicle that 
we have in the inventory, to include the expeditionary fighting 
vehicle and then the prototypes. In fact, the Commandant was 
just recently out there a little bit over a month ago and had 
an opportunity to experience the ride and go through some 
pretty rough terrain and see the mobility and then the 
capabilities of the ACV in particular.
    I have been out there about four times now. And we have had 
five different vendors that have brought their vehicles out 
there that we have had an opportunity to actually experience 
the ride, maneuverability, and see the capability that they 
have.
    And from all the analysis that we have done, we are not 
giving away any capability whatsoever by going from track to 
wheeled technology. Actually we are gaining capability. We are 
gaining survivability. So with an AAV, for example, you are 
going to have a survivability that is going to be less than 
1.0. You know, these ACV's, for example, with the technology, 
the V-hull and double V-hulls that they have underneath, their 
ability to go ahead and raise and lower the height of the 
vehicle, you are going to get survivability in excess of 2.0. 
So it is double the survivability. These vehicles will 
capability--because of the independent drives that they have on 
them, will be able to go out and hit an IED and actually blow 
off, say, two wheels on one side of the vehicle and continue to 
drive and drive out of the threat area. So I think our marines 
are going to be very well served with the amphibious combat 
vehicle.
    Now, to get to the decision, if I could, of how we went to 
1.1, what we did was, you know, we had a program out there 
several years ago. It was the Marine Personnel Carrier Program 
that we were working with, and we had to cancel that due to 
affordability as well because it was competing against the EFV. 
And the decision was made to go ahead and stand that program 
down. It was not cancelled but we stood it down.
    And so what we have focused on for 1.1 was how fast can we 
get a good vehicle out there that is going to be good enough 
that is non-developmental and be able to meet our basic 
requirements. And that is what we looked at for 1.1 so that 
enabled us to go ahead and streamline the acquisition process. 
So we did not have to start with a blank sheet of paper. We 
were able to start at where we were due to a lot of support 
from Mr. Kendall and others. We were able to save several years 
there as we moved forward.
    So the initial buy, which will be about 204 vehicles, are 
just focused on being personnel transporters. And right now the 
threshold for that was for 10 because that is what the MPC was. 
But what we are finding is that the industry is really focused 
not on the threshold for 1.1. They are focused on the objective 
of 1.1 and the objective of 1.2 because they want the full 
contract. So a lot of them--instead of focusing on just putting 
10 seats for the 1.1, most of them are focused on 12 to 13 
seats, for example. The swim quality--instead of focusing on 
the lower threshold requirement of, say, a level of 2 feet 
significant wave height, they are actually focusing on building 
the vehicle to be at 3. So we are actually going to be getting 
a more capable vehicle from the beginning. The 1.2--the next 
follow-on was to go ahead and address some of those 
improvements we wanted to have but also focus on mission-
specific capabilities such as command and control, logistics, 
recovery vehicles, and perhaps even fire power.
    Senator Hirono. So, General, it would be inaccurate to 
think of the ACV 1.1 as a less capable than the tracked ACV 
from everything you just told us.
    General Glueck. That is my assessment, yes, ma'am.
    Senator Hirono. General, I assume you are familiar with the 
advanced amphibious assault vehicles that China appears to have 
developed. One version is a tank with a 105 millimeter gun. The 
other is an infantry fighting vehicle with a 30 millimeter 
cannon. Both are reported to be high water speed vehicles like 
the terminated EFV. China is also building its first set of 
large amphibious ships that compare to the United States 
classes like the LPD-17. What is your assessment of the Chinese 
amphibious assault vehicles and how do you rate their 
performance in the water, their fire power, mobility, and 
protection levels? Mr. Secretary, if you would like to answer.
    Mr. Dee. Yes, ma'am. I mentioned earlier the exhaustive 
study that we had done last year over the course of a year with 
all the trades on all of the different capabilities we were 
looking for in terms of protection, water speed, personnel 
carrying capacity, lethality, et cetera. As part of that study, 
we looked at all of the vehicles that are being manufactured in 
the world today, to include those Chinese vehicles that you 
mentioned. And the advertised capabilities--our assessment--
exceed their actual capabilities in a lot of cases, including 
the water speed claims that they have had. So we took a look at 
those, worked with the intelligence community to be able to 
gain an assessment of where these different vehicles stand. And 
we think we accepted the right path, and we do not think there 
is a magic formula for building in high water speed, very well 
protected and very lethal amphibious combat vehicle.
    Senator Hirono. Thank you.
    Senator Wicker. General Glueck, before I turn to Senator 
Sullivan for a second round, since Senator Hirono has brought 
this up again, the wheeled armored personnel carriers will have 
to be lifted ashore. And the amphibious track vehicles could 
swim to shore. How much of a concern is that?
    General Glueck. The 1.1 version of the ACV was designed to 
be able to swim from shore to shore. Okay? But we are finding 
that it actually could much better than that.
    Senator Wicker. So that is not a concern.
    General Glueck. Well, if I could, sir.
    Senator Wicker. Okay.
    General Glueck. What we are finding is that in fact the 
vehicle is going to be able to go from ship to shore or from 
another connector to shore. What we have found is that with the 
current A2AD threat, for example, when we were looking at high 
water speed for the expeditionary fighting vehicle, we 
envisioned that a fleet would be--probably the sea base would 
probably be 25 miles off the coast, and they would be able to 
probably adjust the sea base to bring it in to be able to 
launch so that 25 knots for a vehicle meant that the Marines 
were not going to be in there longer than about 1 hour.
    What we are finding today is that with the threat, 
depending on where you go, that sea base may be actually pushed 
out further. So what we find is that even a self-deploying 
vehicle is probably not going to be able to launch from 65 
nautical miles. It is going to have to have the assist of some 
high speed connector.
    It is really, like I said, a family of vehicles in how we 
bring these together. Even the current AAV, if I cannot get any 
closer, I am going to go ahead and put those maybe on a joint 
high-speed vessel, for example. So the joint high-speed vessel 
could pick up, say, 25 AAV's or ACV's because we can do at-sea 
arrival in assembly now with some of these more capable ships, 
and then be able to go ahead and maneuver that force with high 
speed and range to be the place that we want to go ahead and 
apply that pressure. So what we see is that in the future, 
connectors are going to be highly critical for both self-
deployers as well as those that maybe are not self-deployers, 
such as like the joint light tactical vehicle.
    Senator Wicker. Thank you for clearing that up. And Senator 
Sullivan, I apologize for making you wait. You are recognized 
for a second round.
    Senator Sullivan. Thank you, Mr. Chairman.
    Secretary Dee, I wanted to follow up on the Arctic question 
that I had asked previously and, again, kind of the broader 
perspective from the Navy's standpoint in terms of not only in 
military and seeing what the Russians are doing, which again is 
very clearly some concrete, significant moves into the Arctic 
with a whole host of infrastructure building, new bases, new 
brigades, new icebreakers. I mean, it is a move. And we are 
doing nothing essentially. We have a 13-page Arctic strategy 
that nobody seems to be paying attention to in my view.
    And then there is the whole issue that is critical to the 
Navy's overall function in terms of keeping sea lanes open and 
commerce. You know, we obviously have done an incredible job 
over the decades doing that, but we have a new sea lane and 
lane of commerce that is opening up in the Arctic, as you are 
well aware.
    Yesterday--I mentioned this, the question about icebreakers 
for the Navy. And by the way, all the SecDef, Chairman of the 
Joint Chiefs--they are all saying, hey, we recognize this is a 
pretty significant development, and we need to pay attention to 
it. And yet, when I asked about icebreakers and looking at 
that, the Chief of Naval Operations (CNO) essentially said, 
hey, that is not our department. That is Homeland Security. 
That is Coast Guard. I have the utmost respect for him and the 
rest of the people serving in the Navy and the Marine Corps, 
but I thought that was kind of a bureaucratic answer. I mean, 
these are leaders of the country.
    You do not have to answer it here, but I would like the 
Navy collectively to get back to us and just answer the simple 
question. Is it in the national interest of the United States, 
given the developments in the Arctic, to have an additional 
heavy icebreaker? I am not interested in whose budget it is or, 
sorry, that is not my--the issue of national security is 
everybody's issue. And so I would just like an answer that is 
not bureaucratic that answers the question, and if you can get 
back to us on that, maybe check with the CNO on that issue. I 
think that is important.
    Mr. Dee. Yes, sir. We will coordinate with OPNAV staff and 
get back to you.
    [The information referred to follows:]

    Current Navy capabilities are sufficient to meet near-term 
operational needs. The Navy recognizes, however, that the opening of 
the Arctic Ocean has important national security implications and fully 
supports the U.S. Coast Guard's (USCG) efforts to modernize its 
icebreaking fleet and increase Arctic capabilities. The USCG Cutter 
POLAR STAR's recent reactivation will provide the U.S. with heavy 
icebreaker capability for about another seven to ten years. POLAR STAR, 
along with the medium icebreaker USCG Cutter HEALY, provide the minimum 
capability necessary to address the Nation's near term icebreaking 
needs and will provide the USCG time to assess longer term national 
needs and requirements.
    In accordance with the U.S. Navy Arctic Roadmap, in the near-term 
the Navy will refine or develop the necessary strategy, policy, plans 
and requirements for the Arctic Region. Additionally, the Navy will 
continue to study and make informed decisions on pursuing investments 
to better facilitate Arctic operations.

    Senator Sullivan. Great.
    General Glueck, I wanted to follow up on the issue of 
training. You mentioned you were at Bridgeport recently, and I 
think that that is an amazing place for training for all U.S. 
military, whether it is the Marine Corps or others. You know, 
certainly one of the hallmarks of the Marine Corps--and 
Bridgeport is an example of that--is tough, severe training. 
You know, there is a lot of discussion I think on these 
committees on the best way to take care of our troops. I think 
the Marine Corps has really focused on the best way to take 
care of our troops is train them as hard as they can so when 
they have to go fight wars for the country, they come home 
alive. That is the best way to take care of our troops.
    You know, the mantra that is the Army and when you talk 
about Korea, no more ``Task Force Smiths,'' I think that is 
always important to keep that in mind because as a country, we 
have not done a great job historically of downsizing. We have 
forgotten the importance of training.
    I just wanted to ask you, given your previous positions and 
your current role, do you see the focus even in severe budget 
times on hard training closed with ``destroy the enemy'' that 
is the hallmark of the Marine Corps--is that something that we 
are still able to do with these budgets? And also, do you get 
interference in some ways from civilians who maybe have a 
different focus? Maybe they are focusing on other areas because 
I think sometimes that tough training is lost on some people on 
how important that is.
    And then from a different angle, I will just mention 
something in my own personal experience as a reservist who 
relinquished command recently of a unit in the Reserves. There 
does seem to be an increasing amount of mandates that come down 
to units, particularly on the Reserve side. You need to do a 
class on this. You need to do a class on that. Do you think we 
are kind of overwhelming our units with mandates from higher 
headquarters and forgetting that there is only so much time to 
actually focus on the infantry skills that are the hallmark of 
the Marine Corps that are so important, not only the Marine 
Corps but to the defense of our Nation?
    General Glueck. Well, Senator, thank you very much for that 
question. And training continues to be one of our hallmarks.
    You know, I had an opportunity. Yesterday I had breakfast 
with Golf Company at The Basic School (TBS). They graduate here 
in about 10 days. And we made the point to them just how 
important training is, and they have just come out. They call 
themselves like the frozen company because they have just been 
through 6 months of some pretty severe conditions.
    But it really is about training, realistic training, and we 
put a very high priority on that to make sure that all our 
units get the training that they need. So we are not going to 
back away from that.
    As far as any kind of interference, the only interference 
you have sometimes, you know, depending on where you are 
training. We have training challenges even in Okinawa. We have 
training challenges wherever we go in the world. But we can 
work around them. We are able to do that and still be able to 
accomplish not only our individual marine's training 
requirements, the unit training requirements, but also our 
joint and coalition training requirements as well.
    So I feel good at where we are. We are going to continue to 
put resources towards that, particularly in the areas of live 
and virtual training.
    Senator Sullivan. How about mandates on the----
    General Glueck. We call it ``rocks in the rucksack.'' We 
keep giving them more rocks and putting them in the rucksack.
    Senator Sullivan. The rucksack is getting heavier.
    General Glueck. It is getting heavier and heavier. In fact, 
I just put out an all Marine notification here just within the 
last couple weeks giving the commanders the ability to go ahead 
and reduce some of those requirements. The Commandant has now 
said that as commanders--you know, we hand-select you to be a 
lieutenant colonel, colonel command, you know, general officer 
commanders--that you will have the ability to go ahead and 
prioritize what some of these that you have to comply with, as 
long as they are Marine Corps standards or Marine Corps rules, 
and others that we can go ahead and put a lower requirement.
    Senator Sullivan. Great. I am really glad to hear that is 
happening.
    Thank you.
    Senator Wicker. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    I know that this question will sound heretical and maybe 
even disrespectful. So please forgive me.
    Senator Wicker. But you have our attention.
    [Laughter.]
    Senator Blumenthal. If I am explaining to a Connecticut 
constituency or constituent who is wondering about why we are 
doing amphibious assault vehicles, the 1.1 and 1.2, why we are 
thinking about that type of vehicle--we have all seen in the 
movies and so forth the use of these vehicles in the past. 
Where right now could you envision--if I want to give an 
example of where these vehicles might be useful, might be 
essential, can you give me some scenarios, even if you cannot 
refer to a country by name, how I would explain to my 
constituent the need for this vehicle as a priority? And you 
have identified it as a priority for the Marine Corps today.
    General Glueck. Well, thanks for that question.
    You know, when you look at our forward-stationed, forward-
deployed marines today, those are the ones that the combatant 
commanders are going to turn to when you say, hey, I got a 
crisis, and you are going to address that crisis with today's 
force and you are going to do it today. So it is what you have 
out there to be able to operate. So those forces are going to 
be operating across the entire range of military operations. So 
these vehicles apply whether you are doing humanitarian 
assistance, disaster relief when the port is closed or has been 
destroyed that you have to come ashore. You know, we have seen 
that even in our own country down in New Orleans where we had 
some of our amphibious tractors that actually were saving lives 
for people that were stranded. So I mean, they have 
applicability across the entire range of military operations.
    The example that you use of, let us say, an Iwo Jima, 
Tarawa that is burnt into our brain housing groups about 
amphibious assault--that is not the way we want to conduct 
business. Okay? If you look at it from a renewable warfare 
philosophy perspective and also our ship-to-objective maneuver 
concept that is out there, it is about finding the gaps in the 
seams within the enemy's defenses out there, and that is where 
you want to attack.
    So, for example, when I gave the example of the joint high-
speed vessel, we still do not have a ramp to be able to launch 
from, but we got S&T efforts looking at that. But instead of 
the enemy thinking that you are going to be coming at the 
center of a beach, or whatever the objective is, we are going 
to go ahead and maneuver around. When we find those gaps in the 
seams where they are weak, because they cannot be strong 
everywhere, if you refer back to Sun Tzu and whatnot, we will 
find those and there will be niches within that armor that we 
are going to be able to exploit.
    Senator Blumenthal. Would it be against an enemy that is 
technologically disadvantaged because in the world of drones 
and other kind of air threats to amphibious combat vehicles 
that are essentially exposed for some period of time, I would 
assume that a more modern equipped enemy would have some 
capability to endanger those forces?
    General Glueck. Yes, sir. It comes down to setting the 
conditions. And if you are going to do an amphibious assault 
operation in a major amphibious campaign, we are not going to 
be working for the Marine Corps. We are going to be working for 
our joint force commander. And so we are going to be looking at 
all the capabilities he has throughout his joint force that 
will be able to help us to set the conditions that are going to 
be required because there will be certain conditions that are 
going to be required.
    We just did a war game, our service war game, down in 
Norfolk 2 weeks ago and looked at in a couple scenarios what 
would be required to be able to set conditions for us to 
actually move an amphibious force in close enough to shore to 
be able to launch. And we have the capabilities within the 
joint force and within the naval force to be able to set those 
conditions. But it is over a certain place at a certain time, 
not across an entire theater, but to be able to accomplish the 
military objectives that we will have.
    Senator Blumenthal. Thank you very much.
    Senator Wicker. Thank you, members of the subcommittee. And 
thank you to our distinguished witnesses.
    Senator Hirono and I have consulted and agreed to submit 
the remainder of our questions for the record. Other members 
will be given that opportunity.
    And so if there is nothing further----
    Senator Hirono. Mr. Chairman, if I could just make one 
comment. I know that the marines represent just about 6 percent 
of the DOD budget, and so you really do have to leverage the 
investments of other services. And I commend you for those 
efforts and collaborating and making sure that you get the 
resources you need in collaboration with our other services so 
that you can meet your mission. I want to thank both of you for 
that.
    Senator Wicker. Thank you, Senator Hirono.
    I think it has been a very good discussion. I am very 
impressed with our two witnesses.
    If there is nothing further, this hearing will be 
adjourned. Thank you.
    [Whereupon, at 10:55 a.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                               ammunition
    1. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, on March 
10, 2015, the Commandant testified specifically about a shortfall in 
TOW missiles, Javelin missiles, and HiMARS rockets. How critical is 
this shortfall? What are the consequences of that shortfall?
    Mr. Dee. and Lieutenant General Glueck. The fiscal year 2016 budget 
request underfunded the procurement of some ammunition accounts in 
order to fund higher service priorities. Based on the fiscal year 2016 
submission, planned procurement, and annual training expenditures with 
no adjustment in future budgets the Marine Corps, by fiscal year 2020 
the inventory average of all TOW missile variants will decline to 47 
percent; Javelin Missiles will decline to 37 percent of required 
inventory and; HB11 Guided Missile Launch Rocket System-Alternate 
Warhead will only reach 24 percent of planned procurement.

    2. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, does the 
Department's fiscal year 2016 budget request fully address this 
shortfall? If not, what kind of shortfall remains even if Congress 
fully funds the Department's 2016 request?
    Mr. Dee. and Lieutenant General Glueck. No, the DOD's fiscal year 
2016 response does not fully address the shortfall. However, the Marine 
Corps has included both Javelin and TOW missiles on its FY16 Unfunded 
Priorities List (UPL). If the UPL becomes funded, it will still not 
make these accounts whole, but it does bring them to an acceptable 
level of risk to account for contingency response, crisis response, and 
training usage. It included a request for $77.5M for Javelin and 
$145.5M for TOW missiles. These funds will replace expiring inventory 
as well as those expended in training and contingency operations, and 
manage missile inventory over the its life cycle to ensure sufficient 
inventory is available for training and operations.
    To expand on the above information, the fiscal year 2016 budget 
request underfunded the procurement of some ammunition accounts in 
order to fund higher service priorities. Based on the fiscal year 2016 
submission, planned procurement, and annual training expenditures with 
no adjustment in future budgets the Marine Corps, by fiscal year 2020 
the inventory average of all TOW missile variants will decline to 47 
percent; Javelin Missiles will decline to 37 percent of required 
inventory and; HB11 Guided Missile Launch Rocket System-Alternate 
Warhead will only reach 24 percent of planned procurement.
    Units will continue to deploy fully trained, often at the expense 
of home station unit training. MEU and SPMAGTF Landing Force 
Operational Reserve Materiel (LFORM), the stocks maintained aboard 
selected amphibious warfare ships to provide support for embarked 
troops in contingencies, are complete to meet our mission of crisis 
response. However consistent underfunding and expenditure of the War 
Reserve to fulfill training requirements has significantly impacted our 
ability to respond to the most stressing contingency scenario. Without 
change by fiscal year 2020, the Marine Corps would not have the 
inventories required to support the most stressing major contingency.
                    high water speed technology r&d
    3. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, in your 
prepared joint statement, you wrote that ``a science and technology 
portfolio is being developed to explore a range of high water speed 
technology'' for the Marine Corps. We have a company in New Hampshire--
Juliet Marine--that has developed at their own expense a vessel with a 
cutting edge propulsion system that utilizes advanced applications of 
super cavitation technology. Are you both aware of Juliet Marine's 
Ghost boat and its super cavitation propulsion system?
    Mr. Dee and Lieutenant General Glueck. The Marine Corps is aware of 
the GHOST vessel produced by Juliet Marine. At this time the Marine 
Corps does not have a requirement for this particular vessel.

    4. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, have 
representatives from the Marine Corps met with Juliet Marine to learn 
more?
    Mr. Dee and Lieutenant General Glueck. The Office of Naval Research 
(ONR), as the Navy and Marine Corps Science and Technology (S&T) 
agency, has met with Juliet Marine on a few occasions, most recently in 
February 2015 to conduct an on-site review of current status of the 
Ghost vessel. Following those reviews ONR concluded that the design 
does not offer benefits beyond other Small Waterplane Area Twin Hull 
(SWATH) designs and incorporates engineering complexities that raise 
major concerns about reliability.
                        amphibious ship program
    5. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, the 
fiscal year 2016 budget seeks research and development funding for the 
LX(R) program and funding for a 12th LPD-17 class ship. If the Navy 
receives this research and development funding, the amphibious force 
will grow to 34 ships. Is 34 the right number of amphibs?
    Mr. Dee and Lieutenant General Glueck. The Chief of Naval 
Operations and the Commandant of the Marine Corps have determined the 
force structure to support the deployment and employment of 2 MEBs 
simultaneously is 38 amphibious warfare ships. Understanding this 
requirement, in light of fiscal constraints faced by the nation, the 
Department of the Navy has agreed to sustain a minimum of 33 amphibious 
warfare ships. However, that agreement did not account for the addition 
of the 12th LPD that Congress so generously provided which has been 
included in the 2016 Report to Congress on the Annual Long-Range Plan 
for Construction of Naval Vessels. The plan notes an increase of the 
minimum amphibious fleet force structure requirement to 34 ships, which 
will be reviewed during the next Force Structure Assessment. While the 
Department has accepted the risk associated with the fiscally-
constrained force, worldwide COCOM demand is more realistically defined 
at about 54.
    It should be noted that, the 34 ship force accepts risk in the 
arrival of combat support and combat service support elements of the 
MEB, but has been determined to be adequate in meeting the needs of the 
naval force within today's fiscal limitations. This inventory level 
also provides the needed capacity for a forward presence and a MEB/
Expeditionary Strike Group (ESG) to respond to a crisis or contingency 
within 25 days.

    6. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, what is 
the Marine Corps' requirement for amphibs?
    Mr. Dee and Lieutenant General Glueck. The Chief of Naval 
Operations and the Commandant of the Marine Corps have determined the 
force structure to support the deployment and employment of 2 MEBs 
simultaneously is 38 amphibious warfare ships. Understanding this 
requirement, in light of fiscal constraints faced by the nation, the 
Department of the Navy has agreed to sustain a minimum of 33 amphibious 
warfare ships. However, that agreement did not account for the addition 
of the 12th LPD that the Congress so generously provided and which is 
accounted for in the most recent 30 year shipbuilding plan, bringing 
the total to 34. Additionally, COCOM demand is more realistically 
defined at about 54.
    It should be noted that, the 34 ship force accepts risk in the 
arrival of combat support and combat service support elements of the 
MEB, but has been determined to be adequate in meeting the needs of the 
naval force within today's fiscal limitations. This inventory level 
also provides the needed capacity for a forward presence and a MEB/
Expeditionary Strike Group (ESG) to respond to a crisis or contingency 
within 25 days.

    7. Senator Ayotte. Mr. Dee and Lieutenant General Glueck, what is 
the impact on our national security and Marine Corps combat 
capabilities if we are short on amphibs?
    Mr. Dee and Lieutenant General Glueck. Shortfalls in amphibious 
warship inventory have multiple negative effects. This must be viewed 
in light of a two faceted problem, inventory and availability. A 
decreased inventory has negative effects on both overall capacity and 
maintenance. For instance, our existing inventory of 30 ships at 
current operational availability rates, due to maintenance, will only 
yield 21 ready amphibious warships. This puts the nation at risk of 
being unable to embark the 2 MEB assault echelon required for a 
forcible entry capability. Further, as ships are stressed due to 
increased use that would not be necessary at full inventory levels, 
they require more maintenance, which compounds the availability 
problem.
    The Chief of Naval Operations and the Commandant of the Marine 
Corps have determined the force structure to support the deployment and 
employment of 2 MEBs simultaneously is 38 amphibious warfare ships. 
Understanding this requirement, in light of fiscal constraints faced by 
the nation, the Department of the Navy has agreed to sustain a minimum 
of 33 amphibious warfare ships. However, that agreement did not account 
for the addition of the 12th LPD that the Congress so generously 
provided and which is accounted for in the most recent 30 year 
shipbuilding plan, which brings the number to 34. Additionally, 
Combatant Commander Demand is more realistically defined at about 54.
    However, even this 34 ship force accepts risk in the arrival of 
combat support and combat service support elements of a Marine 
Expeditionary Brigade (MEB), but has been determined to be adequate in 
meeting the needs of the naval force within today's fiscal limitations. 
This inventory level also provides the needed capacity for a forward 
presence and a MEB/Expeditionary Strike Group (ESG) to respond to a 
crisis or contingency within 25 days. Shortfalls also negatively affect 
our ability to train. Conducting amphibious operations with our joint 
services is not just a matter of putting Marines on Navy ships. Those 
units must have the opportunity to operate with each other during their 
workup to establish relationships, tactics, techniques, procedures, and 
build interoperability.
                               __________
              Questions Submitted by Senator Dan Sullivan
                         asia-pacific rebalance
    8. Senator Sullivan. General Glueck, can you describe how the 
Marine Corps is continuing to support the Asia-Pacific Rebalance? 
Please comment on the Marine Air Ground Task Force operating from 
Darwin, Australia and the plan to base an additional Marine Air Ground 
Task Force in Guam.
    Lieutenant General Glueck. The Marine Corps is supporting the Asia-
Pacific rebalance by continuing to work towards completing our 
distributed laydown which is more politically sustainable, 
geographically distributed, and operationally resilient than our 
current disposition. This includes continuing to work towards the 
establishment of MAGTFs around the Asia-Pacific, in Guam, and in Darwin 
Australia.
    The Darwin rotational MAGTF will conduct the 4th rotation this 
summer, a Phase II deployment of about 1,200 Marines built around an 
infantry battalion with attachments including an Air Combat Element 
detachment and a Logistic detachment. The deployment will be from April 
to October, coinciding with the dry-season in Darwin. The end-state for 
the Darwin MAGTF is a rotational presence of a 2,500 Marine MAGTF, 
again built around a battalion with attachments, including a larger Air 
Combat Element and a Logistics Combat Element than the current Phase II 
rotation.
    Guam will be home to 4700 Marines. Guam forces will be capable of 
forming a MAGTF. They will consist of 1797 PCS Marines and 2979 UDP 
Marines, and include the MEB Command Element. In addition, we will be 
building training ranges to support the readiness to the Marines who 
are permanently stationed aboard Guam, and those who are there as part 
of the Unit Deployment program. These ranges will also address a 
current PACOM shortfall of ranges in WesPac and be 830 percent funded 
by the Government of Japan.
    Progress continues on AAFB north ramp projects that facilitate 
current and future training and the eventual relocated ACE. We are on 
track for a Record of Decision in the coming months which will allow us 
to break ground on the Main Cantonment and Live Fire Training Range 
Complex.
                     marine rotational force-darwin
    9. Senator Sullivan. General Glueck, can you update the 
subcommittee on Marine Rotational Force-Darwin, which will conduct 
exercises and training on a rotational basis with the Australian 
Defense Force? I understand the intent in the coming years is to 
establish a rotational presence of up to a 2,500-person Marine Air 
Ground Task Force in Australia.
    Lieutenant General Glueck. This year we will execute the fourth 
rotation of the MRF-D. This rotation will be our second Phase two 
rotation and take place from April-October 2015. Phase two consists of 
an infantry battalion with attachments, an Air Combat Element, 
consisting of 4 CH-53E helicopters, and a logistics detachment. All 
totaled the MRF-D will comprise approximately 1,200 Marines. While 
deployed, the Marines live and work at Robertson Barracks, and the 
Royal Australian Air Force base in Darwin, Australia. The MRF-D 
conducts unilateral training as well as bilateral training with the 
Australian Defense Forces. The MRF-D will participate in Talisman Saber 
2015 and Exercise Koolingang during their deployment as well as other 
smaller exercises and training events in the Northern Territory.
    Our goal is to establish a rotational presence of a 2,500 Marine 
MAGTF in Darwin. The gradual increase in the size of the MRF-D is 
dependent on a number of factors, facilities availability, a Marine 
Corps sourcing solution for the forces and equipment as well as the 
necessary funding to enable the growth of the MRF-D. In working toward 
this goal we are continuing to work with Australia to ensure 
requirements will be met prior to incrementally deploying a larger MRF-
D rotation and the establishment of the full 2500 Marine MAGTF.
                       arctic training in alaska
    10. Senator Sullivan. General Gluek, given the increasing interest 
in the Arctic can you tell me what cold-weather and mountainous 
training the Marines already do?
    Lieutenant General Glueck. The Marine Corps Mountain Warfare 
Training Center (MCMWTC), Pickel Meadows, CA remains the only 
Department of Defense Command dedicated to the integration of 
warfighting elements at medium to high altitudes (MCMWTC elevations 
range from 6,800' to 11,200') in complex, compartmentalized, and 
mountainous terrain in all weather conditions utilizing military 
mountaineering skills in order to enhance a unit's ability to shoot, 
move, communicate, sustain, and survive in mountainous regions of the 
world. MWTC conducts unit and individual training courses to prepare 
USMC, Joint, and Allied Forces for operations in mountainous, high 
altitude, and cold weather environments in support of the Regional 
Combatant Commanders.
    The Marine Corps conducts our service level exercise, Mountain 
Exercise (MTX), 6 times per year. This training is focused on an 
infantry battalion (1100 Marines) from individual skills through 
battalion operations. MCMWTC has an established table of organization 
(TO) and table of equipment (TE) to provide permanent support. As a 
part of the TO, on site instructors teach tactics, Marine Corps Cold 
Weather Infantry Kit (MCCWIK), track plan, arctic sentry, defensive 
positions, long range movements, camouflage/concealment, casualty 
evacuation, patrolling, offensive operations, defensive operations and 
ambushes. The MCMWTC is the only command in the DOD, that teaches 
Animal Packing, Special Operations Horsemanship, and Military Skiing as 
approved formal schools Programs of Instruction (POIs). The MCMWTC can 
berth up to 1,100 personnel, and trains an infantry battalion with Air 
Combat Element and Logistics Combat Element support for each MTX. The 
MCMWTC conducts formal schools for individuals and battalion training 
in summer and winter mountain operations. The training emphasis is 
focused on enhancing overall combat capability. Marines at the Center 
are also involved in testing cold weather equipment and clothing, and 
developing doctrine and concepts to enhance our Corp's ability to fight 
and win in mountain and cold weather environments.
    MWTC also runs 14 Training and Education Command (TECOM) approved 
Formal School POIs for military mountaineering. The graduates of these 
courses then apply their new skills as they execute special duties in 
support of their battalion. MWTC also incorporate Special Operation 
Forces (SOF), company sized OpFor, Intelligence, Surveillance, and 
Reconnaissance (ISR), and Simulated Close Air Support (SIMCAS) into 
every MTX. It's the largest formal force-on-force exercise in the 
Marine Corps.

    11. Senator Sullivan. General Gluek, has any thought been given to 
training in the JPARC in Alaska?
    Lieutenant General Glueck. Yes, consideration has been made for 
training at JPARC. When the unique attributes that JPARC provides are 
required, we are enthusiastic in with working with other services to 
use training space that will allow us to leverage those opportunities. 
However, due to ranges, training environments, robust training aids 
which are already in place, and significant instructor staff 
capabilities we have found the Marine Corps Mountain Warfare Training 
Center (MCMWTC) to be an excellent option for our mountain and cold 
weather training.
    Additionally, in light of today's fiscally constrained environment, 
MCMWTC has been our primary and most cost effective option. Any part of 
the 1stMarine Division, one third of the USMC's Ground Combat Element 
(GCE), can get to MWTC in a day. It is very costly to get an infantry 
battalion to Alaska, so much so that Army Rangers have been sending 
companies to our Mountain Training Exercise (MTX) at MCMWTC for the 
last year and intend to continue doing so for the coming years.
                          readiness challenges
    12. Senator Sullivan. General Glueck, senior Marine Corps leaders 
have mentioned that some of units are at an ``unacceptable level of 
readiness. What does that mean, exactly, for ground combat battalions, 
aviation squadrons, logistic units and command elements? Can you give 
us some context in terms of readiness of personnel, equipment, 
training, etc?
    Lieutenant General Glueck. The Marine Corps is the Nation's Ready 
Force, a force capable of responding to crises anywhere around the 
globe at a moment notice. The Marine Corps deploys ready forces to meet 
today's crisis with today's force . . . today. Deployed units are 
ready; however, approximately half of non-deployed units are at 
unacceptable levels of readiness--namely, while these units can perform 
some missions they are not sufficiently resourced and trained to 
perform the entirety of their core mission sets. Maintaining the 
readiness of deployed units is heavily reliant on personnel and 
equipment resources resident within non-deployed units. Consequently, 
not all home station ground combat battalions, aviation squadrons, 
logistic units, and command elements are trained to mission standards 
in all core essential competencies--such as amphibious operations. The 
paucity of operationally available amphibious shipping precludes many 
Marine units from training to standard in amphibious operations. Home 
stationed units are expected to be in higher states of readiness since 
they would surge to unexpected major contingencies or unforeseen 
crises. Sequestration would force the Marine Corps to significantly 
degrade the readiness of home station units.
    Currently, non-deployed units receive the training they require 
prior to undertaking their next deployment. But, a return to Budget 
Control Act level funding will challenge the Marine Corps' ability to 
properly equip and train its units. BCA and sequester resulted in the 
loss of 400 skilled artisans from aviation depots that contributed to 
maintenance backlogs--in particular, F/A-18 aircraft. Aircraft 
maintenance backlogs exacerbated aircraft availability for home station 
training. Less aircraft leads to lower flight hours, lower aircrew 
proficiency, and higher aircraft utilization rates that further 
contribute to increased aircraft inductions to the depots. This all 
leads to lower aviation readiness.
    Although all major equipment has returned from Afghanistan, the 
Marine Corps continues its reconstitution of the whole-of-force after 
over a decade of sustained conflict. The Marine Corps will not take an 
operational pause to reconstitute; rather, as war-torn equipment is 
repaired, returned back to units, and subsequently employed 
operationally, the Marine Corps will continue to develop and field 
equipment. The evolution of operational maneuver from the sea and ship-
to-objective maneuver requires developing a complimentary portfolio of 
ground combat and tactical vehicle capabilities, such as sustaining a 
portion of the decades old amphibious assault vehicle and fielding its 
intended replacement--the Amphibious Combat Vehicle.
                              ice breaking
    13. Senator Sullivan. Mr. Dee and Lieutenant General Glueck, what 
are the obstacles to adding icebreakers to the Navy's fleet, especially 
given the Navy's Arctic responsibility to keep Arctic sea lanes open?
    Mr. Dee and Lieutenant General Glueck. Congress assigned 
responsibility for icebreaking to the U.S. Coast Guard per 14 U.S. Code 
Sec.  2-Primary duties, which states, ``the Coast Guard shall develop, 
establish, maintain, and operate with due regard to the requirements of 
national defense, aids to maritime navigation, icebreaking facilities, 
and rescue facilities for the promotion of safety on, under, and over 
the high seas and waters subject to the jurisdiction of the United 
States.''
    The Navy recognizes that the opening of the Arctic Ocean has 
important national security implications and fully supports the U.S. 
Coast Guard's (USCG) efforts to modernize its icebreaking fleet and 
increase Arctic capabilities.

    14. Senator Sullivan. Mr. Dee and Lieutenant General Glueck, with a 
non-bureaucratic answer that shifts the responsibility to the 
Department of Homeland Security, how is the Navy going to acquire 
additional icebreaking capacity in the future and what will they do if 
they do not get it?
    Mr. Dee and Lieutenant General Glueck. Current Navy capabilities 
are sufficient to meet near-term operational needs. The Navy 
recognizes, however, that the opening of the Arctic Ocean has important 
national security implications and fully supports the U.S. Coast 
Guard's (USCG) efforts to modernize its icebreaking fleet and increase 
Arctic capabilities. The USCG Cutter Polar Star's recent reactivation 
will provide the U.S. with heavy icebreaker capability for about 
another seven to ten years. Polar Star, along with the medium 
icebreaker USCG Cutter Healy, provide the minimum capability necessary 
to address the Nation's near term icebreaking needs and will provide 
the USCG time to assess longer term national needs and requirements.
    In accordance with the U.S. Navy Arctic Roadmap, in the near-term 
the Navy will refine or develop the necessary strategy, policy, plans 
and requirements for the Arctic Region. Additionally, the Navy will 
continue to study and make informed decisions on pursuing investments 
to better facilitate Arctic operations.
              ``expeditionary force 21'' and arctic issues
    15. Senator Sullivan. General Gluek, ``Expeditionary Force 21'' 
does not contain a single mention of the word ``arctic.'' When the 
Marine Corps updates ``Expeditionary Force 21,'' what does the Corps 
plan to include about the Arctic?
    Lieutenant General Glueck. The Marine Corps maintains its legacy to 
``fight in any clime and place'' and will be ready to operate in the 
arctic when needed. We are ready to provide naval expeditionary forces 
anywhere the Navy sails. Marines maintain a requisite level of cold 
weather skills by training at the Mountain Warfare Training Center in 
Bridgeport, CA. This facility maintains subject matter experts and 
instructors in cold weather operations, and trains both specially 
trained Mountain Leaders as well as entire units in these critical 
skills. We further develop our capability by participating in other 
cold weather exercises and training. These include USNORTHCOM, State of 
Alaska, and Canadian exercises in addition to our yearly support of 
USEUCOM's exercise COLD RESPONSE in Norway.
    While you are correct that Expeditionary Force 21 does not 
specifically address arctic operations, it should be noted that 
Expeditionary Force 21 is intended as a foundational capstone concept 
as opposed to an operational or strategic plan. As such, the tenets and 
concepts within are designed to apply to all environmental 
possibilities. Crisis and contingency response capabilities must be 
able to handle any climate in which there is a need for the Marines. 
Both EUCOM and NORTHCOM Areas of Responsibility (AOR), which comprise 
the entirety of the arctic region, are specifically addressed. The 
Marines will continue to provide forces ready to operate in extreme 
cold environments to Combatant Commanders.
    Additionally, we will continue to integrate our efforts with our 
fellow sea services. For instance, we have requested that US Coast 
Guard ice breakers in development be built with aviation landing decks 
capable of receiving the MV-22, an aircraft whose range, speed, and 
versatility was specifically designed to support operations in the vast 
reaches of arctic and desert environments.

    16. Senator Sullivan. General Gluek, given that we only have a 13-
page Arctic strategy, how detrimental is not having extensive 
guidance--as you have in other AORs--to give clear Arctic direction for 
the Corps?
    Lieutenant General Glueck. The Marine Corps provides forces to the 
Combatant Commanders who are ready to fight both across the range of 
military operations and throughout a range of climates. As a force 
provider, we are focused on preparing Marines to handle the tasks that 
the Combatant Commanders request. It is true that a more robust arctic 
strategy may help those Commanders develop their contingency plans and 
by extension the skills they request from the Marine Corps. However, 
from a service perspective, our history of operating in extreme cold 
climates has driven us to develop excellent cold weather training 
facilities and exercises.
    We are ready to provide naval expeditionary forces anywhere 
Combatant Commanders call for them. Marines develop and maintain their 
cold weather skills by training at the Mountain Warfare Training Center 
in Bridgeport, CA, which houses subject matter experts and instructors 
in cold weather operations, and which trains both specially trained 
Mountain Leaders as well as entire units in these critical skills. We 
further develop our capability by participating in other cold weather 
exercises and training. These include USNORTHCOM, State of Alaska, and 
Canadian exercises in addition to our yearly support of USEUCOM's 
exercise COLD RESPONSE in Norway.
    Crisis and contingency response capabilities must be able to handle 
any climate in which there is a need for the Marines. As such, both 
EUCOM and NORTHCOM Areas of Responsibility (AOR), which comprise the 
entirety of the arctic region, are specifically addressed. The Marines 
will continue to provide forces ready to operate in extreme cold 
environments to Combatant Commanders.
    Additionally, we will continue to integrate our efforts with our 
fellow sea services. For instance, we have requested that US Coast 
Guard ice breakers in development be built with aviation landing decks 
capable of receiving the MV-22, an aircraft whose range, speed, and 
versatility was specifically designed to support operations in the vast 
reaches of arctic and desert environments.

    17. Senator Sullivan. General Gluek, how does the lack of Arctic 
guidance affect your ability to resource for Marine expeditionary 
operations in the Arctic AOR?
    Lieutenant General Glueck. The Marine Corps provides forces to the 
Combatant Commanders who are ready and equipped to fight both across 
the range of military operations and throughout a range of climates. As 
a force provider, we are focused on preparing Marines to handle the 
tasks that the Combatant Commanders request. It is true that a more 
robust arctic strategy may help those Commanders develop their 
contingency plans and by extension the skills and capabilities that 
they request from the Marine Corps. When making resourcing decisions, 
the Marine Corps must make tradeoffs between various capabilities 
during procurement. No piece of equipment can be optimized for every 
available option. It is true that more explicit arctic strategy might 
change the prioritization of those tradeoffs.
    However, it should be noted that we do take extreme cold weather 
environments into account when making resourcing decisions. The Marine 
Corps maintains a Mountain Warfare Training Center (MWTC) in 
Bridgeport, CA with a cadre of experienced mountain leaders who test, 
develop, and provide input on procurement decisions. Further, they use 
this equipment year in and year out when training individuals and units 
in the challenges of cold weather operations to validate its efficacy 
and to make recommendations for future resourcing decisions. 
Additionally, we will continue to integrate our efforts with our fellow 
sea services. For instance, we have requested that US Coast Guard ice 
breakers in development be built with aviation landing decks capable of 
receiving the MV-22, an aircraft whose range, speed, and versatility 
was specifically designed to support operations in the vast reaches of 
arctic and desert environments.
                               __________
               Questions Submitted by Senator Bill Nelson
                   assault amphibious battalion plans
    18. Senator Sullivan. Mr. Dee and Lieutenant General Glueck, the 
Marine Corps currently has a total of 12 Assault Amphibian Battalions 
and plans to divest 2 for a total of 10 by 2018. How and when will the 
Marine Corps decide which two will be divested? What are the 
operational Impacts of this reduction?
    Mr. Dee and Lieutenant General Glueck. The Marine Corps will divest 
two Assault Amphibian Companies by 2018. Each of these companies 
provides the lift for a single infantry battalion. These companies are 
planned to come from the active component. First we will divest of 
Company D, 2d Assault Amphibious (AAV) Battalion in fiscal year 2016 
and then Company C, 2nd AAV Battalion in 2018. The Marine Corps will 
still be able to meet its requirement to employ two Marine 
Expeditionary Brigades (MEB) in an Assault Echelon (AE) with this lift 
capacity.

    19. Senator Sullivan. Mr. Dee and Lieutenant General Glueck, the 
4th Assault Amphibian Battalion assigned under Marine Forces Reserve is 
a key part of the Marine Corps' total Assault Amphibian operations 
capability with more than half of the Reserve capacity. What is the 
modernization plan for its Assault Amphibious Vehicles (AAV-7) during 
the acquisition and fielding of the ACV?
    Mr. Dee and Lieutenant General Glueck. The USMC Reserve is a 
critical component of our operational capability and is scheduled to 
receive Amphibious Combat Vehicles (ACV) during the second increment of 
planned procurement during the 2020s.

    20. Senator Sullivan. Mr. Dee and Lieutenant General Glueck, what 
are the overall numbers of the AAV-7s that will receive the AAV 
survivability upgrades and how did the Marine Corps come at that 
number?
    Mr. Dee and Lieutenant General Glueck. Four of our active duty 
Assault Amphibious Vehicle (AAV) Companies will receive AAV 
Survivability Upgrade Program (SUP) for a total of 392 upgraded 
vehicles. This program will bridge the gap to the final increment of 
Amphibious Combat Vehicle 2.0 procurement in the 2030s, when the AAV 
(SUP) items are scheduled to be phased out of our inventory. 392 
vehicles is sufficient for four infantry battalions worth of lift and 
effectively allows us to bridge the path for procurement of ACV 
increments 1.1, 1.2, and 2.0 while still retaining a capacity to 
simultaneously employ two Marine Expeditionary Brigades (MEB) as an 
Assault Echelon (AE) throughout the entire transition of the fleet from 
AAVs to ACVs.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                       NAVY SHIPBUILDING PROGRAMS

    The subcommittee met, pursuant to notice, at 9:31 a.m. in 
Room SR-222, Russell Senate Office Building, Senator Roger 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Sessions, 
Ayotte, Rounds, Tillis, McCain, Shaheen, Hirono, Kaine, and 
King.

     OPENING STATEMENT OF SENATOR ROGER F. WICKER, CHAIRMAN

    Senator Wicker. This hearing will come to order.
    The Senate Armed Services Subcommittee on Seapower convenes 
this morning to examine Navy shipbuilding programs.
    We are delighted to welcome three distinguished witnesses 
today: The Honorable Sean Stackley, Assistant Secretary of the 
Navy for Research, Development, and Acquisition; Vice Admiral 
William H. Hilarides, Commander of Navy Sea Systems Command; 
and Vice Admiral Joseph P. Mulloy, Deputy Chief for Naval 
Operations for Integration of Capabilities and Resources, quite 
a title.
    Gentlemen, our subcommittee is grateful to you for your 
decades of service, and we are also grateful for the sacrifice 
of our sailors and marines serving around the globe. With 
nearly than 100 ships deployed today, standing the watch, our 
Navy continues to provide a front line of defense for our 
country.
    Now, more than ever, a strong Navy is central to our 
Nation's ability to deter adversaries, assure allies, and 
defend our national interests. Our sailors and marines are at 
the forefront of our rebalance to Asia, our ongoing operations 
against the Islamic state, and our efforts to deter rogue 
states such as Iran and North Korea. However, our current fleet 
of 275 ships is insufficient to address these critical security 
challenges. The Navy's stated force structure requirement is 
306 ships. The bipartisan National Defense Panel calls for a 
fleet of 323 to 346 ships. Our combatant commanders say they 
require 450 ships. Despite these publicly stated requirements 
by our military leaders, the Navy says acquisition--says that 
sequestration could shrink our fleet to 260 ships.
    Not only is our Navy too small, it is also not as ready as 
it should be. Sequestration in 2013 and a high operational 
tempo in Asia and the Middle East have led our naval fleet to 
endure major readiness shortfalls, including longer 
deployments, reduced training time, and reduced surge 
capability. I am concerned about the potential impact these 
factors will have on our ability to deter and confront future 
adversaries. These factors could also endanger the long-term 
vitality of the Navy's highly skilled and All-Volunteer Force 
of sailors and marines.
    This morning, I would like to hear from our witnesses on 
what I consider five key issues that our subcommittee will 
review this year:
    First, the viability of the 30-year shipbuilding plan is 
essential to the strength of our shipbuilding industrial base. 
The unique strength of the skills, capabilities, and capacities 
inherent to new construction shipyards and weapon system 
developers can reinforce the Navy's dominant maritime position. 
I would like our witnesses to relate how they carefully weigh 
the effects on the shipbuilding industrial base when they 
balance resources and requirements in the shipbuilding plan.
    Second, it is critical this subcommittee conduct rigorous 
oversight of shipbuilding programs to ensure the Navy is making 
the best use of limited taxpayer dollars. The Congress expects 
the Ford-class Nuclear Aircraft Carrier Program and Littoral 
Combat Ship, LCS, to deliver promised capability on time and on 
budget. Delays or unsatisfactory test results could result in 
cost growth and challenges for the legacy platforms these ships 
will replace. With regard to the Navy's decision on the 
upgraded LCS, known as the small surface combatant, this 
subcommittee needs clarity on the specific combatant commander 
gaps these upgraded ships may fill. Our subcommittee would also 
like to know what threat benchmarks these ships should be 
measured against.
    Third, this subcommittee also has a duty to shape the 
future of our Navy. Each of our classes of surface combatant 
ships--cruisers, destroyers, and littoral combat ships--will 
begin retiring within the next 20 years. Now is the time to 
establish the analytical framework to replace them. I am also 
deeply concerned about the extraordinary cost of the Ohio-class 
submarine Replacement Program, or ORP, could place tremendous 
stress on our already constrained shipbuilding budget. 
Undoubtedly, we'll talk about that today. This committee looks 
forward to working with the Department of Defense (DOD) and the 
Department of the Navy on innovative approaches to fund the 
ORP, which is a vital leg in our nuclear triad.
    Fourth, I am interested in learning the views of our 
witnesses on ways we can ensure the Navy's shipbuilding plan 
meets the demand from our combatant commanders for amphibious 
ships. This demand is greater than 50 amphibious ships at any 
given time. I am pleased to note that the Navy has funded LPD-
28, the 12th San Antonio-class amphibious ship. As we continue 
to pivot toward Asia Pacific, the Navy and Marine Corps will 
serve as the lynchpin of American force projection abroad. Our 
subcommittee would like to know more about the acquisition 
strategy or the LHA-8s, big-deck amphibious ship, the first six 
ships of the new fleet oiler, and our next-generation 
amphibious assault ship, known as the LX(R).
    Finally, funding and budget challenges. The Navy continues 
to face significant budget challenges. Navy funding has already 
been reduced 25 billion compared to the budget request over the 
last 3 years. Admiral Greenert testified before the Senate 
Armed Services Committee in January that maintenance and 
training backlogs on budget cuts have reduced the Navy's 
ability to maintain required forces for contingency response to 
meet combatant command operational plan requirements.
    As a member of both the Armed Services Committee and the 
Budget Committee, I know that tough decision must be made 
across the Federal Government, but I would remind everyone that 
national defense is solely a Federal responsibility. Defense 
spending is also known as a twofer, as I have stated repeatedly 
over the years, supporting both our National security and our 
high-tech manufacturing workforce. As such, I hope our 
witnesses today will elaborate on the impact that sequestration 
would have on a shipbuilding plan, the ability to execute our 
country's national security strategy, and the vitality of our 
defense industrial base.
    With that in mind, I'd turn to my distinguished Ranking 
Member, Senator Hirono, for whatever opening remarks she would 
like to make.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you, Mr. Chairman.
    I share the Chair's focus on the rebalance to the Asia-
Pacific. Even as there are so many areas of the world where 
there is instability--the Middle East, Africa, Ukraine--we want 
to make sure that this area of the world, the Asia-Pacific 
area, remains as stable as possible. That is really part of 
what the rebalance looks to.
    So, I certainly welcome all of our witnesses, and thank you 
for your service to the Nation.
    I also want to extend my aloha and thanks to the 
professional service of the men and women under your command, 
and to their families, because, without their families 
supporting them, I think that it would make things a lot more 
difficult for our servicemembers to provide the kind of service 
that they do provide to our Nation.
    So, today our witnesses face huge challenges as you strive 
to balance the need to support ongoing operations and sustain 
readiness with the need to modernize and keep the technological 
advantage that is so critical to military success. These 
challenges have been made particularly difficult by the 
spending caps imposed in the Budget Control Act (BCA), caps 
that were modestly relieved in 2015 in the Bipartisan Budget 
Act (BBA). However, as we all know, these caps are scheduled to 
resume in 2016 and beyond. These caps already seriously 
challenge our ability to meet our national security needs, and 
have already forced all of the military departments to make 
painful tradeoffs. Unless modified for the years after fiscal 
year 2016 and beyond, I believe that they will threaten our 
long-term national security interests.
    With that in mind, the continuing focus of this committee 
has been to see that we improve our acquisition stewardship and 
thereby ensure that we are getting good value for every 
shipbuilding dollar that we spend. We are very pleased to see 
continued stability and performance in the Virginia-class 
attack submarine production at a level of two per year. We have 
seen that stability helps drive down costs and improve 
productivity. We also support the Navy's continuing effort to 
drive costs out of the Ohio replacement ballistic missile 
submarines (SSBN) program. SSBNs will remain a vital link on 
the nuclear triad for the foreseeable future. Establishing and 
achieving cost-reduction goals in these Virginia-class and Ohio 
replacement programs will yield significant stability to our 
Nation's submarine industrial base, which will ensure the Navy 
has a modern, capable submarine fleet for years to come.
    Aircraft carrier programs are another important area for 
discussion of the subcommittee. We need to hear about the 
progress that the Navy and the contractors are making to 
deliver CVN-78 within the cost cap and what progress is being 
made on reducing the production costs for CVN-79 and later 
carriers.
    Another topic that we should address is the discussion 
within DOD of changes to the Littoral Combat Ship, LCS, 
Program. The Navy, responding to direction from former 
Secretary Hagel, analyzed numerous upgrades to the current LCS 
designs, and has identified some upgrades to the ships that the 
Navy hopes to include in the 33rd ships--ship and beyond. We 
need to ensure that the Navy has validated requirements for 
making these changes.
    This year, the Navy wants to implement an engineering 
change proposal for the DDG-51 destroyer program to include the 
Air and Missile Defense Radar, or AMDR, on the second DDG-51 in 
the fiscal year 2016 budget request. We need to assess whether 
the Navy and contractors have made significant progress on the 
AMDR program to merit including this new radar in the DDG-51 
during the middle of the multiyear procurement program. In our 
country's current fiscal environment, it's very unlikely that 
we will have as much money to spend as the 30-year shipbuilding 
plans and goals assumed. Fundamentally, that is why these 
hearings are so important. We need to focus on managing these 
important programs in ways that are efficient and effective in 
delivering the capability the country needs from its Navy. We 
need to improve quality and efficiency in all our shipbuilding 
programs, and not only--not only because of the direct savings, 
but also because we need to demonstrate to the taxpayer that we 
are using every defense dollar wisely.
    Gentlemen, I look forward to your testimony this morning.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Secretary Stackley.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
          NAVY, RESEARCH, DEVELOPMENT, AND ACQUISITION

    Mr. Stackley. Yes, sir. Chairman Wicker, Ranking Member 
Hirono, distinguished members of subcommittee, thank you for 
the opportunity to appear before you today to discuss the 
Department of the Navy's shipbuilding programs.
    With the permission of the subcommittee, I propose to 
provide brief opening remarks and submit a separate formal 
statement for the record.
    Senator Wicker. Without objection.
    Mr. Stackley. Thank you, sir.
    The timely passage of the 2015 national defense 
authorization and appropriations bills has provided much needed 
budget stability, relative to recent prior years, enabling the 
Department to carry out its mission with far greater efficiency 
and effectiveness. In fact, the Department of the Navy fared 
extremely well in this year's bills. We greatly appreciate the 
subcommittee's efforts, for not only has Congress fully 
supported our request, but it has increased procurement in our 
most critical programs, sending a strong signal of support for 
our Navy and Marine Corps mission.
    However, as you have noted, we cannot lose sight of the 
fact that, as a result of sequestration in 2013 and the 
Bipartisan Budget Act across 2014 and 2015, the Department of 
the Navy's budget has been reduced by $25 billion, compared to 
the funding that we had determined was necessary to meet the 
Defense Strategic Guidance, or the DSG. As a result, quantities 
of ships, aircraft, and weapons has been impacted, development 
programs have been stretched, modernization has been slowed, 
deployments have been canceled, deployments have been 
stretched, and depot and facilities maintenance has been 
deferred, all placing greater strain on the force. With a 
significant portion of the reductions levied against 
procurement, the resultant quantity reductions had the perverse 
impact of driving up unit cost for weapon systems at a time 
when cost is one of the great threats before us.
    In building the 2016 budget request, we've been faithful to 
our fiscal responsibilities, leveraging every tool available to 
drive down cost. We've tightened requirements, maximized 
competition, increased the use of fixed-price contracts, and 
capitalized on multiyear procurements, and we've attacked our 
cost of doing business so that more of our resources can be 
dedicated to warfighting capability. Alongside range and speed 
and power and payload, affordability has become a requirement.
    All the while, independent of the fiscal environment, the 
demand for naval presence is on a steady rise. As you've noted, 
near half of our fleet is routinely at sea, and, of that 
number, about 100 ships and more than 75,000 sailors and 
marines are deployed. On the ground in Afghanistan, in the air 
over Syria, on the waters of the Black Sea, from the Sea of 
Japan to the eastern Mediterranean, they are the providers of 
maritime security. They are our first responders to crisis. 
They are our surest defense against a threat of ballistic 
missiles. They are our Nation's surest deterrent against the 
use of strategic weapons. Therefore, we've placed a priority on 
forward presence, near-term readiness, investment in those 
future capabilities critical to our technical superiority and 
stability in our shipbuilding program.
    Our shipbuilding program is, in fact, very stable. The 
fleet under construction is 65 ships strong, 44 ships of 10 
different classes in fabrication and assembly at 8 shipyards, 
and another 21 ships recently contracted, with material on 
order at factories across the country. We are on track to a 
300-ship Navy by 2019.
    Highlights. We commissioned USS America, LHA-6, the first 
new-designed big-deck amphib in over 30 years, and laid the 
keel of her sister ship, Tripoli, LHA-7, this past year. We're 
completing construction and testing of CVN-78, Gerald Ford, our 
first new-designed aircraft carrier in more than 40 years, and 
we have started construction of her sister ship, John F. 
Kennedy, CVN-79. Likewise, DDG-1000, the first new-design 
destroyer in 30 years, is ramping up its shipboard system 
activation and testing, preparing for sea trials later this 
year. On each of these programs, we are heavily engaged with 
industry to control cost on the lead ship and to leverage 
learning and make the necessary investments to reduce costs on 
follow ships. Meanwhile, DDG-51 construction is proceeding 
steadily, with the first restart ship, DDG-113, on track to 
deliver in 2016.
    Equally important, we're on track with the first Flight-3 
destroyer upgrade. The backbone of Flight 3, the Air and 
Missile Defense Radar, completed its critical design review and 
is meeting or exceeding all performance requirements. The Navy 
relies on your continued support for this capability, which is 
so critical to countering the increasing crews and ballistic 
missile threat.
    The Littoral Combat Ship continues to demonstrate strong 
learning-curve performance at both building yards, and the 
first surface warfare mission package completed operational 
testing and is today deployed on USS Fort Worth in the western 
Pacific. As was announced, the Navy will commence a new 
frigate-class design, based on modifications to the current 
LCS, to provide multimission capability and enhanced 
survivability that will significantly expand this ship's range 
of operations.
    In submarines, we continue to leverage learning on the 
Virginia program and are proceeding with the design of the next 
major upgrade, Virginia payload modules, to augment our 
undersea strike capacity as our guided-missile submarines, the 
SSGNs, retire in the next decade. We're ramping up design 
activities on the Ohio replacement program to support her 
critical schedule.
    In other shipbuilding programs, we have requested the 
balance of funding for the 12th LPD class to leverage the 
benefits brought by that ship to our amphibious force. We're 
building our first afloat forward staging base, and continue to 
enjoy strong learning-curve performance on joint high-speed 
vessel. We're proceeding with three new major programs: the 
fleet oiler TAO(X), the next big-deck amphib, LHA-8, and the 
replacement for the LSD-41/49 class LX(R). Each is critical to 
our force. Each is critical to the industrial base. 
Affordability is critical to each. So, we've constructed an 
acquisition strategy to meet these objectives.
    Of interest to this subcommittee, we have awarded the 
planning contract and are proceeding with the refueling 
overhaul of CVN-73, the George Washington. Likewise, we are 
proceeding with the planning and material procurement for our 
cruiser and dock landing ship (LSD) modernization programs, in 
accordance with Congress' approval in the 2015 bills.
    As a final note, in response to sequestration in 2013, the 
BBA level funding in 2014 and 2015, and the reductions across 
2016 through 2020, the Department has been judicious in 
controlling costs, reducing procurements, and delaying 
modernization. However, these actions necessarily add cost to 
our programs, add risk to our industrial base, and add risk to 
our ability to meet defense strategic guidance.
    All the while, we have been asking our sailors and marines 
to endure extended deployments while responding to new 
challenges in an incredibly complex security environment. If we 
are forced to execute at BCA levels in fiscal year 2016 and 
beyond, these cuts will go deeper, and we fundamentally change 
the Navy and Marine Corps and the industrial base the Nation 
relies on for our National defense and economic security.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. We look forward to answering your questions.
    [The prepared joint statement of Mr. Stackley, Admiral 
Hilarides, and Admiral Mulloy follows:]

 The Joint Prepared Statement by Hon. Sean J. Stackley, VADM Joseph P. 
                 Mulloy, and VADM William H. Hilarides
    Mr. Chairman, Senator Hirono, and distinguished members of the 
subcommittee, thank you for the opportunity to appear before you today 
to address the Department of Navy's shipbuilding programs.
    The fiscal year (FY) 2016 President's Budget submission is governed 
by the 2014 Quadrennial Defense Review (QDR), which implements the 2012 
Defense Strategic Guidance (DSG) and continues our efforts to ensure 
our ability to protect the homeland, build security globally, and 
project power and win decisively. In balancing resources and 
requirements, the Department continues to place a priority on 
maintaining a sea-based strategic deterrent, sustaining forward 
presence, strengthening our means to defeat and deny aggression, 
focusing on critical readiness, sustaining or enhancing our asymmetric 
capabilities, and sustaining a relevant industrial base, including 
providing stability in our shipbuilding programs. The Navy and Marine 
Corps remain well suited and uniquely positioned to perform the 
missions of the DSG, including appropriate readiness, warfighting 
capability, and forward presence. Our principal requirement remains to 
equip the Navy and Marine Corps with the most effective warfare 
systems, through procurement, modernization, and sustainment, to 
address the security challenges of today and tomorrow. These principles 
guide the priorities and direction of the Department's fiscal year 2016 
President's Budget request. The Department will continue to work 
closely with Congress to maintain the right balance across capacity, 
capability, readiness, and the industrial base.
    Though budget issues have challenged the Department, our Sailors 
and Marines deployed around the world continued to perform the mission 
and operate forward, being where it mattered when it mattered. Among 
these missions, the George H.W. Bush Strike Group relocated from the 
Arabian Sea to the north Arabian Gulf and was on-station within 30 
hours, ready for combat operations in Iraq and Syria. Navy and Marine 
strike fighters from the carrier generated 20 to 30 combat sorties each 
day for 54 days to project power against the Islamic State of Iraq. The 
George Washington Strike Group also provided disaster relief to the 
Philippines in the wake of the Super Typhoon Haiyan approximately a 
year ago. USS Truxton established a U.S. presence and reassured our 
allies in the Black Sea within a week after Russia invaded Crimea. USS 
Fort Worth, on her maiden deployment, joined USS Sampson in support of 
the Indonesia-led search effort for Air Asia flight 8501 within days of 
arrival in theater.
    Marine Corps units deployed to every Geographic Combatant Command 
(GCC) and executed numerous Theater Security Cooperation (TSC) 
exercises to help strengthen relationships with allies and build 
partner capacity. Marine Corps Special Purpose Marine Air-Ground Task 
Force (MAGTFs) and ship based Marine Expeditionary Units also responded 
to emergent crises in Sudan, Iraq and Libya, and most recently off the 
coast of Yemen to participate in strikes or reassure American allies. 
Innovative force packages were provided to the GCCs with Special 
Purpose MAGTF Crisis Response for the Middle East and Africa. These 
fully capable ground-based MAGTFs responded to crisis when called upon 
in a matter of hours to reinforce or evacuate embassies in South Sudan 
and Libya. Furthermore, in December, the Marines turned over control of 
Regional Command Southwest and redeployed its last combat forces from 
Afghanistan, and remain committed to support the continuing North 
Atlantic Treaty Organization efforts.
    The Department maintained a steady pace of over 200 engagements, 
more than 30 amphibious operations, 150 TSC events, and 130 exercises 
over the year. This included Rim of the Pacific, an exercise off Hawaii 
that featured participants from 22 nations (including China for the 
first time), and the international mine countermeasures exercise in the 
5th Fleet's arena in and around the Arabian Gulf that included 
participants from 44 nations. In addition, the Marine Corps deployed 
numerous other units globally. The newly developed Marine Security 
Guard Security Augmentation Unit deployed 29 times during 2014 to 
augment posts at the request of the State Department to a variety of 
embassies. Marine Rotational Force-Darwin based in Darwin, Australia, 
conducted bi-lateral training and exercises. The Black Sea Rotational 
Force continued their enduring activities in the European Command area 
of operations and Fleet Anti-Terrorism Security Teams provided forward-
deployed platoons to four GCCs in support of dynamic mission tasking 
such as embassy reinforcement in Baghdad, Iraq.
    The Department's fiscal year 2016 budget represents the bare 
minimum to execute the DSG in the world we face, but still results in 
high risk in two of the most challenging DSG missions that depend on 
adequate numbers of modern, responsive forces. The principal risk to 
the Department's ability to meet the DSG remains the uncertainty in 
future funding, which affects our planning and the ability to balance 
near- and long-term readiness and capability. The fiscal year 2014 
President's Budget was the last budget submission to fully meet all of 
the missions of the DSG. The Department made difficult, strategy-based 
choices to reprioritize within available resources, but that is not 
sustainable. The fiscal year 2013 sequestration was manageable in part 
because of key budget reprogramming actions made by the Department with 
Congressional support. In order to accomplish this, however, the 
Department applied mitigating actions to ships in execution and 
deferred costs to future years in order to avoid breaking programs. 
While the Bipartisan Budget Act of 2013 (BBA) provided some relief from 
sequestration-level funding in fiscal year 2014 and fiscal year 2015, 
significant shortfalls remained compared to the fiscal year 2014 
President's Budget. The Department was compelled to further reduce the 
capability of weapons and aircraft, slow modernization, and delay 
upgrades to all but the most critical shore infrastructure. As a 
result, the Department is challenged with maintenance backlogs, 
compressed training for modernization, and impacts on our people and 
their families due to extended deployments.
    If sequestration returns in fiscal year 2016, a revisit and 
revision of the defense strategy would be necessary. With limited 
ability to mitigate the impacts as we did in fiscal year 2013, 
sequestration in fiscal year 2016 would force the Department to further 
delay critical warfighting capabilities, reduce readiness of forces 
needed for contingency response, further downsize weapons capacity, and 
forego or stretch force structure procurements as a last resort. The 
Marine Corps would assume additional significant risk in long-term 
modernization and infrastructure sustainment, delay of major 
acquisition programs, forced sustainment of aged legacy systems 
resulting in increased operations and support costs, as well as further 
detrimental impacts to readiness, which will lead to morale issues and 
quality of life degradation. The Department's capability and capacity 
to meet operational requirements over the long-term will be reduced, 
including our ability to deploy forces on the timeline required by GCCs 
in the event of a contingency.
            The Fiscal Year 2016 President's Budget Request
    The fiscal year 2016 President's Budget submission continues to 
balance force structure, readiness, and capability to meet national 
security commitments. The Department's shipbuilding plan is built 
around stability, balancing near-term and long-term requirements to 
enable efficient planning and procurement, improve cost performance, 
and sustain the critical shipbuilding and supplier industrial base. A 
brief overview of Navy shipbuilding programs follows.
                              Shipbuilding
    The fiscal year 2014 update to the 2012 Force Structure Assessment 
(FSA) to meet the Department of the Navy's required missions in support 
of the DSG, has increased the objective to 308-ships to account for 
evolving force structure decisions and real-world changes to 
assumptions made in 2012. The Department's fiscal year 2016 
shipbuilding plan continues to build toward the balanced force required 
by the FSA. As such, the fiscal year 2016 President's Budget requests 
funding for nine ships: two Virginia-class attack submarines, two DDG-
51 Arleigh Burke-class destroyers, three Littoral Combat Ships (LCS), 
the first next generation logistics fleet resupply ship T-AO(X), and 
the remaining funding for the Amphibious Transport Dock (LPD 28) that 
Congress added in fiscal year 2015. The fiscal year 2016 submission for 
the Future Years Defense Program (FYDP), fiscal year 2016 to fiscal 
year 2020, plans for the procurement of 48 ships. Additionally, the 
budget request includes funding for the aircraft carrier USS George 
Washington's refueling and complex overhaul (RCOH).
    An additional key component of our budget submission is the 
modernization of 11 cruisers, which are the most capable ships for 
controlling the air defense of a carrier strike group. The Navy's 
cruiser modernization plan in accordance with fiscal year 2015 
Congressional direction will allow the Navy to reduce some funding 
requirements while increasing the capability and extending the service 
life of our large surface combatants.
    The key elements of the fiscal year 2016 shipbuilding plan will now 
be discussed for each area of the plan.
                           Aircraft Carriers
    Our aircraft carriers are central to our nation's defense strategy, 
which calls for forward presence; the ability to simultaneously deter 
potential adversaries and assure our allies; and capacity to project 
power at sea and ashore. These national assets are equally capable of 
providing our other core capabilities of sea control, maritime 
security, and humanitarian assistance and disaster relief. Our carriers 
provide our nation the ability to rapidly and decisively respond 
globally to crises, with a small footprint that does not impose 
unnecessary political or logistical burdens upon our allies or 
potential partners.
    Nimitz- and Ford-class carriers will be the premier forward 
deployed asset of choice for crisis response and early decisive 
striking power in major combat operations for the next half-century. 
The Department has established a steady state Ford-class procurement 
plan designed to deliver each new ship in close alignment with the 
Nimitz-class ship it replaces. The design improves warfighting 
capability, survivability, operational availability, and quality of 
life for Sailors, while reducing the ship's crew by between 500 and 900 
personnel and decreasing total ownership costs by approximately $4 
billion per ship. Gerald R. Ford (CVN 78), the lead ship of the class, 
was launched in November 2013. As of January 2015, CVN 78 is 87 percent 
complete, 37 percent of compartments have been turned over to the crew, 
9.4 million feet of the 9.8 million feet of cabling (96 percent) has 
been installed, and 36 percent of the shipboard testing program is 
complete. CVN 78 land-based catapult testing commenced in December 
2014. CVN 78 is planned for delivery in fiscal year 2016.
    The Navy is committed to delivering CVN 78 within the $12.887 
billion Congressional cost cap. Sustained efforts to identify cost 
reductions and drive improved cost and schedule on this first-of-class 
aircraft carrier have resulted in highly stable performance since 2011.
    Parallel efforts by the Navy and shipbuilder are driving down and 
stabilizing aircraft carrier construction costs for the future John F 
Kennedy (CVN 79) and estimates for the future Enterprise (CVN 80). As a 
result of the lessons learned on CVN 78, the approach to carrier 
construction has undergone an extensive affordability review. The Navy 
and the shipbuilder have made significant changes on CVN 79 to reduce 
the cost to build the ship as detailed in the 2013 CVN 79 report to 
Congress. The benefits of these changes in build strategy and 
resolution of first-of-class impacts on CVN 79 are evident in metrics 
showing significantly reduced man-hours for completed work from CVN 78. 
These efforts are ongoing and additional process improvements continue 
to be identified.
    The Navy extended the CVN 79 construction preparation contract into 
2015 to enable continuation of ongoing planning, construction, and 
material procurement while capturing lessons learned associated with 
lead ship construction and early test results. The continued 
negotiations of the detail design and construction (DD&C) contract 
afford an opportunity to incorporate further construction process 
improvements and cost reduction efforts. Award of the DD&C contract is 
expected in third quarter fiscal year 2015. This will be a fixed price-
type contract.
    Additionally, the Navy will deliver the CVN 79 using a two-phased 
strategy. This enables select ship systems and compartments to be 
completed in a second phase, wherein the work can be completed more 
efficiently through competition or the use of skilled installation 
teams responsible for these activities. This approach, key to 
delivering CVN 79 at the lowest cost, also enables the Navy to procure 
and install shipboard electronic systems at the latest date possible.
    The fiscal year 2014 National Defense Authorization Act (NDAA) 
adjusted the CVN 79 and follow ships cost cap to $11,498 million to 
account for economic inflation and non-recurring engineering for 
incorporation of lead ship lessons learned and design changes to 
improve affordability. In transitioning from first-of-class to first 
follow ships, the Navy has maintained Ford-class requirements and the 
design is highly stable. Similarly, we have imposed strict internal 
controls to drive changes to the way we do business in order to ensure 
CVN 79 is delivered below the cost cap. To this same end, the fiscal 
year 2016 President's Budget request aligns funding to the most 
efficient build strategy for this ship and we look for Congress' full 
support of this request to enable CVN 79 to be procured at the lowest 
possible cost.
    Enterprise (CVN 80) will begin long lead time material procurement 
in fiscal year 2016. The fiscal year 2016 request re-phases CVN 80 
closer to the optimal profile, therefore reducing the overall ship 
cost. The Navy will continue to investigate and will incorporate 
further cost reduction initiatives, engineering efficiencies, and 
lessons learned from CVN 78 and CVN 79. Future cost estimates for CVN 
80 will be updated for these future efficiencies as they are 
identified.
    With more than half of the service life of the Nimitz-class still 
remaining, RCOH continues as a key enabler for the enduring presence of 
the aircraft carrier Fleet. USS Abraham Lincoln (CVN 72) completed her 
RCOH undocking in November 2014. This year's budget request restores 
funding for the USS George Washington (CVN 73) RCOH. The CVN 73 thirty 
month RCOH advanced planning, long lead time material procurement, 
engineering, and early fabrication contract was awarded in February 
2015.
                               Submarines
    Submarines' stealth and ability to conduct sustained forward-
deployed operations in anti-access / area-denial environments serve as 
force multipliers by providing high-quality Intelligence, Surveillance, 
and Reconnaissance (ISR) as well as indication and warning of potential 
hostile action. In addition, attack submarines are effective in anti-
surface warfare (ASuW) and undersea warfare in almost every 
environment, thus eliminating any safe-haven that an adversary might 
pursue with access-denial systems. As such, they represent a 
significant conventional deterrent. The Navy is mitigating an impending 
attack submarine force structure shortfall in the 2020s through 
multiple parallel efforts: continuing procurement of two Virginia-class 
submarines per year; reducing the construction span of Virginia-class 
submarines; extending the service lives of select attack submarines 
(SSN 688s) with the potential to eliminate 10-15 attack submarine (SSN) 
years from the SSN shortfall of 51 years. While each of the Navy's 
attack submarines provides considerable strike capacity, guided missile 
submarines (SSGN) provide substantially more strike capacity and a 
robust capability to deploy special operations force (SOF) personnel. 
Lastly, the Navy's 14 ballistic missile submarines (SSBNs) provide the 
nation with an around-the-clock, credible, modern and survivable sea-
based strategic deterrent.
    SSBNs, coupled with the TRIDENT II D-5 Strategic Weapons System, 
represent the most survivable leg of the Nation's strategic arsenal and 
provide the Nation's most assured nuclear response capability. 
Originally designed for a 30-year service life, the Ohio-class was 
extended to its limit at 42 years of operation. With the Ohio-class 
SSBNs being an average of 25.5 years old, the U.S. must continue 
development of the follow-on twelve ship Ohio replacement (OR) SSBN 
program as the current SSBNs' life cycles cannot be extended further. 
This is our top priority program within the Department of the Navy.
    The fiscal year 2016 President's Budget requests full funding of 
two Virginia-class submarines and advanced procurement for the fiscal 
year 2017 and fiscal year 2018 vessels. The Virginia-class submarine 
program has delivered the last seven ships on budget and ahead of 
schedule. The last ship delivered, USS North Dakota (SSN 784), included 
a completely redesigned bow section as part of the Design for 
Affordability efforts, an approximate 20 percent design change. 
Additionally, USS North Dakota delivered with the highest quality of 
any Virginia-class submarine to date.
    The Navy awarded the Block IV contract in April 2014 for ten ships. 
It continues the co-production of the Virginia-class submarines between 
General Dynamics Electric Boat and Huntington Ingalls Industries--
Newport News Shipbuilding through fiscal year 2018. The savings 
realized with this multiyear procurement (MYP) contract was over $2 
billion, effectively giving the Navy ten ships for the price of nine.
    In December 2012, the Navy awarded a research and development (R&D) 
contract for OR SSBN which focuses on meeting the program's performance 
requirements while reducing costs across design, production, and 
operations and sustainment. The lead ship recurring estimate was 
reduced to $6.2 billion Constant Year (CY) ($8.8B Then Year (TY)) 
dollars from $6.8 billion CY ($10.0B TY) dollars. The average follow-on 
ship recurring cost estimate was reduced to $5.2 billion CY ($9.8B TY) 
dollars from $5.4 billion CY ($10.5B TY) dollars. The non-recurring 
cost estimate is $17.1 billion CY ($22.4B TY). Cost reduction efforts 
continue and bring the Navy closer to its cost goals. The cost 
reduction efforts will continue throughout the design and construction 
phases.
    The fiscal year 2016 President's Budget requests funding to 
continue development of the OR SSBN and ensures Common Missile 
Compartment efforts remain on track to support the United Kingdom's 
SUCCESSOR Program's schedule. Given the need to recapitalize this 
strategic asset, coupled with the ongoing need to support Navy force 
structure, the Navy continues to pursue the means to resource 
construction of the OR SSBN in accordance with the schedule to fulfill 
U.S. Strategic Command requirements. The first-of-class is to be 
procured in 2021, with Shipbuilding and Conversion, Navy (SCN) advanced 
procurement in 2019 and 2020. The Navy continues to need significant 
increases in our topline beyond the FYDP, not unlike that during the 
period of Ohio construction, in order to afford the OR SSBN procurement 
costs. Absent a significant increase to the SCN appropriation, OR SSBN 
construction will seriously impair construction of virtually all other 
ships in the battle force: attack submarines, destroyers, and 
amphibious warfare ships. The shipbuilding industrial base will be 
commensurately impacted and shipbuilding costs would spiral 
unfavorably. The resulting battle force would fall markedly short of 
the FSA, unable to meet fleet inventory requirements. The National Sea-
Based Deterrence Fund is a good first step in that it acknowledges the 
significant challenge of resourcing the OR SSBN, but the fund is 
unresourced.
    In addition to the Department of the Navy's budget request, the 
continued support of Congress for Naval Reactors' Department of Energy 
(DoE) funding is vital to the Navy mission and ensuring the safe, 
reliable and enduring operations of the nuclear-powered Fleet. The 
President's fiscal year 2016 DoE budget fully funds Naval Reactors' 
request for the OR SSBN. This funding is critical to maintain the 
reactor design and development in synch with the Navy shipbuilding 
schedule to support lead ship procurement in 2021. The DoE budget 
submission also provides full funding for refueling the Land-based 
Prototype. This effort not only supports development of the OR SSBN 
life-of-the-ship core, but also ensures Naval Reactors continues to 
train about 1,000 nuclear-qualified sailors per year for the next 
twenty years. Naval Reactors' DoE budget also includes the second year 
of funding for the Spent Fuel Handling Project. Recapitalizing this 
facility is critical to the Navy's tight refueling and defueling 
schedule of nuclear-powered aircraft carriers and submarines.
    The Navy's four SSGNs provide significant warfighting capability, 
but will be retired in 2026-2028 after 42 years of combined SSBN/SSGN 
service. To mitigate the 60 percent reduction in undersea strike 
capacity when they retire, the Navy is investing in Virginia Payload 
Module (VPM) that will include a hull insert amidships of a Virginia-
class submarine that will contain four 87-inch diameter missile tubes 
each capable of launching seven TOMAHAWK cruise missiles. The fiscal 
year 2016 President's Budget continues VPM R&D and starts SCN funding 
in fiscal year 2017 for detail design efforts to enable integrating VPM 
into Block V Virginia-class SSNs, one per year starting in fiscal year 
2019.
                        Large Surface Combatants
    Guided missile cruisers (CGs) and guided missile destroyers (DDGs) 
comprise our large surface combatant Fleet. When viewed as a whole, 
these ships fulfill broad mission requirements both independently and 
in conjunction with a strike group. The demands for increased 
capability and capacity in Ballistic Missile Defense (BMD) and 
Integrated Air and Missile Defense (IAMD) continue to be a focal point. 
In order to meet the increased demand for BMD, in fiscal year 2014, the 
Navy forward deployed two BMD capable DDGs, USS Donald Cook (DDG 75) 
and USS Ross (DDG 71) to Rota, Spain. USS Carney (DDG 64) and USS 
Porter (DDG 78) will arrive in fiscal year 2015. Two additional BMD 
ships will homeport shift to Yokosuka, Japan in 2015 and 2016, USS 
Benfold (DDG 65) and USS Barry (DDG 52). The Anti-Submarine Warfare 
(ASW) combat systems on DDGs and CGs are also being upgraded, bringing 
significant improvements over legacy systems.
    The Arleigh Burke-class (DDG-51) program remains one of the Navy's 
most successful shipbuilding programs--62 ships are currently operating 
in the Fleet. The fiscal year 2016 President's Budget includes funding 
for two destroyers to execute the fourth year of the current MYP. One 
of these ships will incorporate IAMD and provide additional BMD 
capacity, and the other ship will introduce the next flight upgrade 
known as Flight III, which incorporates the Air and Missile Defense 
Radar (AMDR), with both ships bringing additional capability to the 
Fleet when they deliver in the early fiscal year 2020s. AMDR and Flight 
III are essential for future sea-based BMD. The fiscal year 2016 
President's Budget also includes funding to complete the construction 
of Thomas Hudner (DDG 116) to restore program funding removed by the 
fiscal year 2013 sequestration.
    AMDR is the future multi-mission radar of the Navy's surface 
combatant fleet, which will meet the growing ballistic missile threat 
by improving radar sensitivity and enabling longer range detection for 
engagement of increasingly complex threats. In October 2013, the Navy 
awarded the contract for development of the AMDR, with options for up 
to nine low rate initial production (LRIP) units. The AMDR radar suite 
will be capable of providing simultaneous surveillance and engagement 
support for long range BMD and area defense. The program continues to 
demonstrate maturity in the design development as shown in successful 
completion of the AMDR hardware critical design review (CDR) in 
December 2014 and is on track for the system CDR in April 2015. 
Engineering Change Proposal (ECP) detail design efforts for the DDG 
Flight III design will continue in fiscal year 2016, ultimately leading 
to over 90 percent detail design completion prior to construction on 
the first Flight III ship.
    The DDG 1000 Zumwalt-class guided missile destroyer will be an 
optimally crewed, multi-mission, surface combatant designed to provide 
long-range, precision, naval surface fire support to Marines conducting 
littoral maneuver and subsequent operations ashore. In addition to the 
ship's two 155mm Advanced Gun Systems capable of engaging targets with 
the Long Range Land Attack Projectiles (LRLAP), the ship will be 
capable of conducting ASW, land attack, and will provide valuable 
advancements in technology such as signature reduction (both acoustic 
and radar cross-section), active and passive self-defense systems, 
enhanced survivability features, and shipboard automation (in support 
of reduced manning). The DDG 1000 program accomplished several 
construction milestones in 2014 with significant test and activation 
efforts continuing for the ship's propulsion and power plants. DDG 1000 
sea trials will be conducted this year in preparation to enter the 
Fleet in 2016. The fiscal year 2016 budget requests funds to continue 
the DDG 1000 program.
                        Small Surface Combatants
    The Littoral Combat Ship (LCS) enables the Navy to implement the 
DSG imperative to develop innovative, low-cost, and small-footprint 
approaches to achieve our security objectives. The modular, open 
systems architecture inherent in LCS allows for rapid integration of 
technological solutions that increase capability at reduced cost. The 
LCS complements our inherent blue water capability and fills war 
fighting gaps in the littorals and strategic choke points around the 
world. LCS design characteristics (speed, agility, shallow draft, 
payload capacity, reconfigurable mission spaces, air/water craft 
capabilities) combined with its core command, control, communications, 
computers and intelligence; sensors; and weapons systems, allow LCS to 
bring unique strengths and capabilities to the mission.
    In February 2014, Secretary Hagel capped LCS at 32 ships, pending 
an evaluation of the alternatives to increase the lethality and 
survivability of future small surface combatants. In December 2014, 
Secretary Hagel approved the Navy's proposal to procure a small surface 
combatant based on an upgraded LCS. The upgraded LCS will provide 
multi-mission ASuW and ASW, as well as continuous and effective air, 
surface and underwater self-defense. As these capabilities are 
generally consistent with those of a frigate, the Secretary of the Navy 
directed re-designation of upgraded LCS to frigates (FF). The fiscal 
year 2016 President's Budget requests funding for concept development 
and design for improved survivability and lethality performance in the 
Navy's future Frigate. The fiscal year 2016 request also includes 
funding for three LCS class ships. The Navy plans to extend the fiscal 
year 2010--2015 block buy contract to include the first ship in fiscal 
year 2016, and use the competitive pricing from the block buy to obtain 
option prices for the remaining two fiscal year 2016 ships. 
Furthermore, the fiscal year 2016 request includes funding to complete 
construction on LCS 9 through LCS 12, which was deferred due to 
sequestration in fiscal year 2013.
    The LCS Mission Modules (MM) program continues its efforts to field 
capability incrementally as individual mission systems become 
available, rather than wait for all the mission systems needed for the 
end-state capability. The direction from Secretary Hagel does not 
affect the near term content and funding needs of the LCS MM program. 
The Navy still must continue to procure Mission Packages (MP) for 
fielding aboard LCS 1-32. In addition, the future frigates will retain 
specific mission module capabilities to augment the ships' organic ASuW 
and ASW, as directed by the Fleet Commanders. In November 2014, the 
program declared Initial Operational Capability (IOC) for the Surface 
Warfare (SUW) MP after successful testing onboard USS Fort Worth (LCS 
3) in April 2014. The Mine Countermeasure (MCM) MP completed its final 
Increment 1 Developmental Test event in October 2014. The MCM MP is 
currently scheduled for Technical Evaluation and Initial Operational 
Test & Evaluation (IOT&E) in 2015. The ASW MP successfully completed 
its initial integration test onboard USS Freedom (LCS 1) in September 
2014, with operational testing scheduled to begin in 2016. This early 
operational test event will reduce integration risk through real-world, 
at-sea testing of the Advanced Development Model (ADM). A subsequent 
early deployment of the ASW MP ADM aboard USS Freedom (LCS 1) in 2016 
will further prove out the capabilities of the ASW MP. Operational 
testing will culminate in IOT&E in 2017. Significant developmental and 
operational testing has already been accomplished on both variants, 
with embarked ASW, MCM and SUW MPs. The LCS and ASW MP performed as 
predicted and marked the first time an LCS has tracked a submarine with 
variable depth sonar and a multi-function towed array. USS Freedom (LCS 
1) also served as the test platform for the Surface Electronic Warfare 
Improvement Program Block Two-Lite engineering development model (EDM) 
installation and testing. The fiscal year 2016 President's Budget 
requests funding for five MPs (two MCM, two SUW, and one EDM for ASW). 
The LCS, with a MP, provides capability that is equal to or exceeds the 
current capability of the ships that it is replacing.
    With four LCS in-service, operational experience continues through 
at sea testing, operations and rotational deployments. USS Fort Worth's 
deployment marks the beginning of continuous LCS forward presence in 
Southeast Asia, and will validate the class 3:2:1 (three crews, two 
ships, one ship always forward-deployed) rotational manning and crewing 
concept and mark the first deployment of the Navy's MH-60R Seahawk 
helicopter along with the MQ-8B Fire Scout on an LCS.
                            Amphibious Ships
    Amphibious ships operate forward to support allies, respond to 
crises, deter potential adversaries, and provide the nation's best 
means of projecting sustainable power ashore; they also provide an 
excellent means for providing humanitarian assistance and disaster 
relief. Amphibious forces comprised of Sailors, Marines, ships, 
aircraft and surface connectors provide the ability to rapidly and 
decisively respond to global crises without a permanent footprint 
ashore that would place unnecessary political or logistical burdens 
upon our allies or potential partners. There are two main drivers of 
the amphibious ship requirement: maintaining persistent forward 
presence, which enables both engagement and crisis response, and 
delivering the assault echelons of up to two Marine Expeditionary 
Brigades (MEB) for joint forcible entry operations.
    The Chief of Naval Operations and Commandant of the Marine Corps 
have determined that the force structure for amphibious lift 
requirements is 38 amphibious ships, fiscally constrained to 33 ships. 
Balancing the total naval force structure requirements against fiscal 
projections imposes risk on meeting this requirement. Based on the 
footprint of a 2.0 MEB assault echelon force, a minimum of 30 
operationally available ships are necessary to provide a force made up 
of ten Amphibious Assault Ships (LHD/LHA), ten Amphibious Transport 
Docks (LPD) and ten Dock Landing Ships (LSD). The fiscal year 2016 
shipbuilding plan will result in a projected amphibious ship force 
structure of at least 31 ships in the near-term and maintains at least 
33 ships throughout the 2020s and 2030s. At the end of fiscal year 
2016, the Amphibious Force Structure will be 31 ships, which includes 9 
LHD/LHAs, 10 LPDs, and 12 LSDs.
    LHA(R) class ships are flexible, multi-mission platforms with 
capabilities that span the range of military operations--from forward 
deployed crisis response to forcible entry operations. These ships will 
provide the modern replacements for the remaining LHA 1 Tarawa-class 
ship and the aging LHD 1 Wasp-class ships as they begin decommissioning 
in the late 2020s. USS America (LHA 6) and Tripoli (LHA 7) are 
optimized for aviation capability and do not include a well deck. USS 
America delivered to the Navy in April 2014 and was commissioned in 
October 2014. LHA 7 is currently under construction and will deliver in 
2018. LHA 8, the first Flight 1 ship, will have a well deck to increase 
operational flexibility and a smaller island that increases flight deck 
space to retain aviation capability. LHA 8 is funded in fiscal year 
2017 and fiscal year 2018, and is planned for delivery in fiscal year 
2024. LHA 8 will be competed as part of an amphibious and auxiliary 
shipbuilding acquisition strategy to support stability and 
affordability for this sector of the industrial base. The Navy expanded 
the early industry involvement efforts for the LHA 8 design and 
initiated a phased approach to the design for affordability of 
amphibious ships. fiscal year 2014 funding enabled affordability 
efforts that foster an interactive competition with industry partners 
in developing a more affordable, producible detail design and build 
strategy, and drive towards more affordable ships.
    The San Antonio-class (LPD 17) provides the ability to embark, 
transport control, insert, sustain, and extract elements of a MAGTF and 
supporting forces by helicopters, tilt rotor aircraft, landing craft, 
and amphibious vehicles. Two ships are under construction, John P. 
Murtha (LPD 26) and Portland (LPD 27), and will deliver in spring 2016 
and summer 2017, respectively. The fiscal year 2015 Consolidated and 
Further Continuing Appropriations Act provided $1 billion of funding 
toward a twelfth ship of class, LPD 28. The fiscal year 2016 
President's Budget requests the balance of funding for LPD 28, and cost 
to complete funding for LPD 27. The program will include targeted cost 
reduction initiatives to improve affordability of the ship. Procurement 
of LPD 28 will assist in mitigating some impacts to shipbuilding and 
combat systems industrial bases. LPD 28 will possess all of the key 
fundamental capabilities and characteristics associated with LPDs 17 
through 27, to include command and control, aviation operations and 
maintenance, well deck operations, and medical. There are fact of life 
changes due to obsolescence which need to be incorporated. LPD 28's 
design and construction features will, at the same time, exploit many 
of the ongoing LX(R) design innovations and cost reduction initiatives 
that are necessary for the program to achieve affordability goals while 
maintaining the high level capabilities of the LPD 17 class.
    LX(R) is the replacement program for the landing ship dock, LSD 41 
and LSD 49 classes, which will begin reaching their estimated service 
life in the mid-2020s. The Analysis of Alternatives Report was 
completed in April 2014. After thorough analysis, the Department has 
determined that using a derivative of the LPD 17 hull form is the 
preferred alternative to meet LX(R) operational requirements. This 
determination sustains the program's focus on requirements, 
affordability and total ownership cost. Program focus during fiscal 
year 2016 will be to finalize the requirements in the Capability 
Development Document and execute contract design efforts to meet 
acquisition milestones for procurement of the lead ship in fiscal year 
2020. The LX(R) contract design effort is part of the Navy's recent 
announcement of its acquisition strategy for the LHA 8, six T-AO(X) 
ships, and LX(R) contract design. Both General Dynamics NASSCO and 
Huntington Ingalls Industries, Ingalls Shipbuilding will participate in 
this limited competition.
    LX(R) is envisioned to be a flexible, multi-mission warship with 
capabilities that support execution of the full range of military 
operations. The need to support disaggregated or split operations away 
from the Amphibious Readiness Group or to deploy independently is a key 
driver for the design of the ship class. The inherent flexibility of 
amphibious ships is demonstrated by their support to 7 of the 10 
missions in the DSG. LX(R) will be a versatile, cost-effective 
amphibious ship--a success story in leveraging mature design while 
balancing cost and requirements to deliver key capabilities. The lead 
LX(R) will deliver in time for LSD 43's retirement in fiscal year 2027.
    The Navy plans to maintain 11 deployable LSDs in the active force 
until LX(R) delivers by rotating three LSDs to complete phased 
modernizations beginning in fiscal year 2016. This will extend USS 
Whidbey Island (LSD 41), USS Germantown (LSD 42), and USS Tortuga (LSD 
46) to a 44 year expected service life. This plan mitigates presence 
shortfalls and supports 2.0 MEB Assault Echelon shipping requirements.
                            Auxiliary Ships
    Support vessels such as the Mobile Landing Platform (MLP) and the 
Joint High Speed Vessel (JHSV) provide additional flexibility to the 
Combatant Commanders. The future USNS Lewis B. Puller (MLP 3), the 
first Afloat Forward Staging Base (AFSB) variant, was christened in 
February 2015, and will deliver in summer 2015. USNS Montford Point 
(MLP 1) completed its integrated testing and evaluation phase this past 
fall and the Navy continues to explore further use beyond Maritime 
Prepositioning Force to facilitate expeditionary operations. The Navy 
awarded MLP 4 AFSB in December 2014, and plans to request MLP 5 AFSB in 
fiscal year 2017.
    The JHSV provides a high-speed, shallow-draft alternative to moving 
personnel and materiel within and between the operating areas, and to 
supporting security cooperation and engagement missions. JHSV 
production continues with delivery of the fifth JHSV anticipated in 
April 2015. JHSVs 6-10 are also under contract. In fiscal year 2015, 
Congress provided funding for an eleventh JHSV. The Navy is exploring 
opportunities to further enhance JHSV's operational profile to support/
enhance warfighter requirements such as Special Operations support, 
Maritime Interdiction Operations, submarine rescue, and ISR missions. 
Additional research is being applied to the stern ramp to increase its 
ability to conduct at sea delivery. The fiscal year 2016 President's 
Budget requests cost to complete funding for the JHSV program in order 
to restore funding reduced by fiscal year 2013 sequestration.
    Combat Logistics Force ships fulfill the vital role of providing 
underway replenishment of fuel, food, repair parts, ammunition and 
equipment to forward deployed ships and embarked aircraft, to enable 
them to operate for extended periods of time at sea. Combat Logistic 
Force Ships consist of T-AOE fast support ships, T-AKE auxiliary dry 
cargo ships, and T-AO fleet replenishment oilers. The T-AO and T-AKE 
ships serve as shuttle ships between resupply ports and their customer 
ships, while the T-AOE ships serve as station ships, accompanying and 
staying on-station with a Carrier Strike Group to provide fuel as 
required to customer ships.
    Navy continued its efforts to mature its concept for the 
replacement of the Kaiser-class (T-AO 187) of Fleet Replenishment 
Oilers. The new replacement oilers, currently designated as T-AO(X), 
will be double-hulled and meet Oil Pollution Act 1990 and International 
Marine Pollution Regulations. The fiscal year 2016 President's Budget 
request includes the lead ship in 2016 with serial production beginning 
in 2018. The total ship quantity is expected to be 17 ships. The 
Department recently announced an acquisition strategy for LHA 8, T-
AO(X), and LX(R), and will limit this competition to NASSCO and HII 
Ingalls.
    Beginning in 2017, the Navy plans to begin procuring replacement 
ships for the four T-ATF 166 class fleet tugs. T-ARS(X) is a 
recapitalization project to replace the capabilities provided by the 
four T-ARS 50 class salvage ships. As noted in the Long Range 
Shipbuilding Plan, the Navy is considering a common hull to replace 
both the T-ATF and T-ARS; acquisition of a common hull would follow the 
acquisition approach described for the T-ATF(X) and would preclude the 
need to acquire a separate T-ARS(X) class.
           Affordability and the Shipbuilding Industrial Base
    Stability and predictability are critical to the health and 
sustainment of the Nation's shipbuilding industrial capacity. A healthy 
design and production industrial base is critical to achieving 
Department priorities and fulfilling Navy needs. Today's shipbuilding 
industry, with its interdependent suppliers and vendors, is a complex 
system where decisions made today have a cascading effect both in the 
near-term as well as years into the future. Perturbations in naval ship 
design and construction plans are significant because of the long-lead 
time, specialized skills, and extent of integration needed to build 
military ships. Each ship is a significant fraction of not only the 
Navy's shipbuilding budget, but also industry's workload and regional 
employment. Consequently, the timing of ship procurements is a critical 
matter to the health and sustainment of U.S. shipbuilding and combat 
system industries, and has economic impacts at the regional and local 
levels. It is important, therefore, for the Department to provide 
stability and predictability to the industrial base, including key 
suppliers and vendors, to maintain our ability to continue to build the 
future Fleet as outlined in the Long Range Shipbuilding Plan.
    The Navy has taken specific key acquisition and procurement actions 
to contain costs and sustain the industrial base, including:
    <bullet>  Stabilizing procurements through block buys and MYPs;
    <bullet>  Increasing competition;
    <bullet>  Controlling costs through stable designs;
    <bullet>  Strictly limiting change orders;
    <bullet>  Conducting targeted reviews;
    <bullet>  Pursuing cross-program common equipment buys; and
    <bullet>  Focusing on affordability.
    In addition, the Navy has made investments to support shipyard 
facility improvements, optimal build plans, conduct of affordability 
studies, lease for facilities improvement, design for affordability and 
modularity, combat system open architecture, and shipbuilding 
capability preservation agreements. These investments support 
affordability, minimize life-cycle costs, improve and ensure quality 
products, facilitate effective and efficient processes, and promote 
competition--which all support Department priorities.
                       Surface Ship Modernization
    The fiscal year 2016 President's Budget implements the CG/LSD 
modernization plan as modified by the fiscal year 2015 NDAA and 
Consolidated and Further Continuing Appropriations Act. This plan will 
provide the means to retain the best Air Defense Commander and Marine 
expeditionary lift capabilities through the 2030s. This plan paces the 
threat through the installation of the latest technological advances in 
combat systems and engineering in CGs 63-73 and LSDs 41, 42 and 46. As 
a result, these ships remain relevant and viable, extending the CGs 
service life out to 40 years, enabling the Navy to sustain dominant 
force structure. To date, the Navy has modernized CGs 52-58 with the 
Advanced Capability Build (ACB) 08 Combat System as well as substantial 
Hull, Mechanical, and Electrical (HM&E) upgrades, and has nearly 
completed modernization on CGs 59, 60, and 62 with the improved ACB 12. 
These investments have allowed the first 11 ships of the Ticonderoga-
class to remain the world's premier Air Defense Commander platform, 
fully capable of integrating into the CSG construct or operating 
independently in support of Combatant Commander demands.
    The Navy has developed an affordable framework to retain the 
remaining eleven cruisers (CGs 63-73) in the active Fleet, through 
induction into a phased modernization period. Within the guidelines of 
the fiscal year 2015 Consolidated and Further Continuing Appropriations 
Act, the Navy will induct no more than two ships per year for no more 
than four years, and have no more than six ships in a modernization 
period at any given time. In fiscal year 2015, the Navy is inducting 
the first two ships, the USS Gettysburg (CG 64) and USS Cowpens (CG 63) 
into modernization. The fiscal year 2016 President's Budget request 
inducts the next two CGs, USS Vicksburg (CG 69) and USS Chosin (CG 65), 
into modernization in fiscal year 2016.
    The Navy will begin the modernization of these ships with material 
assessments, detailed availability planning, and material procurements. 
Subsequently, the Navy will perform HM&E upgrades, critical structural 
repairs, and extensive corrective and condition-based maintenance. 
These HM&E modernization and repair efforts will commence as soon as 
possible after entering this modernization period, and will include 
modernization industrial periods. The HM&E-centric maintenance and 
modernization industrial periods will include modifications that are 
part of the Cruiser Modernization program of record, such as structural 
modifications and maintenance, including tanks and voids, and mission 
life extension alterations. Other preparatory work for the combat 
system modernization, such as equipment removal and space preparations 
may also be accomplished during these periods. These modernization 
industrial periods can be scheduled at times when there is a shortage 
of work in the various homeports, thereby leveling the work load and 
effectively utilizing industrial facilities. Without the pressure of 
meeting near term Fleet deployment schedules, the work can be planned 
in the most economical and efficient manner, including reducing the 
need for costly overtime rates and hiring subcontractors to supplement 
shipyard workforce. The final phase will include combat system 
installation, integration, and testing. This will occur concurrently 
with re-crewing the ship, immediately preceding re-introduction to the 
Fleet. With combat systems modernization occurring immediately prior to 
restoration, these ships will have the latest combat systems upgrades, 
thus mitigating the risk and cost of technical obsolescence. The Navy 
intends to draw down the manpower for these CGs during their 
modernization, to reduce the cruiser costs during the period. The plan 
is to complete modernization of each cruiser on a schedule that 
sustains 11 deployable Air Defense Commander CGs (one per Carrier 
Strike Group) into the 2030s. Under the Navy's original phased 
modernization plan proposed in the fiscal year 2015 President's Budget, 
the final CG retirement would have occurred in 2045, at a significantly 
reduced cost to the Navy, and would have relieved pressure on the 
shipbuilding account largely consumed in the 2030s with building OR 
SSBNs and aircraft carriers.
    Similarly, the Navy plans to perform the final Whidbey Island-class 
midlife modernization as well as to extend two LSDs through this plan. 
This plan completes the HM&E midlife and modernizes combat systems/
command, control, communications, computers, collaboration, and 
intelligence on USS Tortuga (LSD 46) (thereby achieving 40 year 
expected service life), while providing for additional post-midlife 
modernization for USS Whidbey Island (LSD 41) and USS Germantown (LSD 
42). LSD 41 and 42 will receive additional structural, engineering, and 
combat systems modernizations to extend their expected service life to 
45 years. LSD 46 will be inducted into modernization in fiscal year 
2016.
    The fiscal year 2016 President's Budget also includes funding for 
the modernization of four destroyers. To counter emerging threats, this 
investment is critical to sustain combat effectiveness and to achieve 
the full expected service lives of the Aegis Fleet. The destroyer 
modernization program includes HM&E upgrades, as well as advances in 
warfighting capability and open architecture combat systems. This 
renovation reduces total ownership costs and expands mission capability 
for current and future combat capabilities. However, due to fiscal 
constraints, we were compelled to reduce the combat system 
modernization of one DDG Flight IIA per year starting in fiscal year 
2018.
                               Connectors
    The Seabasing Joint Integrated Concept requires surface and 
vertical lift capability to transport personnel, supplies and equipment 
from within the sea base and maneuver them to objectives ashore. 
Surface and aviation connectors with enhanced speed and range will 
provide future expeditionary force commanders greater flexibility to 
operate in contested environments. While the aviation component of our 
connector capability has seen significant modernization with the 
fielding of the MV-22 and continuation of the CH-53K program, our 
primary surface connectors, the landing craft air-cushion (LCAC) and 
the Landing Craft Utility (LCU) are reaching the end of their service 
life and require modern replacements.
    The President's fiscal year 2016 Budget includes the Ship to Shore 
Connector (SSC) air-cushioned vehicles as the replacement for the aging 
LCAC while also continuing investment in the LCAC service life 
extension program (SLEP) of 72 active LCACs to mitigate the gap as the 
SSC is developed and fielded. A planned Surface Connector (X)-
Recapitalization (SC(X)) program will recapitalize the aging LCU 1610 
class.
    These platforms are essential in connecting the combat power and 
logistical sustainment that the sea base provides, with the forces that 
are operating in the littorals and inland for all missions. The 
Department will continue to explore future connector options that will 
increase our ability to exploit the sea as maneuver space by increasing 
range, speed, and capacity.
                                Summary
    The Department of the Navy continues to instill affordability, 
stability, and capacity into the shipbuilding, aviation, and combat 
vehicle plans to advance capabilities and meet the DSG and Fleet 
mission requirements. Our force is focused on global reach and access 
with investments to enable global presence, sea-control, mission 
flexibility, and when necessary, interdiction.
    Continued Congressional support of the Navy's plans and budgets 
will help sustain a viable shipbuilding industrial base. The fiscal 
year 2016 President's Budget request funds nine ships: two DDG-51 
destroyers, three LCS, two Virginia-class submarines, one LPD 17, and 
one T-AO(X). The request supports the right balance between 
requirements, affordability, and the industrial base.
    The Department of the Navy stands ready to answer the call of the 
Nation. We thank you for your continued support of the Navy and Marine 
Corps and request your support of the fiscal year 2016 President's 
Budget for the Department of the Navy.

    Senator Wicker. Thank you, Secretary Stackley.
    Vice Admiral Hilarides.

 STATEMENT OF VADM WILLIAM H. HILARIDES, USN, COMMANDER, NAVAL 
                      SEA SYSTEMS COMMAND

    Admiral Hilarides. Thank you, Chairman Wicker, Senator 
Hirono, distinguished members of the committee. Thank you for 
inviting me to take part in this hearing. I am honored to be 
here.
    I would like to just echo one thing that Secretary Mabus 
said during his--one of his hearings last month. We would not 
have the fleet to put to sea without our Navy civilians. They 
are the scientists, engineers, designers, contract officers, 
and acquisition professionals who oversee the construction of 
our newest ships and do so much of the repair work on our in-
service ships.
    As you might remember, the Naval Sea Systems Command 
(NAVSEA) family lost 12 shipmates during the shooting at our 
headquarters on September 16th, 2013. We are just now getting 
back to normal, with the last of our people returning to their 
permanent offices in the Navy Yard this week. Over the last 18 
months, I have been a first--have seen firsthand the absolute 
dedication of these Navy civilians to our Nation and our Navy. 
Despite the tragedy, they remained focused on supporting the 
fleet, and we didn't miss a beat. I owe it to my people to 
recognize them in this forum.
    Thank you for the opportunity, and I look forward to 
answering your questions.
    Senator Wicker. Thank you. I'm sure those individuals 
appreciate that recognition.
    Vice Admiral Mulloy.

STATEMENT OF VADM JOSEPH P. MULLOY, USN, DEPUTY CHIEF OF NAVAL 
   OPERATIONS, INTEGRATION OF CAPABILITIES AND RESOURCES (N8)

    Admiral Mulloy. Sir. Chairman Wicker, Ranking Member 
Hirono, and distinguished members of the subcommittee, I'm 
honored to be here today to testify on your Navy's seapower 
power-projection forces. I look forward to working with you all 
this year.
    In developing our 2016 President's Budget, we carefully 
analyzed what our Nation needs in order to meet the missions of 
the defense strategic guidance in the most recent Quadrennial 
Defense Review. This analysis looked at ends, ways, and means 
necessary to, one, fight and win today's wars while building 
the ability to win tomorrow's; to operate forward to deter 
aggression; and be ready to fight and responsibly employ our 
diverse force. We remain committed to rebalancing the majority 
of our naval forces to the Asia-Pacific, with approximately 60 
percent of our ships and aircraft in that region by 2020. 
However, with the reality of current budget--Federal budget 
limitations and our commitment to do our part in bringing our 
Nation's fiscal house in order, we have made many difficult 
choices to best balance capacity, capability, readiness, and 
the industrial base, and still meet the missions of the defense 
strategic--pardon me--defense strategy, albeit with some risk.
    Our 2016 budget represents what we feel is the minimum 
needed for your Navy to continue to be where it matters, when 
it matters. It reflects the difficult choices and actions we 
had to take due to shortfalls over the last 3 years. We are 
down $25 billion due to sequestration in 2013 and the 
Bipartisan Budget Act in 2014-2015. It has to stop. We hang on 
and make do. But, the threats we face don't have to make do. 
Thus, any reduction in 2016, whether it's from sequestration or 
action by Congress to set some level in between, will be 
extremely challenging. If limited to sequestration-level 
funding, the Nation would need to think about what kind of 
military we can afford, how we would need to reprioritize our 
missions in that situation. This analysis would need to factor 
in the global environment, the Nation's defense priorities, 
America's role in the international security environment, and 
the capabilities and threats of our adversaries, as well as the 
timing of sequestration and method of implementation. That 
analysis will dictate what kind of cuts would be required.
    We have to do the analysis first, revise the defense 
strategy before taking specific impacts. We fight as a joint 
force, we must adjust as a joint force.
    We ask you for your support in providing the strategy-based 
naval force that our 2016 budget would sustain, and avoid the 
budget-based military that sequestration would bring.
    I look forward to answering your questions.
    Senator Wicker. Thank you very much, gentlemen. We 
appreciate your testimony.
    I'm going to defer my questions until later on, and 
recognize Senator Ayotte to begin the questioning.
    Senator Ayotte. I want to thank the chairman and ranking 
member.
    I want to thank all of you for what you do for the country, 
and especially the sailors and marines and the civilian 
workforce that work underneath you to keep our country safe.
    I wanted to follow up with what you said, Admiral 
Hilarides, about the civilian workforce. You know, as you know, 
as we look at the great work done at the Portsmouth Naval 
Shipyard, which I know that Senator King shares in the pride we 
have, of course, in the shipyard, this is a very important 
component of the shipyard. So, can you tell me how the 
shipyard's doing and--from your impression?
    Admiral Hilarides. Yes, ma'am. Happy to report that 
Portsmouth Naval Shipyard is currently delivering its 
availabilities on time. They are meeting all their benchmarks 
and are performing at a very high level. They support 
additional detachments out in San Diego. They're doing in-
service submarine work there, as well. We do have a bump in 
hiring at Portsmouth that'll help bring them to their full 
capacity. But, I'm pleased to report that Portsmouth's doing 
very well, ma'am.
    Senator Ayotte. Well, that's great. We're also really 
proud--I understand, on the Topeka, the California, and the 
Springfield, they were able to perform ahead of schedule. So, 
we hope to do more of that.
    Admiral Hilarides. Yes, ma'am.
    Senator Ayotte. Very proud of them. So, thank you.
    I wanted to follow up in that regard on the importance of 
our attack submarine fleet. I know that the chairman, in his 
opening statement--and, I believe, the Ranking Member, as well, 
may have referenced--when it comes to the Virginia-class 
submarines, as we look at the retirement of the Los Angeles-
class, which is happening more quickly, we're going to be in a 
position where the current number of attack submarines will 
drop, in the next decade, from about 54 now to about 41, yet--
what's been the request, in terms of the need by our combatant 
commanders, for attack submarines? As I understand it, we're 
only meeting about half of their requests, at this point.
    Admiral Hilarides. Yes, ma'am. We're meeting approximately 
54 percent of their request for our forces out there right now, 
with the submarine force we have.
    Senator Ayotte. So, one of the things, as we look at going 
forward, it seems to me very important that we stay on track to 
continue building the two Virginia-class submarines a year. 
Otherwise, we're going to have a pretty significant gap, in 
terms of our capability that we need to defend the Nation and 
the need for the attack submarine fleet. Would you all agree 
with me on that?
    Mr. Stackley. Yes, ma'am.
    Senator Ayotte. How important is it that Congress provide 
reliable and sufficient funding so the Navy can fully implement 
the Block-4 multiyear procurement contract, going forward?
    Mr. Stackley. Well, the basis of the savings that we're 
achieving in the Block-4 contract are all tied to stability of 
funding. So----
    Senator Ayotte. Right.
    Mr. Stackley.--when we came forward with a certification on 
multiyear and basically took credit for the savings, that was 
all predicated on future budgets being supported in a timely 
manner.
    Senator Ayotte. I also wanted to follow up--as we look at 
the reduction in the capacity for--the undersea strike capacity 
that all of us are worried about--I know recently, before the 
full committee, the Chief of Naval Operations said that they're 
studying--that you are all studying whether the Virgnia Payload 
Module (VPM) program could be accelerated. Could you comment on 
that?
    Mr. Stackley. Yes, ma'am. The--what's referred to as VPM is 
an upgrade that's targeted for the first boat of the follow-on 
Block-5 multiyear in fiscal year 2019. We cannot restore the 
capacity of the SSGNs fast enough, because they're going to go 
out in a 3-year period, in the mid-2020s. With each SSGN--they 
carry 154--the capacity for 154 Tomahawks. So, with VPM, we add 
28 Tomahawk capacity per Virginia. So, as you can see, you 
know, just doing the math, we have to, basically, include VPM 
for a long period of time. It's about 22 boats, in total, that 
make up the capacity that you lose. The earlier we can get 
started on that, the better.
    So, what we have done is--working with industry, is, rather 
than settle for the first boat in 2019, we've asked to take a 
look at: Is it feasible to accelerate that to fiscal year 2018? 
That analysis has just started, frankly, and we'll get a first 
look at that, at the end of this month, with more details later 
on this summer.
    If we are able to do that, that will help to just buy down 
some of that risk associated with the SSGNs retiring. But, at 
the same time, we have to be very mindful of the amount of work 
that's coming our way, in terms of submarines, because we'll 
have Virginia, we'll have the introduction of VPM, and we'll 
have the Ohio replacement all in that period of time. So, the 
ability to accelerate VPM cannot be done at the expense of 
stability across the rest of our submarine programs.
    Senator Ayotte. Well, I'm really appreciative that you're 
looking at this acceleration, given the need that we know is 
very apparent. So, I appreciate the need, obviously, to look 
across the whole Navy to be able to perform what you need to do 
with the Ohio-class, as well. But, I'm--this acceleration, I 
think, would be very important, in terms of our undersea strike 
capability.
    Do you--you were saying, Mr. Secretary, that you expect 
that the study on this may be--when can we expect to hear your 
results?
    Mr. Stackley. I'm going to get a quick look. What I've 
asked is, first, is it feasible? Second, is it sensible? It 
might be feasible, but, given everything else we have going on 
in submarines, it might not make sense to do, it might add more 
risk than it's going to resolve. Third, if it is feasible and 
sensible, what do we need to do, in fiscal year 2016 
specifically, to ensure we retain the option of going forward?
    Senator Ayotte. Well, that's excellent, because, obviously, 
I think that's something that this committee would be very 
interested in working with you in the upcoming authorization.
    So, thank you all for what you do for the country.
    Senator Wicker. Thank you, Senator Ayotte
    Our Ranking Member is also willing to defer questions to a 
later time in the hearing. The order of questioning will be 
Senator Kaine, followed by Tillis, King, Rounds, and Sessions.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    I've never been in a hearing where the Chair and Ranking 
have deferred. It's the last-shall-come-first day. So, that's a 
good thing.
    The comments that you made about the civilian workforce at 
the Navy yard, here, is an important one, and I want to pick up 
to begin on what Senator Ayotte indicated. Your written 
testimony is an eloquent tribute to the combined nature of--
there are sailors, but also the civilian workforce; and the 
contractors, who are part of the broader mission, are critical; 
and the stability of that workforce is critical; and sequester 
and other budgetary actions over the last few years have 
jeopardized that. I was recently at one of our ship repair 
facilities in our Portsmouth--Portsmouth, Virginia--and ships 
that were in dock undergoing repair, the commanding officers of 
the ships were standing there, pointing out the workers, and 
they were saying, you know, ``They are like sailors, to me. You 
know, the work that they do is every bit as important as the 
folks who are onboard the ship.'' That sense of teamwork is a 
powerful feature of what you do. So, I commend you for 
recognizing that in your testimony.
    I want to get into some specifics on the shipbuilding. 
We've had testimony from the Chief of Naval Operations (CNO) 
Greenert, and, Secretary Stackley, I know you have followed 
this, as well. Secretary Mabus recently said he wants to 
protect shipbuilding at all costs. But, if we do not receive 
sequester relief, there--I think it's--Secretary Mabus 
indicated that up to nine ships will not be completed during 
the Future Years Defense Program (FYDP) if the sequester 
occurs. If we do not get sequester relief, how would the Navy 
approach this issue of which platforms don't get done?
    Mr. Stackley. Yes, sir. Let me first by--I'm just going to 
reiterate and reemphasize exactly what Secretary Mabus said.
    Senator Kaine. Great.
    Mr. Stackley. Our first priority is going to be placed on 
shipbuilding, because it takes 30 years to build a Navy. It 
does take 30 years to build a Navy. Senator Ayotte referred to 
the gap that we've--that we're staring at in the out years 
associated with Virginia. That gap is based on decisions that 
were made 10 to 15 years ago about going down--you know, our 
ability to get up to 2 per year. So, that--those decisions, 10 
to 15 years ago, impact the fleet's ability in the late 2020s 
and 2030s. We cannot do that lightly. So, regardless of what 
happens in the budget, our first priority will be to take care 
of shipbuilding, in accordance with the force structure 
assessment that the CNO submitted in the 2012 timeframe.
    The impact of sequestration, the magnitude of it, what the 
Secretary was referring to was our ability to protect it, to 
the extent that we have submitted our--you know, the plan 
inside the FYDP in the 30-year report. That's at great risk. 
So, while it will be a top priority, we are going to have to go 
back and defend, line by line, ship by ship, what stays and 
what is placed at risk, in the event of sequestration. I can 
tell you that, today, we have not done that. We have not gone 
down the path of making reductions to our shipbuilding plan, 
because, one, we believe that is the size and shape of fleet 
that we need to meet our security requirements. So, we're not 
going to be the first one to go down that path. In all cases, 
what we do is, we look to balance our force.
    So, across the spectrum, from carriers to submarines to 
surface escorts to amphibs to auxiliary ships, we need a 
balanced force to meet the full range of missions and to, 
basically, support the degree of presence that's called for 
upon our Navy to keep about a hundred ships deployed constantly 
across the globe.
    So, if you're looking for specifics, in terms of what we 
would cut in our shipbuilding program in the event of 
sequestration, my first response is, that's the last thing we 
would cut. Then, if we are handed the bill, if, in the end, 
Congress' decision is that we are going to drop the defense 
budget, then we're going to have to take a hard look at that 
balanced force and how much of it we've got to retain to 
minimize the risk to our National security.
    Senator Kaine. That gives me a sense for how you'd approach 
the challenge, which I hope we don't have to approach. Together 
with others who serve both on the Budget and Armed Services 
Committee, I'm very committed to working to try to minimize the 
sequester impact.
    Mr. Stackley. Not to interrupt you or belabor the point, 
but, just last year, before this subcommittee and the full 
committee, the discussion and debate was over the CVN-73 George 
Washington, where that did not come forward in the 2015 budget 
request, and the basis for that not coming forward was the 
concerns regarding the impact of sequestration and whether or 
not we would start something that we could not complete under 
that reduced budget. So, that's an example of the significance 
of the impact of sequestration on our force.
    Senator Kaine. I appreciate my colleagues working together 
last year to make sure that we were able to avoid that.
    I commend you, Secretary Stackley, and your team. You 
kept--the Ford-class carrier obviously is a huge issue every 
year in this committee, but, for the last 3 years, you've held 
that project within cost caps. I know some of the challenge 
with the cost of that has been the new systems that have been 
installed, the propulsion and other systems. But, I gather 
that, just from your last comment, that carrier refueling is 
one of the things that would be in jeopardy if you were forced 
to change the budget downward to the sequester cap level.
    Mr. Stackley. I am not offering that, sir, but if you just 
replay the tape from last year, that's where the debate was.
    Senator Kaine. Last question I want to ask deals with the 
Ohio-class replacement. I guess there's a current cost-shift 
estimate of--4.9 to 5.3 billion is the current estimate. How 
confident are you--is the Navy with that current estimate for 
the Ohio-class?
    Mr. Stackley. We have a pretty intense cost-reduction 
effort in place with the Ohio as it's being designed. So, we're 
not--we did not take the requirements, pass them over to the 
design community, tell them to design the boat, then estimate 
the cost and figure out--then figure out how to get the cost 
down. We are--we set the cost targets and caps on this boat 
from the--on the front end. In fact, we adjusted the 
requirements on the front end to get the cost estimates down. 
Then, as we go, as we mature that design, we are continually 
updating the cost while inserting good cost-reduction 
initiatives to keep it in the context or framework of the 
targets that we've set.
    So, actually, the initial cost estimate for the follow 
boats--boats 2 through 12, on average, was about $5.8 billion, 
in 2010 dollars. We base-date it. Through this cost-reduction 
program, we're--today's estimate, using our cost-estimating 
community's standards, is about $5.2 billion a boat. So, we're 
not at the 4.9 target that we set for ourselves yet, but we're 
continuing to attack opportunities.
    In terms of degree of confidence, I can only say that 
affordability has been a touchstone for this program from day 
one. We have certain requirements that we've got to drive home 
in order to ensure that the Ohio replacement meets the degree 
of performance that we count on for our strategic deterrent 
force. But, at the same time, we are finding opportunities to 
leverage mature technologies, we're porting over systems from 
Virginia, from the strategic weapons systems, so we're avoiding 
development and risk in that regard. So, the focus of new 
development or new design is really on some unique aspects of 
the Ohio replacement, where we've got our arms wrapped around 
it.
    I'd say today our confidence--you know, I would never go 
much above moderate confidence at this stage, but the entire 
enterprise has an eye on affordability each step along the way. 
That includes the CNO. The CNO is the requirements officer on 
this program. As we track, jointly, cost--as we go through the 
development, he has his hand on the helm to ensure that, if we 
need to go further, in terms of adjusting requirements, where 
it makes sense to keep cost under control, we'll do that.
    Senator Kaine. Great. Thank you, Mr. Secretary.
    Thank you both.
    Mr. Chairman.
    Senator Wicker. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    I want to talk a little bit about the Marine Corps mission. 
The Commandant of the Marine Corps has frequently stated that 
the combatant command requirement for amphibious ships would 
exceed 50. The absolute minimum number to meet the demands of 
the Marine Corps, I think, is somewhere around 38. Yet, we have 
30 operating today, and we'll never attain an amphibious fleet 
of more than 34 across the 30-year shipbuilding plan. I'm kind 
of curious. I know that Senator Wicker was first among other 
Senators who worked to provide funding, I think, for the 12th 
landing platform dock, and--the authorization, and then, I 
think, some partial funding in 2014. What more do we need to do 
to address this gap?
    Mr. Stackley. Sir, let me start with the 50, if I can, and 
walk you through. I would say 50 amphibs reflects combatant 
commanders' demand because of the flexibility that the amphibs 
provide to the operating forces. It is an extremely flexible 
platform for operations against a full range of scenarios. So, 
they're in high demand, but at no point in time do we have a 
plan to build that many amphibs. The--our requirement for 
amphibs is----
    Senator Tillis. I'm thinking more along the minimum 
requirement of the 38.
    Mr. Stackley. Yes, sir. So, our requirement for amphibs is 
driven by major combat operations, and specifically it's the 
ability to provide amphibious lift for two marine expeditionary 
brigades. The number of ships required to do that is 30. That's 
a 30 mix of big-deck amphibs, LPDs, and LSD-41 class or their 
replacements.
    So, in order to provide 30 for major combat operations, 
notionally you require 38 amphibs, recognizing that some number 
will be in depot maintenance and otherwise unavailable for the 
operations. Five years ago----
    Senator Tillis. What is the trajectory for 34 over the next 
30 years?
    Mr. Stackley. I'm sorry, sir?
    Senator Tillis. Am I correct that we're talking about 
attaining somewhere around 34--
    Mr. Stackley. Yes, sir.
    Senator Tillis.--across a 30-year period? How does that fit 
with the needs?
    Mr. Stackley. Yes, sir. So, 34 was an agreement between the 
CNO and the Commandant, approximately 5 years ago, that 
recognized a couple of things. First and foremost, it 
recognized just the fiscal environment that we're in. So, the 
decision was that there will be some risk accepted, in terms of 
the ability to provide the full capacity of lift for two marine 
expeditionary brigades. In other words, some elements of the 2 
Marine Expeditionary Brigades (MEB's) would come in a follow-on 
echelon if we could not produce 30 amphibious ships of the 
right mix for the major combat operations.
    Senator Tillis. Over the time horizon, I think your 5-year 
budget has the first LX amphibious dock landing ship scheduled 
for procurement in fiscal year 2020. In talking about the long-
term shipbuilding plan, there are always risks of other costs 
and surprises, going forward. So, should we consider 
accelerating the procurement of this ship, in view of the 
looming pricetag for the Ohio replacement plan, beginning, I 
think, in fiscal year 2019?
    Mr. Stackley. Yes, sir. So, today we have advanced 
procurement for LX(R) in fiscal year 2019. The timing of the 
LX(R) is directly coupled to the retirement of the ship class 
that it's replacing, the LSD-41/49 class. Over the course of 
the past year, in terms of our budget profile, what we have 
done is, we've brought the follow ships of the LX(R) program to 
the left to mitigate that risk. We have not been able to bring 
LX(R), the lead ship, to the left, simply because of all the 
competing priorities in the budget.
    To specifically answer your question, ``Would it help, in 
terms of risk?''--it would help, in terms of risk, but then it 
becomes a matter of, Where have we shifted that risk?
    Senator Tillis. By the way, any of--at any point, if the 
other gentlemen want to weigh in, I'd be happy to hear your 
thoughts.
    Admiral Mulloy. Yes, sir. I'd like to comment.
    In terms of--you're right for the time of being not above 
34 during this 5-year defense plan. But, when you look at the 
30-year shipbuilding plan, of which it's still under review in 
the Pentagon, but the tables have been provided to the 
committee, we achieve 38 amphibs in 2028, and actually have--we 
start getting above 34, grow to that point, and then we 
stabilize at 36 or 37. That year that we hit 38 is the year 
before the submarine force hits the bottom, so that's the 
tradeoff we talked about in shipbuilding, is that I--at the 
same time I am building amphibs, I am coming down on 
submarines, then there's nothing we could do, because, 15 years 
ago, we went a number of years with no fast attack submarines 
(SSNs), and then we went one a year for 7 years. So, we have to 
make a tradeoff of what we accelerate to build.
    But, we will build in the 30s, and stay in the mid-30s 
throughout the period of this 30-year shipbuilding plan. We 
actually get to 38 in 2028 and stay at 36 or 37 after that if 
we get the funding of PB-16 and the full FYDP.
    The one other question about sequester funding is, it 
requires stability. Because the Budget Control Act law is 
written one year at a time, we submit a budget of one year at a 
time. We have to have some expectation from the Hill that the 
other years will come when you sign multiyears for 10 
submarines. When I sign up to be a large-deck amphib that 
builds over 2 years, the commitment for LHA-8 is that, in 2017/
2018, the money arrives. The commitment for LX(R) is that the 
money arrives in 2021. So, as the Navy's Chief Financial 
Officer, I've got to look at those projections. The 
shipbuilding tables I give you are only based upon the strength 
of what we get back from the Budget Committee and the Armed 
Services Committee.
    Senator Tillis. I'd add--this would be a general question 
for all of y'all so I can stay within my time. We heard a 
testimony in the Senate Armed Services Committee from a general 
who said that we want an Armed Services who would never allow 
our men and women to enter into a fair fight. In other words, 
we always want to have overwhelming capacity, regardless of the 
category. You all have been very good at just stating that 
you're working within the confines of the money you're 
provided. But, with respect to the Navy, where there seems to 
be a diminishing level of capacity, and then you look at other 
countries which seem to have an increasing level of capacity, 
at what point in time do we actually enter a fight with our 
fleet that is a fair fight? In other words, we're matched up 
pretty well. Is that a time that's ahead of us in the near 
future with some of the countries that are clearly building an 
increasing capacity?
    Thank you.
    Admiral Mulloy. There is no time in the immediate future. 
But, I will tell you, if we don't provide some kind of economic 
stability, that that point would be--you know, we get closer. I 
think right now we've laid out what we think is a coherent plan 
and a strategy. We recently rolled out the maritime strategy 
that talks about how we engage around the world. The risk of 
the unknown is, there are competitors on the Eurasian landmass 
that are rapidly developing high-tech weapons that target us 
and target our assets around the world. Then we're also engaged 
with a number of other lower-tech countries. The proliferation 
of weapons is a real threat. Therefore, I think we've laid 
out--as the President's Budget fiscal year 2016 (PB-16) plan 
for that 5 years and the 30-year plan after that are important 
to us.
    I can't give you a year when that would pass, sir. We have 
a preponderance of events. We have phenomenal sailors and 
marines out there on our ships, and phenomenal pilots; and 
everyone's engaged to be ahead. But, the importance is to do 
the research, development, test, and evaluation (RDT&E) and the 
construction through every asset of our industrial base to 
build the overwhelming capability, as well as the capacity, to 
take on the threats to national security, sir.
    Senator Wicker. Thank you, Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Senator Wicker. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Mr. Stackley, one--Secretary Stackley--one specific 
question. Last May, in response to a request, the Navy stated 
the Navy position is that the 2002 memorandum of understanding, 
the so-called Swap-1 agreement, remains in full force and 
effect and requires the Navy to award a DDG-51 or equivalent 
workload to Bath Iron Works (BIW) if the Navy awards the LPD-28 
on a sole-source basis. Now, I understand, in this budget, 
that's happening--the LPD-28 funds are going to be completed. 
Does that--what I just read from the response we got from the 
Navy, is that still the Navy's position? Because we got a 
response recently, just this week, that indicated you're 
considering options. I trust that means you're considering how 
to fulfill that, not whether or not it still exists.
    Mr. Stackley. Yes, sir. Let me, first, describe that the 
opening statement of that swap agreement talks about, ``In 
order to provide stability for a shipbuilding industrial 
base''----
    Senator King. Right.
    Mr. Stackley.--``and affordability for our ship programs, 
then the following.'' In 2002, both shipyards were in peril 
in--that were involved in the swap. So, what that swap did was 
help stabilize both shipyards.
    At the time, the LPD-17 program, the ultimate quantity, of 
10 versus 11 versus 12 ships, was undecided, so what was left 
open was that, in the future, if further LPDs are awarded, then 
a commensurate DDG-51 or equivalent would be awarded to Bath 
Iron Works to balance out the swap agreement.
    In the past 13 years, it's been a very dynamic shipbuilding 
program back and forth between the two shipyards. So, if we 
were to simply reassess, ``Are we today stable--relatively 
stable across the two shipyards, across the shipbuilding 
program?''--you might get a different answer from, ``Are we, or 
are we not, one-for-one, in terms of parity regarding the swap 
agreement?''
    What we are doing is, we're taking a look at, first, the 
state of the two shipyards, what it would infer, in terms of an 
LPD-17--further LPD-17 being awarded to Ingalls, in accordance 
with our budget request, and then what would be commensurate at 
BIW to balance that out. We have had very preliminary 
discussions with industry. The award of that LPD---the LPD-28 
would be late in 2016. So, we believe we have time and tools 
available to balance out that agreement with both shipyards.
    Senator King. But, it is your intent to follow through on 
the phrase you're using as ``balance out.''
    Mr. Stackley. I think ``balance out,'' because what we're 
down to looking at is workload and timing of that workload. The 
timing for the LPD-28 award might not be the right time for a 
balance--the balancing of workload at Bath Iron Works.
    Senator King. Fine.
    On the larger question, I really appreciate the report that 
was submitted a couple of weeks ago--I would commend it to my 
colleagues--on the Navy shipbuilding industrial base. It's 
sobering reading, particularly a chart on--let's see, trying to 
find the page number--well, it's Figure 4.5, which indicates 
that shipbuilding employment, which averaged about 60,000 
throughout the country for the last almost 20 years, is now 
down by a third.
    Mr. Stackley. Sir.
    Senator King. That's a--employment is part of the picture. 
Also, investment and the web of suppliers that's at risk. I--my 
concern is that decisions we make today--if we don't replace 
sequestration, decisions we make today to defer shipbuilding 
programs will have 30-year consequences that we can't foresee. 
Is that your view?
    Mr. Stackley. Yes, sir. The--we have several shipyards in 
our industrial base that are in a very fragile position, and--
--
    Senator King. We don't have that many shipyards to--it's 
not like we have 50 shipyards out there.
    Mr. Stackley. We have--as I described in my opening 
statement, we have eight shipyards currently building U.S. Navy 
ships. Of those eight shipyards, about half of them are a 
single contract away from being what I would call ``not 
viable.'' In other words, the workload drops below the point at 
which the shipyard can sustain the investment that it needs to 
be competitive and the loss of skilled labor that comes with 
the breakage of a contract. They'd be challenged to be able to 
recover that skilled labor. So, they would quickly find 
themselves outside of the market.
    Senator King. What that results in is a lack of capacity to 
meet the country's needs, both now and certainly in the future.
    Mr. Stackley. You lose capacity, and you also lose 
competition.
    Senator King. Losing competition means that you don't--the 
Navy doesn't get the best price.
    Mr. Stackley. Yes, sir.
    Senator King. The other problem, as I understand it, is 
that it makes it very difficult, the current budgetary 
situation, to do multiyear contracts, which is another way the 
taxpayers can save money on these projects.
    Mr. Stackley. I think that Congress has been very helpful 
with regards to multiyear. As we are able to bring forward the 
business case that argues for a multiyear contract, where the 
savings are achieved, Congress has been supportive of those 
cases. So, today the Virginia multiyear has been successful. 
We're hitting the targets on that contract. The DDG-51 
multiyear, likewise. So, as we're able to bring the business 
case forward, Congress has been supportive.
    Senator King. But, the--if the--if we reimpose 
sequestration this year, as you've testified, that would be a 
severe impact across the board.
    Mr. Stackley. What that undercuts is our business case, 
because it destabilizes the shipbuilding program, and it makes 
it harder for us to be able to certify that we're going to be--
that we have enough stability in order to come forward with 
that multiyear request.
    Senator King. Well, most of us have been in hearings in 
recent weeks with regard to what our potential adversaries are 
doing, particularly China and Russia. They are on a very 
aggressive----
    Mr. Stackley. Yes, sir.
    Senator King.--buildup in both areas. It would be ironic 
and dangerous, it seems to me, to be following the opposite 
course.
    Mr. Stackley. Concur.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator King.
    Let me--before I recognize the distinguished chairman of 
the committee, let me just follow up.
    I think Senator King has engaged in a very important line 
of questioning about the importance of all of our yards. Would 
it be fair to say, Mr. Stackley, with regard to the Memorandum 
of Understanding (MOU), that you've been in constant 
conversation and contact with both Ingalls and BIW on this 
issue and on your thoughts about fulfilling this, as Senator 
King was asking?
    Mr. Stackley. Sir, I've been in dialogue with the CEOs of 
both Huntington Ingalls industries and General Dynamics since 
the Navy's budget came together requesting the balance of 
funding for the LPD-28.
    Senator Wicker. Okay. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Secretary Stackley, what--on the issue of the Gerald R. 
Ford, the Director of Operational Test and Evaluation annual 
report says, ``The reliability of four systems--the 
electromagnetic aircraft launching system, advanced arresting 
gear, dual-band radar, and advanced weapons elevators--are most 
significant risk to the USS Gerald R. Ford initial operation, 
test, and evaluation.'' What's the status?
    Mr. Stackley. Yes, sir. Let me take them one by one.
    The electromagnetic aircraft launching system and the 
advanced arresting gear were both land-based tested at our 
facility at Lakehurst, in New Jersey. So, what we have is a----
    Senator McCain. You might just summarize. I've only got 5 
minutes.
    Mr. Stackley. Yes, sir.
    Today, the land-based testing associated with 
Electromagnetic Aircraft Launch Systems (EMALS), advanced 
arresting gear, dual-band radar, and the weapons elevators has 
all been satisfactory, but each of those programs is on what's 
referred to as a reliability growth curve. So, what we have to 
do is get deeper and deeper into the test program, get the ship 
operational to climb that curve to ensure that we meet the 
reliability requirements that we've established for the 
program.
    Each of those is on the curve, with one exception: the 
advanced arresting gear. We've had to make some changes to that 
design of a key component called the ``water twister,'' and had 
to go back into testing at Lakehurst. So, we're completing that 
additional testing to ensure that we have that correct.
    Senator McCain. Of course, I've been intensely curious why 
we needed to change things like arresting gear and aircraft 
launching that have been tested and proven over many years to 
be reliable, as far as information I have.
    On the LCS, the mine countermeasure mission package is more 
than 4 years behind, won't achieve full capability until 2019. 
Again, Director of Operational Testing and Evaluation, ``The 
Mine Countermeasure (MCM) package has not yet demonstrated 
sufficient performance to achieve the Navy's minimal Increment 
1 requirements.''
    Mr. Stackley. Yes, sir. We conducted developmental testing 
for the mine countermeasure mission package last year. We 
conduct what's referred to as a ``technical evaluation,'' 
starting in April. The USS Independence is today at Panama 
City, gearing up for that tech-eval. We than proceed into 
operational testing for that increment at the end of this year.
    So, today there remain risks associated with completing 
that testing, but we are executing in accordance with the plan 
that I presented to this committee a year ago.
    The final increment--the mine countermeasure capability, is 
delivered in increments--the final increment is an unmanned 
surface sweep system. That, in fact, is scheduled for 
completion in 2019. That has been delayed and stretched, 
largely because of budget reductions over a number of years. 
So, today that is the last piece that completes the MCM 
capability.
    Senator McCain. By 2019.
    Mr. Stackley. Yes, sir. We'll have a system out and testing 
in the 2017 timeframe. Today we have developmental models for 
that capability. But, it's--it replaces--it will replace the 
53s, in terms of their sweep system. The capability that we 
have with the early increments replaced the capability that 
we've got for the MCMs that are currently forward deployed.
    Senator McCain. Admiral Mulloy, if you want to replace the 
Tomahawk, the next-generation land-attack weapons, is it true 
it's not due to enter service until 2024 at the earliest?
    Admiral Mulloy. Yes, sir, that's true. That's our best 
estimation.
    Senator McCain. Then does it make sense to stop procurement 
of the existing Tomahawk missile?
    Admiral Mulloy. Sir, we've been studying this now for the 
last year or so, and, as we looked at--developed the 2016 
budget, we believe the 100 weapons in 2016, along with the 
funding provided by Congress for the ones that were actually 
fired against the beginning of the contact against the Islamic 
State of Iraq and the Levant (ISIL), the 47, when merged with 
2015 procurement, will provide weapons on the floor of the 
factory through--into 2018 being produced. We started the 
recertification line, which will recertify and also upgrade the 
existing 3,700 Tomahawks we have. Starting in 2017, they start 
the recert line. In 2019, we are full recert. So, we see actual 
production into 2018, recertification of those weapons, 
providing significant firepower that greatly exceed--that would 
be 37 years worth of our average use of that weapon, sir.
    Senator McCain. Did I understand you correctly? You say 
that you would have a replacement--by when?
    Admiral Mulloy. No, this would be a recertification 
upgraded of the Block 4 weapons. In 2019, we'd actually start 
rolling out weapons that came due for maintenance, rather than 
being decommissioned, would be then taken through the factory 
floor, recertified, new radios put in. We're also looking at 
follow-on items that could be further upgraded on that weapon 
while we still continue the path of the Offensive Anti-Surface 
Warfare (OASUW) and Next Generation Lance Attack Weapon 
(NGLAW).
    Mr. Stackley. Sir, can I add?
    Senator McCain. Yeah.
    Mr. Stackley. What Admiral Mulloy is referring to is the 
factory floor's view. Separate--I've discussed this with the 
CNO--there is risk associated with the next-generation mine 
attack weapon, that we're very early on, in terms of justifying 
its requirements and that development program. We are one of 
one mind that what we've got to do is ensure that is stable 
before we simply truncate production of our cruise missiles. 
So, we--this will be revisited--excuse me--this will be 
revisited, in conjunction with our Program Objective 
Memorandum, fiscal year 2017 (POM-17) review.
    Senator McCain. Are you concerned about the effects of a 
production gap on the second- and third-tier Tomahawk suppliers 
in their ability to provide an efficient transition from 
production to the beginning of the recertification of the Block 
4 missiles in 2019?
    Mr. Stackley. Sir, the answer is yes. We've had our Defense 
Contracts Management Agency do a complete review of Tomahawk 
suppliers--and I'll provide this report to the Hill, interested 
committees, members, to get a look at how detailed that is--to 
highlight which suppliers are placed in jeopardy by a break in 
production versus which suppliers carry through in the 
recertification program. So, there are a handful of suppliers 
that are of particular concern. We're working with Raytheon as 
we take a look at this.
    Senator McCain. You are totally confident that the next-
generation, next-production aircraft carrier, that the cost 
will be under control.
    Mr. Stackley. I think you're referring to CVN-79, the John 
F. Kennedy.
    Senator McCain. Yes.
    Mr. Stackley. Today, it's $11.5 billion cost cap, and 
that's our budget that we've submitted. Separately, we--
    Senator McCain. You submitted a $10 billion cost cap for 
the Gerald R. Ford. I'm asking--
    Mr. Stackley. Yes, sir.
    Senator McCain:--are you confident that the next aircraft 
carrier will be at the cost as you just--11.4, or whatever it 
is?
    Mr. Stackley. Yes, sir. Let me simply state that we're 
driving our--what we call our allocated costs well below the 
$11.5 billion so that we have a margin and our contracts are 
being contained within fixed-price vehicles. So, today, for all 
that we know, all that we understand, we are confident.
    Senator McCain. I hope you are correct.
    I thank you, Mr. Chairman.
    Senator Wicker. What could go wrong there, Secretary 
Stackley, to disappoint Senator McCain and the rest of this 
subcommittee?
    Mr. Stackley. A couple of things. First, CVN-79 delivers in 
the 2023 timeframe. So, between now and 2023, new threats could 
emerge, one; or, two, we'll get through our operational testing 
associated with the CVN-78, and we might discover issues that 
we have not flagged earlier, in terms of those systems, that 
would drive change in. The key here is design stability and 
technical maturity. So, that's what we're going after on CVN-79 
so that we do not have surprises in discovery as we build the 
ship.
    Senator McCain. You are looking at additional options to 
the large aircraft carrier, as we know it.
    Mr. Stackley. We've initiated a study. I think you have 
discussed this with the CNO. That's--we're at the front end of 
that study. Yes, sir.
    Senator McCain. I think--Mr. Chairman, I think it's pretty 
obvious that, when there's no competition, there's no cost 
control. Certainly has been the case with the Gerald R. Ford.
    Senator Wicker. Thank you, Senator McCain.
    We're now going to continue, based on order of appearance--
Senator Rounds, Senator Sessions, and Senator Shaheen.
    Senator Rounds, thank you for--
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Wicker.--deferring to the Chair.
    Senator Rounds. Yes, sir.
    I'd like to follow up--and, gentlemen, thank you for your 
service--I'd like to follow up just a little bit on what the 
Chairman has suggested.
    Can you provide an update on the congressionally directed 
report on the Navy's next-generation land-attack developments 
efforts that were originally due in Congress on February 2? I 
believe you've been operating under an extension right now. 
But, just in terms of the update and the replacement for the 
Tomahawk, can you give us an update on that, please? I think 
there was one due here--what, February 2nd?
    Mr. Stackley. Yes, sir. The--frankly, the delay to that 
report is because we're trying to get the requirements right. 
So, we're looking at a--two different things. We have two 
different missile programs are on the front end of development. 
One is land attack, and the other is maritime. So, before we 
launch down two separate development programs, what we're 
trying to determine is, Can we combine these, at least for 
certain technologies that would be common to both, as much as 
possible, into a single program, to reduce cost and reduce 
risk? So, we have delayed the submission of that report as we 
go through this front-end requirements analysis.
    Senator Rounds. When do you expect that report to be 
available?
    Mr. Stackley. Let me first offer, before the report is 
available, that we come over and give a briefing to the 
members, if desired. But, I will tell you right now, within 30 
days. I put out the end of March as a date for that report, so 
you would have it in your hands to support your congressional 
action.
    Senator Rounds. Okay, thank you.
    For Admiral Mulloy, in your judgment, are your ship-
launched munitions inventory sufficient to support current 
operations and the defense strategic guidelines? Are there 
individual ship-launched munitions whose inventories, either 
present or projected, which are insufficient to meet the 
requirements? If so, what are they, and what is being done to 
address the shortfalls?
    Admiral Mulloy. Sir, in terms of the number of munitions to 
meet the defense strategic guidance, I believe right now what 
we currently have planned, funded, and executed in the fleet 
meets that defense guidance. Otherwise--that's part of this 
whole--the budget submission. As I think you've heard the CNO 
testify--and I talked last year, was--unfortunately, munitions 
are one of the areas, when you get either sequestered or get a 
Budget Balance Act, we challenged areas of aircraft, 
modernization of ships and aircraft, weapons, and our base 
infrastructure. So, once again, on the chopping block people 
talked about earlier today, sir, was, If we don't get all the 
money, what happens? That's the real risk we have, going ahead.
    As to individual weapon systems, we are currently ramping 
up for production of SM-6. So, the demand of the combatant 
commanders for the SM-6 weapon, because of its advanced 
capabilities and speed, we are filling those ships, as we can, 
when they go to sea. We're producing them--what we can. We look 
forward to more of those. But, we have large numbers of SM-2 
weapons. So, we're in the middle of change-out on that. SM-3 
for ballistic missile defense, those are produced by--the 
Missile Defense Agency. Once again, in many cases we have 
enough to supply the ships that deploy, but we don't fill every 
hole back at the United States. We are building those as we go.
    Those are the two that immediately come to mind, sir.
    Senator Rounds. Following along the same line--interesting 
how things work at--on my way in, we had a brief discussion 
with people coming in to visit with us from South Dakota. A 
gentlemen who I've known for years just made the comment how 
proud he was of his son, who was piloting an F/A-18. He just 
mentioned in passing, and it caught my attention as I walked in 
here, how--not only how proud he was of the fact that he--his 
son was doing this, but he commented on the fact that it had 
taken an extended period of time in which to complete the 
training because the F/A-18s that were available to them were 
down for extended periods of time because of the lack of parts 
to repair them. I got thinking about it a little bit, and I'm--
you just happen to be in the line of fire, just after having 
that conversation.
    Talk to me a little bit about the F/A-18. I know, when we 
talk about the B-1Bs out of Ellsworth Air Force Base, there's 
been several occasions in which literally they've been in the 
bone pile looking for their spare parts to maintain that fleet. 
Where are we at on the F/A-18? Do you have a shortage of parts? 
Is there a delay? What is the operation status for your F/A-18s 
that are in the fleet today?
    Mr. Stackley. Yeah, I'll start and have--Admiral Mulloy 
will add.
    I don't think it's as simple as parts. What we have is, the 
F-18 program, the earlier versions, A through Ds, they're 
designed and built as a 6,000-hour aircraft, and we're striving 
to get them out to 9,000 hours. In order to do that, they have 
to go through an assessment program and then certain life-
extending modifications, and, frankly, repairs need to be done 
on the aircraft.
    Those aircraft enter the depot, you open up the aircraft, 
and, in opening them up, you have discovery. You discover 
additional repairs that were not planned. So, what has 
happened, more than just--more than just parts, is a time lag 
associated with opening up and inspecting the aircraft, getting 
the technical fix and the parts, and then the labor back on the 
aircraft to restore it to the flight line.
    So, that has created a backlog at the depots that we're 
trying to buy back, burn back down, so we can get the quantify 
of aircraft back out to support training as well as operations.
    Senator Rounds. What's your normal expectation for the 
mission capability? What percent of your numbers would you 
expect to be mission-ready? What does the current number look 
like today?
    Admiral Mulloy. The expectation for an--it depends upon 
where the squadron is. Sir, what I'd like to do is follow up 
and get you the full expectation.
    Senator Rounds. That would be fine.
    Admiral Mulloy. But, generally, a deployed squadron should 
have a mission capability rate full up of over 90 percent. But, 
what we do is, because of--the airplanes that are in depot or 
manning up, is a training squadron--or a squadron, when it's 9 
months from deployment, may only have 6 or 7 aircraft, not 12. 
Their mission-capable rate may be as--it's partially mission 
capable, not fully mission capable. But, then you ramp up to 
have 12 airplanes fully mission capable when you deploy and 
maintain those forward.
    But, we'll get you the specifics on that.
    [The information referred to follows:]

    The current Mission Capable (MC) rate for flight line F/A-18 A-D's 
is approximately 42 percent for non-deployed assets and 57 percent for 
deployed. The goal is to sustain a 64 percent non-deployed and 75 
percent deployed Mission Capable rate. F/A-18 E/F Mission Capable rates 
are approximately 44 percent non-deployed and 65 percent deployed. The 
goal is to sustain a 70 percent non-deployed and 80 percent deployed 
Mission Capable rate.

    Senator Rounds. Would you? Thank you.
    Admiral Mulloy. Yes, sir. But, one other comment I'd like 
to match what Mr. Stackley had was, he's talking about the A-
through-D model, and those are largely half-Marine Corps, half-
Navy airplanes, and taking them to that life and stretch that 
out. The compounding effect has been the ENFs, which are the 
newer ones, we have had to fly those even more than we 
expected. Then, that area, we have seen, is, now that you have 
more airplanes in, the expected production of supply parts 
match--let's say I had a fleet of 400 airplanes, but now I'm 
flying 500--I am using more parts. So, we have accelerated and, 
line by line, I have met with the Chief of Naval Air Force, the 
Chief of Navy Supply to look at individual items and where we 
are to make sure the F-18 E's and F's match what's going on.
    This was not--I would say is--it's clearly in our budget 
material we laid out to the committee, to your staff, was--the 
Navy would not be the--what we call ``2-5-2-0'' until 2018 
because of the Airman Apprenticeship Training Program (ATD) 
aircraft that we were now not being able to fly as much. So, 
it's very clear we saw it there. The expectation was we were 
not expecting the ATDs to be in such, I would say, not poor 
condition, but the condition, when opened up, was not to be 
expected as bad as it was, given what we thought would extend 
those aircraft.
    But, once again, it was never extended to--planned to be 
extended that long. So, this is a finding method for us, and 
we're working as hard as we can to bring them back up.
    We are very proud of every one of our F-18 pilots.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Senator Sessions, followed by Senator 
Shaheen.
    Senator Sessions. Thank you.
    Thank all of you, Admiral Mulloy and Hilarides, and 
Secretary Stackley. I think you're managing complex programs 
well.
    Secretary Stackley, I believe you're a real national asset 
to understand the details of this, and you're tough, and I 
believe you're handling the difficult position you have with 
integrity and ability, and we're glad you're there, and glad 
both of our admirals are, too.
    We have a goal of 306 ships. The LCS, Littoral Combat Ship, 
is a substantial part of that. Can you tell us what role the 
LCS plays in your vision for the future, briefly, of the Navy 
ship fleet?
    Mr. Stackley. Well, sir, I'll start, and ask Admiral Mulloy 
to join me, here.
    First, the force structure assessment has 52 LCSs, or small 
surface combatants, inside of the 306-ship number. Its role--
its multiple roles--first, not to lose sight of it, is 
presence. With the 52 ships, the deployment strategy is that--
is what's referred to as 3-2-1. You'll--for each ship, for--for 
two ships--one of two ships will be deployed out of the 52. 
You'll have three rotating crews to support that rotation rate. 
So, what that means is that 50 percent of your LCSs will be 
deployed at any one time. That's a significant presence 
booster. If you compare that to other surface combatants or 
other ship types, a deployment rate of one in three or one in 
four is typical. In the case of LCS, it's one in two that we're 
going after. So, big operational availability, in terms of 
forward presence.
    Then, in terms of missions, LCS was designed as a modular 
mission ship. In other words, we have the ability to rotate our 
mission packages, depending on what the demand is from the 
combatant commander. So, the three initial mission packages set 
for LCS are the mine countermeasures, which is a significant 
area of concern for our Navy, in terms of warfighting gaps. So, 
we look at LCS to replace the MCMs. More than just replace 
them, to significantly increase our mine countermeasures 
capabilities. Then the other two mission areas, one is surface 
warfare, or anti-surface warfare. First, to deal with swarming 
boat threats that we are limited in our ability to respond to. 
Then the third mission package is anti-submarine warfare. 
Particularly when it comes to LCS, we have a mission package 
for anti-submarine warfare that is very unique. It combines 
what's referred to as a variable depth sonar and a 
multifunction towed array. So, we will have an active--
continuous active variable depth sonar that gets below the 
acoustic layer, and a passive towed array to pick up the 
signal. In demonstrations with an engineering development 
model, we've demonstrated the ability to pick up submarines 
multiple Convergence Zones (CZs) away. So----
    Senator Sessions. I just have a----
    Mr. Stackley. Yes, sir.
    Senator Sessions. Do you want to finish up?
    Mr. Stackley. No, I was going to say, those three mission 
areas for the LCS, that presence that's provided by the 50-
percent deployment rate, and then, when we talk about the 
future frigate, it's modifying that LCS to give it a 
multimission capability, increase its self-defense capability 
for greater independent operations, and, basically, operating 
across the range of military.
    Senator Sessions. Well, I've been on this committee for 18 
years, and I remember when it came forward, the vision for it. 
I would ask--and I thought it was a good idea then, and I still 
do.
    Tell me about--just--I don't have a lot of time, but, 
briefly, how are you on cost containment? There's been some 
criticism about that. But, as I understand it, we're in a much 
better situation today than a lot of people understand. Would 
you give us a rundown on that?
    Mr. Stackley. Yes, sir. The history of cost on the program 
is greatly checkered by the first two ships at each of the 
shipyards. Costs exploded on the first two ships, and then we 
went through a period of instability, design changes associated 
with--incorporated late in those two ships' design that really 
impacted our start. The great step forward was achieved when we 
went down the block-buy path, when were able to bring 
competitive pressure, go out for a 10-ship buy across a 5-year 
period, which ultimately became 6, allowed industry to go out--
reach out to its vendors to secure good pricing, allowed them 
to make investments in their shipyards. So, as a result of that 
block-buy approach, what we've seen is very strong learning-
curve performance, such that the last ships of the block buy 
are at about a $350 million pricetag, which is about half of 
what the first ships were.
    Senator Sessions. About half of what the first ships were.
    Mr. Stackley. Yes, sir.
    Senator Sessions. So, you're getting the cruising speed. In 
other words, the shipyards are producing these ships rapidly. 
The bugs are getting out of the system. Now you're at the time 
where you make money, I guess, where you actually are able to 
produce a ship that's certain to come in at a good cost over a 
period of time.
    Mr. Stackley. Yes, sir. We're seeing stable performance. 
The investments that the shipyards have made have--are paying 
them back, in terms of their performance. They've trained up a 
workforce that they're holding onto through this production 
run. This is--we need to replicate this, frankly, on more 
programs.
    Senator Sessions. Well, I think you said that before. 
It's--what's been achieved is almost historic.
    Well, I know you're aware of the--there's some--in the 
mission packages, there's some--the ship itself--both the ships 
don't have any fundamental flaws, but are operating 
effectively. Is that correct?
    Mr. Stackley. We've--frankly, when we conducted operational 
testing--developmental and operational testing on the lead 
ships, we identified flaws, and we've incorporated those back 
into the designs to the best--best we can to ensure that, 
future ships, those are being captured in the design right 
upfront.
    Senator Sessions. But, with regard to some of these 
innovative, high-tech computer systems and mine 
countermeasures, you are--you're not going to certify those 
until you're satisfied, as--from my conversation with you, you 
are not going to certify until you're certain they are meeting 
the standards, number one. Number two, I'll ask you, Is there 
any doubt in your mind what you're asking will be achievable? 
It's not something that is a pie in the sky, but these are all 
improvements that, with time and effort, can be achieved?
    Mr. Stackley. I think we're dealing with engineering 
issues, not invention. So, the answer to your question is yes. 
In terms of our certification--our certification standards are 
well laid out, well understood. We're holding tight to those 
certification standards. We'll complete the operational 
testing. We've gone down the mission package path in an 
incremental fashion to ensure that we don't overreach with a 
big-bang approach, but, as technology is mature, we can go 
ahead and incorporate it in respect to ships.
    Senator Sessions. I think that's good management. Thank 
you, Mr.--Secretary Stackley.
    Senator Wicker. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here.
    I had the opportunity last week to go out on a--to embark 
on the USS New Hampshire. It's convenient, that was the New 
Hampshire. I was very impressed by the teamwork on the ship, by 
the capacity of that Virginia-class sub, and what our program 
can do. One of the things I heard about while I was there was 
the fact that last year the crew and the USS New Hampshire were 
out submerged for 110 days on their mission. During that 
period, they came up one time to load food for 6 hours. It 
really struck home with me the impact that--when we talk about 
shipbuilding, we talk about it in terms of the ships, but we 
don't often talk about it in terms of the impact that this 
program has on the men and women who serve on those ships, and 
what a shortfall does to the deployment cycles that people have 
to serve. I wonder, Secretary Stackley or Admirals, if one of 
you would like to speak to the challenge that that presents 
when we have a reduced number of ships, particularly 
submarines.
    Admiral Mulloy. Yes, ma'am. As we indicated was, we are 
meeting the demand of 100 ships from a 300--from a 275 ship 
Navy right now. Ten years ago, I would have told you we had 100 
ships underway from a 400-ship Navy. So, what that means is, 
every asset is critical to us, and that means that you have to 
man it, you have to maintain it, you have to train them up to 
be successful, and then you have to supply them when they're 
forward deployed. In many cases, they may have to go back out 
again if the world situation changes. A number of our SSNs from 
the Groton area had to rego back at sea again, so I believe the 
New Hampshire went back from deployment and went back out 
again, because she was ready to go. That ripples into a little 
bit on the family world. They had some plans; you know, 
birthdays, anniversaries were missed. We've all been there, 
back in the Cold War. We're just entering a phase again where 
the world is shifting, but it's not one defined adversary. So, 
as a result, we ask a lot of our people.
    So, it's important--and that's one thing out there, where 
the CNO--he and I were just talking, on Monday--is that, when 
he travels around, it's not necessarily the length of 
deployments, it's the unknown, when they come back to, ``Am I 
going to go again? But--``I'm willing to go again if America 
needs me.'' But, what's going to happen about--``Am I--is 
Congress not going to supply the money? Is my--is the barracks 
not going to get refurbished?'' Because they know, in 2013-
2014, we deferred that. You know, we've maintained all of our 
ship maintenance, we just had to slow some schedules, because 
the shipyards were--shipyard workers weren't furloughed, but 
other--every Federal agency was furloughed, and had a dramatic 
impact on the workload. If you're in the shipyards, your boat 
didn't get done on time. If you're the petty officer on another 
ship, you stayed out longer.
    So, they're all woven together, and they're all observing--
all 323,000 people in the Navy are observing what's going on, 
and they want all of us to push on you, they want all of you to 
supply back out to them so they can be that 100-day underway. I 
know exactly what it's about with all my deployments operating 
from Groton and San Diego and Guam, exactly what that's like. 
You count on your family to be well and that America cares and 
loves about you.
    Senator Shaheen. Well, I think we heard a lot about this 
concern during Iraq and Afghanistan, in terms of the deployment 
of our service men and women in the Army, the Marines. But, I 
think there's been less of a focus on it with respect to the 
Navy. So, I do think that's important to have as part of this 
discussion.
    The other thing I was pleased to hear when I was on the New 
Hampshire was a number of very positive comments about the 
Portsmouth Naval Shipyard, which is something that Senator 
King, Senator Ayotte, and I are all very concerned about. I 
wonder if, Secretary Stackley, you could talk about the 
importance of continuing to modernize our shipyard and keeping 
that 6-percent capital investment maintained.
    Mr. Stackley. Yes, ma'am. I'll start, and I think I'll let 
Admiral Hilarides join in, as well.
    The----
    Senator Shaheen. I have about a minute and 50 seconds left.
    Mr. Stackley. Yes, ma'am. This--we have revised our 
standards, in terms of our recap rate for our public shipyards, 
in recognition of a couple of things. One, it was stretched out 
too long. Two, the facilities, as a result of this long 
stretchout over a long period of time, they're in need in 
particular areas of upgrades. Three, we can't rely on just the 
Overseas Contingency Operations Fund (OCO) and other avenues to 
basically augment our budget to take care of it. We have to 
make that a priority. So, in fact, the report that we submitted 
to Congress 2 years ago, we went back through, as a result of 
that review, and revamped the way that we are investing in our 
public yards. Both Admiral Mulloy, as our budget officer, and 
Admiral Hilarides, as the officer who's in charge of the 
shipyards, had a heavy hand in both of those. I'm--
    Admiral Hilarides. Yeah, I would just add that, you know, 
we were below that 6-percent benchmark in the submission in 
2015. I'm happy to report we'll achieve about 7 and a half in 
the public shipyards. Then our budget submission for 2016 has 
7.2. We think we'll be well over 8. Captain Green's done a 
great job of being first to the--first at the head of the line 
for this. So, I--Portsmouth has done very well in that work.
    Senator Shaheen. Thank you. I appreciate that. I assume, 
like everything else in the defense budget, that would be 
affected if sequester kicks back in.
    Let me also follow--Secretary Stackley, you were very 
eloquent in response to Senator King's questions about the 
impact on the industrial base of what's happening and what 
would happen with sequestration. But, you know, Senator King 
raised Bath Iron Works. You talked about Huntington Ingalls. 
One of the things that I've heard from small businesses in New 
Hampshire, where we have a defense industrial base, is that, 
while some of the larger companies can weather these kinds of 
cuts, for small businesses, they really cannot do that. If the 
subcontractors are no longer in--able to stay in business, 
aren't we going to have the kind of issue that Senator McCain 
talked about when he said competition means--well, lack of 
competition means that costs go up, means that it's harder to 
procure whatever we're looking for, whether it's the ship or a 
system on the ship?
    Mr. Stackley. Yes, ma'am. The supplier base--it's been 
harder for us to get at the supplier base, traditionally. But, 
we're making a concerted effort today, because we recognize 
that, in continuing resolutions and sequestration, the first 
one that's impacted is the guy at the end of the supply chain, 
because he's the first one whose invoice is waiting for 
funding, and he's the one who is least able to weather the 
storm.
    So, we've been doing a couple of things. First, we were 
working with the big defense contractors. In all of our 
discussions with them, asking them, in terms of, ``How are you 
all viewing your supply chain to ensure that it remains 
healthy?'' That's a good dialogue. But, we can't just rely upon 
them.
    So, separately, we've been going out, and we're taking a 
look at our supply chain past the defense contractors to, 
first, map where it is; second, to identify what are the 
critical elements of that supply chain, where there's either a 
single or a low number of suppliers that, if they went out of 
business, we would either lose competition or we would lose 
critical supply for one of our major weapons systems.
    So, it's a couple-pronged approach. Then, third, we're 
having roundtables around the country, sitting down with small 
businesses to understand their problem from their perspective 
so we can make that a part of--make that our problem, frankly, 
and how we do business with small business.
    I'll give you a very simple example. We have a thing called 
``CAPEX incentive''--capital expenditure incentive--that we 
provide to our major contractors to allow them to--to 
incentivize them to invest in their facilities. We don't do 
that with the supply chain. So, now what we're exploring is, 
Does this make sense to provide this type of CAPEX that either 
passes through the front contractor to get to their supply 
chain to give them the same benefit that we provide the big 
defense contractor who, frankly, is in a better position to 
deal with the financial uncertainty than their suppliers?
    Senator Shaheen. Thank you very much.
    Certainly, if we can be helpful, I'm sure that all of us on 
this committee, as you're talking to small businesses in our 
region, would be happy to participate and be helpful.
    Mr. Stackley. We're going to come back to you all with some 
asks associated with supply-chain material commonality for some 
of our major programs as we look ahead to some of the fiscal 
challenges that we've got, in terms of controlling cost and 
dealing with budget uncertainty. We have some very specific 
asks that we're going to need from you.
    Senator Shaheen. Great.
    Thank you, Mr. Chairman.
    Senator Wicker. Senator Hirono.
    Senator Hirono. Thank you very much, Mr. Chairman.
    I think maintaining our shipbuilding capacity in this 
country is really critical, as you mentioned in your testimony, 
that other countries are forging ahead. I'm really glad, Mr. 
Secretary, that we're looking at, not just the shipbuilders 
themselves, but also the supply chain. I think that they are a 
very important part of maintaining our shipbuilding capacity. 
So, I commend you for those efforts.
    For Admiral Mulloy: For a number of years now, the Navy's 
long-term goal for fleet size has been 306 ships. Are you 
planning to change the goal for the size of the fleet?
    Admiral Mulloy. Well, ma'am, the goal is actually set 
when--it's called a Force Structure Assessment, and it's 
actually 9 separate items we look at and go out to the 
combatant commanders and then also all the military plans, and 
we assess how many aircraft carriers, how many large surface 
combatants, how many attack submarines, how many ballistic 
missile submarines. That adds up to 306. Now the latest version 
about to come to the Hill will be 308. We've added another 
afloat staging base and recognize the LPD-28 to provide 34 to 
allow us to make sure we get 30--as we talked earlier, about 30 
amphibs.
    So, 308 is a force-structure assessment, of which is 9 
different types of ships--or categories--of a--what I'd call an 
attainment. Now, that means you could substitute different 
ones. You could have--a large surface combatant could go do a 
mission for a small surface combatant if you don't have enough. 
That's where we're trying to build the LCS right now.
    So, we're attempting to build a fleet size of that. Now, as 
we have just--we're now going to commence again, for another 
year from now, another assessment out with the combatant 
commanders of a new global end state revising the world again. 
So, the number might change by--anticipate it'll be probably 
somewhere around the 308 number again. But, once again, that is 
an aspirational goal of all those types that you have to build, 
depending upon sustained, consistent funding, that you could 
build, because all those items and those ship types, as we 
discussed earlier, compete. Submarines are going down, amphibs 
are going up at any one time, what the companies are building. 
But, I need, as a Chief Financial Officer (CFO), is to give the 
CNO and the Secretary of the Navy and his assistants here some 
kind of plan of a requirement and that we try to build to that.
    Senator Hirono. How are you incorporating the shift to the 
Asia-Pacific in reviewing the requirements for the total number 
of ships?
    Admiral Mulloy. Well, ma'am, that's--lay down our--called a 
strategic laydown plan. So, we have just moved a fourth 
submarine to Guam. The USS Topeka will be arriving in Guam 
shortly. We're putting other ships as we move around the 
western Pacific. We're actually bringing ships as they're 
commissioned from the east coast, where they're built--our 
submarines are built there, they come to the west coast. So, we 
are constantly looking at moving. The Theodore Roosevelt just 
left on a round-the-world cruise. She will go from being an 
Atlantic aircraft carrier, proceed through the Mediterranean, 
operate in the Middle East, and eventually end up in San Diego 
at the end of her 8-month deployment, and now will become a 
west coast ship. So, we're restoring a balance to provide more 
forces to the west coast.
    Senator Hirono. Well, the important concern that I want to 
make sure is reflected in your assessments is that we continue 
our commitment to the rebalance to the Pacific.
    For Secretary Stackley, the Navy--responding to direction 
from former Secretary Hagel, analyzed numerous upgrades to the 
current LCS designs. I know you mentioned that this program 
has--undergoing a number of challenges, including large cost 
overruns in the beginning, and design changes that led to 
instability. So, you know, that--Secretary Hagel identified 
some upgrades to the ship that the Navy hopes to include in the 
33rd ship and later. We need to understand the reasons behind 
this change.
    So, either for Secretary Stackley or Admiral Mulloy--
perhaps Admiral Mulloy--do you have an approved requirement for 
the modified LCS vessel? Joint Requirements Oversight Council 
(JROC) approved?
    Mr. Stackley. Let me start. JROC approved for the modified 
vessel, no, ma'am. What we are doing right now is, we're going 
through what's referred to as--inside of the service, our 
equivalent of the--you know, JROC inside of the service, our 
requirements definition process. That's ongoing today. We've 
got a target to get down the JROC in the June timeframe, 
recognizing that this is a 2019 ship that we're proposing to 
modify. What we want to do, though, is get moving on the design 
activities to support that timeline.
    The Secretary of Defense, he gave us the tasking. In 
discussions with him, a lot of the tasking was not dealing with 
a new threat, taking a look at a 306-ship Navy, 52 LCSs, about 
1 in 6 having what's referred to as a ``focused mission 
capability.'' In other words, it could be doing anti-submarine 
warfare (ASW), or it could be doing anti-surface, or it could 
be doing mine countermeasures, but it's not doing all of them 
at once time. His concern that the concept of employment or 
operations for the LCS either involved phase zero--early phase 
activities or were in the context of a battle group providing a 
degree of protection for the LCS.
    He believed that one in six of our fleet was too large of a 
number with that concept of employment. So, that's how he 
arrived at--cap that at 32. He wants to see something that had 
what he referred to as greater lethality and survivability to 
enable more independent operations, more operations in support 
of battle groups, in support of defending the high-value units, 
and give it the ability to provide presence without--outside of 
the bounds of--
    Senator Hirono. So, Mr. Secretary, I am running out of 
time. So, just to get a better understanding of what's going on 
with the LCS program, though, I realize that Secretary Hagel 
wanted to focus on survivability. Is the survivability 
requirements for the 33rd ship forward basically very much 
different from that that was in the basic LCS?
    Mr. Stackley. We did not change the requirements associated 
with survivability for the modified LCS.
    Senator Hirono. So, Mr. Chairman--oh, where did he go? I 
guess I can carry on, then.
    [Laughter.]
    Senator Hirono. My understanding is that, before you really 
get into the specifics of the design of a ship, that you should 
get the approved requirements, that, when you don't have the 
JROC approval or certification or whatever the technical term 
is, that, you know, you should put the--you shouldn't put the 
cart before the horse. So, that is why I asked the question as 
to whether or not there is an approved requirement for the 
modified LCS vessel before going forward with any further 
design aspects.
    Mr. Stackley. We do not have a--as I described, we do not 
have a JROC-approved requirements document in advance of--
today. However, we will have that in advance of doing the 
design for the modification of the LCS.
    Senator Hirono. So, when would that timeframe be----
    Mr. Stackley. We're targeting June----
    Senator Hirono.--for getting JROC?
    Mr. Stackley. We're targeting June timeframe for the JROC. 
Literally today inside of the Department of the Navy, we're 
working the requirements document to support that timeframe.
    Senator Hirono. Thank you.
    My time is up, so I might want to ask the chairman to allow 
me to do a second round.
    Senator Wicker. Sure. We may take an extra round.
    So, let me start with my first round.
    Secretary Stackley, I think everyone here is committed to 
replacing sequestration, if we can. I think everyone has made 
that statement. Not everyone in this town feels that way. You 
hear--well, let me harken back to something Admiral Mullen 
said, several years back. He said the national debt's the 
number-one security threat of the United States of America. I'm 
sure Admiral Mullen would have the same advice to us on 
sequestration. But, still, he made that statement. There are 
people who would urge to us, you know, ``The sky didn't fall 
the last time we endured sequestration. Obviously, it was hard, 
but we got through it. Sequestration has been a very inartful, 
but effective, way of pounding down on expenditures, domestic 
and defense.'' Help us to help you know how to cut through the 
rhetoric.
    You know, in my opening statement, I mentioned there are--
some folks say--they say we need 306 ships. It's the Navy's 
stated force structure. National Defense Panel says 323 to 346. 
The combatant commanders say 450. A pretty big gap there from 
people that are supposed to know what they're talking about. I 
thought I heard you say that we're going to protect 
shipbuilding, no matter what. They'll be the top priority. So, 
these people at the end of the chain, there, in the supplier 
business, maybe they don't have so much to worry about. It's 
the morale that Vice Admiral Mulloy talked about, civilian and 
military.
    Just help us to know how serious this is. Can't we just--
can't we do this one more year--let it go back in for a fiscal 
year, muddle through, and the sky wouldn't fall?
    Mr. Stackley. Yes, sir, let me try to walk through this.
    There are three aspects that we have to balance. There's 
readiness, there's capacity, and there's capability. The 
discussion about keeping shipbuilding as a priority, as the 
budget--in the face of budget uncertainty, that has a lot to do 
with capacity long term. That's so that we do not mortgage our 
future in dealing with today's fiscal crisis.
    However, what we place--the risk goes somewhere. So, where 
does the risk go? Well, it's either going to go to readiness or 
it's going to go to capability. By readiness, we talked about 
extended deployment lengths. If you look at the size of the 
Navy over the last 25 years, in the early 1990s we had a 450-
ship Navy, and we had about 100 ships deployed. Today, we have 
a 275-ship Navy, we have about 100 ships deployed. That's wear 
and tear on the hardware, it's wear and tear on the sailors, it 
creates backlog in the depots, and it creates questions 
regarding operational availability, going forward. So, 
readiness is at risk.
    Capability, that's not so much the ship count, but that's 
the weapon systems that we place on those ships. So, when we 
talk about the Ohio replacement and the investments that we 
have to make, in terms of its survivability, its capability 
inside of shipbuilding, that is a number-one priority. So, 
we're going to protect that investment to ensure that Ohio 
replacement has the capability it needs. But, then when you 
walk away from the Ohio replacement and look at the rest of our 
shipbuilding programs and the investments that we need to make 
to ensure that they are mission relevant--they're not just 
present, but they have the capability they need to deal with an 
increasing threat--that's at risk. That's on the shipbuilding 
side.
    We also talked earlier about the F/A-18 and what's going on 
in the depots there. So, parallel universe with shipbuilding is 
the aviation component, in terms of backlog in the depots and 
then the investment we need to be making in fifth-generation 
capability for our strike fighters so that, in fact, it can go 
head-to-head in high-end conflict, which is the thing that 
concerns us most.
    So, we have to keep all three in balance. What does 
sequestration do? It's pulling the rug out from one or all 
three. So, if we protect shipbuilding in the face of 
sequestration, it's going to come at the expense of readiness 
today or the capability that we need to continue to invest in 
so that we don't just have the ships on the front line, we have 
the ships with the weapon systems they--that they need--not to 
maintain parity, but to maintain superiority over the threat.
    Admiral Hilarides. Yeah, I'd just like to add one example 
of the enduring effects. It's kind of like shipbuilding, but in 
a microcosm, and I think it'll relate to several members of 
this committee.
    Our public shipyards during the time of the sequestration 
and the hiring freezes that were associated with it, 1,400 
people left the workforce at a time when we were supposed to 
have been increasing it, and left us a divot almost 2,000 
people behind, which has directly resulted in us not 
delivering--
    Senator Wicker. When was that?
    Admiral Hilarides. At all four of the shipyards, so 
Norfolk, Puget, Portsmouth, and Pearl Harbor.
    Senator Wicker. What timeframe, sir?
    Admiral Hilarides. Started in early 2013, and we began 
hiring again at the beginning of 2014. We crossed over to a 
positive territory almost a year and a half after the beginning 
of the event. The SSNs in the public yards in Norfolk and Puget 
are a year late on delivery out of their depot today because of 
the effects of those hiring freezes that occurred back in 2013. 
So, these divots, although it appears we stood right back up 
from it, we are still recovering very much across all of the 
enterprise.
    Admiral Mulloy. What the CNO just testified is, in terms of 
the surge capability. We talk about--we've been able to 
maintain--we call ``one-plus-one''--other words, one aircraft 
carrier in the Pacific, one in the Middle East, and we flow 
them around. We're also supposed to be able to surge--the 
ability to surge more carriers and amphibious groups, that we 
have one-and-one also there, to the ability to having what we 
call ``two-plus-three''--two of them out and three of each to 
be ready to flow for pressing needs. Right now, we're at a 
``two-plus-one,'' and we do not recover that in carriers until 
2018. Then amphibs would be 2020. That's due to a sequestration 
and a BBA. If it happens again for 1 more year, I don't know 
how far that will slide, but that's a 5-year rolling impact of 
one anomalous event.
    So, when you say is, Can you have another anomalous 
event?--that's where he said was, ``No, we can't.'' Are you 
talking about a 2024 ability? How long will the world change in 
the next--you know, the next 8 or 9 years to be more negative 
for us to have us in the situation of a degrading posture vice 
an improving posture?
    Senator Wicker. Before we turn to Senator King for a second 
round, does anybody want to follow up on this line of 
questioning with regard--okay. Well, all right. Senator King 
and then Senator Shaheen, on the topic of sequestration, and 
then we'll give Senator King another opportunity to take 
another round.
    Senator King. I was going to say, we shouldn't beat a dead 
horse, but this is a dead horse that deserves beating, in my 
view. As I understand it--and again----
    Senator Wicker. Don't know how dead it is.
    Senator King. That's a good point.
    Again, going back to your excellent report on the 
industrial base, as I understand it from that report and from 
my memory, we were able to skate through the first year of 
sequestration because of unexpended balances and other sort of 
historic ability of built-up funds, and then we had the partial 
relief over the last 2 years. So, this year would be full 
force, and it would, in fact, be worse than what was gone 
through in the prior several years, because of those different 
circumstances. Is that--am I understanding correct?
    Mr. Stackley. Yes, sir. We pulled--every bit of margin that 
was in the system, we pulled out of the system in order to 
offset the impact of sequestration in 2013. So, we drew a lot 
of our programs and accounts down, in terms of margin, to 
weather through sequestration.
    Senator King. But, you can't do that now.
    Mr. Stackley. It's--we've exhausted it, yes, sir.
    Senator King. Well, I think that's the answer, Mr. 
Chairman, to this argument, ``Well, we made it through, and 
therefore--the sky didn't fall.'' It was because we had slack 
in the system that allowed us to do that. Then we had the 
relief in 2014 and 2015. But, now we're facing the full brunt 
of it.
    I think we need to remind ourselves, this was a--
sequestration was designed to be stupid. It was explicitly 
designed to be so unacceptable that Congress would find a 
solution to--find ways to solve this problem in other ways, and 
it was supposed to be so dumb that it would never happen. In 
fact, I remember being asked, in my campaign in 2012, ``Will 
sequestration take effect?'' I said, ``No, of course not. 
Congress would never let that happen.'' Well, here we are.
    So, it's not that those of us who want to relieve from 
sequestration are saying we just should ignore it, but we 
should find other ways to fill that $90-billion gap in the--
this fiscal year and the 6 years that are still remaining, 
through various other areas of the budget.
    So--but, I think it's important to get across to our 
colleagues that, just because we made it through in 2013, 2014, 
and 2015 doesn't mean that the next year will be a piece of 
cake, because the circumstances are different.
    Senator Shaheen. Well, I just wanted to follow up on the 
other consequence of what you were talking about, Vice Admiral 
Hilardes, because what I have heard from people at the 
Portsmouth shipyard is that, not only did we lose people as the 
result of sequestration, but we're having trouble hiring 
people. We have--as you know, we have a lot of very trained and 
skilled people who are reaching retirement age, and trying to 
attract the skilled workforce we need, particularly in the 
science, technology, engineering, and mathematics (STEM) 
subjects, to replace them is difficult enough. But, if you add 
to that the uncertainty of, ``Well, we're not sure if we're 
going to have a job long term because these cuts may be coming 
back in, and we don't know what that means to our future,'' 
then that creates another element that makes it even harder.
    Admiral Hilarides. Yes, ma'am. The things that happened in 
2013 came at a--probably the most opportune time, is that the 
economy was not as robust as it is today, and, as a result, we 
did not see a dramatic spike in retirements, although we did 
see a slight increase. Hiring, we still get plenty of 
applicants for the great jobs up at the shipyards. But, I think 
if we do this--and looking at the economy is now, with the 
growth in industrial trades across oil and gas and other places 
in the economy, we probably won't be in that same place. I 
worry a lot about just what you said, that hiring and 
retirements will both go--fall against us, and our recovery 
would be much longer than it has been in the last 2 years. Yes, 
ma'am.
    Senator Wicker. Senator King, do you have further 
questions.
    Senator Hirono.
    Senator Hirono. Thank you.
    You've talked about the importance of the Ohio-class 
replacement program. Fiscal Year 2015 National Defense 
Authorization Act established a National Sea-Based Deterrence 
Fund. I wanted to ask you, Secretary Stackley, What are the 
Navy's plans for using this fund to implement the Ohio-class 
replacement program? Because you need to have some processes in 
place in order to make sure that you're out of a--you know, 
you're ready to go and there's money in this fund.
    Mr. Stackley. Yes, ma'am. We need to work with you all, and 
the appropriators as well, in terms of how to put this fund to 
work. Right now, it's a framework without funding in it. What 
was authorized was to be able to use other funds from 
shipbuilding to go into the sea-based strategic deterrent fund.
    Well, today we don't have other funds from shipbuilding to 
move into that fund, and particularly not in the--to the 
magnitude that we really need to ramp up to, to support the 
Ohio replacement.
    So, we're looking at--we actually start procurement of the 
Ohio replacement. The first procurement dollars are in 2017. 
That's the advanced--I'm sorry, 2017 is the advanced planning; 
2019, in terms of material. So, what we need to do is come back 
to the defense committees and discuss what the--what are 
reasonable options, alternatives, in terms of making this fund 
more than a framework, but actually helping to solve the issue 
that's before us all, in terms of the impact of the Ohio 
replacement on our shipbuilding budget.
    Senator Hirono. Yes, that's my concern, because I think 
what you--you can't start too soon to have more than just a 
framework for this fund. I think it takes time for us to 
establish the processes and how exactly you're going to 
implement this fund.
    For you again, Mr. Secretary, the Navy announced the 
intention to complete a package of ship contracts, including 
the TAO(X) oiler, the LHA(R)--I just love all these acronyms--
amphibious assault ship, and the LX(R) dock landing ship 
replacement all in one package. So, Navy also said that it 
would restrict competition for that package of contract to only 
two shipyards. What is the Navy's strategy for rewarding these 
contracts? Why is it in the taxpayers' best interest to 
restrict competition for these ships?
    Mr. Stackley. Thanks for the question, ma'am. We're trying 
to balance a couple of things.
    First, our requirements. So, we have a requirement to 
replace our fleet oilers, and that's the--that first of class 
ship for the TAO(X)--that's the replacement for our fleet 
oilers--is in the 2016 budget year. We also have a requirement 
for a new big-deck amphib, the LHA-8, which is a 2017 ship with 
advanced procurement in 2016. We've talked about the LX(R), 
which is the replacement amphibious ship for our LSD-41 class, 
which we have in the budget in 2020, with advanced procurement 
the year prior.
    So, when we look ahead at those three major programs across 
our industrial base, a couple of things become immediately 
apparent. First, we talked about the fragility of the 
industrial base. What we want to do is add stability to the 
industrial base. Second, we've talked about affordability of 
our shipbuilding program, so what we want to do is figure out 
how to drive affordability into those programs, to the extent 
possible. Then, third is competition, which couples the 
industrial base and the element of affordability.
    The strategy that we have put forward does a couple of 
things. First, it sends--it sends a signal to our industrial 
base that we're going to limit competition to the two 
shipbuilders that we believe are absolutely essential to our 
industrial base.
    Senator Hirono. By the way, what are the two shipbuilders?
    Mr. Stackley. Ingalls Shipbuilding and----
    Senator Hirono. In Mississippi.
    Mr. Stackley. In Mississippi. General Dynamics NASSCO, in 
San Diego.
    Today, Ingalls builds four different ship classes. Today, 
NASSCO builds one Navy ship class and commercial work. We view 
them both critical to our industrial base. If we were to go 
down a path of open competition and soliciting these one at a 
time, there is tremendous uncertainty in terms of what the 
outcome would be, in terms of our industrial base and our--the 
affordability of those programs.
    So, what we've elected to do is, one, limit the competition 
to those two builders; two, we're soliciting each of these 
programs separately but together, and requiring bids on each 
from both shipbuilders so that we can get competition inside of 
each, as opposed to either allocating or awarding one at a 
time, which puts one of the shipbuilders at risk.
    So, in order to preserve the industrial base, leverage 
competition, bring affordability and stability to that 
industrial base, we've elected to limit the competition, go out 
with a single solicitation that contains both the LHA-8 and the 
TAO(X), size them what we believe to be about the same, in 
terms of man hours of work, and also about the same, in terms 
of horizon of time, so that industry has some assurety that, 
okay, ``We understand how much work is coming our way, we can 
build that into our business base. We'll sharpen our pencils, 
in terms of competition.''
    Senator Hirono. So--I thank you for that explanation. You 
mentioned, though, there are eight shipbuilding facilities, and 
four of them are only one contract away from going under. So, 
are you also looking at what's going on with those other 
shipyards, shipbuilding----
    Mr. Stackley. Yes, ma'am. So----
    Senator Hirono.--facilities?
    Mr. Stackley.--the other shipyards--first, on the nuclear 
side, electric boat, in Newport News, are not in what I would 
call a fragile position.
    Senator Hirono. The four that are one contract away.
    Mr. Stackley. They're in very strong position. In fact, 
they have increasing workload coming their way.
    NASSCO is a contract away. They are in peril. So, that's 
why this is an important aspect of NASSCO's viability.
    Ingalls--if Ingalls does not get one of those two major 
programs, then they are at risk.
    Now, separately--I haven't discussed Bath Iron Works, 
because Bath Iron Works does not build these ship types, so 
they're not a part of this discussion. But, separately, we did 
talk about the multiyear for destroyers. Continuing down that 
multiyear path, it's important to both BIW and its competitor, 
Ingalls, on that program.
    Then we have the two builders for the Littoral Combat Ship 
(LCS), Austal, on the Gulf Coast, Marinette Marine, up on the 
Great Lakes. They're separately addressed, in terms of the 
future shipbuilding strategy for LCS followed by a future 
frigate.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Well, Senator McCain expressed concern 
about competition. I think that was with--in regard to aircraft 
carriers.
    Mr. Stackley. Yes, sir.
    Senator Wicker. Would you care to respond to that?
    Mr. Stackley. He made a generic comment that we need 
competition to help control costs on our programs. We are 
absolutely in agreement there. With specific regards to the 
aircraft carrier, we have been asked, and we are following 
suit, to conduct a study to look at alternatives to the Nimitz- 
and Ford-class size and type of aircraft carrier, to see if it 
makes sense. We've done this in the past. We're not going to 
simply break out prior studies, dust them off, and resubmit it. 
We're taking a hard look to see, Is there a sweet spot, 
something different, other than today's 100,000-ton carrier, 
that would make sense to provide the power projection that we 
need, that we get today from our aircraft carriers, but, at the 
same time, put us in a more affordable position for providing 
that capability?
    Senator Wicker. Okay. But, right now he's--he's made a 
correct factual statement with regard to the lack of 
competition.
    Mr. Stackley. Yes, sir. There's--if you--there is no other 
shipyard in the world that has the ability to construct a Ford 
or a Nimitz nuclear aircraft carrier, other than what we have 
Newport News, and the capital investment to do that is 
prohibitive to set up a second source. So, obviously, we are 
content, not with the lack of competition, but we are content 
with knowing that we're only going to have one builder for our 
aircraft carriers.
    Senator Wicker. Let me also follow up on the question about 
the EMALS. Now, EMALS is a catapult and an arresting mechanism 
based on electromagnets. Senator McCain was getting a lot of 
questions in in his allotted time. So, let me give you time to 
explain about that.
    You've been in this business a long time. But, we adopted 
EMALS, decided to move to that, well over a decade ago. Is that 
correct, Secretary Stackley?
    Mr. Stackley. Yes, sir. I think the decision was made in 
2004.
    Senator Wicker. Okay. Well, is it a good point, looking 
back, to say we were doing fine with the steam-powered 
catapults and arresting mechanisms, so why did we go to this?
    Mr. Stackley. Let me start with the requirement. The--this 
wasn't a technology push. Going to EMALS enabled a couple of 
things. One, in terms of requirements, increased sortie 
generation rate, which is basically the mission of the aircraft 
carrier--launch and recover aircraft. Two, reliability. The 
number-one--
    Senator Wicker. So, EMALS is supposed to be able to give us 
a better rate of----
    Mr. Stackley. Yes, sir.
    Senator Wicker.--of launching.
    Mr. Stackley. Yes, sir.
    Senator Wicker. Is that, in fact, going to be the case?
    Mr. Stackley. That will be the case. Let me just say that, 
today, analytically and what we've done in terms of land-based 
testing support that. Now what we've got to do is get out and 
demonstrate that, in terms of operational testing, and, more 
importantly, in terms of joint fleet exercises as the ship 
readies for deployment.
    Senator Wicker. When that happens, to what extent will the 
rate be----
    Mr. Stackley. We have----
    Senator Wicker.--better?
    Mr. Stackley. We have--oh, not better.
    Senator Wicker. Faster?
    Mr. Stackley. Yes, sir. I would tell you it's in the 25 
percent----
    Admiral Mulloy. Our sortie generation rate is the 
combination about--as he said, 20 to 25 percent better. It's 
the electromagnetic launching, it's the ability load fuels and 
weapons, and it's also the landing capacity. So, it's really 
all taken together as--the ship is designed to be able to land 
airplanes quickly and maneuver them in front of the island, 
which is further back and taller. There are fuel risers and 
there are ammo elevators right there. They can quickly get back 
on the EMALS catapult. So, at the total synergy, it's about a 
25 percent increase of throughput capacity on the carrier.
    An important driver on this was also the manpower and 
piping required, is that, when you design the ship for long 
term, steam catapults, you have to tap off hot water from the 
reactor plant, bring it up, you have steam piping, a 
significant amount of maintenance. You're saving about--I think 
it's between 4 and 600 people on that ship, or--and so, you're 
generating billions of savings because I don't have to bring as 
many petty officers in to work on steam piping for the entire 
50-year ship of the life. I just have electromagnets operating 
all the time. So, I reduce the number of people onboard, and I 
increase the throughput rate. So, when you look at a 50-year 
life of a ship, it's a significant investment.
    The last one is, I can adjust the weight throw, is--as I 
look at heavier airplanes and unmanned air vehicles, a steam 
catapult hits it with a certain thud. With the EMALS, I can 
adjust the weight down for a light, unmanned air vehicle, or I 
can go for a fully loaded F-35 advanced airplane, with weight 
and space growth for the future, all on one thing, with greater 
flexibility.
    Senator Wicker. When will this become a reality, if 
everything goes well out in the water?
    Admiral Mulloy. It'll be testing in 2016. So, we expect to 
be, at least on the airplane side, in 2017 through 2019, work 
up to deploy; the unmanned air vehicles will depend upon some 
other follow-on work, sir.
    Senator Wicker. When might the first deployment be out on 
the ocean?
    Admiral Mulloy. I'll get back to you an exact date, sir----
    Senator Wicker. Good.
    [The information referred to follows:]

    Gerald R. Ford (CVN 78) is the first aircraft carrier to be 
constructed with EMALS and is planned ot make her first deployment in 
2019.

    Admiral Mulloy.--but I believe it's at the end of this 
decade.
    Senator Wicker. We take questions for the record.
    Okay. Now, Senator Hirono was on a very important topic 
with regard to the Ohio replacement class. In your joint 
statement, which I do commend you all for, ``The Navy continues 
to need significant increases in our top line beyond the FYDP, 
not unlike that during the period of Ohio construction.''
    What--we know this is expensive, and we're going to wrestle 
with how to help you on this, because it's a vital leg of our 
triad. But, what lessons can we learn from the period of the 
original Ohio construction to help us with dealing with the 
increases in the top line?
    Mr. Stackley. Sir, let me just describe that--we took a 
look at history, in terms of ``What's this boat going to cost 
us, as a percentage of our defense budget, as a percentage of 
our Navy budget, as a percentage of our shipbuilding top 
line?'' As a percentage of our defense budget, it's 
historically right where the Ohio was, and historically right 
where the Polaris was so many years ago.
    Senator Wicker. You're not alarmed.
    Mr. Stackley. Oh, I'm alarmed. Is that--yes, sir.
    Senator Wicker. You're just not surprised.
    Mr. Stackley. I don't think we should be surprised, because 
this is a significant capital investment that comes along every 
30 to 40 years. It's a limited run of very high-end, very 
capable submarines, as opposed to a long production run. What 
that means is, when it comes time to recapitalize, there is 
going to be a significant uptick, bump, increase, in terms of 
our shipbuilding total obligation authority (TOA). That's what 
we're seeing as we march into Ohio replacement period.
    Senator Wicker. Admiral?
    Admiral Mulloy. The other point I'd bring you, sir, back 
then was--it was a national need, and the Navy was internal to 
the Department of Defense budget, but we did not have a Budget 
Control Act containing the strategy. So, in this case, when the 
Secretary of Defense looks at Ohio replacement, I should be 
able to put 1 percent of the DOD budget to the Navy in the 
fiscal guidance. That means, as opposed to other years, when 
the Secretary of Defense went to the President who went to 
Capitol Hill, hey, that 1 percent or, you know, that equivalent 
then would have been the equivalent of $5 or $6 billion a year, 
was available. But, right now, as you look at the Budget 
Control Act, every year through 2023--and it was extended 2 
years because of the 2014-2015 BBA--through 2023, there is a 
hard cap on the Department of Defense.
    So, therefore, I have to go in and say, was--``Oh, gee, if 
I want to give Ohio replacement the $5 billion in 2021 to build 
that ship, who am I going to go through and then take out Air 
Force missiles or I'm going to take out surface ships or I'm 
take out Army brigades?'' So, that's the biggest difference, I 
would say, right now, is--we look at, at least the beginning of 
this program--is we did not have a Budget Control Act on top of 
the Department of Defense when we built Ohio--the Ohio 
replacement--or, pardon me, the Ohio's.
    Admiral Hilarides. I would just--you asked a specific 
question about what lessons you would take. The lesson of the 
Ohio-class was a very stable requirement--I think we made one 
major weapons change in the middle of it, but we knew it when 
we started. It was--started with the C-4 missile, went to the 
D-5 missile. But, the first boat and the last boat are nearly 
identical, even today, 30 years into their life. So, that 
stability of requirements, stability of funding, is what 
allowed us to build those 18 SSBNs, one after another, one year 
at a time, until all 18 were done. That is a good way to build 
ships. It has to be built on an industrial base that's 
sustained by the SSN production that is more steady-state. But, 
by definition, when you do it that way, you create that rise 
for the years that you're building the ships. Without relief, 
many of the other shipbuilding programs will be very, very 
difficult to fund.
    Senator Wicker. Well, we want to work with you on that, and 
be part of the solution.
    Do members of the subcommittee have questions that need to 
be asked at this, or can we submit other questions for the 
record? [No response.]
    I thank this talented panel for their time and information.
    We will adjourn the hearing. Thank you so much.

    [Whereupon, at 11:37 a.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
              ship-to-shore connectors--amphibious assault
    1. Senator McCain. Admiral Mulloy, last week Marine Corps leaders 
provided testimony before this subcommittee on Marine Corps ground 
modernization, including the Amphibious Combat Vehicle (ACV). I 
understand the first ACV, the so-called ACV 1.1, will be a wheeled 
vehicle with potentially limited swim capability and more reliance on 
connectors. In view of the restructured ACV program, has the Navy's 
ability to support ship to shore movement of Marine assault craft 
changed?
    Admiral Mulloy. The Amphibious Combat Vehicle (ACV) program has not 
changed the Navy's ability to support the movement of Marine assault 
craft from ship to shore. The Navy and Marine Corps are fully 
integrated and continue to refine Concept of Operations (CONOPS) 
development through the USN/USMC Surface Connector Council. This 
integration will maintain stable programs of record, avoid unnecessary 
risk, and support amphibious operations.

    2. Senator McCain. Admiral Mulloy, will we have enough connectors?
    Admiral Mulloy. A fleet of 72 Landing Craft Air Cushion (LCAC) / 
Ship to Shore Connector (SSC / LCAC-100) type craft provides sufficient 
capacity to support the most stressing Major Combat Operation (MCO) 
scenario. This will enable the assault echelons of up to two Marine 
Expeditionary Brigades (MEB) conduct joint forcible entry operations.

    3. Senator McCain. Admiral Mulloy, in a contested anti-access, area 
denial (A2/AD) environment, from what distance does the Navy envision 
launching an amphibious assault?
    Admiral Mulloy. 25 nm. The 25 nm distance originates as an initial 
planning consideration in order to conduct over-the-horizon (OTH) 
amphibious operations. As per Joint Doctrine, the ability to conduct 
OTH operations enhances security, aids force protection efforts, 
provides additional maneuver space, and improves the ability to achieve 
surprise. The Joint Force Commander (JFC) and Joint Force Maritime 
Component Commander (JFMCC) will conduct shaping operations to mitigate 
the threat and establish the requisite conditions for an amphibious 
operation (establishment of air and maritime superiority). The overall 
objective of setting these conditions is to permit the amphibious force 
to close the distance which will allow a faster buildup of combat power 
ashore of the Marine Expeditionary Brigade (MEB) Assault Echelon.
                restart of mark-48 heavy weight torpedo
    4. Senator McCain. Admiral Mulloy, can you describe the need and 
plan for restarting the Mark-48 Heavyweight Torpedo? This budget 
requests 8 of these in fiscal year 2016 and 145 over the next 5 years.
    Admiral Mulloy. In 2010, based on a review of potential warfighting 
scenarios, the Navy was required to increase its overall MK 48 torpedo 
inventory requirement. This resulted in a 830 percent inventory 
shortfall from our current inventory.
    The last MK 48 torpedo was delivered to the fleet in 1996. In 
support of restarting production, the Navy developed the procurement 
strategy, updated obsolete design plans, refurbished test equipment, 
and is in the final stages of preparing for two competitive production 
contracts, expected to be awarded in the third quarter of fiscal year 
2016.
    The program of record procures eight (8) MK 48 MOD 7 CBASS 
heavyweight torpedoes in fiscal year 2016, after completion of required 
initial non-recurring engineering and Proof of Manufacture unit 
testing. Procurement will ramp up over the Future Years Defense Program 
(FYDP), procuring a total of 145 torpedoes between fiscal year 2016 and 
fiscal year 2020. The production line will also incorporate hardware 
and software upgrades, once they become available, to keep pace with 
evolving threats.
                        virginia payload module
    5. Senator McCain. Secretary Stackley and Admiral Hilarides, I 
understand this budget proposes adding the Virginia Payload Module 
(VPM) to one Virginia-class submarine per year beginning in fiscal year 
2019. Can you describe why VPM is required?
    Mr. Stackley and Admiral Hilarides. The ability for undersea 
forces, with their assured access, to be able to provide clandestine 
strike capability is vital to the joint force as adversaries continue 
to invest in anti-access area denial systems. Undersea strike 
capability complicates adversary planning, reastes ambiguity and 
fosters uncertainty. Retirement of the SSGNs beginning in 2026 reduces 
our Navy's undersea strike capacity by 60 percent. VPM will enable 
Virginia-class SSNs to cost effectively mitigate the loss of SSGN 
strike capacity ensuring Navy maintains required clandestine strike 
capacity. VPM will more than triple the Tomahawk Land Attack Missile 
(TLAM) strike capacity of SSNs from the current 12 missiles to 40 
missiles.

    6. Senator McCain. Secretary Stackley and Admiral Hilarides, does 
the design and technical risk allow us to consider accelerating this 
program?
    Mr. Stackley. and Admiral Hilarides. The Navy and its Virginia 
Payload Module (VPM) Design Agent, General Dynamics Electric Boat, are 
currently assessing the feasibility of accelerating the VPM design to 
enable construction start in fiscal year 2018, the last year of the 
previously negotiated Block IV fixed price incentive fee multi-year 
procurement contract. The service's assessment is ongoing anis expected 
to conclude in Summer 2015.

    7. Senator McCain. Secretary Stackley and Admiral Hilarides, what 
will be the impact on the shipbuilders of building two variants of 
Virginia-class submarines concurrently--one with VPM and one without--
as opposed to one or the other?
    Mr. Stackley and Admiral Hilarides. The impact on the shipbuilders 
of building two variants of Virginia-class submarines concurrently one 
with VPM and one without as opposed to on or the other will depend on 
the acquisition strategy, which has not yet been decided. The Navy 
continues to look at ways to reduce the cost of VPM while maintaining a 
balanced portfolio throughout the other Navy shipbuilding programs 
within the fiscal guidance provided.
                       lha-8 advance procurement
    8. Senator McCain. Secretary Stackley, given the reintroduction of 
the well deck and other changes to LHA-8, can you discuss the pros and 
cons of funding more detailed design and long lead time material in 
fiscal year 2016 to increase design maturity and potentially achieve 
Navy's stated requirement of 11 large deck amphibious ships 1 year 
earlier in fiscal year 2023?
    Mr. Stackley. LHA-8 is currently conducting an early industry 
involvement affordability phase. Upon completion of the affordability 
phase, proven affordability initiatives will be incorporated in the 
LHA-8 design in fiscal year 2016. In addition, long lead time material 
is planned to be procured in fiscal year 2016, including main reduction 
gear. By funding more detailed design and long lead time material in 
fiscal year 2016, the LHA-8 program will have more flexibility with eth 
shipbuilder and government furnished equipment providers to ensure 
critical path long lead time material is available in the construction 
phase.
             additional ddg procurement in fiscal year 2016
    9. Senator McCain. Secretary Stackley, if funding above the 
President's Budget (PB) were made available, would the Navy support and 
could the industrial base build an additional DDG if three are 
authorized in fiscal year 2016?
    Mr. Stackley. The President's fiscal year 2016 budget request 
supports the planned Multi-Year Procurement profile for two ships for 
fiscal year 2016 with the intent to fund one to each shipyard. This 
profile maintains the planned portfolio for Navy shipbuilding programs 
at both shipyards.
    Funding for an additional DDG in fiscal year 2016 could be 
beneficial to the overall shipbuilding program as a mitigator to the 
impending budget challenges posed by construction of the Ohio 
replacement. Too, such funding could be beneficial for providing added 
stability to our shipbuilding industrial base.
    However, the Navy would not support the addition of a third DDG in 
fiscal year 2016 if this additional ship was funded at the expense of 
other Navy shipbuilding program (or other higher priorities represented 
in the President's Budget request). If a third DDG were added to the 
fiscal year 2016 budget, the Navy's assessment is that the industrial 
base would not be capable of accelerating the construction and delivery 
rate of the current fiscal year 2013-2017 multiyear ships, which would 
effectively equate to an additional ship being built and delivered on 
the back end of the current multiyear.

    10. Senator McCain. Secretary Stackley, how would the existing 
multi-year contract be affected?
    Mr. Stackley. Long term stability, competition, and judicious 
procurement of economic order quantity material have been the key 
factors contributing to the significant savings provided by the DDG-51 
multi-year contracts. If an additional DDG were funded in fiscal year 
2016, the Navy would require that the savings provided by the 
additional ship be in-line (or greater than) the per-ship savings 
provided by the contracted multi-year ships, and we would impose the 
same measures of `stability' represented by this increased workload on 
its planning and execution as exists on the multi-year ships currently 
under contract. This would, in effect, result in a stretch out of the 
multi-year contract schedule.
             additional ssn procurement in fiscal year 2016
    11. Senator McCain. Secretary Stackley, if funding above the PB 
were made available, would the Navy support and could the industrial 
base build an additional SSN if three are authorized in fiscal year 
2016?
    Mr. Stackley. Funding for an additional SSN in fiscal year 2016 
could be beneficial to the overall shipbuilding program as a mitigator 
to the impending budget challenges posed by construction of the Ohio 
replacement. Too, such funding could be beneficial for providing added 
stability to our shipbuilding industrial base.
    However, the Navy would not support the addition of a third SSN in 
fiscal year 2016 if this additional ship was funded at the expense of 
other Navy shipbuilding program (or other higher priorities represented 
in the President's Budget request). If a third SSN were added to the 
fiscal year 2016 budget, the Navy's assessment is that the industrial 
base would not be capable of accelerating the construction and delivery 
rate of the current Block IV fiscal year 2014-2018 multiyear ships, 
which would effectively equate to an additional ship being built and 
delivered on the back end of the current multiyear.

    12. Senator McCain. Secretary Stackley, how would the existing 
multi-year contract be affected?
    Mr. Stackley. Long term stability, competition, and judicious 
procurement of economic order quantity material have been the key 
factors contributing to the significant savings provided by the 
Virginia-class submarines multi-year contracts. If an additional SSN 
was funded in fiscal year 2016, the Navy would require that the savings 
provided by the additional ship be in-line (or greater than) the per-
ship savings provided by the contracted multi-year ships, and we would 
impose the same measures of `stability' represented by this increased 
workload on its planning and execution as exists on the multi-year 
ships currently under contract. This would, in effect, result in a 
stretch out of the multi-year contract schedule.
                           maritime strategy
    13. Senator McCain. Admiral Mulloy, the new Maritime Strategy 
concludes that ``Naval Logistics Integration is a key enabler of our 
ability to sustain forces operating from the sea. Historically, the 
capability to sustain distant operations has served as a cornerstone of 
naval power projection.'' What measures have you put in place to ensure 
our current logistics concepts of operation and force structure plans 
for the Combat Logistics Fleet (CLF) will be viable in the potential 
``contested environments'' described in the new Maritime Strategy, 
where CLF ships will be at more risk and losses would be more likely?
    Admiral Mulloy. In order to determine the number and types of ships 
required, we conduct periodic force structure assessments to provide a 
comprehensive review of operational demands. Our 2012 Force Structure 
Assessment (FSA) determined a post-2020 requirement for 306 ships in 
the battle force (including 29 CLF ships) and emphasized forward 
presence while re-examining resourcing requirements for operational 
plans and defense planning scenarios. In 2014, we conducted an interim 
update to the 2012 FSA which re-validated that 29 CLF ships were 
sufficient to meet the demands of a globally distributed force in the 
near term with the retention of T-AKEs in full operating status.
    The analysis also determined that the programmed force structure 
should be reevaluated post fiscal year 2020, as LCS delivers in numbers 
and platforms such as JHSV and Afloat Forward Staging Bases potentially 
take on more robust employment profiles than initially envisioned. The 
Navy plans to conduct a follow-on assessment in fiscal year 2020 to 
review/update CLF sufficiency requirements. The next generation oiler, 
T-AO(X), begins delivery in fiscal year 2020 and an assessment at that 
time would be timely enough to affect CLF procurement numbers should a 
change be required.

    14. Senator McCain. Admiral Mulloy, do you anticipate that our 
current approach to sustaining underway forces will need to change in a 
highly contested environment? For example, we have based our CLF fleet 
requirements on a very efficient model of deployed force operating in 
groups that can be resupplied by one or two CLF ships. If the force is 
required to be more distributed due to A2/AD threats, how does that 
change our logistics concepts and what are the implications for 
attributes of a future CLF fleet?
    Admiral Mulloy. Navy just completed a CLF assessment in fiscal year 
2015 that indicated CLF force structure was sufficient to meet the 
demand of a globally distributed force in the near term with the 
retention of all T-AKEs in full operating status. The assessment did 
not specifically address distributed lethality, but this was covered in 
the 2020 Campaign Analysis Study, which was done in parallel and 
considered the threats of an adversary possessing A2/AD capabilities, 
including anti-ship ballistic and cruise missiles, land-based maritime 
strike aircraft, submarines, and sea mines. The study also determined 
that the programmed force structure should be reevaluated post fiscal 
year 2020, as LCS delivers in numbers and platforms such as JHSV and 
Afloat Forward Staging Bases potentially take on more robust employment 
profiles than initially envisioned. Navy plans to conduct a follow-on 
assessment in fiscal year 2020 to review/update CLF sufficiency 
requirements.
                      combat logistics fleet ships
    15. Senator McCain. Admiral Mulloy, the Navy's multiproduct 
replenishment ships (AOEs and AORs) were originally tasked as part of a 
two-stage concept of operations to deliver supplies to carrier battle 
groups operating in higher-threat areas. As part of this model, the 
Navy's single-product CLF ships--the oilers, ammunition ships, and 
stores ships--called for them to deliver their products to the AOEs and 
AORs, which would then take those products into the higher-threat areas 
where the carrier battle groups were operating.
    Is it true that today CLF ships generally only ``shuttle'' fuel and 
supplies out to deployed ships from regional supply and fuel depots, as 
opposed to carrying all the fuel and supplies needed for a carrier 
strike group or amphibious ready group deployment with them and 
deploying with the group? If this is true, would the Navy be better off 
building smaller CLF ships that could be less expensive and thus 
constructed in larger quantities to account for combat losses?
    Admiral Mulloy. Our laydown of the forces are dependent on the 
operational situation, to include the specific nature of the threat 
environment and the geography of the operating area. Whether CLF assets 
are permanently located in the geographic commander's area of 
responsibility or they deploy with a battle group from CONUS, they will 
always be required to periodically console from regional logistics hubs 
and ``shuttle'' fuel and supplies out to deployed ships, as no CLF 
asset can embarked sufficient quantities of all required classes of 
supply to support a battle group for an entire deployment or major 
contingency response.
    The mix of CLF ships contained in the Annual Long-Range Plan for 
Construction of Naval Vessels for fiscal year 2016, possesses the 
requisite capability and capacity to support the COCOMs to meet mission 
demands to Maintain a Safe, Secure, and Effective Nuclear Deterrent; 
Deter and Defeat Aggression, Project Power Despite Anti-access/Area 
Denial Challenges; Counter Terrorism and Irregular Warfare; Provide a 
Stabilizing Presence; Conduct Stability/Counterinsurgency Operations.

    16. Senator McCain. Admiral Mulloy, given that potential 
adversaries in coming years are expected to field increasingly capable 
A2/AD systems for threatening U.S. surface ships, what would be the 
pros and cons of transitioning back to a two-stage CLF concept of 
operations like was conducted during the Cold War?
    Admiral Mulloy. The CLF fleet contained in the Annual Long-Range 
Plan for Construction of Naval Vessels for fiscal year 2016 is well 
suited for operations under a variety of CONOPs and throughout the 
spectrum of military operations. These CONOPs and the number of 
cruiser/destroyer type ships, as described in the fiscal year 2016 
long-range plan, possess the requisite capability and capacity to 
support the Combatant Commanders to meet mission demands. These mission 
demands include providing adequate protection for CLF transiting 
directly from forward logistics sites to deployed customer ships, as is 
commonly seen in dispersed peacetime operations, as well as supporting 
a two stage concept where a station ships remains under a strike 
group's protective envelope, and is resupplied by CLF shuttle ships 
transiting from logistics sites to the sea base with an escort. Our 
laydown of the forces and eventual employment are dependent on the 
operational situation, to include the specific nature of the threat 
environment and the geography of the operating area.

    17. Senator McCain. Admiral Mulloy, what role do constraints on 
funding play in assessing this issue?
    Admiral Mulloy. Funding constraints, such as a return to 
sequestration in fiscal year 2016, would necessitate a revisit and 
revision of the defense strategy. The required cuts would force us to 
further delay critical warfighting capabilities, reduce readiness of 
forces needed for contingency responses, further downsize weapons 
capacity, and forego or stretch procurement of force structure as a 
last resort. Sequestration would significantly reduce the Navy's 
ability to fully implement the defense strategy and damage national 
security.

    18. Senator McCain. Admiral Mulloy, to what extent does the Navy 
plan to escort CLF ships with CRUDES/LCS vs. expecting CLF ships to be 
able to defend themselves in wartime?
    Admiral Mulloy. The disposition of forces will always be dictated 
by the operational situation. CLF ships have limited self-protection, 
particularly, against the evolving Anti-Access/Area Denial (A2/AD) 
threat. During periods of crisis in an A2/AD environment, the Navy will 
deploy forces to best provide an integrated defense of forces forward 
and maintain essential sea lines of communication. CLF on-station ships 
will remain under the maritime defense umbrella of supported forces and 
CLF shuttle ships, transiting between the area of operations and 
logistics hubs will be escorted as the operational environment 
dictates.

    19. Senator McCain. Admiral Mulloy, if escorts are planned, 
describe the conops and the quantity/type/allocation of these escort 
ships necessary to meet all wartime missions on the required timelines?
    Admiral Mulloy. As threat levels increase, forward deployment of 
maritime patrol, littoral combat ships, carrier strike groups and 
independent surface action groups are planned to provide integrated 
maritime, air and missile defense for naval forces and maintain 
essential sea lines of communications. Although globally distributed, 
our maritime surveillance, anti-submarine warfare, air and missile 
defense assets will be positioned as the tactical situation dictates to 
best protect the fleet and its critical sea lines of communications.
    The quantity and type of ships contained in the Annual Long-Range 
Plan for Construction of Naval Vessels for fiscal year 2016, possesses 
the requisite capability and capacity to carry out the DSG mission. 
They enable the COCOMs to meet mission demands to Maintain a Safe, 
Secure, and Effective Nuclear Deterrent; Deter and Defeat Aggression, 
Project Power Despite Anti-access/Area Denial Challenges; Counter 
Terrorism and Irregular Warfare; Provide a Stabilizing Presence; 
Conduct Stability/Counterinsurgency Operations; and Operate Effectively 
in Cyberspace/Space.

    20. Senator McCain. Admiral Mulloy, if LCSs are escorts, how do 
their capabilities match up against the expected threat?
    Admiral Mulloy. Littoral Combat Ship (LCS) capabilities match up 
well against expected threats in the Surface Warfare (SUW) and Anti-
Submarine Warfare (ASW) escort role, and when coupled with a DDG-51 
Class Destroyer in an adaptive force package, can provide escort 
capability across the full spectrum of ASW, SUW and Air Warfare.
    LCS with a SUW Mission Package is an effective SUW escort--
especially against swarms of Fast Inshore Attack Craft (FIAC). LCS has 
inherent capability with the 57mm gun, the 30mm gun systems, and the 
embarked helicopter against small boats. With the planned addition of 
the Surface-to-Surface Missile Module and Hellfire Longbow in fiscal 
year 2017, these ships will provide increased SUW capability.
    LCS with an ASW Mission Package is an effective ASW escort. It will 
be equipped with torpedo defense, passive detection capability with the 
Multi-Function Towed Array (MFTA), and active detection capability with 
the Continuous Active Sonar / Variable Depth Sonar (CAS/VDS). With its 
embarked helicopter, LCS is able to prosecute threat submarines in 
defense of the force.
    LCS is not intended to operate as an Area Air Defense escort and is 
equipped with self-defense anti-air warfare capability only.
    Analysis of the LCS ASW Mission Package by Johns Hopkins University 
Applied Physics Lab indicates that LCS will enhance the Fleet's ASW 
capability, a vital component of high value unit defense. In addition, 
recent war games conducted at the Naval War College involving LCS 
demonstrated that adding LCS to an adaptive force package, for either 
its SUW or ASW capabilities, strengthens the force and provides 
improved defense against surface and sub-surface threats in the escort 
role.

    21. Senator McCain. Admiral Mulloy, since the end of the Cold War, 
the CLF fleet transitioned from a force of ships with all-Navy crews to 
a force of MSC-operated ``T'' ships with largely civilian crews. Now 
that we may be shifting from the post-Cold War era to a new 
international security environment characterized by, among other 
things, significant threats to U.S. surface ships operating in blue 
waters, what would be the pros and cons of transitioning CLF ships back 
to all-Navy crews?
    Admiral Mulloy. Whether CLF ships are manned by merchant mariners 
or sailors, the Navy does not believe the concept for CLF protection 
will change, and we are confident that merchant mariners will answer 
the call even in the face of an increasing threat. Maintaining MSC or a 
hybrid crew results in significant manpower and maintenance cost 
savings. MSC manning allows Navy sailors to concentrate on missions 
that require more experienced personnel. There is currently no 
requirement to transition back to Navy crews on CLF ships.

    22. Senator McCain. Admiral Mulloy, what role do constraints on 
funding play in assessing this issue?
    Admiral Mulloy. Because MSC manning results in significant manpower 
and maintenance cost savings, fiscal constraints would increase the 
value of this benefit as Navy balances between capability, capacity and 
readiness.

    23. Senator McCain. Admiral Mulloy, how would the execution of U.S. 
contingency plans be affected at various stages of a conflict by battle 
losses of CLF ships?
    Admiral Mulloy. Any losses to our capacity to provide logistical 
support could have a major impact on our ability to sustain protracted 
naval operations, whether those losses are due to host nation 
sensitivities, destruction of vulnerable naval logistic support bases, 
or loss of CLF.
    Executing appropriate naval concepts of operations and bringing to 
bear adequate operational capabilities, in sufficient quantities, that 
are informed by the operational situation is critical to the success of 
any contingency plan. Establishing and maintaining close relations with 
partner nations in the region, to ensure that forward deployed naval 
forces can be protected and sustained can also be integral to our 
success. If our naval forces cannot provide adequate defense of 
essential sea lines of communications, critical to sustainment, naval 
concepts of employment and plans may have to be adjusted.
                                tao(x)s
    24. Senator McCain. Admiral Mulloy, will the TAO(X)s be equipped 
with a quantity of ship self-defense systems closer to that of that of 
the AOEs and AORs as originally built, or closer to that of the Kaiser-
class oilers? If the latter, what is the Navy's strategy for ensuring 
the survivability of TAO(X)s operating in higher-threat areas?
    Admiral Mulloy. The T-AO(X) will have the same self-defense systems 
as the Kaiser-class oilers, or any other MSC operated CLF ship (i.e. T-
AOE vs AOE as built). During periods of crisis in an A2/AD environment, 
the Navy will deploy forces to best provide an integrated defense of 
forces forward and maintain essential sea lines of communication, 
critical to providing logistical support. CLF on-station ships will 
remain under the maritime defense umbrella of supported forces and CLF 
shuttle ships, and transiting between the area of operations and 
logistics hubs will be escorted as the operational environment 
dictates.

    25. Senator McCain. Admiral Mulloy, if the AOEs and AORs required a 
higher number of ship self-defense systems to counter potential threats 
during the Cold War, why would the TAO(X)s not similarly require a 
higher number of ship self-defense systems in coming years, when 
potential adversaries are expected to field increasingly capable A2/AD 
systems for threatening U.S. surface ships?
    Admiral Mulloy. The T-AO(X) will have the same self-defense systems 
as the Kaiser-class oilers, or any other MSC operated CLF ship (i.e. T-
AOE vs AOE as built). During periods of crisis in an A2/AD environment, 
the Navy will deploy forces to best provide an integrated defense of 
forces forward and maintain essential sea lines of communication, 
critical to providing logistical support. CLF on-station ships will 
remain under the maritime defense umbrella of supported forces and CLF 
shuttle ships, transiting between the area of operations and logistics 
hubs will be escorted as the operational environment dictates.
                                 ______
                                 
              Questions Submitted by Senator Roger Wicker
                        national security vessel
    26. Senator Wicker. Secretary Stackley, the fiscal year 2016 
Department of Transportation's budget request for The United States 
Maritime Administration (MARAD) includes $5 million for a national 
security multi-mission vessel design. This new ship would replace the 
53-year-old Training Ship--Empire State operated by State University of 
New York (SUNY) Maritime College, which will reach the end of its 
service life in 2019.
    Once constructed and operational, the plan for the new National 
Security Multi-Mission Vessel is to be readily available for deployment 
to support requirements for national security, as well as Department of 
Homeland Security (DHS), Department of Defense (DOD), emergency, and 
humanitarian missions.
    Are you familiar with MARAD's proposed National Security Multi-
Mission Vessel (NSMV) for which the administration has requested design 
funding?
    Mr. Stackley. Yes, The NMSV is a Department of Transportation (DOT) 
effort for the recapitalization of public nautical school ships. It has 
been discussed with my staff, and is being developed with input from my 
office and other offices within the Navy, including Military Sealift 
Command. The Navy has had representatives assist DOT as technical 
advisors at various steps in the process, including requirements 
development.
    The current fleet of seven training ships are owned and maintained 
by DOT and loaned to the six State Maritime Academies (SMAs) and U.S. 
Merchant Marine Academy (USMMA) as required by statue. The ships are 
employed as academic and seagoing laboratories providing the Midshipmen 
and Cadets with critical hands-on navigation and engineering training 
that is mandatory for their U.S. Coast Guard (USGC) credential.
    The Maritime Administration's State Maritime Academy proposal 
request includes $5 million for the planning and design of a new 
construction NSMV to support development of program requirements and 
delivery strategy for DOT's academy training ship program.
    <bullet>  Funding supports the NSMV design initiative, not 
implementation of a new program of record.
    <bullet>  Supports short-term planning activities, including: study 
of requirements alternatives, cost-tradeoffs, cost analysis, schedule, 
acquisitions strategy, and vessel design.
    <bullet>  Support long-term planning activities, including study of 
program delivery strategy and production timetables for the incremental 
replacement of the current academy training ships.

    27. Senator Wicker. Secretary Stackley, what is your position on 
the proposal?
    Mr. Stackley. The proposed NSMV would provide a modern, functional, 
environmentally compliant training ship which could be readily deployed 
to support multiple Department of Homeland Security national security 
missions and Department of Defense (DOD) emergency and humanitarian 
missions.
    The NMSV is a critical aspect to the training of qualified U.S. 
mariners, who are integral to supporting economic and national 
security. School ships have been used in the past to provide Federal 
response for humanitarian assistance and disaster relief (HA/DR) (e.g. 
Hurricanes Katrina and Rita and Super Storm Sandy). The proposed new 
design would provide a modern training platform, with increased 
capabilities to support HA/DR missions in the future. The NSMV 
recapitalization of five training ships owned and maintained by DOT 
will expand upon the capabilities of the training ships to support such 
missions.
    Although the Navy has no specific requirement for this vessel, we 
do see the value in having a low cost Federal resource that could be 
called upon in lieu of a military resource which has other operational 
obligations and a significantly higher operating cost. Additionally, 
there may be utility in a common hull design and machinery space for 
both the NSMB and future non-combatant vessels.
   electromagnetic aircraft launch system and advanced arresting gear
    28. Senator Wicker. Secretary Stackley, Electromagnetic Aircraft 
Launch System (EMALS) and Advanced Arresting Gear (AAG) are core 
technologies of the USS Ford (CVN-78) as well as all future U.S. 
aircraft carriers. The Government Accountability Office (GAO) recently 
published a report that stated the Navy will defer some work on CVN-78 
until after delivery of the ship in order to create a funding reserve 
to pay for any additional, unanticipated cost growth. Deferring work or 
underfunding sustainment of critical repair parts has predictable 
results--a less capable ship when delivered.
    Will any work on EMALS or AAG be deferred until after the delivery 
of CVN-78? If so, what work or will be deferred?
    Mr. Stackley. EMALS and AAG work will be completed during the ship 
construction phase of each Ford-class ship and not deferred until after 
delivery. These systems are required for the ship's baseline capability 
to launch and recover aircraft for flight deck certification and 
demonstration of key performance parameters.

    29. Senator Wicker. Secretary Stackley, what is the status of U.S. 
Navy sustainment funding/repair parts for EMALS and AAG in fical year 
2016 and throughout the Future Year Defense Plan, both in the 
production contract and system development and demonstration contract?
    Mr. Stackley. The Navy has defined the sustainment requirements for 
the concurrently developed technologies and is funding the spare and 
repair parts for EMALS and AAG within the existing budget. In addition, 
the Navy is addressing all CVN 78 class sustainment issues in fiscal 
year 2016 and future years through the program planning and budgeting 
process. Overall, CVN 78 sustainment includes the requirement for life-
cycle management, engineering, training and logistics support for new/
modified systems and technologies.
    The Navy has contracts in place with General Atomic for the EMALS 
and AAG spares required during installation and test on CVN 78, and has 
allocated approximately $17 million in fiscal year 2015 to address 
spares requirement post CVN 78 delivery. Spares and repairs required 
for EMALS and AAG system development and demonstration (SDD) are within 
the scope of their respective SDD contracts and with General Atomics 
and are included in the President's fiscal year 2016 budget request.
    30. Senator Wicker. Secretary Stackley, maximizing sortie 
generation rate was the purpose behind these new technologies. Will 
underfunding sustainment of EMALS and AAG affect the originally 
designed sortie rate?
    Mr. Stackley. EMALS and AAG are technologies that contribute to 
Ford-class aircraft carrier Sortie Generation Rates. In addition, EMALS 
and AAG reduce CVN 78 class aircraft carrier manning, reduce life cycle 
costs, and provide a larger aircraft envelope to support existing and 
future carrier airwing. Underfunding sustainment of EMALS and AAG could 
impact the operational availability of these systems onboard Ford-class 
aircraft carriers during operational periods.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                              cost growth
    31. Senator Ayotte. Secretary Stackley and Admiral Hilarides, what 
percentage of the Ford-class's design was complete in 2008 when the 
construction contract was signed?
    Mr. Stackley. The CVN 79 design is more mature than was the CVN 78 
design when the CVN 78 construction contract was signed. In addition, 
CVN 79 construction material availability is higher in comparison to 
the material availability when the CVN 78 and CVN 79 design maturity 
and material availability in terms of percent complete at times of 
construction contract award.

------------------------------------------------------------------------
 At Detail Design and Construction Award   CVN 78 (2008)   CVN 79 (2015)
------------------------------------------------------------------------
Design product model complete...........             65%            100%
Initial drawings released...............             25%             78%
Construction Material Availability......             83%             97%
------------------------------------------------------------------------


    32. Senator Ayotte. Secretary Stackley and Admiral Hilarides, what 
are you doing to reduce concurrency in Navy shipbuilding programs?
    Mr. Stackley and Admiral Hilarides. The Navy currently has 
disciplined processes that provide the rigor required for ensuring 
design quality, readiness, and progress is adequate for sustained and 
efficient production for ships prior to start of construction. The 
Navy's Systems Engineering approach provides opportunities to reduce 
and manage concurrency risk through a series of reviews including 
critical design reviews, internal Navy gate reviews, acquisition 
milestone reviews, all coupled with stringent configuration control 
processes. Most notably just prior to the start of construction, 
shipyards conduct Production Readiness Reviews (PRRs) where the Navy is 
presented detailed analyses for planned construction efforts at the 
system level in efforts to provide detailed justification and rationale 
for the ship's readiness for the start of production. The PRR is 
designed as a system-level preparation tool and used in assessing risks 
as the ship transitions from design development to production.
    Additionally, Section 124 of the fiscal year 2008 National Defense 
Authorization Act (Public Law 110-181) required the Secretary of the 
Navy, concurrent with approving the start of construction of the first 
ship for any major shipbuilding program, to submit a report to the 
Congress on the results of any PRR and certify that the findings of any 
such review support commencement of construction.
    Because the detail design and construction of the lead ship covers 
a substantial period of time, award of one or more follow-on ships 
typically occurs prior to delivery of the lead ship. This approach 
supports the Navy's goal and intent to provide stable requirements for 
shipbuilding quantities which further promotes executable, efficient 
workloads in stabilizing the shipbuilding and supplier industrial base.
    Where warranted the Navy may choose to build and test prototypes 
for major pieces of equipment and subsystems as a means of risk 
mitigation; thereby reducing the risks of integration and testing for 
continued efficiencies to be gained during construction, ultimately 
contributing towards improved performance for follow on ships.
                        State of Industrial Base
    33. Senator Ayotte. Secretary Stackley and Admiral Hilarides, how 
would you describe the state of the industrial base that supports 
shipbuilding?
    Mr. Stackley and Admiral Hilarides. The report is ``For Official 
Use Only'' and is retained in committee files.

    34. Senator Ayotte. Secretary Stackley and Admiral Hilarides, to 
what degree are key Navy shipbuilding programs reliant on single source 
suppliers?
    Mr. Stackley and Admiral Hilarides. The U.S. Naval shipbuilding 
industrial base is a complex, multi-tiered network of equipment, system 
and component suppliers. Due to the unique characteristics of U.S. Navy 
shipbuilding programs, constantly advancing technology, and economic 
factors, the number and type of suppliers supporting our Navy is ever-
changing. Some suppliers will enter and exit the shipbuilding 
industrial base as supply and demand for products change, while other 
suppliers have supported our ship programs since inception. There are 
single/sole-source suppliers of critical shipbuilding/manufacturing 
components required for our naval ships.
    Reliance on single source suppliers varies by ship program. Our 
nuclear carrier new construction, carrier refueling complex overhauls 
and submarine programs have more single source suppliers than do our 
surface ship programs. These three nuclear ship programs have 40-80 
single/sole source suppliers and comprise a large percentage of the 
critical suppliers identified by the programs. Single/sole source 
surface ship suppliers typically are less than a dozen for most ship 
classes, but like the nuclear ships, these sole source suppliers make 
up over half of the critical suppliers identified by these ship 
programs.

    35. Senator Ayotte. Secretary Stackley and Admiral Hilarides, how 
has the frequent lack of timely and predictable funding impacted 
suppliers--particularly small and medium-sized suppliers--who are 
critical to the production of our nation's ships and submarines?
    Mr. Stackley and Admiral Hilarides. Defense suppliers' cost and 
schedule performance relies upon timely contracting and receipt of 
funds in support of our major programs. Large-sized suppliers typically 
have sufficient workload and business base to weather the impacts of 
funding instability. Small and medium-sized suppliers are prone, 
however, to suffer inefficiencies and layoffs in response to funding 
instability. These impacts harm our program in the short term as a 
result of cost increases, and in the long term as a result of loss of 
skilled labor and potential loss of suppliers in our vendor base. 
Additionally, suppliers cite difficulty planning future work and 
unexploited savings opportunity as major concerns. These difficulties 
in formulating accurate plans for future work result in an inability to 
arrive at long-term purchasing agreements with vendors, which lead to 
higher material prices.
    This affects Navy ship prices and contributes to deterioration in 
Navy buying power. In order to preserve key industrial base 
capabilities, this cycle needs to be broken. The Navy has engaged in 
initiatives such as advanced procurement, economic order quantity, 
multi-year procurements, and material commonality, to provide stability 
and mitigate volatility at the supplier level. In addition, DOD and the 
Navy have programs in place to address supplier issues, including 
programs to improve productivity, efficiency, and competitiveness. The 
Navy continues to work closely with prime contractors to ensure key 
suppliers are identified and effective action is taken to reduce costs.

    36. Senator Ayotte. Secretary Stackley and Admiral Hilarides, if 
sequestration returns next year, what would be the impact on the Navy's 
shipbuilding suppliers?
    Mr. Stackley and Admiral Hilarides. If sequestration returns next 
year, our shipbuilding suppliers would be impacted in the same manner 
as the ship programs that they support. A return to sequestration in 
fiscal year (FY) 2016 would necessitate a revisit and revision of the 
Defense Strategic Guidance. Required cuts will force us to further 
delay critical warfighting capabilities, reduce readiness of forces 
needed for contingency response, further downsize weapons capacity, and 
forego or stretch procurement of ships and submarines only if 
necessary. We will be unable to mitigate the shortfalls like we did in 
fiscal year 2013 because prior-year investment balances were depleted 
under fiscal year 2013 sequestration.
    Because of their irreversibility, force structure cuts represent 
options of last resort for the Navy. Disruptions in naval ship design 
and construction plans are significant because of the long-lead time, 
specialized skills, and extent of integration needed to build military 
ships. Because ship construction can span up to nine years, program 
procurement cancelled in fiscal year 2016 will not be felt by the 
Combatant Commanders until several years later when the size of the 
battle force begins to shrink as those ships are not delivered to the 
fleet at the planned time. Likewise, cancelled procurement in fiscal 
year 2016 will cause some suppliers and vendors of our shipbuilding 
industrial base to close their businesses. This skilled, experienced 
and innovative workforce cannot be easily replaced and it could take 
years to recover from layoffs and shutdowns; and even longer if 
critical infrastructure is lost. Stability and predictability are 
critical to the health and sustainment of this vital sector of our 
Nation's industrial capacity.
                Ohio-class Submarine Replacement Program
    37. Senator Ayotte. Secretary Stackley, if additional funding is 
not provided for the procurement of the Ohio replacement, what specific 
impact will it potentially have on other important Navy programs?
    Mr. Stackley. Within the Navy's traditional Total Obligation 
Authority, and assuming that historic shipbuilding resources continue 
to be available, the OR SSBN would consume about half of the 
shipbuilding funding available in a given year--and would do so for a 
period of over a decade. The significant drain on available 
shipbuilding resources would manifest in reduced procurement quantities 
in the remaining capital ship programs. Therefore, additional resources 
for shipbuilding will likely be required during this period.
    Since the CVN funding requirements are driven by the statutory 
requirement to maintain eleven CVNs, and accounting for one OR SSBN per 
year (starting in fiscal year 2026), there would only be about half of 
the resources normally available to procure the Navy's remaining 
capital ships. At these projected funding levels, Navy would be limited 
to on average, as few as two other capital ships (SSN, DDG, CG, LPD, 
LHA, etc.) per year throughout this decade.
    Such low shipbuilding rates for an extended period of time would 
result in a battle force inadequately sized to meet our naval 
requirements in support of the Defense Strategic Guidance. Further, 
there is significant risk to the industrial base in this case since low 
production rates outside of the SSBN and CVN production lines may not 
provide adequate work to keep shipyards operating at minimum sustaining 
levels and could result in shipyard closures. Compounding these 
impacts, shipbuilding costs would increase as a direct result of the 
severe reduction of non-nuclear construction.
    Navy's ability to recover Fast Attack Submarine, Large Surface 
Combatant, Small Surface Combatant and Amphibious Force inventories 
lost during the decade and a half in which the SSBNs were being 
procured would be challenged, particularly in those parts of the 
industrial base permitted to atrophy during this period. Given such 
extraordinary impacts to Navy shipbuilding and attendant impacts to the 
size of our Fleet, it would be necessary to increase our shipbuilding 
budget at the expense of other equally critical capabilities necessary 
to the Navy/Marine Corps mission.
                          advanced connectors
    38. Senator Ayotte. Admiral Mulloy, the Marine Corps testified that 
the Amphibious Combat Vehicle (ACV) is one of its top modernization 
priorities. Given the future threat environment, the ACV will require 
``advanced connectors:'' other platforms that will transport it quickly 
from the ship to within range of shore. Current platforms do not 
provide the necessary range, speed, and survivability vital to future 
amphibious operations. Does the Navy have a long-term plan to solve 
this problem?
    Admiral Mulloy. The current ACV does not require any changes to 
existing or programmed connectors (i.e., LCAC, SSC, LCU, SC(X)R).
    ACV characteristics and capabilities will be integrated within the 
future comprehensive surface connector strategy. The Marine Corps is 
actively considering the capabilities and limitations of the Navy's 
current fleet of surface connectors and future development of 
replacements when developing requirements for ACV procurement to ensure 
interoperability. The Navy and Marine Corps are fully integrated on 
requirements development for the ACV and remain committed to a high 
water speed vehicle as part of a complementary family of surface and 
air connectors.
    The Office of Naval Research (ONR) is developing a Science and 
Technology (S&T) portfolio of initiatives to gain knowledge and reduce 
technology risk in support of the 2025 ACV 2.0 Decision Point. ACV 2.0 
is a planning construct that pursues desired High Water Speed (HWS) 
capability; not a specific, singular vehicle-type or craft. The desired 
capability sought by the Marine Corps for ACV 2.0 is the ability to 
achieve HWS in ship-to-shore operations to extend the amphibious task 
force's capacity for littoral maneuver. ACV 2.0 may consist of a self-
deploying assault amphibian, follow-on wheeled ACV, advanced generation 
connectors or a combination of those options. ONR, in coordination with 
PEO-LS and DC CD&I, is forming an Integrated Product Team to coordinate 
HWS S&T initiatives and identify specific investment areas. Three broad 
technical lanes are identified as: 1) Enhancements to legacy platforms; 
2) New concepts for amphibian platforms; and 3) Future connector-
enabled HWS.
                        amphibious ship program
    39. Senator Ayotte. Secretary Stackley, Admiral Hilarides, and 
Admiral Mulloy, the fiscal year 2016 Budget seeks research and 
development funding for the LX(R) program and funding for a 12th LPD-17 
class ship. If all of this happens, the amphibious force will grow to 
34 ships. Is 34 the right number of amphibious vessels?
    Mr. Stackley, Admiral Hilaridies, and Admiral Mulloy. The Chief of 
Naval Operations and Commandant of the Marine Corps have determined 
that the force structure for amphibious lift requirements is 38 
amphibious ships, fiscally constrained to 33 ships. There are two main 
drivers of the amphibious ship requirement: maintaining persistent 
forward presence, which enables both engagement and crisis response, 
and delivering the assault echelons of up to two Marine Expeditionary 
Brigades (MEB) for joint forcible entry operations. Balancing the total 
naval force structure requirements against fiscal projections imposes 
risk on meeting this requirement. Based on the footprint of a 2.0 MEB 
assault echelon force, a minimum of 30 operationally available ships 
are necessary to provide a force made up of ten Amphibious Assault 
Ships (LHD/LHA), ten Amphibious Transport Docks (LPD) and ten Dock 
Landing Ships (LSD).
    The 2014 update to the 2012 Force Structure Assessment (FSA) 
reflects an anticipated increase in the Amphibious Warfare ship 
requirement to 34 ships and includes an additional LPD to reduce risk 
in the generation of ships necessary to conduct a 2.0 MEB assault 
echelon forcible entry operation. This permits the Navy to maintain a 
4-ship Amphibious Ready Group (ARG) in the Forward Deployed Naval Force 
(FDNF) without disrupting the deployment cycles of the remaining non-
FDNF ARGs. The added presence provides flexibility in the Pacific 
Theater of Operations and accommodates disaggregated or split ARG 
operations to increase the commander's area of influence. This 
requirement will be reviewed during the next full FSA.

    40. Senator Ayotte. Secretary Stackley, Admiral Hilarides, and 
Admiral Mulloy, what is the Marine Corps' requirement for amphibious 
vessels? When will we reach that number?
    Mr. Stackley, Admiral Hilaridies, and Admiral Mulloy. The Chief of 
Naval Operations and Commandant of the Marine Corps have determined 
that the force structure for amphibious lift requirements is 38 
amphibious ships, fiscally constrained to 33 ships (11 LHD/LHAs, 11 
LPDs, and 11 LSDs). Balancing the total naval force structure 
requirements against fiscal projections imposes risk on meeting this 
requirement. Based on the footprint of a 2.0 MEB assault echelon force, 
a minimum of 30 operationally available ships are necessary to provide 
a force made up of ten Amphibious Assault Ships (LHD/LHA), ten 
Amphibious Transport Docks (LPD) and ten Dock Landing Ships (LSD). The 
fiscal year 2016 shipbuilding plan will result in a projected 
amphibious ship force structure of at least 31 ships in the near-term 
and maintains at least 33 ships throughout the 2020s and 2030s. At the 
end of fiscal year 2018, the Amphibious Force Structure will be 35 
ships, which includes 11 LHD/LHAs, 12 LPDs, and 12 LSDs.

    41. Senator Ayotte. Secretary Stackley, Admiral Hilarides, and 
Admiral Mulloy, what is the impact on our national security and the 
Navy's ability to project power if we are short on amphibious vessels?
    Mr. Stackley, Admiral Hilaridies, and Admiral Mulloy. Amphibious 
ships operate forward to support allies, respond to crises, deter 
potential adversaries, and provide the nation's best means of 
projecting sustainable power ashore; they also provide an excellent 
means for providing humanitarian assistance and disaster relief. 
Amphibious forces comprised of Sailors, Marines, ships, aircraft and 
surface connectors provide the ability to rapidly and decisively 
respond to global crises without a permanent footprint ashore that 
would place unnecessary political or logistical burdens upon our allies 
or potential partners. There are two main drivers of the amphibious 
ship requirement: maintaining persistent forward presence, which 
enables both engagement and crisis response, and delivering the assault 
echelons of up to two Marine Expeditionary Brigades (MEB) for joint 
forcible entry operations. A reduced amphibious inventory means there 
is less margin for error, and a reduced ability to respond to 
unforeseen or emergent circumstances, and to meet the strategic goals 
outlined in the QDR and DSG respectively. Further, it would mean that 
the in-service amphibious ships would be operated at such high tempo 
that maintenance cost and service life would likely be affected.
                     china's military modernization
    42. Senator Ayotte. Admiral Mulloy, in your testimony before the 
House Armed Services Committee on February 25, you said that China's 
submarine force is growing ``at a tremendous rate'', and that their 
number of diesel and nuclear attack submarines has surpassed ours. What 
is your assessment of China's submarine fleet?
    Admiral Mulloy. China's integration of more advanced submarines and 
deployments into broader areas are expected to continue through 2020. 
China continues progress with the design of more advanced submarines, 
weapons, and sensors. To date, the People's Liberation Army Navy 
(PLA(N)) operates domestically designed nuclear ballistic missile 
submarines (SSBN), nuclear attack submarines (SSN), and conventional 
submarines (attack submarines (SS) and diesel submarines-AIP equipped 
(SSP)).
    However, I misspoke in the HASC hearing on February 25, 2015. In 
response to Representative Hartzler's question about the numbers and 
capability of China's submarines, I said that China had more submarines 
than the United States. However, current inventory shows that China has 
63 submarines (4 SSBN, 5 SSN, 12 SSP, and 41 SS), which is fewer than 
the 71 submarines that the U.S. Navy currently has in inventory. I 
meant to say that at the pace they are building, China could exceed the 
U.S. in quantity by 2020. The quality of U.S. submarines remains 
superior, but China is making significant advances in their capability 
to build submarines.

    43. Senator Ayotte. Admiral Mulloy, what implications does the 
growth in China's submarine have for America's submarine fleet and 
anti-submarine capabilities?
    Admiral Mulloy. China's integration of more advanced submarines and 
deployments into broader areas are expected to continue through 2020. 
China continues progress with the design of more advanced submarines, 
weapons, and sensors. As the number of modern and capable submarines 
fielded by our adversaries continues to rise, it reduces our relative 
warfighting advantage in the undersea domain, adding risk should we 
need to engage in conflict and potentially reducing credibility to 
deter adversaries and assure allies in the future.
                                 ______
                                 
              Questions Submitted by Senator Mazie Hirono
                        shock testing of cvn-78
    44. Senator Hirono. Secretary Stackley, the Navy routinely performs 
testing on new ship classes to determine that these ships are capable 
of withstanding possible damage in combat operations. One of these 
tests is called a shock trial. For the CVN-78 program, I understand 
that the Navy intends to perform shock trials on the CVN-79, the second 
ship in the class. I also am aware that Dr. Michael Gilmore, the 
Director of Operational Test & Evaluation, has complained that the Navy 
should not wait until the second ship of the class to perform shock 
trials. Could you describe why Dr. Gilmore does not agree with the Navy 
position, and could you also describe why the Navy is not persuaded by 
Dr. Gilmore's arguments?
    Mr. Stackley. Subsequent to the March 18 hearing, the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) issued an Acquisition Decision Memorandum (ADM) directing 
Navy to execute a Full Ship Shock Trial (FSST) and Total Ship 
Survivability Test (TSST) on CVN 78 prior to initial operational 
deployment. The Navy is currently revising the CVN 78 Class program 
plan to comply with the ADM.
               ddg-51 with air and missile defense radar
    45. Senator Hirono. Secretary Stackley, one of the lessons the Navy 
has had to periodically re-learn is that we shouldn't be making changes 
in the middle of a shipbuilding acquisition contract. Congress approved 
a 5-year multiyear procurement program to buy the Flight IIA version of 
the DDG-51 between fiscal year 2013 and fiscal year 2017. The Navy had 
wanted blanket authority to start buying a new version of the DDG-51 
with a new radar system during the middle of the multiyear procurement 
program. That radar system is called the Air and Missile Defense Radar 
(AMDR) and the version of the DDG-51 with the AMDR would be referred to 
as a Flight III DDG-51. The language approving the fiscal year 2013 to 
fiscal year 2017 multiyear program indicated that Congress might be 
willing to approve an engineering change proposal for including the 
AMDR on the second DDG in fiscal year 2016, but that the Navy would 
have to demonstrate certain levels of maturity in the AMDR program and 
the DDG-51 design to include the AMDR before proceeding. Can you tell 
us why we should approve the Navy's proposal to include AMDR on the 
second DDG-51 in the fiscal year 16 budget request?
    Mr. Stackley. The DDG-51 program has a long history producing three 
flights (I, II, IIA). Flight I produced the original baseline while 
Flight II introduced enhanced capability in Combat Systems and 
Electronic Warfare. Flight IIA constituted a more significant change to 
the ship by incorporation of an organic dual hangar/dual helicopter 
aviation facility, extended transom, zonal electrical power 
distribution, enhanced missile capacity, and reconfigured primary radar 
arrays. Flight III will take a similar approach as Flight IIA by 
incrementally increasing capability. Flight IIA production was in the 
middle of the fiscal year 1998-2001 Multi-Year Procurement and the 
class was upgraded with a new radar, the AN/SPY-1D(V), and an improved 
combat management computing plant, AEGIS Baseline 7.1.
    Ship system changes were successfully executed by Engineering 
Change Proposals (ECP) introduced via the existing systems engineering 
processes on both Flight II and IIA in support of the ongoing 
construction program. The Navy and prime contractor have significant 
experience underpinned with proven processes that have provided an 
effective, efficient and affordable upgrade to the class while managing 
risk. The alternative would be to start a new ship design and 
incorporate the same capabilities into a production line for ship 
construction.
    AMDR, designated AN/SPY-6, will first be procured in fiscal year 
2016 in conjunction with Flight III. AN/SPY-6 provides tremendous 
capability improvement in Integrated Air and Missile Defense that will 
address the emergent threat. AN/SPY-6 is progressing well through 
Engineering Manufacturing and Development that began in 2014. The 
program has met all major milestones, including successful completion 
of Hardware Critical Design Review (CDR) in December 2014, and is on 
track to complete System CDR in April 2015. The tactical software is 
well into development, and that software is already integrated with and 
running radar hardware. All of the combat system and ship interfaces 
for the radar have been defined and are under engineering configuration 
management control. The DDG-51 shipbuilders are designing the ship 
changes required to host the radar, based on detailed radar design 
information already delivered. The small amount of residual risk 
associated with implementing this radar on an fiscal year 2016 Flight 
III justifies procurement of the radar as well as execution of the 
Flight III DDG-51 ECP during the fiscal year 2013-2017 multiyear 
procurement contract. Risk is also managed by introducing AN/SPY-6 
through the proven AEGIS combat system in the well-established DDG-51 
hull.
    In summary, the radar hardware design is complete, and is currently 
integrated with tactical software. The program is on track to support a 
production decision for procurement of the fiscal year 2016 Flight III 
DDG-51. Introducing AN/SPY-6 on Flight III remains the lowest risk, 
fastest, and least expensive means to deliver this vitally needed 
capability to pace the expected threat.

    46. Senator Hirono. Secretary Stackley, why should we consider the 
program to modify the design of the DDG-51 during the middle of a 
multiyear program as low risk?
    Mr. Stackley. Prior to Flight III, the DDG-51 program has produced 
three flights (I, II and IIA). Flight II introduced enhanced capability 
in Combat Systems and Electronic Warfare. Flight IIA constituted a more 
significant change to the ship by incorporation of an organic dual 
hangar/dual helicopter aviation facility, extended transom, zonal 
electrical power distribution, enhanced missile capacity, and 
reconfigured primary radar arrays. The combined scope and means for 
integrating the changes for Flight III is similar to the approach used 
in the Flight IIA upgrade.
    Additionally, during Flight IIA production in the middle of the 
fiscal year 1998-2001 multi-year procurement (MYP), the class was 
significantly upgraded with a new radar, the AN/SPY-1D(V), and an 
improved combat management computing plant, AEGIS Baseline 7.1. The 
previous ship system changes were successfully executed by Engineering 
Change Proposals (ECPs) introduced via the existing systems engineering 
processes on both Flight II and IIA in support of the ongoing 
construction program. This methodology takes advantage of Navy and 
prime contractor experience with the proven processes while offering 
effective and efficient introduction of the desired configuration 
changes. It also provides the more affordable and effective approach 
toward producing this enhanced ship capability in lieu of starting a 
new ship design to incorporate the same capabilities into a new 
production line for ship construction.
    AMDR, officially designated SPY-6, is to begin procurement in 
fiscal year 2016 as part of the Flight III DDG-51. Given the tremendous 
capability improvement that AMDR/SPY-6 provides in order to meet 
emergent air and ballistic missile threat requirements, the small 
amount of residual risk associated with implementing this radar on an 
fiscal year 2016 DDG-51 justifies procurement of the radar as well as 
execution of the Flight III DDG-51 ECP during the fiscal year 2013-2017 
MYP contract. Introducing SPY-6 through the proven Aegis combat system 
in the well-established DDG-51 hull remains the lowest risk, fastest 
way to get this capability to the Fleet.
    Since work on this current Engineering and Manufacturing 
Development phase began in January 2014, the AMDR program has met all 
major program milestones per plan, including successful completion of 
Hardware Critical Design Review (CDR) in December 2014, and is on track 
to complete System CDR in April 2015. The actual tactical software that 
runs the radar is well into development, and that software is already 
integrated with and running radar hardware. All of the combat system 
and ship interfaces for the radar have been defined and are under 
engineering configuration management control. The DDG-51 shipbuilders 
are designing the ship changes required to host the radar, based on 
detailed radar design information already delivered.
    In summary, the radar hardware design is complete, and is already 
integrated with initial tactical software. The program is on track, 
with schedule margin, to support a production decision for procurement 
of the fiscal year 2016 Flight III DDG-51. Introducing the AMDR/SPY-6 
on the Flight III DDG-51 remains the lowest risk, fastest, and least 
expensive means to deliver this vitally needed capability to our Fleet.
                     cruiser modernization program
    47. Senator Hirono. Admiral Mulloy, Congress and the Navy have 
debated the future of the cruisers in the fleet over the last 3 years. 
At the start of last year, the Navy wanted to put aside 11 cruisers to 
modernize, but Congress directed the Navy to maintain them as part of 
the fleet. Both the fiscal year 2015 National Defense Authorization Act 
and the Omnibus Appropriations Act carried language related to the 
modernizing cruisers. How does the Navy plan to execute the cruiser 
modernization plan?
    Admiral Mulloy. The Navy is executing the ``2-4-6'' plan for CGs 
63-73 as directed by Congress. Within the guidelines of the fiscal year 
2015 Consolidated and Further Continuing Appropriations Act, the Navy 
will induct no more than two ships per year for no more than four 
years, and have no more than six ships in a modernization period at any 
given time. In fiscal year 2015, the Navy is inducting the first two 
ships, the USS Gettysburg (CG 64) and USS Cowpens (CG 63) into 
modernization. The fiscal year 2016 President's Budget request inducts 
the next two CGs, USS Vicksburg (CG 69) and USS Chosin (CG 65), into 
modernization in fiscal year 2016.
    Using this ``2-4-6'' plan, the final cruiser retirements will occur 
between 2036 and 2039. In the meantime, the Navy will face far higher 
fleet operations and maintenance and personnel costs than anticipated. 
Under the Navy's original PB2015 plan, the final CG retirement would 
have occurred in 2045, at a significantly reduced cost to the Navy, and 
would have relieved pressure on a shipbuilding account largely consumed 
in the 2030s with building Ohio replacement SSBNs and aircraft 
carriers. This is a more cost efficient plan. Accordingly, the 
Department of Defense will continue to work with Congress to implement 
the Navy's cruiser modernization plan submitted with the PB2015 budget.
    (Per ``Report to Congress on the Annual Long-Range Plan for 
Construction of Naval vessels for fiscal year 2016'' dated March 2015, 
page 11.)

    48. Senator Hirono. Admiral Mulloy, please provide details of the 
Navy's cruiser modernization plan.
    Admiral Mulloy. A notional timeline for the Navy's cruiser 
modernization plan is provided below.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Induction Continuous Maintenance Availability (I-CMAV): Occurs 
prior to Phase I of modernization. This is notionally a 90 day long 
availability (depicted in yellow above) that places most equipment in 
preserved status and will essentially ``seal the ship'' in a safe and 
known condition prior to Phase I modernization. Ships inducted will be 
consolidated in Norfolk and San Diego. Following the I-CMAV, crew size 
on each ship inducted will be reduced to about 45 sailors with an 
Acquisition Professional Commanding Officer (CO) for the duration of 
Phase I (about 2.25 years as depicted by the line chart above). 
Responsibility for the ship will be transferred to the Naval Sea 
Systems Command (NAVSEA).
    Phase I Modernization: Basic upkeep and maintenance of the ship for 
a 2.25 year period with interspersed industrial periods, mainly for 
hull, mechanical and electrical (HM&E) modernization. During the 
``grey'' periods depicted above, the ships will be monitored by 
government and contracted personnel via sensors installed during the I-
CMAV. Topside maintenance will be performed as needed, but the ship 
will be sealed; no personnel allowed inside the skin of the ship except 
for periodic inspections. Crew members assigned (45 as noted above) 
will be involved in planning the industrial periods represented by the 
``orange'' blocks in the figure above. When not engaged in activities 
relating to their assigned ship, they may be temporarily assigned to 
the Regional Maintenance Center or to schools as required.
    One or two (ship dependent; based on previous work completed) 26 
week industrial periods (orange blocks) will be scheduled to conduct 
HM&E modernization. The first period will consist mainly of topside 
modernization and targeted Combat Systems removal. The second period 
will be more intrusive and include significant HM&E modernization. Crew 
assigned to the ship (still 45) will oversee these periods and review 
tagouts, Work Authorization Forms and other documentation.
    Phase II Modernization: Major Combat Systems modernization period 
with remaining HM&E work; approximately 86 weeks in length (represented 
in brown in the chart above). Includes a 35 week Dry-docking period 
(cross-hatched brown), combat systems upgrade to AEGIS Baseline 9A with 
SM-6 Standard Missile and Naval Integrated Fire Control--Counter Air 
(NIFC-CA) capability, and ends with Sea Trials. Crew will be re-
constituted in 4 phases with 100 percent on board prior to Aegis Light 
Off (week 52).
    Responsibility for the ship will return to the ship's CO (and type 
commander) following re-crew. Details of command and control, 
responsibilities transferred, and timeline of transfer will be 
contained in an OPNAVINST and Memorandum of Agreement between NAVSEA 
and Navy Surface Forces (SURFOR).
    Phase III Modernization: Period of reintroduction to the Fleet 
(depicted in green above) which will include inspections by the Board 
of Inspection and Survey (INSURV) and combat system ship qualification 
testing (CSSQT). This will notionally be a 90 day period. As a 
modernized CG is returned to the Fleet, an older CG (CGs 52-62) will be 
decommissioned. This program allows the Navy to maintain 11 CGs--one 
for each Carrier Strike Group--through 2034, when the first modernized 
CG from this program will decommission.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                NAVY AND MARINE CORPS AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 9:02 a.m. in 
room SR-222, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Ayotte, Tillis, 
Hirono, and Kaine.

     OPENING STATEMENT OF SENATOR ROGER F. WICKER, CHAIRMAN

    Senator Wicker. The meeting will come to order. Thank you 
very much.
    We convene this morning to examine Navy and Marine Corps 
aviation programs.
    I want to thank everyone for accommodating an earlier than 
usual start to our hearing. The President of Afghanistan, Dr. 
Ashraf Ghani, will address a joint session of Congress at 11 
a.m. President Ghani took his oath of office last September, 
marking Afghanistan's first peaceful and democratic transition 
of power.
    I view the situation now in Afghanistan as a success story. 
I am pleased that the administration announced that it will 
slow the withdrawal of troops during the remainder of 2015. 
These decisions should be made based on conditions on the 
ground, not political calculations.
    We are grateful for our servicemembers and veterans who 
have served in Operation Enduring Freedom, and we pay tribute 
to the 2,215 brave Americans who made the ultimate sacrifice in 
Afghanistan.
    This morning our subcommittee welcomes three distinguished 
witnesses: Vice Admiral Paul Grosklags, Principal Military 
Deputy for the Assistant Secretary of the Navy for Research, 
Development, and Acquisitions; Lieutenant General Jon M. Davis, 
Deputy Commandant for Marine Corps Aviation; and Rear Admiral 
Michael C. Manazir, Director of Air Warfare for the Department 
of the Navy. Our subcommittee is grateful to you for your 
decades of service to our Nation.
    Well-respected expert witnesses have testified before the 
Senate Armed Services Committee that our Nation faces the most 
diverse, complex, and potentially dangerous threats to national 
security in recent history. However, instead of strengthening 
our military and ensuring our men and women in uniform have 
comprehensive training and world-class equipment they need, 
sustained budget cuts and mindless sequestration are damaging 
our military's force structure, modernization, and readiness. 
The stakes are high during these challenging times.
    For example, hard-earned gains in the Middle East are 
increasingly challenged by the extremists of the Islamic State. 
Vladimir Putin's belligerence continues to test NATO's resolve 
in Eastern Europe, and the Peoples Republic of China continues 
to expand and modernize its military, threatening to alter the 
balance of power in the Pacific.
    Given these global threats, I hope our witnesses today will 
elaborate on the impact that sequestration would have on Navy 
and Marine Corps aviation programs, the Navy and Marine Corps' 
ability to execute our country's national security strategy, 
and the vitality of our aviation industrial base.
    This morning our subcommittee will examine four key areas 
related to the Navy's aviation programs.
    First, aircraft readiness. There are problems with the 
Navy's inventory of 600 legacy F/A-18C strike fighters. Half of 
the fleet is out-of-reporting status. This means that the 
aircraft are not available to train our aviators or execute 
combatant commander requests for aviation support. We face 
these challenges because of delays in the F-35 Joint Strike 
Fighter program, budget reductions that have caused an acute 
backlog in aircraft depot maintenance, and an extremely high 
OPTEMPO [operational tempo]. This situation has led the Navy to 
fly its newer F/A-18E and F Super Hornets at higher rates than 
expected, accelerating the consumption of their service lives.
    We also hope to hear about the gap in fighter aircraft. Our 
subcommittee would like to learn more about gaps in the fighter 
fleet. The Chief of Naval Operations, Admiral Greenert, 
estimates that the Navy needs up to 36 new strike fighters to 
help mitigate a current shortfall of 104 strike fighters, with 
a potential peak shortfall of 134 aircraft in 2020. Although 
Congress has not yet received an fiscal year 2016 unfunded 
priority list from the Department of the Navy, I hope our 
witnesses today will be able to provide more details on 
unfunded requirements for multi-role fighter aircraft.
    Third, we would like to know more about the Navy's plans 
for its next generation naval cargo aircraft. Admiral Greenert 
recently made the decision to propose the replacement of the 
aging COD [Carrier Onboard Delivery] aircraft, with the V-22 
Osprey. I understand this plan involves shifting some planned 
procurement of V-22 aircraft from the Marine Corps to the Navy. 
We would appreciate the Navy providing this subcommittee with 
details and ramifications of this proposal, including the 
ability of the F-22 to fulfill COD mission requirements.
    Fourth, I would like an update on the status of the Navy's 
UCLASS manned aerial vehicle program. I understand that program 
requirements are still in the process of being finalized. Our 
subcommittee has a particular interest in learning why the Navy 
does not plan to support the continuation of the Navy unmanned 
combat air system demonstration program in the interim. This 
demonstration program could reduce risk in technology 
development for follow-on programs such as UCLASS. We have 
already invested $1.5 billion to develop and construct two 
cutting-edge aircraft. Over 85 percent of the projected service 
life remains on these two aircraft. So help us understand the 
Navy's reasons for ending this development program.
    Turning to the Marine Corps aviation, our subcommittee is 
aware of the Marine Corps' issues with their legacy fighter 
fleet. Testing is underway in Yuma, AZ, and other locations on 
the F-35B Joint Strike Fighter. This summer, a significant 
milestone will occur with initial operational capability for 
the F-35B.
    However, there are concerns about the warfighting 
capability of these initial aircraft. For example, the 
Department of Defense's Director of Operational Test and 
Evaluation, Dr. J. Michael Gilmore, observed in his annual 
report for 2014 that the annual software for these Marine Corps 
aircraft will be delivered with troubling capability 
shortfalls. Our subcommittee would like our witnesses to 
elaborate on whether the marine aviators flying the F-35B in 
hostile environments after declaration of IOC [initial 
operational capability] have the appropriate levels of safety, 
reliability, and combat effectiveness they need.
    Finally, I would like an update on Navy and Marine Corps 
munitions. Earlier this month, Admiral Greenert and Commandant 
Dunford testified before the Senate Armed Services Committee 
that Navy and Marine Corps munition inventories may not be 
sufficient to support combatant commander requirements. This 
subcommittee needs to understand the nature of the shortfalls 
in air-to-air weapons, as well as air-to-surface munitions such 
as the joint standoff weapon and advanced anti-radiation guided 
missile. I would like to hear about the levels of risk 
associated with insufficient levels of these weapons which are 
absolutely vital to the execution of our current and near-term 
contingency operations.
    Once again, I want to thank our witnesses for their service 
to our Nation and recognize the ranking member, Senator Hirono, 
for whatever opening remarks she might have.

               STATEMENT OF SENATOR MAZIE HIRONO

    Senator Hirono. Thank you, Mr. Chairman.
    I join the chair in thanking you for your service and, of 
course, for the wonderful work that all of our men and women 
are doing in Afghanistan and other parts of the world. Our 
thoughts and prayers go with those who are actively serving and 
also with their families who, of course, also serve and 
sacrifice every day.
    The chair and I share many similar concerns, especially 
relating to gaps in our fighter fleet and concerns surrounding 
the F-35s.
    So our witnesses this afternoon face huge challenges as you 
strive to balance the need to support ongoing operations and 
sustain readiness with the need to modernize and keep the 
technological edge so critical to military success. These 
challenges have been made particularly difficult by the 
spending caps imposed by the Budget Control Act, caps that were 
modestly relieved for fiscal year 2015 in the Bipartisan Budget 
Act that we enacted earlier this year. However, these caps are 
scheduled to resume full blast in fiscal year 2016 and beyond. 
These caps already seriously challenge our ability to meet our 
National security needs and have already forced the military 
departments to make painful tradeoffs. Unless modified for 
years after fiscal year 2015, these caps will threaten our 
long-term national security interests.
    This year, I believe we have two pivotal situations in 
naval aviation. This is the year when, if the schedule works 
out as planned, the Marine Corps will be in a position to 
declare initial operating capability [IOC] for the F-35B, the 
short takeoff, vertical landing (STOVL). We need to hear how 
the testing is proceeding, something already mentioned by the 
chair, and how other parts of the program are supporting that 
IOC declaration later this year.
    Second, the Navy is facing a major shortfall in its strike 
fighter inventory. The Navy responded to forecasts of a 
shortage of almost 200 aircraft several years ago by better 
managing the remaining life of the existing aircraft by 
redistributing aircraft within the force, designing a series of 
maintenance and rehabilitation measures, including a service 
life extension program, or a SLEP, for older aircraft, and 
buying new F-18 aircraft.
    After several years of predicting significant improvements 
in the Navy's ability to support operating forces, including 
aircraft carrier squadrons and Marine Corps squadrons, with 
strike fighter aircraft, the Navy this year is predicting a 
major erosion in that ability. This year, the Navy estimates 
that their shortfall has risen from a level last year of 
roughly 30 aircraft to a level this year of more than 100 
aircraft to as high as 134 aircraft. The committee received 
previous testimony from Navy witnesses and a shortfall of 
roughly 65 strike fighters was manageable.
    We need to understand why there is an increased projection 
of a shortfall, what effect a shortfall of 134 aircraft means, 
and what actions the Navy will take to reduce or mitigate that 
shortfall.
    So I will stop now and let us hear from the witnesses this 
morning. Thank you very much, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    I understand Vice Admiral Grosklags will make a statement 
representing the views of all three witnesses. Is that correct, 
Vice Admiral?
    Admiral Grosklags. Yes, sir, that is correct.
    Senator Wicker. Proceed then. Thank you so much.

 STATEMENT OF VADM PAUL A. GROSKLAGS, USN, PRINCIPAL MILITARY 
     DEPUTY, ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, 
                 DEVELOPMENT, AND ACQUISITIONS

    Admiral Grosklags. Mr. Chairman, Ranking Member Hirono, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to talk about our naval 
and Marine Corps aviation programs.
    As you are aware, we have submitted a formal statement for 
the record, and I will give a single brief opening statement.
    The United States is a maritime nation. We have global 
interests and global responsibilities. Our Navy and Marine 
Corps provide the continuously forward-deployed, persistent 
presence which ensures our Nation's global reach, global 
access, and ability to project power regardless of changing 
alliances, permissions, or circumstances on the ground. We move 
at will across the world's oceans, seas, and littorals, 
providing our Nation's leaders with offshore options where it 
matters and when it matters.
    The aviation component of our Marine Corps and Marine Corps 
team enables our sea-based and expeditionary naval forces to 
bring simultaneous influence over vast stretches of the 
maritime environment, across the shoreline, and deep inland. As 
such, it is critical that our aviation forces remain always 
ready, poised to engage at a moment's notice with the required 
capacity and capability to influence events and, if necessary, 
to fight and to win.
    Last year, we saw significant advancements in many of our 
aviation programs such as the first P-8 deployment to the 
western Pacific, standup of a second special purpose MAGTF 
[Marine Air Ground Task Force] formed around the unique 
capabilities of the V-22 and the KC-130J. We saw initial 
qualification of the Joint Strike Fighter on board our aircraft 
carrier, and we had initial operational capability [IOC] with 
the MH-6 this year and its advanced precision kill weapons 
system.
    This year, we look forward to a number of additional 
milestones, to include the initial operational capability [IOC] 
of the F-35B that the ranking member just referred to, 
initiation of sensor testing on our MQ-4C Triton unmanned ISR 
vehicle, first flight of the CH-53K for the Marine Corps by the 
end of this calendar year. Our first deployment of our E-2D 
began this month, and along with the Air Force, we have 
declared initial operational capability [IOC] for the AIM-120D, 
the most current version of that weapon, and we will declare 
initial operational capability for the AIM-9X block 2 this 
month.
    For 2016, our naval aviation budget request is based on a 
number of central themes: fifth generation fighter attack 
capability; netted persistent multi-role intelligence, 
surveillance, reconnaissance; critical supporting capabilities 
in electronic attack, maritime patrol, and vertical lift; 
advanced strike weapons programs; readiness recovery; and 
targeted modernization of the force to ensure our continued 
relevance and sustainability.
    Now, as this subcommittee is well aware and as you alluded 
to in your opening remarks, Mr. Chairman, our security 
interests face an increasing array of threats and demands. 
However, our budget position grows ever more challenging. We 
will continue to prioritize the readiness of the forces 
currently forward deployed over all of other investments. 
However, we must also recognize that those Navy and Marine 
Corps forces that this Nation deploys to meet the future threat 
will be dependent upon the equipment and the readiness 
modernization programs of today.
    Across the department, our strategies for the development, 
procurement, and sustainment of both current and future systems 
are critically dependent upon stable and predictable funding at 
a level consistent with the President's budget 2016 request. We 
believe the alternative has been made clear by our Secretary 
and by the service chiefs. It will be a smaller force, a force 
less forward deployed, a force slower to respond to a crisis, 
and a force which, when it does respond, will be less capable 
and more vulnerable.
    Mr. Chairman, we request your leadership and the support of 
this subcommittee to provide the resources that enable your 
Navy and Marine Corps team to be our Nation's first responders.
    Again, thank you for the opportunity to appear before you 
today to discuss our programs, and we look forward to your 
questions.
    [The prepared joint statement of Admiral Grosklags, Admiral 
Manazir, and General Davis follows:]

   Prepared Joint Statement by Vice Admiral Grosklags, Rear Admiral 
          Michael C. Manazir, and Lieutenant General Jon Davis
                              introduction
    Mr. Chairman, Senator Hirono, and distinguished members of the 
Subcommittee, we thank you for the opportunity to appear before you 
today to discuss the Department of the Navy's (DON) Aviation programs. 
Our testimony will provide background and rationale for the 
Department's fiscal year 2016 budget request for aviation programs 
aligning to our strategic priorities and budgetary goals.
    The United States is a maritime nation with global 
responsibilities. Our Navy and Marine Corps' persistent presence and 
multi-mission capability represent U.S. power projection across the 
global commons. They move at will across the world's oceans, seas and 
littorals, and they extend the effects of the sea-base and 
expeditionary basing deep inland. Naval Aviation provides our nation's 
leaders with ``offshore options'' where it matter, when it matters. We 
enable global reach and access, regardless of changing circumstances, 
and will continue to be the nation's preeminent option for employing 
deterrence through global presence, sea control, mission flexibility 
and when necessary, interdiction. We are an agile strike and amphibious 
power projection force in readiness, and such agility requires that the 
aviation arm of our naval strike and expeditionary forces remain 
strong.
    There are several central themes to our 2016 Naval Aviation Budget 
plan: 5th generation fighter/attack capability; netted persistent 
multi-role intelligence, surveillance, reconnaissance and targeting; 
supporting capabilities such as electronic attack, maritime patrol, and 
vertical lift; advanced strike weapons programs; readiness recovery; 
and targeted modernization of the force for relevance and 
sustainability.
    First, we are acquiring F-35 5th generation fighter/attack aircraft 
while maintaining sufficient tactical aviation (TACAIR) inventory 
capacity. Our plan will integrate 5th generation technologies into the 
carrier air wing and expeditionary forces while maintaining and 
modernizing the capability of the current TACAIR fleet. The F-35B and 
F-35C will replace Marine Corps F/A-18 and AV-8B aircraft significantly 
increasing capabilities across the range of military operations of 
Marine sea and land-based MAGTFs. The F-35C, F/A-18E/F, and EA-18G 
provide complementary capabilities that enhance the versatility, 
lethality, survivability, and readiness of our air wings. F/A-18A-F and 
AV-8B aircraft will continue to receive capability enhancements to 
sustain their lethality well into the next decade. Future avionics 
upgrades will enable network-centric operations for integrated fire 
control, situational awareness and transfer of data to command-and-
control nodes.
    To meet the demand for persistent, multi-role intelligence, 
surveillance, and reconnaissance (ISR) capability, the Navy and Marine 
Corps are building a balanced portfolio of manned and unmanned aircraft 
focused on missions in the maritime environment. The Unmanned Carrier 
Launched Airborne Surveillance and Strike (UCLASS) system will provide 
a persistent aircraft carrier-based ISR&T and strike capability as an 
integral part of carrier air-wing operations no later than the early 
part of the next decade. MQ-4C Triton will provide persistent land-
based maritime ISR and complement our P-8 Multi-Mission Maritime 
Aircraft (MMA); MQ-8 Fire Scout will provide ISR support to our 
Frigates and other suitably-equipped air-capable ships; and smaller 
unmanned systems such as the RQ-21A Small Tactical Unmanned Aircraft 
System (STUAS) and RQ-7B Marine Corps Tactical UAS (MCTUAS) will 
provide the shorter duration, line-of-sight reconnaissance capability 
integral at the unit level.
    The Fiscal Year 2016 Budget request enables Naval Aviation to 
continue recapitalization of our aging fleets of airborne early 
warning, maritime patrol, and vertical lift platforms. The Department 
is recapitalizing our fleet of E-2C airborne early warning aircraft 
with the E-2D, maritime patrol and reconnaissance with the P-8A, 
airborne electronic attack with the EA-18G, and Carrier Onboard 
Delivery (COD) with the V-22. E-2D integrates a new electronically-
scanned radar that provides a two-generation leap in technology with 
the capability to detect and track existing and emerging air-to-air and 
cruise missile threats in support of Integrated Air and Missile Defense 
(IAMD). P-8A combines the proven reliability of the commercial 737 
airframe with avionics that enable integration of modern sensors and 
robust communications. We have deployed our third P-8A squadron and are 
on a path to replace the P-3C by the end of the decade. Electronic 
attack capabilities, both carrier-based and expeditionary, continue to 
mature with the fielding of EA-18G squadrons while we continue 
development of the Next Generation Jammer (NGJ) to replace the legacy 
ALQ-99 Tactical Jamming System. Finally, the Department is planning to 
recapitalize its fleet of C-2A COD aircraft with an extended range 
variant of the V-22. The decision closes a capacity gap in the COD 
capability within an existing program of record.
    The Navy and Marine Corps are participating in Joint Future 
Vertical Lift efforts to identify leverage points for future rotorcraft 
investment. In fiscal year 2016 the Department continues to modernize 
vertical lift capability and capacity with procurement of MH-60R, AH-
1Z, UH-1Y, and MV-22B, and the continued development of the CH-53K and 
VH-92A (Presidential Helicopter replacement). The Special Purpose 
Marine Air-Ground Task Force-Crisis Response (SPMAGTF-CR), designed to 
support U.S. and partner security interests throughout the CENTCOM, 
EUCOM and AFRICOM Areas of Responsibility (AOR), leverages these 
vertical lift investments. The unparalleled speed and range of the MV-
22B, together with the KC-130J and joint tanker assets provides both 
SPMAGTF-CR with the operational reach to respond to crises throughout 
any AOR.
    Within our Fiscal Year 2016 Budget request the Department continues 
investment in advanced strike weapons programs. These include Air 
Intercept Missiles (AIM-9X/BLK II and AIM-120D); Small Diameter Bomb II 
(SDB II); Tactical Tomahawk Cruise Missiles (TACTOM/BLK IV); the Long-
Range Anti-Ship Missile (LRASM); the Advanced Anti-Radiation Guided 
Missile (AARGM); the Joint Air-to-ground Missile (JAGM); and the 
Advanced Precision Kill Weapon System (APKWS II). These capabilities 
enable our Navy and Marine Corps warfighters to deter and dominate 
potential adversaries in any environment.
                           tactical aviation
F-35B/F-35C Lightning II:
    The F-35 Joint Strike Fighter (JSF) will form the backbone of U.S. 
air combat superiority for decades to come. Delivering this 
transformational capability into front line forces as soon as possible 
remains a top priority. JSF will replace legacy tactical fighter fleets 
of the Navy and Marine Corps with a dominant, multirole, fifth-
generation aircraft, capable of projecting U.S. power and deterring 
potential adversaries. The Fiscal Year 2016 President's Budget requests 
$1.0 billion RDT&E,N and $3.1 billion APN.
    The F-35 program is executing well across the entire spectrum of 
acquisition, to include development and design, flight test, 
production, fielding and base stand-up, sustainment of fielded 
aircraft, and stand up of a global sustainment enterprise. To date, all 
variants of F-35 have flown close to 28,000 hours close to 11,000 hours 
for the F-35B and more than 3,000 for the F-35C. Our overall assessment 
is that steady progress is being made on all aspects of the program. 
However, F-35 does continue to have its risks, inclusive of software 
development and integration. However, discipline instilled several 
years ago in the way software is developed, lab tested, flight tested, 
measured and controlled has resulted in improved and more predictable 
outcomes.
    The program is in the final stages of flight test for Block 2B 
software; Block 3i software is anticipated to deliver all planned 
capabilities; and Block 3F, which has the most software development 
risk driven by data fusion, is improving. Data fusion enables the 
aircraft to integrate onboard capabilities with information from 
multiple other sources, such as non-F-35 aircraft, satellites, and 
ground stations, to provide the pilot complete and accurate battlespace 
awareness. This multi-platform fusion is the most complex remaining 
developmental activity and is being closely monitored. Block 3F 
complexity and technical challenges, combined with a delay in the start 
of 3F flight testing may result in delivery up to 4-6 months late. 
Overall, the Block 2B configuration, which will support the Marine 
Corps' F-35B Initial Operational Capability (IOC) will deliver during 
the Summer of 2015 and is tracking to plan; Block 3i, the same 
capability as Block 2B but hosted on new and improved computers, is 
expected to be ready by the end of calendar year 2015, and Block 3F 
capability will enable Navy to IOC the F-35C variant in 2018 along with 
the Marine Corps its first F-35C in 2020.
    The program has delivered 124 aircraft to test, operational, and 
training sites, with the production line running approximately two-
months behind schedule. Due to government/industry manufacturing 
management initiatives, production deliveries are improving and the 
current delays do not pose any long-term schedule or program delivery 
risks.
    Affordability remains a top priority. We have made it clear to the 
program management team and the F-35 industrial base that the JSF must 
finish development within the time and money allocated; continue to 
drive cost out of aircraft production; and reduce life-cycle costs. To 
that end the program has engaged in a multi-pronged approach to reduce 
costs across production, operations, and support. The government/
industry team is reducing aircraft production costs through ``blueprint 
for affordability'' initiatives and reducing F135 engine costs via 
ongoing engine ``war on cost'' strategies. These efforts include up-
front contractor investment on cost reduction initiatives mutually 
agreed upon by the government and contractor team. This arrangement 
motivates the contractors to accrue savings as quickly as possible in 
order to recoup their investment, and benefits the government by 
realizing cost savings at the time of contract award. The goal is to 
reduce the flyaway cost of the U.S. Air Force (USAF) F-35A to between 
$80 and $85 million dollars by 2019, which is anticipated to 
commensurately decrease the cost to the Marine Corps F-35B and Navy F-
35C variants. The program has set a goal of decreasing overall 
operating and support life-cycle cost by 30 percent.
F/A-18 Overview
    The F/A-18 Hornet continues to meet readiness and operational 
commitments. There are 26 Navy Super Hornet strike fighter squadrons 
and a total inventory of 521 F/A-18E/Fs; deliveries and squadron 
transitions will continue through 2018. There are nine Navy and 11 
Marine Corps F/A-18 A-D active strike fighter squadrons and a total 
inventory of 614 Hornets. Super Hornets and F/A-18A-D Hornets have 
conducted more than 214,000 combat missions since September 11, 2001.
F/A-18 A/B/C/D Hornet
    The Fiscal Year 2016 President's Budget requests $371.2 million in 
APN to implement aircraft commonality programs, maintain relevant 
capability, improve reliability, and ensure structural safety of the 
inventory of 614 F/A-18 A-D Hornets. $148.2 million is for the Service 
Life Extension Program (SLEP).
    The F/A-18A-D was designed for, and has achieved, a service life of 
6,000 flight hours. These aircraft have performed as expected through 
their design life. Service life management of this aircraft is intended 
to extend this platform beyond its designed 6,000 flight hours. Through 
detailed analysis, inspections, and structural repairs, as required, 
the DON has been successful in achieving 8,000 flight hours for many 
aircraft and is pursuing a strategy to go as high as 10,000 flight 
hours on select aircraft. Continued investment in SLEP, the High Flight 
Hour (HFH) inspection program, Program Related Engineering, and Program 
Related Logistics is critical for our flight hour extension strategy.
    In order to maintain warfighting relevancy in a changing threat 
environment, we will continue to procure and install advanced systems 
such as the Joint Helmet-Mounted Cueing System (JHMCS), High Order 
Language Mission Computers, ALR-67v3, ALQ-214v5, Multifunctional 
Information Distribution System (MIDS), APG-73 radar enhancements, 
Advanced Targeting Forward looking Infrared (ATFLIR) upgrades, and 
LITENING for the Marine Corps on selected F/A-18A-D aircraft.
F/A-18 E/F Super-Hornet
    The F/A-18E/F will be a mainstay of Navy's aviation carrier air 
wing strike fighter force through 2035. The Fiscal Year 2016 
President's Budget requests $507.1 million in APN to implement aircraft 
commonality programs, maintain relevant capabilities, improve 
reliability, and ensure structural safety of the Super-Hornet fleet; 
and $153 million RDT&E,N to support the Flight Plan spiral capability 
development, development of Advanced Electronic Attack and Counter-
Electronic Attack, and F/A-18E/F Service Life Assessment Program 
(SLAP).
    The F/A-18E/F significantly improves the survivability and strike 
capability of the carrier air wing. The Super-Hornet provides increased 
combat radius and endurance, and a twenty-five percent increase in 
weapons payload over F/A-18A-D Hornets. The production program 
continues to deliver on-cost and on-schedule.
    The Super-Hornet uses an incremental approach to incorporate new 
technologies and capabilities, to include Digital Communication System 
Radio, MIDS--Joint Tactical Radio System, JHMCS, ATFLIR with shared 
real-time video, Accurate Navigation, Digital Memory Device, 
Distributed Targeting System, Infrared Search and Track and continued 
advancement of the APG-79 Active Electronically Scanned Array (AESA) 
Radar.
    $19.7 million of the 2016 RDT&E,N supports the F/A-18E/F SLAP 
requirement. The F/A-18 E/F fleet, on average, has flown approximately 
36 percent of the design life of 6,000 flight hours. The remaining 
design service-life will not be adequate to meet long-term operational 
commitments through 2035. In 2008 the Navy commenced a three phase F/A-
18E/F SLAP to analyze actual usage versus structural test results and 
determine the feasibility of extending F/A-18E/F service life from 
6,000 to 9,000 flight hours via a follow-on SLEP. The F/A-18E/F SLAP 
will identify the necessary inspections and modifications required to 
achieve 9,000 flight hours and increase total arrested landings and 
catapults beyond currently defined life limits. This extension is 
assessed as low risk. The Service Life Management Plan philosophy has 
been applied to the F/A-18E/F fleet at an earlier point in its 
lifecycle than the F/A-18A-D. This will facilitate optimization of 
Fatigue Life Expended, flight hours, and total landings, thereby better 
aligning aircraft service life with fleet requirements.
AV-8B Harrier
    Since the beginning of the war on terror, the AV-8B Harrier has 
been a critical part of the strike fighter inventory for the Joint 
force. This aircraft has flown more than 54,000 hours in combat since 
2003 with zero losses from the enemy in the air but six losses on the 
ground when the enemy broke through our forces at Bastion air base in 
2012. The Fiscal Year 2016 President's Budget requests $83.3 million in 
APN funds to continue the incorporation of Obsolescence Replacement / 
Readiness Management Plan systems, electrical and structural changes, 
inventory sustainment and upgrade efforts to offset obsolescence and 
attrition, LITENING Pod upgrades, and F402-RR-408 engine safety and 
operational changes.
    The Fiscal Year 2016 President's Budget requests $39.9 million in 
RDT&E,N funds to continue Design, Development, Integration and Test of 
various platform improvements, to include Engine Life Management 
Program, Escape Systems, Joint Mission Planning System updates, Link 16 
Digital Interoperability integration, Operational Flight Program (OFP) 
block upgrades to various mission and communication systems, navigation 
equipment, weapons carriage, countermeasures, and the Obsolescence 
Replacement / Readiness Management Plan.
    The AV-8B continues to deploy in support of operational 
contingencies. Each Marine Expeditionary Unit (MEU) deploys with 
embarked AV-8Bs. The AV-8B, equipped with LITENING targeting pods and a 
video downlink to ROVER ground stations, precision strike weapons, 
Intrepid Tiger II EW pods and beyond visual range air-to-air radar 
guided missiles, continues to be a proven, invaluable asset for the 
Marine Air Ground Task Force (MAGTF) and joint commander across the 
spectrum of operations. One squadron has flown more than 3,400 hours of 
strike sorties against ISIS with an average combat radius of 900 miles. 
Digital Improved Triple Ejector Racks have allowed us to load up to 6 
precision guided munitions per aircraft, with tanks, guns, and Litening 
Pods exponentially increasing the combat viability of this platform. In 
Fiscal Year 2016 the Airborne Variable Message Format terminals will be 
installed in AV-8B to replace the current digital-aided close air 
support (CAS) technology. The program will continue development of the 
H6.2 Operational Flight Program to integrate Federal Aviation 
Administration compliant Navigation Performance/Area Navigation (RNP/
RNAV) capability, an update to the LITENING Common OFP to implement 
improvements to moving target tracking, and correct additional software 
deficiencies identified through combat operations. The program will 
also work on the H7.0 OFP which will integrate Link 16 functionality. 
As an out-of-production aircraft, the AV-8B program will continue its 
focus on sustainment efforts to mitigate significant inventory 
shortfalls, maintain airframe integrity, achieve full Fatigue Life 
Expended, and address reliability and obsolescence issues of avionics 
and subsystems.
    Operations ODYSSEY DAWN, ENDURING FREEDOM, and today's Operation 
FREEDOM SENTINEL confirm the expeditionary advantages of Short Take-Off 
and Vertical landing (STOVL) capabilities. Placing the Harrier as the 
closest multi-role fixed-wing asset to the battlefield greatly reduces 
transit times to the battlefield and enables persistent CAS without 
strategic tanking assets. Airframe sustainment initiatives, capability 
upgrades, and obsolescence mitigation is essential and must be funded 
to ensure the AV-8B remains lethal and relevant.
FA-XX
    The Department is preparing to conduct an analysis of alternatives 
(AoA) to address the anticipated retirement of the F/A-18E/F and EA-18G 
aircraft beginning in the mid 2020 timeframe. The FA-XX AoA will 
consider the widest possible range of materiel concepts while balancing 
capability, cost, schedule, and supportability considerations. It will 
assess manned, unmanned, and optionally manned approaches to fulfill 
predicted 2030+ mission requirements. Analysis will consider baseline 
programs of record (current platforms), evolutionary or incremental 
upgrades to baseline programs (including derivative platforms), and new 
development systems or aircraft to meet identified gaps in required 
capability. The Fiscal Year 2016 budget requests $5.0 million in 
RDT&E,N to conduct this AoA.
Strike Fighter Inventory Management
    The Department remains challenged with end of life planning for F/
A-18A-D and AV-8B aircraft that reach the end of their service life 
before replacement aircraft (F-35B/C) can be fully delivered into 
service. In the fiscal year 2016 budget request the Department was 
forced to cut 16 F-35Cs from the budget (fiscal year 2016-2020), 
delaying the stand-up of the first Marine Corps F-35C squadron by one 
year and delaying subsequent F-35C squadron transitions by two years 
each. Strike Fighter Inventory Management risk increases with the 
fiscal year 2016 budget request, further increasing the gap between 
supply and the Department's Master Aviation Plan demand.
    The near term inventory challenge is due to a combination of 
reduced Strike Fighter procurement, higher than planned TACAIR 
utilization rates, and F/A-18A-D and AV-8B depot facility production 
falling short of the 2013 and 2014 required output. Aggressive efforts 
across the Department were instituted in 2014 to improve depot 
throughput and return more aircraft back to the Fleet. Aviation depots 
are expected to improve productivity through 2017, and fully recover 
the backlog of F/A-18A-D by 2019 and Harrier by 2016; at which time the 
focus will shift towards F/A-18E/F service life extension. The Marines 
ran an Independent Readiness Review of their AV-8B program to recover 
to a T-2.0 readiness level within their AV-8B fleet, meet their 
operational requirements and ensure they had an adequate bridge to the 
F-35. By following the plan, the AV-8B fleet should be in the green in 
17 months.
    The Navy and USMC strike-fighter force continues to meet their 
operational commitments. However, we anticipate the inventory pressure 
to remain relatively constant through fiscal year 2016 as we experience 
peak depot inductions of F/A-18A-D aircraft reaching 8,000 hours and 
entering extensive High Flight Hour (HFH) service life extension 
inspections, repairs and modifications.
Airborne Electronic Attack (AEA) / EA-18G Growler
    The Fiscal Year 2016 President's Budget request includes $108.5 
million in APN to implement aircraft commonality programs, maintain 
relevant capabilities, improve reliability, and ensure structural 
safety of the Growler fleet; $56.9 million in RDT&E,N for Flight Plan 
spiral capability development, design and integration of Jamming 
Techniques Optimization improvements, evolutionary software development 
and related testing; and $398.8 million RDT&E,N for NGJ Increment 1 and 
$13.0 million RDT&E,N for NGJ Increment 2.
    In 2009, the Navy began the transition from EA-6Bs to EA-18Gs. The 
EA-18G is a critical enabler of the Joint force, bringing fully netted 
capabilities that provide electromagnetic spectrum dominance in an 
electromagnetic maneuver warfare environment. The first EA-18G squadron 
deployed to Iraq in an expeditionary role in November 2010 in support 
of Operation NEW DAWN, and subsequently redeployed to Italy on short 
notice in March 2011 in support of Operations ODYSSEY DAWN and UNIFIED 
PROTECTOR. The first carrier-based EA-18G squadron deployed in May 
2011. Three active component Navy expeditionary squadrons, nine of ten 
carrier based squadrons, and one reserve squadron have completed, or 
are in, transition to the EA-18G.
    The 10 carrier based EA-18G squadrons will fulfill Navy 
requirements for airborne electronic attack; six expeditionary EA-18G 
squadrons will provide the joint, high-intensity AEA capability 
required by the Joint Forces Commander, which was previously fulfilled 
by the Navy and Marine Corps EA-6B. The Navy will be divested of EA-6Bs 
by 2015; the Marine Corps by 2019 leaving the E/A-18G as the only 
viable AEA platform in the DoD inventory. The inventory objective is 
153 EA-18G aircraft. Since their initial deployment, Growlers have 
flown more than 2,300 combat missions, have expended approximately six 
percent of the 7,500 flight hour life per aircraft, and are meeting all 
operational commitments.
Next Generation Jammer (NGJ)
    NGJ is a new electronic warfare capability that will replace the 
42-year old ALQ-99, currently the only Navy and Joint airborne Tactical 
Jamming System pod. The ALQ-99 has limited capability to counter 
tactically and technically advanced threats, is increasingly difficult 
and costly to maintain, and has a vanishing industrial supplier base. 
The Navy and Department of Defense (DoD) require NGJ to meet current 
and emerging EW threats. NGJ will have the necessary power and digital 
techniques to counter increasingly advanced and sophisticated adversary 
electronic warfare search, surveillance, and targeting-radars and 
communications systems. NGJ will be DoD's only comprehensive tactical 
AEA capability--supporting all Services and joint/coalition partners, 
and will be implemented in three increments: Mid-Band (Increment 1), 
Low-Band (Increment 2), and High-Band (Increment 3). NGJ is designed to 
provide improved capability in support of joint and coalition air, 
land, and sea tactical strike missions and is critical to the Navy's 
vision for the future of strike warfare. Fiscal year 2016 funding is 
vital to maintain schedule, allowing the program to complete Technology 
Maturation and Risk Reduction (TMRR) and transition into the 
Engineering and Management Development (EMD) phase. Initial concept 
studies and formal program stand-up will begin in fiscal year 2016 for 
Increment 2.
Airborne Electronic Attack (AEA) / EA-6B Prowler
    The Fiscal Year 2016 President's Budget request includes $15.5 
million in RDT&E,N for Electronic Warfare (EW) Counter Response, $2.8 
million RDT&E,N for MAGTF EW, $23.2 million in APN for Airborne 
Electronic Attack (AEA) systems, $9.8 million in APN for all EA-6B 
series aircraft, and $7.7 million APN for MAGTF EW.
    Currently, there are 37 EA-6Bs in the Navy and Marine Corps, which 
are distributed to three Marine Corps and one Navy operational 
squadron, one Navy flight test squadron, and one Marine Corps training 
squadron. The total includes five Navy ICAP II aircraft and 32 ICAP III 
aircraft. All ICAP III EA-6Bs are operated by the Marine Corps. Final 
retirement of the EA-6B from the DON inventory will be in 2019.
    Marine aviation is on a path toward a distributed AEA `system of 
systems' that is a critical element in achieving the MAGTF EW vision: A 
composite of manned and unmanned surface, air, and space assets on a 
fully collaborative network providing the MAGTF commander control of 
the electromagnetic spectrum when and where desired. Included in this 
plan are the ALQ-231 Intrepid Tiger II communications jammer, UAS EW 
payloads, a Software Reprogrammable Payload and an EW Services 
Architecture to facilitate collaborative networked EW Battle 
Management.
    Intrepid Tiger II development and procurement is in response to 
Marine Corps requirements for increased precision EW capability and 
capacity across the MAGTF and provides EW capability directly to 
tactical commanders without reliance upon the limited availability of 
the low density/high demand EA-6B Prowler. Intrepid Tiger II is 
currently carried on AV-8B and F/A-18 A++/C/D aircraft, has 
successfully completed nine deployments, and is currently deployed with 
both the 11th and 24th MEUs. Integration on Marine Corps rotary-wing 
aircraft is scheduled to be completed by the fourth quarter of fiscal 
year 2015. Development of an Intrepid Tiger II counter-radar capability 
for the penetrating jammer mission will begin in fiscal year 2016.
E-2D Advanced Hawkeye (AHE)
    The Fiscal Year 2016 President's Budget requests $272.1 million in 
RDT&E,N for continuation of added capabilities, to include In-Flight 
Air Refueling, Tactical Targeting Network Technology (TTNT), Secret 
Internet Protocol Router chat, Advanced Mid-Term Interoperability 
Improvement Program, Multifunctional Information Distribution System/
Joint Tactical Radio System TTNT, Counter Electronic Attack, Sensor 
Netting, and Data Fusion. In the third year of a 26 aircraft Multi-Year 
Procurement (MYP) contract covering fiscal years 2014-2018, the budget 
requests $1,053 million in APN for five Full Rate Production (FRP) Lot 
4 aircraft , Advance Procurement (AP) for fiscal year 2017 FRP Lot 5 
aircraft; and Economic Ordering Quantity funding for the MYP for fiscal 
year 2018.
    The E-2D AHE is the Navy's carrier-based Airborne Early Warning and 
Battle Management Command and Control system. The E-2D AHE provides 
Theater Air and Missile Defense and is capable of synthesizing 
information from multiple onboard and off-board sensors, making complex 
tactical decisions and then disseminating actionable information to 
Joint Forces in a distributed, open-architecture environment. E-2D is 
also a cornerstone of the Naval Integrated Fire Control--Counter Air 
(NIFCA-CA) capability.
    Utilizing the newly developed AN/APY-9 Mechanical/Electronic Scan 
Array radar and the Cooperative Engagement Capability (CEC) system, the 
E-2D AHE works in concert with tactical aircraft and surface-combatants 
equipped with the Aegis combat system to detect, track and defeat air 
and cruise missile threats at extended ranges.
    The first Fleet E-2D squadron (VAW-125) was designated ``safe for 
flight'' in January 2014. IOC was achieved in October 2014.
                        assault support aircraft
MV-22
    The Fiscal Year 2016 President's Budget requests $87.9 million in 
RDT&E,N for continued product improvements, including engineering 
development of a Navy variant of the MV-22; and $1.48 billion in APN 
for procurement and delivery of 19 MV-22s (Lot 20). Fiscal year 2016 
will be the fourth year of the 2nd V-22 MYP contract covering fiscal 
years 2013-2017. The funds requested in the fiscal year 2016 
President's Budget fully fund Lot 20 and procure long-lead items for 
fiscal year 2017 Lot 21 MV-22 aircraft. The APN request includes $126.1 
million to support Operations and Safety Improvement Programs (OSIPs), 
including Correction of Deficiencies and readiness improvements. The 
fiscal year 2016 request includes funding starting in fiscal year 2018 
to procure a Navy variant in support of the Carrier Onboard Delivery 
mission.
    MV-22 Osprey vertical flight capabilities, coupled with the speed, 
range, endurance of fixed-wing transports, are enabling effective 
execution of current missions that were previously unachievable. In 
2014, a second Marine Corps SPMAGTF-CR was stood up in CENTCOM and the 
twelfth and final MV-22 for HMX-1 ``Greenside'' logistics and passenger 
transport was delivered for support of the Presidential transport 
mission. As the V-22 fleet approaches the 300,000 flight hour milestone 
it has proven to be the safest Marine Corps rotorcraft.
    The second MYP, which began in fiscal year 2013, will procure at 
least 93 MV-22s over five years and results in savings of approximately 
$1 billion when compared to single year procurements. The stability of 
the MYP supports the Marine Corps' retirement of legacy aircraft, 
benefits the supplier base and facilitates cost reductions on the part 
of both the prime contractor and sub-tier suppliers.
    Due to extremely high demand for MV-22 capability from the 
Combatant Commanders, and a resultant high operational tempo in 2014, 
the mission capability rates leveled-off and did not continue the year 
over year improvements seen since 2010. This was primarily due to our 
inability to train enlisted maintainers in the numbers and 
qualifications standard we need to sustain such a high demand signal. 
Right now we have 13 Full Operational Capability squadrons, with two in 
build, and are executing to an overall 15 squadron demand signal. We 
are shifting resources and modifying standup, transition, and training 
plans, but the demand for the capabilities this aircraft brings to the 
COCOMs is creating growing pains. While we are confident these issues 
will be overcome, there has been an impact on our readiness rates. 
Despite a readiness rate decrement, the cost per flight hour has 
continued to decrease, with a total reduction of nearly 28 percent 
since 2010. Fiscal year 2016 OSIP provides a necessary and stable 
source of crucial modification funding as the Ospreys work to improve 
readiness and continue to reduce operating cost.
    Concurrent with our readiness and support initiatives, we are 
adding capabilities to the MV-22 that will make it even more valuable 
to the COCOMs. First, we are expanding the number of aerial refueling 
platforms that can refuel an MV-22, increasing the range of available 
options to capitalize on its long-range capabilities. We are also 
developing a mission kit to allow the MV-22 to deliver fuel to other 
airborne platforms. We see this as a critical enabler for both shore 
and sea-based operations. We plan to deliver this capability by the 
Summer of 2017 concurrent with the first Western Pacific deployment of 
the F-35B. We are also looking at options that will enable the delivery 
of precision-guided munitions from the MV-22, which will enhance its 
ability to operate autonomously and increase the lethality of our 
force. Finally, an important capability that is a priority for entire 
aviation force is Digital Interoperability (DI). We are testing and 
deploying the initial configuration of an onboard suite of electronics 
that will allow the embarked troop commander to possess unprecedented 
situational awareness via real time transmission of full motion video 
and other data generated by multiple air and ground platforms 
throughout the battlespace. This DI suite will also be able to collect, 
in real-time, threat data gathered by existing aircraft survivability 
equipment and off board data to accompanying attack platforms, thereby 
shortening the kill chain against ground and air based threats.
    In ongoing operations in the Middle East, the MV-22 has become the 
Tactical Recovery of Aircraft and Personnel (TRAP) platform of choice 
to rescue downed aircrew in hostile territory. Currently, Marines are 
on alert in Central Command to recover American and Coalition aircrew 
executing strike operations. The speed, range, and aerial refueling 
capability have allowed the Osprey's to remain in strategic locations 
throughout the area poised for rescue operations. With an unrefueled 
mission radius of 423 nautical miles, the Osprey can reach greater 
distances around the battlefield to increase the likelihood of 
recovering isolated personnel as the speed and altitude envelopes 
provide better survivability for the TRAP force and recovered aircrew.
CH-53K Heavy Lift Replacement Program
    The Fiscal Year 2016 President's Budget requests $632.1 million 
RDT&E,N to continue the EMD phase of the CH-53K program. Since entering 
into developmental test in December 2013 the Ground Test Vehicle (GTV) 
has completed bare head light-off and shakedown light-off has 
commenced. Over the last year, the GTV has accumulated over 180 test 
hours. The first flight vehicle, Engineering Development Model (EDM) 1, 
has completed its bare head light-off and initial bladed ground runs. 
The program is currently on schedule to execute its first flight by the 
end of 2015. During Fiscal Year 2016, the program will continue to 
execute developmental test flights, deliver the final EDM, and continue 
assembly of System Demonstration Test Article aircraft, which will be 
production representative aircraft utilized for Operational Test.
    The CH-53K will provide land and sea based heavy-lift capabilities 
not resident in any of today's platforms and contribute directly to the 
increased agility, lethality, and presence of joint task forces and 
MAGTFs. The CH-53K will transport 27,000 pounds of external cargo out 
to a range of 110 nautical miles, nearly tripling the CH-53E's lift 
capability under similar environmental conditions, while fitting into 
the same shipboard footprint. The CH-53K will also provide unparalleled 
lift capability under high-altitude and hot weather conditions, greatly 
expanding the commander's operational reach.
    Compared to the CH-53E, maintenance and reliability enhancements of 
the CH-53K will improve aircraft availability and ensure cost effective 
operations. Additionally, survivability and force protection 
enhancements will dramatically increase protection for both aircrew and 
passengers. Expeditionary heavy-lift capabilities will continue to be 
critical to successful land and sea-based operations in future anti-
access, area-denial environments, enabling sea-basing and the joint 
operating concepts of force application and focused logistics.
    Over the past 13 years, the CH-53 community accumulated over 95,000 
combat flight hours. During this period, we suffered ten aircraft 
losses, nine in combat and one in training. As our CH-53E community 
approaches 30-years of service, these sustained and unprecedented 
operational demands have prematurely aged our heavy lift assault 
support aircraft, making it ever more challenging to maintain and 
underscoring the importance of its replacement, the CH-53K King 
Stallion. To keep the H-53E viable until the King Stallion enters 
service, the Fiscal Year 2016 President's Budget requests $46.9 million 
in APN for both near and mid-term enhancements. For both the USN MH-53E 
and USMC CH-53E helicopters these modifications include Condition Based 
Maintenance software upgrades, Kapton wiring replacement installations, 
and improved Engine Nacelles. The Fiscal Year 2016 budget request 
includes non-recurring engineering for upgrades to the MH-53E's 
antiquated cockpit. These critical safety and avionics upgrades will 
address obsolescence issues within the cockpit and increase overall 
situational awareness and mission effectiveness by improving minefield 
navigation displays, adding Area Navigation (RNAV) capability, and 
providing moving map and hover displays. Additionally, non-recurring 
engineering and kit procurements for the Embedded Global Positioning 
System/Inertial Navigation System (EGI) will allow the MH-53E to 
utilize the full capability of the APX-123 transponder. The Marine 
Corps' CH-53E fleet is continuing with the T-64 Engine Reliability 
Improvement Program, Critical Survivability Upgrade (CSU), Satellite 
Communications (SATCOM) kit installations, and Smart Multi-Function 
Color Display (SMFCD) procurements and installations.
                      attack and utility aircraft
UH-1Y // AH-1Z
    Marine Corps Cobra and Huey attack and utility aircraft have been 
critical for the success of the Marines in harm's way and over the past 
10 years, these aircraft have flown over 196,000 hours in combat. The 
Fiscal Year 2016 President's Budget requests $27.2 million in RDT&E,N 
for continued product improvements; and $856.2 million in APN for 28 H-
1 upgrade aircraft: 12 UH-1Y and 16 AH-1Z. The program is a key 
modernization effort designed to resolve existing safety deficiencies 
and enhance operational effectiveness of the H-1 fleet. The 85 percent 
commonality between the UH-1Y and AH-1Z will significantly reduce life-
cycle costs and the logistical footprint, while increasing the 
maintainability and deployability of both aircraft. The program will 
provide the Marine Corps with 349 H-1 aircraft through a combination of 
new production and a limited quantity of remanufactured aircraft.
    The H-1 Upgrades Program is replacing the Marine Corps' UH-1N and 
AH-1W helicopters with state-of-the-art UH-1Y ``Yankee'' and AH-1Z 
``Zulu'' aircraft. The new aircraft are fielded with integrated glass 
cockpits, world-class sensors, and advanced helmet-mounted sight and 
display systems. The future growth plan includes a digitally-aided, 
close air support system designed to integrate these airframes, 
sensors, and weapons systems together with ground combat forces and 
other capable DoD aircraft. Integration of low-cost weapons such as the 
Advanced Precision Kill Weapon System II provides increased lethality 
while reducing collateral damage.
    The UH-1Y aircraft achieved IOC in August 2008 and FRP in September 
2008. The ``Yankee Forward'' procurement strategy prioritized UH-1Y 
production in order to replace the under-powered UH-1N fleet as quickly 
as possible. The last UH-1N was retired from service as of December 
2014. The AH-1Z program received approval for FRP in November 2010 and 
achieved IOC in February 2011. As of February 2015, 148 aircraft (109 
UH-1Ys and 39 AH-1Zs) have been delivered to the Fleet Marine Force. An 
additional 60 aircraft are on contract and in production. Lot 1-7 
aircraft deliveries are complete for both the UH-1Y and AH-1Z. Lot 8 
and 9 deliveries are complete for the UH-1Y, and Lot 10 UH-1Y 
deliveries are in progress and ahead of schedule.
    The H-1 program is in the process of integrating both the UH-1Y and 
AH-1Z into the larger digitally interoperable programs of the Marine 
Corps. With the integration of Intrepid Tiger II, the HMLA community 
will now be able to provide the MAGTF Commanders with all six essential 
functions of Marine Air. Additionally, these aircraft will incorporate 
Software Reprogrammable Payload (SRP) to utilize diverse networks and 
waveforms thus allowing maneuverability within the spectrum. SRP will 
employ systems as Link-16, Tactical Targeting Network Technology, 
Adaptive Networking Wideband Waveform, and the Soldier Radio Waveform.
MH-60 (Overview)
    MH-60 Seahawks have consistently met readiness and operational 
commitments. There will be 38 Navy Seahawk squadrons with 275 MH-60S 
and 280 MH-60R aircraft when transitions from the SH-60B, SH-60F, and 
HH-60H are complete. Production and squadron transitions will continue 
through 2017. Over the last twelve years of combat operations, deployed 
ashore and aboard our aircraft carriers, amphibious ships, and surface 
combatants at sea, Navy H-60 helicopters have provided vital over-watch 
and direct support to troops in combat across multiple theaters of 
operation and variety of missions; including support to special 
operations forces, air ambulance, surface warfare, anti-submarine 
warfare, mine warfare, logistics support and humanitarian assistance/
disaster relief.
MH-60R Seahawk
    The Fiscal Year 2016 President's Budget requests $970 million in 
APN for 29 helicopters. The production program continues to deliver on-
cost and on-schedule.
    The MH-60R Multi-Mission Helicopter provides strike group 
protection and adds significant capability in its primary mission areas 
of Undersea Warfare and Surface Warfare; the latter including Fast 
Attack Craft/Fast In-shore Attack Craft (FAC/FIAC) threat response 
capabilities. The MH-60R is the sole organic air Anti-Submarine Warfare 
(ASW) asset in the Carrier Strike group (CSG) and serves as a key 
contributor to theater level ASW. The MH-60R also employs advanced 
sensors and communications to provide real-time battlespace management 
with a significant, active or passive, over-the-horizon targeting 
capability. Secondary mission areas include Search and Rescue, Vertical 
Replenishment, Naval Surface Fire Support, Logistics Support, Personnel 
Transport and Medical Evacuation.
    The $21.4 million RDT&E,N request supports the MH-60R Test Program, 
consisting of numerous system upgrades and Pre-Planned Product 
Improvements, to include the Digital Rocket Launcher (DRL) with APKWS 
II, Helicopter Infra-Red Suppression System, Multifunctional 
Information Distribution System-Low Volume Terminal (LVT) Block Upgrade 
2, and the VHF Omnidirectional Ranging/Instrument Landing System.
MH-60S Seahawk
    The Fiscal Year 2016 President's Budget requests $28 million in APN 
for annualized support of the final deliveries of aircraft, trainers, 
ground support equipment, and publications required to complete the 
production program of 275 helicopters. The production program continues 
to deliver on-cost and on-schedule. The MH-60S Multi-Mission Helicopter 
provides strike group protection and adds significant capability in its 
primary mission areas of Mine Warfare and Surface Warfare. Secondary 
mission areas include Combat Search and Rescue, Support to Special 
Operations Forces, Vertical Replenishment, Logistics Support, Personnel 
Transport and Medical Evacuation.
    The $5.2 million RDT&E,N request supports the MH-60S Test Program, 
consisting of system upgrades for Airborne Mine Countermeasures (AMCM), 
Armed Helicopter FAC/FIAC Defense, and the commencement of a service 
life assessment program.
    Armed Helo Block 3A Operational Test (OT) was completed in June 
2007 and Block 3B (added Link 16 capability) OT was completed in 
November 2009. Test and Evaluation (T&E) of fixed forward firing weapon 
(FFW) (20mm gun system) was completed in Fiscal Year 2012. T&E of 
initial FFW Unguided Rocket (UGR) capability was completed in Fiscal 
Year 2013. T&E for Digital Rocket Launcher APKWS II and expanded UGR 
capability for the FAC/FIAC threat is in work and planned to complete 
in Fiscal Year 2016. Planned Airborne MCM Initial Operational Test and 
Evaluation (IOT&E) and Follow-On Operational Test and Evaluation 
(FOT&E) periods were changed to Operational Assessments, with the final 
IOT&E aligned with LCS Mine Counter Measures Mission Package IOT&E.
                       executive support aircraft
VH-3D/VH-60N Executive Helicopter Series
    The VH-3D and VH-60N are safely performing the Executive Lift 
mission worldwide. As these aircraft continue to provide seamless 
vertical lift for the President of the United States, the DON is 
working closely with HMX-1 and industry to sustain these aircraft until 
a Presidential Helicopter Replacement platform is fielded. The Fiscal 
Year 2016 President's Budget requests an investment of $76.1 million of 
APN to continue programs that will ensure the in-service Presidential 
fleet remains a safe and reliable platform.
    Ongoing VH-60N efforts include the Cockpit Upgrade Program, engine 
upgrade program, and a Communications Suite Upgrade (Wide Band Line of 
Sight) that provides survivable access to the strategic communications 
network. The continuing Structural Enhancement Program and the 
Obsolescence Management Program applies to both VH-60N and VH-3D. The 
program has significantly reduced the cost and schedule of the VH-3D 
Cockpit Upgrade Program by focusing on critical obsolescence issues. 
These technology updates for legacy platforms will be directly 
leveraged for the benefit of the ensuing replacement program (VH-92A).
VH-92A Presidential Helicopter Replacement Aircraft
    The Fiscal Year 2016 President's Budget request includes $507.1 
million of RDT&E,N to fund the VH-92 EMD contract and associated 
government activities. Significant progress has been made in the past 
year with completion of the Milestone B Review in March, receipt of the 
Acquisition Decision Memorandum in April, award of the EMD contract to 
Sikorsky Aircraft Corporation in May, completion of the System 
Requirements Review in August and completion of the Integrated Baseline 
Review in November. The Sikorsky S-92A aircraft will be used to execute 
the acquisition strategy of integrating mature subsystems into an air 
vehicle that is currently in production. Initial contractor testing on 
an S-92A aircraft is planned for 2015 and early 2016, and the critical 
Design Review is planned for the 4th quarter of Fiscal Year 2016. The 
first of the planned operational inventory of 21 aircraft could begin 
fielding as early as 2020.
                          fixed-wing aircraft
KC-130J
    The DON plans to procure two KC-130Js and continue product 
improvements. Targeted improvements include aircraft survivability 
through advanced electronic countermeasure modernization and 
obsolescence upgrades to the Harvest HAWK ISR/Weapon Mission Kit.
    Fielded throughout our active force, the KC-130J brings increased 
capability, performance and survivability with lower operating and 
sustainment costs to the MAGTF. Forward deployed in support of ongoing 
operations since 2005, the KC-130J continues to deliver Marines, fuel 
and cargo whenever and wherever needed. In 2015 the KC-130J remains in 
high demand, providing tactical air-to-air refueling, assault support, 
Close Air Support (CAS) and Multi-sensor Imagery Reconnaissance (MIR) 
capabilities, in support of Special Purpose MAGTFs and deployed MEUs.
    First deployed in 2010, the roll-on/roll-off Harvest HAWK mission 
kit for the KC-130J continues to provide extended MIR and CAS 
capabilities. With almost 7,000 hours flown, over 200 Hellfire missile 
and 90 Griffin munition combat engagements, this expeditionary mission 
kit has proven its worth and made the KC-130J even more indispensable 
for Marines on the ground. All six mission kits have been fielded, and 
funding included in the fiscal year 2016 budget request will be used to 
maintain operational relevance of this mission system through 
compatibility with additional Hellfire variants and an improved full 
motion video data-link.
    The Marine Corps has funded 53 of the 79 KC-130J aircraft in the 
program of record. The three aircraft included in the Fiscal Year 2013 
budget would complete the Active Component (AC) requirement of 51 
aircraft. However, the Marine Corps began using the AC backup aircraft 
to accelerate the Reserve Component (RC) transition from the legacy KC-
130T aircraft to the more capable and efficient KC-130J in fiscal year 
2014. The aircraft requested in the fiscal year 2016 President's Budget 
will continue to increase KC-130J inventory as we strive to achieve 
Full Operational Capability in the RC. Delays in procurement would 
force the Marine Corps to sustain the KC-130T aircraft longer than 
planned at an increased cost.
    It is also important to note that the US Air Force C-130J 
procurement is expected to end in 2022. If the Marine Corps procures 
KC-130Js at a rate of two per year from fiscal year 2016-2022, we will 
have approximately 12 aircraft remaining to procure in order to reach 
the Program of Record (POR) of 79 aircraft. This POR is expected to 
complete in 2029. After the USAF completes its C-130J procurement, 
NAVAIR will no longer be able to leverage USAF contracting services. 
Given the loss of USAF contracting services and the uncertainty of 
additional Foreign Military Sales, the Navy and Coast Guard customers 
potentially could have a significant unit cost increase.
                       maritime support aircraft
P-8A Poseidon
    The P-8A Poseidon recapitalizes the Maritime Patrol ASW, Anti-
Surface Warfare (ASuW) and armed ISR capability currently resident in 
the P-3C Orion. The P-8A combines the proven reliability of the 
commercial 737 airframe with avionics that enables integration of 
modern sensors and robust communications. The P-8A's first operational 
deployment was completed in June 2014, and continuous 7th Fleet 
operational deployments are underway. As of February 2015, four Fleet 
squadrons have completed transition to P-8A. All Fleet squadrons are 
scheduled to complete transition by the end of fiscal year 2019. The P-
8A program is meeting all cost, schedule and performance parameters in 
accordance with the approved Acquisition Program Baseline.
    Boeing has delivered 21 aircraft (Low Rate Initial Production 
(LRIP) I/II/III) to the Fleet as of February 2015, and three remaining 
LRIP III aircraft are scheduled to deliver by May 2015. LRIP IV (13 
aircraft), and FRP 1 (16 aircraft) are under contract and will start 
delivering in May 2015. FRP 2 (nine aircraft) is planned to award in 
June 2015. The fiscal year 2016 President's Budget procures 47 P-8As 
over the FYDP and sustains the P-3C to P-8A transition. In fiscal year 
2016 the warfighting requirement remains 117 aircraft; however, the 
fiscally constrained inventory objective for 109 aircraft will provide 
adequate capacity at acceptable levels of risk.
    As fleet deliveries of the Increment 1 configuration accelerate, 
integration and testing of P-8A Increment 2 capability upgrades 
continues. P-8A Increment 2 Engineering Change Proposal (ECP) 1 ``Early 
Multi-Static Active Coherent (MAC)'' FOT&E commenced November 15, 2014. 
The Navy is on track to field the ECP 1 ``Early MAC'' capability in 
fiscal year 2015 followed by Increment 2 ECP 2 ``Full MAC'' 
capabilities in fiscal year 2016. The Increment 2 ECP 3 contract for 
High Altitude ASW Weapons Capability capabilities was awarded in 
December 2014.
P-3C Orion
    The aging P-3 fleet will continue to provide critical ASW, ASuW and 
ISR support for joint and naval operations worldwide until the Fleet 
completes transition to P-8A. The fiscal year 2016 budget request 
provides $3.1 million in funding required to manage P-3C aircraft 
mission systems obsolescence during the transition. As of December 
2014, 61 P-3 Special Structural Inspection-Kits have been installed 
(zero remaining); 87 Zone 5 modifications completed (last three 
aircraft in work); and 20 Outer Wing Installations completed (last nine 
aircraft in work).
    The P-3 aircraft is well beyond the original planned fatigue life 
of 7,500 hours for critical components, with an average airframe usage 
of over 18,400 hours. The fiscal year 2016 request continues to fund 
the P-3 Fatigue Life Management Program so the Navy can maintain 
sufficient capacity to successfully complete the transition to P-8A.
EP-3 Aries Replacement/Sustainment
    The EP-3E Aries is the Navy's premier manned Maritime Intelligence, 
Surveillance, Reconnaissance, and Targeting (MISR&T) platform. The 
Joint Airborne Signals intelligence (SIGINT) Common Configuration 
includes Multi-Intelligence sensors, robust communication, and data 
links employed by the flexible and dependable P-3 air vehicle to ensure 
effective MISR&T support across the full Range of Military Operations. 
The fiscal year 2011 National Defense Authorization Act directed Navy 
to sustain EP-3E airframe and mission systems relevance to minimize 
SIGINT capability gaps until the systems are fully recapitalized with a 
platform or family of platforms that in the aggregate provide equal or 
better capability and capacity. The Fiscal Year 2016 request maintains 
the retirement dates from the previous year that were extended by one 
year to Fiscal Year 2019 and Fiscal Year 2020, respectively.
    Navy ISR family of systems approach shifts focus from platforms to 
payloads. The future force will rapidly respond to changing threats 
with modular, scalable, netted sensors and payloads on a range of sea 
and shore-based manned and unmanned systems, establishing persistent 
Maritime ISR when and where it is needed.
    Navy's ISR&T transition plan will deliver increased capacity and 
persistence by the end of the decade. However, due to fiscal and end 
strength constraints, the Department will accept some risk in near term 
capability and capacity. The Fiscal Year 2016 budget request reduces 
risk compared to the previous fiscal year and the Navy continues to 
work with Joint Staff, DoD, and the Fleet to optimize the ISR 
transition plan. The transition plan remains largely unchanged from 
Fiscal Year 2015.
                     airlift/cargo utility aircraft
COD Recapitalization (Navy V-22 Variant)
    The C-2A fleet, which provides long-range logistical support to 
carrier strike groups, will reach the end of its service life in the 
mid-2020s with continued sustainment investment. The Navy is planning 
to recapitalize the COD capability with an extended range variant of 
the V-22. Fiscal Year 2016 investments support an affordable COD 
recapitalization plan that procures a version of the V-22 Osprey under 
the existing Program of Record (POR).
    The Navy's variant of V-22 has been a component of the POR since 
program inception. This transition strategy allows the Navy to 
recapitalize the aging C-2 COD capability in an affordable manner and 
evolve the Aerial Logistics Concept of Operations from the CVN centric 
``Hub and Spoke'' model to a flexible Sea Base support concept.
                    unmanned aircraft systems (uas)
MQ-4C Triton UAS
    The Fiscal Year 2016 President's Budget enables MQ-4C Triton entry 
into production with three LRIP aircraft in Fiscal Year 2016.
    The Fiscal Year 2016 President's Budget requests $227.2 million in 
RDT&E,N to continue Triton development activities, $150.9 million in 
RDT&E for Triton modernization, and $548.8 million of APN for 
procurement of the first lot of LRIP aircraft and for procurement of 
long lead materials for the second lot of LRIP aircraft.
    Triton will start establishing five globally-distributed, 
persistent maritime ISR orbits beginning in Fiscal Year 2018, as part 
of the Navy's Maritime ISR&T transition plan. MQ-4C Triton test 
vehicles have completed 21 total flights as of February 2015 and are on 
schedule to begin sensor integration testing this spring. This rigorous 
integrated flight test program will support Milestone C planned for 
Fiscal Year 2016. The MQ-4C Triton is a key component of the Navy 
Maritime Patrol Reconnaissance Force. Its persistent sensor dwell, 
combined with networked sensors, will enable it to effectively meet ISR 
requirements in support of the Navy Maritime Strategy.
    The Navy currently maintains an inventory of four USAF Global Hawk 
Block 10 UAS, as part of the BAMS Demonstrators, or BAMS-D program. 
These aircraft have been deployed to CENTCOM's AOR for over six years. 
BAMS-D recently achieved over 14,000 flight hours in support of CENTCOM 
ISR tasking. These assets are adequate to cover all Navy needs through 
Fiscal Year 2018.
Unmanned Combat Air System Demonstration (UCAS-D)
    The Fiscal Year 2016 President's Budget requests no funding for the 
UCAS-D program. The UCAS-D program is in its final year of funding 
($35.9M in RDT&E,N for Fiscal Year 2015). With the completion of the 
Autonomous Aerial Refueling test flights this spring, the demonstration 
will come to a successful close. The X-47B has met demonstration 
objectives and reduced technical risk by transferring lessons learned 
to the UCLASS program. The X-47B demonstrators have paved the way for 
the proficient introduction of a sea-based unmanned aircraft system by 
digitizing the carrier controlled environment, achieving precision 
landing navigation performance, demonstrating a deck handling solution, 
and refining the concept of operations.
Unmanned Carrier Launched Airborne Surveillance and Strike (UCLASS) 
        System
    The UCLASS system will provide the Carrier Strike Group (CSG) with 
a persistent unmanned ISR&T and precision strike capability that is 
available organically to the CSG and comprehensively to the Joint 
force. The CSG is often the first responder for the nation. The UCLASS 
system will enhance the CSG's capability and versatility and enable 
sustained 24/7 operations from a single aircraft carrier. The Fiscal 
Year 2016 President's Budget requests $134.7 million in RDT&E,N for 
UCLASS system development efforts. This funding will continue progress 
on the Control System & Connectivity, Carrier Segments and the 
government Lead System Integrator efforts, while the Department 
conducts a Strategic Portfolio Review of ISR&T systems and the future 
composition of the carrier air wing.
    The UCLASS system will be integrated with carrier air wing 
operations, increasing the effectiveness of current CSG ISR&T 
capabilities (airborne, surface, and sub-surface) beginning in the 
Fiscal Year 2022 timeframe. Once deployed, the UCLASS System will 
inherently provide reach-back to Navy and National architectures for 
command and control and for tasking, processing, exploitation, and 
dissemination. The UCLASS system will achieve these capabilities 
through the development and integration of a carrier-suitable, semi-
autonomous, unmanned Air System; a Control System and Connectivity 
Segment; and Nimitz/Ford-class Carriers. The development and 
integration effort is overseen by the Government as the Lead Systems 
Integrator, providing system-of-systems integration for the UCLASS 
Program.
MQ-8 Vertical Takeoff and Landing Unmanned Aerial Vehicle (VTUAV) Fire 
        Scout
    The MQ-8 Fire Scout is an autonomous system designed to operate 
from any suitably-equipped air-capable ship, carry modular mission 
payloads, and operate using the Tactical Control System and Line-Of-
Sight Tactical Common Data Link. The Fiscal Year 2016 President's 
Budget requests $52.8 million of RDT&E,N to continue development of the 
MQ-8C endurance upgrade, to include integration of ISR payloads, radar 
and short range air to surface weapons. Funding will also be used to 
continue payload and Frigate integration with the MQ-8B and MQ-8C. The 
request for $142.5 million in APN procures MQ-8C air vehicles; MQ-8 
System mission control systems; ancillary, trainers and support 
equipment; technical support; modifications based on engineering 
changes; and logistics products and support to outfit suitably-equipped 
air-capable ships and train the associated Aviation Detachments. 
Commonality of avionics, software, and payloads between the MQ-8B and 
MQ-8C has been maximized. The MQ-8B and MQ-8C air vehicles will utilize 
the same ship-based mission control system and other ship ancillary 
equipment.
    Fire Scout was deployed to Afghanistan from May 2011 until August 
2013, and amassed more than 5,100 dedicated ISR flight hours in support 
of U.S. and coalition forces. Since 2012, the MQ-8B Fire Scout has 
flown more than 7,500 hours from Navy Frigates, performing hundreds of 
autonomous ship board take-offs and landings in support of Special 
Operations Forces and Navy operations. The MQ-8C Fire Scout continues 
developmental test and has completed phase II dynamic interface testing 
aboard the Navy destroyer USS JASON DUNHAM. The MQ-8C has flown more 
than 400 flight hours since October of 2013. The Fire Scout program 
will continue to support integration and testing for LCS-based mission 
modules.
Tactical Control System (TCS)
    The Fiscal Year 2016 President's Budget requested $8.6 million in 
RDT&E,N for the MQ-8 System's Tactical Control System (TCS). TCS 
provides a standards-compliant open architecture with scalable command 
and control capabilities for the MQ-8 Fire Scout system. In Fiscal Year 
2016 TCS will continue to transition the Linux operating system to a 
technology refreshed mission control system, and enhance the MQ-8 
System's Automatic Identification System and sensor track generation 
integration with ship systems. The Linux operating system conversion 
overcomes hardware obsolescence issues with the Solaris based control 
stations and provides lower cost software updates using DoD common 
application software. In addition, the TCS Linux upgrade will enhance 
collaboration with the Navy's future UAS Common Control System.
Small Tactical Unmanned Aircraft System (STUAS) RQ-21A Blackjack
    The Fiscal Year 2016 President's Budget requests $11.1 million in 
RDT&E ($4.7 million USN, $6.4 million USMC); $55.0 million in APN for 
three Navy systems to support Naval Special Warfare; and $84.9 million 
in PMC for four RQ-21A systems (which includes 20 air vehicles) to 
address Marine Corps ISR capability requirements currently supported by 
service contracts. This Group 3 UAS will provide persistent ship and 
land-based ISR support for expeditionary tactical-level maneuver 
decisions and unit level force defense and force protection missions. 
Blackjack entered LRIP in 2013, completed IOT&E in the second quarter 
of Fiscal Year 2015, with Full Rate Production planned for the first 
quarter of Fiscal Year 2016.
    The RQ-21's current configuration includes full motion video, 
communications relay package and automatic identification systems. The 
air vehicle's payload bay allows for rapid deployment of signal 
intelligence payloads. The Marine Corps is actively pursuing 
technological developments for the RQ-21 system in an effort to provide 
the MAGTF and Marine Corps Forces Special Operations Command with 
significantly improved capabilities. Initiatives include over-the-
horizon communication and data relay ability to integrate the system 
into future networked digital environments; electronic warfare and 
cyber payloads to increase non-kinetic capabilities; and change 
detection radar and moving target indicators to assist warfighters in 
battlespace awareness and force application.
RQ-7B Shadow Marine Corps Tactical UAS (MCTUAS)
    The Fiscal Year 2016 President's Budget requests $0.7 million in 
RDT&E,N for the RQ-7B Shadow to continue joint development efforts and 
government engineering support and $3.8 million in APN to acquire PRC-
152A radios and weatherization kits.
                        strike weapons programs
Tactical Tomahawk (TACTOM) BLK IV Cruise Missile Program
    The Fiscal Year 2016 President's Budget requests $184.8 million in 
WPN for procurement of an additional 100 TACTOM weapons and associated 
support, $28.0 million in OPN for the Tomahawk support equipment, and 
$17.7 million in RDT&E,N for capability updates of the weapon system. 
WPN resources will be for the continued procurement of this versatile, 
combat-proven, deep-strike weapon system in order to meet ship load-
outs and combat requirements. OPN resources will address the resolution 
of Tactical Tomahawk Weapons Control Station obsolescence, 
interoperability, and information assurance mandates. RDT&E,N will be 
used to continue engineering efforts for A2/AD navigation and 
communication upgrades.
    Tomahawk provides an attack capability against fixed and mobile/
moving targets, and can be launched from both Surface Ships and 
Submarines. The current variant, TACTOM, preserves Tomahawk's long-
range precision-strike capability while significantly increasing 
responsiveness and flexibility. TACTOM's improvements include in-flight 
retargeting, the ability to loiter over the battlefield, in-flight 
missile health and status monitoring, and battle damage indication 
imagery, providing a digital look-down ``snapshot'' of the battlefield 
via a satellite data link. Other Tomahawk improvements include rapid 
mission planning and execution via Global Positioning System (GPS) 
onboard the launch platform and improved anti-jam GPS.
Tomahawk Theater Mission Planning Center (TMPC)
    The Fiscal Year 2016 President's Budget for TMPC requests $7.5 
million in RDT&E,N and $43.2 million OPN for continued system upgrades 
and sustainment. TMPC is the mission planning and strike execution 
segment of the Tomahawk Weapon System. TMPC develops and distributes 
strike missions for the Tomahawk Missile; provides for precision 
targeting, weaponeering, mission and strike planning, execution, 
coordination, control and reporting. TMPC provides Combatant Commanders 
and Maritime Component Commanders the capability to plan and/or modify 
conventional Tomahawk Land-Attack Missile missions. TMPC optimizes all 
aspects of the Tomahawk missile technology to successfully engage a 
target. TMPC is a Mission Assurance Category 1 system, vital to 
operational readiness and mission effectiveness of deployed and 
contingency forces. Planned upgrades support integration, modernization 
and interoperability efforts necessary to keep pace with missile 
upgrades. These required upgrades keep pace with new imagery formats, 
threat changes, improved GPS denied navigation capability, mission 
planning timeline improvements, upgraded communications architecture. 
Additionally, Cyber security mandates will be implemented to reduce 
TMPC vulnerability to cyber-attacks. These upgrades are critical for 
the support of over 180 TMPC operational sites worldwide, afloat and 
ashore, to include: Cruise Missile Support Activities (inclusive of US 
STRATCOM), Tomahawk Strike and Mission Planning Cells (5th, 6th, 7th 
Fleet), Carrier Strike Groups, Surface and Subsurface Firing Units and 
Labs/Training Classrooms.
Offensive Anti-Surface Warfare (OASuW)/Increment 1 Weapon
    The Fiscal Year 2016 President's Budget requests $285.8 million in 
RDT&E,N for the completion of technology maturation and initiation of 
integration and test of the air-launched OASuW/Increment 1 program. 
Increment 1 leverages the Defense Advanced Research Projects Agency 
Long Range Anti-Ship Missile (LRASM) weapon demonstration effort. 
Increment 1 provides Combatant Commanders the ability to conduct ASuW 
operations against high value surface combatants protected by 
Integrated Air Defense System with long-range Surface-to-Air-Missiles 
and denies the adversary the sanctuary of maneuver. The OASuW/Increment 
1 program is a DON led joint program, scheduled to field on the B-1 by 
the end of Fiscal Year 2018 and the F/A-18E/F by the end of Fiscal Year 
2019.
Next Generation Strike Capability (NGSC)
    The Fiscal Year 2016 budget requests $9.6 million for initiation of 
efforts to develop a Next Generation Strike Capability (NGSC). As part 
of a long-term strike weapons strategy, NGSC will study long-range, 
survivable, multi-mission, multi-platform conventional strike 
capability options planned to IOC in the mid-2020 timeframe. NGSC will 
become the follow-on acquisition program to the current OASuW/Increment 
I (LRASM) and Tomahawk Weapon System modernization programs. The NGSC 
program will commence an Analysis of Alternatives (AoA) during Fiscal 
Year 2016. The AoA will assess existing weapons systems, emergent 
technologies, and industry internal research and development 
activities; develop potential program of record costs, schedules, and 
risk assessments; and conduct additional threat assessments based on 
projected scenarios and operational environments. This analytical data 
will inform performance and relevant technology requirements to be 
matured as part of potential NGSC materiel solution(s) and associated 
kill-chain(s).
Sidewinder Air-Intercept Missile (AIM-9X)
    The Fiscal Year 2016 President's Budget requests $76.0 million in 
RDT&E,N and $96.4 million in WPN for this joint DON and USAF program. 
RDT&E,N will be applied toward the Engineering Manufacturing 
Development phase of critical hardware obsolescence redesign, 
Development Test of missile v9.4 software, and the design and 
development of Joint Chiefs of Staff directed Insensitive Munitions 
improvements. WPN funding is requested for production of a combined 227 
All-Up-Rounds and Captive Air Training Missiles and missile-related 
hardware. The AIM-9X Block II Sidewinder missile is the newest in the 
Sidewinder family and is the only short-range infrared air-to-air 
missile integrated on Navy, Marine Corps, and USAF strike-fighter 
aircraft and Marine Corps attack helicopters. This fifth-generation 
weapon incorporates high off-boresight acquisition capability and 
increased seeker sensitivity through an imaging infrared focal plane 
array seeker with advanced guidance processing for improved target 
acquisition; data link capability; and advanced thrust vectoring 
capability to achieve superior maneuverability and increase the 
probability of intercept of adversary aircraft.
Advanced Medium-Range Air-to-Air Missile (AMRAAM/AIM-120D)
    The Fiscal Year 2016 President's Budget requests $32.2 million in 
RDT&E,N for continued software capability enhancements and $192.9 
million in WPN production of a combined 167 All-Up-Rounds and Captive 
Air Training Missiles and missile-related hardware. AMRAAM is a joint 
USAF and DON weapon that counters existing aircraft and cruise-missile 
threats. It uses advanced counter-electronic attack capabilities at 
both high and low altitudes, and can engage from beyond visual range as 
well as within visual range. AMRAAM provides an air-to-air first look, 
first shot, first kill capability, while working within a networked 
environment in support of the Navy's Theater Air and Missile Defense 
Mission Area. RDT&E,N will be applied toward Software upgrades to 
counter emerging Electronic Attack threats for AIM-120C/D missiles.
Small Diameter Bomb II (SDB II)
    The Fiscal Year 2016 President's Budget requests $97.0 million in 
RDT&E for continued development of the Department of the Air Force led 
joint service SDB II weapon and bomb-rack program. SDB II provides an 
adverse weather, day or night standoff capability against mobile, 
moving, and fixed targets, and enables target prosecution while 
minimizing collateral damage. SDB II will be integrated into the 
internal carriage of both DON variants of the Joint Strike Fighter (F-
35B and F-35C) as well as the Navy's F/A-18E/F. The Joint Miniature 
Munitions Bomb Rack Unit (JMM BRU) BRU-61A/A is being developed to meet 
the operational and environmental integration requirements for internal 
bay carriage of the SDB II in the F-35B and F-35C, and external 
carriage on F/A-18 E/F. JMM BRU entered Technology Development in June 
2013.
Joint Standoff Weapon (JSOW)
    The Fiscal Year 2016 President's Budget requests $0.4 million in 
RDT&E,N to address software integration and interoperability following 
the completion of efforts associated with Operational Testing in Fiscal 
Year 2015, and $21.4 million in WPN to begin Captive Air Training 
Missile (CATM) software integration, continuation of Telemetry 
Instrumentation Kit (TIK) Non Recurring Engineering and re-life 
efforts, and shutdown of the JSOW production line. The Department's 
decision to terminate JSOW C-1 production was due to fiscal 
constraints, an analysis of targets determining there was sufficient 
inventory to handle current operational needs, and the ongoing focus to 
fund future capabilities. The DON has submitted a final 2014 
termination Selected Acquisition Report and Congressional notification. 
The Navy is preparing a transition plan to address the production 
termination decision and document the planned use of RDT&E,N, WPN, and 
O&M,N resources to complete JSOW C-1 Operational Test activities, 
missile and TIK production, CATM conversions, and long-term weapon 
system operation & support.
Advanced Anti-Radiation Guided Missile (AARGM) & AARGM Extended Range
    The Fiscal Year 2016 President's Budget requests $12.9 million of 
RDT&E,N for Block 1 follow-on development and test program, $38.4 
million of RDT&E,N for AARGM Extended Range (ER) development, and 
$122.3 million of WPN for production of 138 All-Up-Rounds and Captive 
Training Missiles. The AARGM cooperative program with the Italian Air 
Force transforms the High-Speed Anti-Radiation Missile (HARM) into an 
affordable, lethal, and flexible time-sensitive strike weapon system 
for conducting Destruction of Enemy Air Defense missions. AARGM adds 
multi-spectral targeting capability and targeting geospecificity to its 
supersonic fly-out to destroy sophisticated enemy air defenses and 
expand upon the HARM target set. The program achieved IOC on the F/A-
18C/D aircraft in July 2012, with forward deployment to U.S. Pacific 
Command, and integration is complete for AARGM with release of H-8 
System Configuration Set for F/A-18E/F and EA-18G aircraft. The 
development of an AARGM-ER modification program, involving hardware and 
software improvements, will begin in Fiscal Year 2016. This effort will 
increase the weapon system's survivability against complex, new, and 
emerging threat systems and enable launch platforms greater stand-off 
range.
Joint Air-to-Ground Missile (JAGM)
    The Fiscal Year 2016 President's Budget requests $25.9 million in 
RDT&E,N to begin a five year integration effort of JAGM Increment 1 
onto the Marine Corps AH-1Z in support of an Initial Operational 
Capability by Fiscal Year 2019. JAGM is a Department of the Army led, 
joint pre-Major Defense Acquisition Program. JAGM is a direct attack/
close-air-support missile program that will utilize advanced seeker 
technology and be employed against land and maritime stationary and 
moving targets in adverse weather and will replace the Hellfire and TOW 
II missile systems. In November 2012, the Joint Chiefs of Staff 
authorized the JAGM incremental requirements and revalidated the DON's 
AH-1Z Cobra aircraft as a threshold platform. JAGM Increment 1 is 
expected to achieve Milestone B certification in Fiscal Year 2015.
Advanced Precision Kill Weapon System II (APKWS II)
    The Fiscal Year 2016 President's Budget requests $53.5 million in 
PANMC for procurement of 1,834 APKWS II Precision Guidance Kits. APKWS 
II provides an unprecedented precision guidance capability to DON 
unguided rocket inventories, improving accuracy and minimizing 
collateral damage. Program production continues on schedule, meeting 
the needs of our warfighters in today's theaters of operations. IOC was 
reached in March 2012 on the Marine Corps' AH-1W and UH-1Y.These 
platforms have expended more than 170 APKWS II weapons in combat. 
Marine Crops AH-1Z platforms will be certified to fire APKWS II in 
Fiscal Year 2015. The Navy successfully integrated APKWS II on the MH-
60S for an Early Operational Capability in March 2014 and is on track 
to finalize a similar effort for the MH-60R in March 2015.
                               conclusion
    We are an agile strike and amphibious power projection force in 
readiness, and such agility requires that the aviation arm of our naval 
strike and expeditionary forces remain strong. Mr. Chairman, and 
distinguished committee members, we request your continued support for 
the Department's Fiscal Year 2016 budget request for our Naval Aviation 
programs.

    Senator Wicker. Thank you very much. Thank you for your 
testimony and for your service.
    Let me just ask then about some things I brought up in my 
opening statement.
    What about the observation by Dr. Gilmore in his annual 
report that the initial software for the F-35B has capability 
shortfalls? Help us understand how this might affect our 
aviators in hostile environments. General Davis, are they 
pointing to you to answer?
    General Davis. Senator Wicker, they are. Good morning, sir. 
Good morning, ma'am.
    Senator Wicker. Thank you.
    General Davis. The F-35B is on track right now for us to 
declare an IOC in July of this year. We will not declare IOC 
unless we meet all of our gates. We have got 13 things we track 
continuously to make sure that our pilots, the aircraft, the 
maintainers, and the test program makes its gates. We still 
have some data points we have got to pull in to go do that. But 
the software we see, which is called the 2 Bravo software, 2B, 
is giving us what we need, that initial operating capability to 
go actually take this aircraft to combat.
    Some of the things that Dr. Gilmore's report pointed out--
they are all true. A lot of those are true. I believe actually 
the EMF A121, which is our first squadron which will be the 
squadron that we declare to be initial operational capability 
out in Yuma, Arizona has been working through those software 
shortfalls but actually finding tactical workarounds for our 
pilots. In many ways, that software is giving us a lot more 
capability than we have in our current fleet today.
    The fusion things that Dr. Gilmore talked about--we do have 
four-ship fusion issues right now, but we do not have two-ship 
fusion issues. So right now, I can take two aircraft and tie 
them together and another two aircraft, tie them together, and 
then tie all four together through a link 16 and give a 
tremendous capability that we do not have today.
    The F-35B, when it comes to initial operational capability, 
will give us through the weather close air support attack 
capability. It will also give us the ability to attack targets 
in contested environments that we do not have today. We can 
take that aircraft to amphibious ships. We can take that 
aircraft to short-fueled 3,000-foot runways and operate. We see 
that we are getting actually a step up in capability than what 
we have in our legacy aircraft today. I have no fusion in the 
airplanes that operate today. We believe we are getting a great 
warfighting capability for our marines.
    We are going to continue to advance the F-35, as we do with 
everything we buy and operate, to deliver the close air 
support, the interdiction, the reconnaissance, and the air-to-
air capabilities that our marines need forward deployed.
    Senator Wicker. So let me be specific. Do you take issue 
with any of the observations Dr. Gilmore made in this report?
    General Davis. I read through the report, and I know Dr. 
Gilmore. I would say that we are in a better position than Dr. 
Gilmore lays out that we are in the F-35B. You talk to the 
pilots that are flying that airplane right now. They are F-18, 
they are Harrier, and they are Prowler pilots. They love the F-
35B and they would not go back to their original platforms. So 
they think they have got a tremendous capability. When you talk 
to young captains and majors and lieutenant colonels that are 
flying that airplane, they think they have got a great 
capability.
    The software issues that we are dealing with, 2B software--
we actually think it is tracking the way it is supposed to. We 
still have more test points that we have got to pull in. We 
will look at that in July. If the aircraft and the pilots and 
the squadron is not ready to declare IOC with all the things we 
say they have to have for an IOC declaration, we will not 
declare initial operating capability.
    Senator Wicker. Well, many of the points he made were 
valid, I understand you to say, and you have worked through 
them.
    General Davis. We have.
    Senator Wicker. Just for the record--I mean, we do not have 
all of them in front of us--do this. Get back to us on the 
record as to what he might have said that you disagree with, 
the issues that do not need any more tinkering. Will you do 
that?
    General Davis. Absolutely, sir.
    [The information referred to follows:]

    Senator Wicker, you asked me to discuss the Marine Corps' position 
on Dr. Gilmore's annual F-35 report and where we might disagree with 
it.
    <bullet>  The report expressed concern that Block 2B software 
development was off track.
      o  As we have demonstrated, Block 2B was delivered in time to 
make the objective Initial Operational Capability (IOC) date of July 
2015.
    <bullet>  The report discussed the June 2014 engine failure.
      o  The Joint Program Office (JPO) approved rub-in procedures have 
been executed and have the fleet g-limits up to the full limits of what 
the current aircraft configuration will permit--both on IOC and non-IOC 
jets.
    <bullet>  The report notes that Mission Data File (MDFs) 
development is behind and the Marine Corps will receive only a partial 
solution at IOC: The USMC concurs with this Director, Operational Test 
and Evaluation (DOT&E) assessment with the following notes:
      o  Per the DOT&E report, fully certified MDFs from USRL are 
slated for release in the Nov/Dec 2015 timeframe. This only speaks to a 
piece of the plan and aircraft capability. We are currently flying a 
version the MDFs in our IOC jets which is fully combat capable. While 
the current MDFs we are flying are immature, the advantages the F-35 
brings in terms of signature, sensors, and information exchange combine 
to make the F-35 far more capable than the current USMC TACAIR fleet.
    <bullet>  The Marine Corps does not agree with the DOT&E assessment 
on Reliability and Maintainability:
      o  The Reliability and Maintainability (R&M) data in the DOT&E 
report is accurate, but is not a true representation of the maturity of 
F-35's R&M.
          <bullet>  Six of the nine charts in the R&M cover the three 
month period immediately following the June 2014 AF-27 Engine incident. 
The directed red-stripe and appropriately conservative approach to 
flight operations following the incident drove an increased maintenance 
workload and reduced Air Vehicle Availability (the metric used in the 
report) resulting in significant bias in the metrics detailed in the 
report, making it impossible to use the data as an accurate measure of 
true program R&M performance.
      o  A Mission Essential Function List (MEFL) was approved by the 
JPO and is awaiting COMNAVAIR Force's final approval in order to gain 
consistency across all squadron readiness reporting. The formalized 
MEFL will link Logistic Control Numbers to specific missions allowing 
for standardized Mission Capable / Full Mission Capable reporting 
across squadrons.
      o  Trend analysis shows a steady increase in Mission Capable (MC) 
status as a direct correlation to the introduction of the newer Low 
Rate Initial Production (LRIP) aircraft to the flight lines. Moreover, 
the supply system is starting to mature. We are finding that by having 
a larger supply range and depth it has proven to minimize the Non-
Mission Capable Supply Period. This has further contributed to higher 
numbers of MC aircraft. As such, we have every reason to believe that 
our readiness rates will improve as we approach and then begin full 
rate production in fiscal year 2018.
    <bullet>  The USMC concurs with assessment of the status of ALIS 
development with the following notes:
      o  The agreed upon IOC ALIS was delivered in time to declare IOC 
in July of 2015 and is functioning to meet the requirement.
    <bullet>  The DOT&E report states concerns with the construct of 
OT-1 aboard the USS Wasp and it's representation of combat operations. 
Of note, no weapons clearances were in place and the ACE was not 
embarked:
      o  OT-1 was an extremely successful evolution and concluded the 
3rd at-sea test for the F-35B. It is also important to note that the 
entire ACE has never been embarked for a USMC OT period.
      o  The launch and recovery portion of flight operations at the 
ship is administrative in nature and therefore does not have a 
significantly different context in combat. Aircraft can be loaded with 
fuel to simulate the weight and balance requirement for carrying 
ordnance and limitations space can be imposed to simulate the presence 
of the MEU ACE. Furthermore, F-35B conducted combat training missions 
during OT-1. All of this demonstrated that the aircraft, equipment and 
personnel were in fact qualified to operate as part of the deployed MEU 
ACE.
      o  The DOT&E report under-emphasizes the true successes of both 
the F-35B and F-35C at-sea test events. F-35B has completed three 
successful at-sea test periods enabling both day and night F-35B 
operations. F-35C DT-1 has established that the redesigned hook point 
is suitable for ship operations, set an unprecedented boarding rate of 
100 percent and likely paves the way for reduced operational unit 
training and proficiency requirements.
    <bullet>  DOT&E Recommendations:
      o  Eight (8) DOT&E recommendations reside at the end of the 
report and six of the eight already have been under action by the JPO. 
Two (2) DOT&E recommendations are under review:
        <bullet>  Update program schedules to reflect IOT&E spin-up to 
start no earlier than November of 2017 and IOT&E in May 2018. The JPO 
will assess the risks associated with the 3F air system certification 
activity and will implement risk mitigation options as required to 
ensure Spin-up and IOT&E entry criteria are met and the integrity of 
the IOT&E is not compromised. USMC believes the JPO approach to 
reviewing IOT&E schedule risk is more appropriate and does not concur 
with DOT&E the IOT&E schedule recommendation.
    <bullet>  Extending the full-up system level decontamination test 
to demonstrate the decontamination system effectiveness in a range of 
operationally realistic environments. F-35 Program is relying upon JPEO 
Chem Bio Defense (CBD) for the ``holistic'' solution for multiple DoD 
customers. This test will take place at Edwards AFB and once complete, 
the F-35 will be a Technology Readiness Level (TRL) 8: Actual System 
Completed and flight qualified. USMC concurs with the JPOs response to 
this DOT&E recommendation.
    The Commandant of the Marine Corps declared IOC on 28 July 2015. 
Preceding that declaration, I directed a thorough evaluation of our IOC 
squadron, VMFA-121, in order to ensure that the squadron could actually 
perform the combat mission sets that are required. The squadron 
performed exceptionally in all areas that were evaluated. This follows 
years of developmental test and operational flying which have totaled 3 
events aboard an L-Class carrier, totaling seven weeks at sea, with 
test and operational aircraft and Marines, multiple live ordnance 
sorties, and participation in multiple large force exercises. In the 
squadron's current posture and configuration they have more capability 
in key areas than I have in my legacy squadrons. For example, today, 
the IOC F-35s can operate in high threat environments and target in 
real time through the weather. I can't do either one of those things 
with my legacy aircraft. The performance of the squadron in the 
evaluation, and in the multitude of events that led their run up to it, 
has reinforced my conviction we are procuring the right aircraft. I am 
confident that, if required, VMFA-121 could respond to a contingency--
giving our nation its first sea based 5th generation strike fighter 
capability.

    Senator Wicker. I appreciate that.
    Now, let me ask. Who wants to take the question about the 
unmanned aerial demonstration program as to the point that 85 
percent of the projected life remains on the two aircraft? Is 
it a good use of the taxpayer money not to continue to utilize 
these in the interim? Who would like to take that?
    Admiral Grosklags. Senator, I have got that one, sir.
    So we continue to look at this very closely. The UCAS 
program that you are talking about, U-C-A-S dash D--the ``D'' 
is for demonstrator. This is without a doubt a demonstrator 
aircraft. It is not a prototype for one of our future UCLASS 
aircraft. It is clearly a demonstrator.
    The primary goal of that demonstrator was to demonstrate 
the ability to land and take off from an aircraft carrier with 
an unmanned system. We accomplished that about a year and a 
half ago. It was a great milestone for the Navy and for naval 
aviation.
    Subsequent to that, we have continued to work with the 
aircraft carrier in the aircraft landing environment, including 
with manned aircraft at the same time. We are within a couple 
weeks of finishing the last scheduled event with that 
demonstrator aircraft which is an actual air-to-air refueling 
hookup and transfer of fuel from a tanker to that demonstrator.
    However, we have looked at additional opportunities, as you 
say, to wisely spend the taxpayers' dollars on for the 
utilization of that aircraft, and we do not believe that it is 
warranted. In terms of informing us----
    Senator Wicker. So there is no use that can be made of the 
85 percent of the life of these two aircraft.
    Admiral Grosklags. Sir, it is less about the life of the 
aircraft than it is the ability of that demonstrator to further 
our goals for unmanned carrier aviation. This aircraft has a 
unique landing system. It has a unique control system. It uses 
a unique data link. The network architecture is not the 
architecture that we will use for our future unmanned aircraft 
or for the unmanned aircraft that we have in our inventory 
today. So it does not have the ability to carry a sensor 
package today. It cannot carry weapons or release weapons. It 
is a flying demonstrator to get on and off of the aircraft 
carrier primarily.
    We believe we have run that out as far as we need to and 
that our resources would be better spent pursuing the follow-on 
capability which is the true capability for the fleet that they 
need with UCLASS.
    Senator Wicker. Was it a mistake the develop the UCAS?
    Admiral Grosklags. No, sir, I do not believe so. We learned 
a tremendous amount about operating an unmanned aircraft in 
that carrier environment. That was a high-risk/high-reward 
demonstration event, and it worked. A lot of effort went into 
it and a lot of engineering and a lot of expertise. We proved 
to ourselves that we could do it. We proved to ourselves we 
could do it safely in that very dynamic flight deck 
environment. But we are beyond that now, and we need to move on 
to a program that actually can bring a capability to the fleet 
for weapons capability, intelligence, surveillance, 
reconnaissance capability. That is what we are looking forward 
to with the UCLASS program.
    Senator Wicker. Thank you very much.
    I am going to recognize the ranking member and also 
reiterate the policy of this chairman in terms of recognizing 
members. We are going to recognize members in the order of 
their appearance. So it will be Senators Hirono, Kaine, and 
Tillis. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    A few follow-up questions for General Davis regarding the 
F-35s. The Marine Corps is planning, as you said, to declare 
IOC on the F-35s July of this year. Now, you have already been 
asked a series of questions regarding Dr. Gilmore's report. He 
has charged that the various attributes in the block 2B 
software release will provide less capability than the aircraft 
that the Marine Corps currently operates, the F-18 Hornet and 
the AV-8B Harrier.
    General Davis, which Marine Corps official will decide to 
declare IOC, or in other words, what level of capability is 
acceptable from the Marine Corps perspective?
    I just wanted to note that my understanding is the software 
in the F-35 is very, very complex and that there are some 22 
million lines of code in that aircraft. I think that is what 
leads to concerns about its readiness. So is the IOC 
declaration event-based or being driven by a need to meet a 
calendar deadline for readiness?
    General Davis. Senator Hirono, thanks for the question. 
Absolutely the decision to declare IOC will be event-based and 
conditions-based based on us achieving what we have to do to 
deliver a combat capability to our marines.
    I will tell you they talk about not as capable an airplane 
as the fourth generation, third generation airplanes. That is 
absolutely not our position at all, not our view of it, not the 
guys who fly it. The F-35B, even in 2B software, gives us 
capability we do not have with legacy fighters. The first thing 
I talked about earlier was fusion. We have no fusion capability 
today in any of our legacy fighters in the Marine Corps. We do 
not have that. So being able to share information, high 
bandwidth information real-time--we cannot do that. Being able 
to do close air support for our marines in a contested 
environment--we cannot do that right now, not to the degree you 
can do it with a fifth generation airplane like the F-35.
    The other one is through the weather, providing close air 
support through the weather, interdiction through the weather 
with high fidelity using the APG-81 radar to go do a SAR map. 
We cannot do that today.
    So the way that we provide close air support will be 
different than we do today, but in many, many ways we think it 
is a lot more capable than the aircraft we are replacing.
    Senator Hirono. Excuse me, General. I think there is some 
question that the software in the F-35 will provide us with a 
lot more capability, but only if it is working. I think that is 
the question we have. Reassure us that the testing will occur. 
We all know about software and all the glitches that can occur 
and especially one that is as complicated. So you are providing 
us with that reassurance that everything will be a go.
    General Davis. Absolutely, ma'am. We will. Like I said, 
what we have been seeing to date, the software we are flying 
with today and the 2B software being loaded and tested now--we 
are seeing actually it is a stable software load. It is working 
very well. Not many of the system crashes. This has been a very 
reliable airplane for us. Our readiness numbers are coming up. 
The readiness includes the software and the reliability of that 
software. So we are seeing nothing but positive trends as we 
work closer to IOC. But if conditions are met, I will make a 
recommendation to General Dunford that we declare IOC but only 
if those conditions are met, not until, and software will be a 
part of that.
    Senator Wicker. Thank you.
    Admiral Grosklags, we both mentioned that there is going to 
be a shortfall estimate this year, and we were told in an 
earlier hearing that a shortfall of 65 aircraft is manageable, 
but if we are looking at a shortfall of 134 aircraft--perhaps 
it is Admiral Manazir who could answer this. How would you 
describe this estimated shortfall of 134 aircraft? Is it 
manageable? What do we need to do?
    Admiral Manazir. Yes, ma'am. Thank you for the question. It 
was very meaningful for me and Rear Admiral Tom Moore to meet 
with you about aircraft carriers as well previously.
    Of course, on top of those aircraft carriers, we fill those 
with 44 strike fighters of the United States Navy. So managing 
the inventory is a complex task that actually connects not only 
the F-18A plus pluses flown by the Marine Corps, the F-18C 
flown by the Marine Corps and the Navy, the F-18E and F and the 
F-35--so as we look at strike fighter inventory management--I 
use the term ``shortfall'' when you have a set supply, a set 
demand, and a set utilization rate, with a set depot condition. 
If you do not change any condition that we have right now with 
the current supply on our flight lines, the current depot 
throughput, the utilization in the fleet on deployment and in 
training, and the acquisition of new aircraft, you will have a 
shortage that is depicted as 134 airplanes at the high. But we 
are changing all of that.
    It is meaningful. I will agree with the chairman and 
Ranking Member Hirono that sequestration is devastating. The 
reason we are where we are in the depot today is because of 
sequestration in 2013. When we brought the F-18 As through Ds 
into the depot, we brought them to extend the flying hours from 
6,000 hours per airframe. Through inspections, we got to 8 and 
we are now extending their service life to 10. Just that 
planned work is significant. For the first time in history, 
naval aviation is maintaining three type model series in the 
same mission area, F-18 legacy, Super Hornets, and F-35. We are 
sustaining. We are modernizing and we are procuring three type 
model series. It is very complex. So the planned work with the 
F-18A through Ds coming in was to extend the service life.
    Beyond 6,000 hours, we did not plan for the amount of 
corrosion we found inside the airframes due to extended service 
at sea and in the environments we operate in: in the desert in 
Afghanistan and Iraq; at sea in saltwater corrosion. In fact, 
the airplane was designed to go away at 6,000 hours. You would 
not have to do the same kind of corrosion work. Now that we 
have had to extend that, we have a significant amount of 
unplanned work. That unplanned work is causing depot throughput 
problems.
    So if you look at the whole condition, the shortfall at a 
high goes to 134. At a low, it is actually less than that. The 
way the U.S. Navy operates our forces, we have a profile called 
a ``fleet response training plan.'' That fleet response 
training plan works up squadrons into integrated units and 
deploys them at the highest level of readiness they can be. In 
fact, we always meet that bell in the Navy and Marine Corps. We 
have not failed to meet deployed readiness yet. The priority is 
deployed readiness.
    Then we tail that readiness off at the other side. So it 
looks kind of like a hump. If you drew a line across the 
deployed readiness, all the way across, and you kept everybody 
at that level you would have no shortfall. We actually 
intentionally tier the readiness so that if you can picture 
that rising hump and then going down to the two blank areas 
between the lower humps and the top part, that represents 65 
airplanes. That difference is 65 airplanes. We manage that in 
tiered readiness. If you look at the static shortfall average 
for the next 5 years, it is about 100 airplanes. The difference 
between 65 and 100 is about 36 airplanes. That is why the CNO 
[Chief of Naval Operations] said I need about two to three 
squadrons. If we keep the conditions the way they are, we 
reduce the risk by that if we infuse F-18 Es and Fs that the 
CNO talked about.
    But what we are changing, Ranking Member Hirono, is the 
depot process through a new process called critical chain 
project management (CCPM). That is being organized to 
strengthen the depot throughput to get more airplanes on the 
flight line and to increase our readiness. We are also changing 
the demand signal in the training aspect of what we do. Vice 
Admiral Mike Shoemaker, Commander of Naval Air Forces, is 
looking at the amount of training we do before and after we go 
on deployment to make sure that we have got just the right 
amount of training but not too much. While we increase the 
depot and while we change the utilization of those airplanes 
and if we can procure more F-35s sooner--the Navy and the 
Marine Corps need to get the F-35C--and we get the two to three 
squadrons that the CNO [Chief of Naval Operations] talked 
about, you will alleviate the shortfall. We have plans in place 
to do all of that, ma'am.
    Senator Hirono. So I get that inventory management. There 
are a lot of moving parts to what you are doing, and you are 
using all the depots that are available as part of what you are 
doing?
    Admiral Manazir. Yes, ma'am. Not only that, looking at the 
capacity that we have and also asking Boeing to step in and use 
their resources to solve additional challenges that we have.
    Senator Hirono. Thank you, Mr. Chairman, for your 
indulgence.
    Senator Wicker. Thank you, Senator Hirono.
    Senator Kaine, followed by Senator Tillis.
    Senator Kaine. Thank you, Mr. Chair, and thank you to the 
witnesses for the testimony.
    I think, Admiral Grosklags, this question may be for you. 
In the fall of 2014, the Navy released a record of decision 
about the F-35C basing on the West Coast. Talk a little bit 
about what the Navy's plans are vis-a-vis basing decisions, 
process timing for East Coast basing for the F-35C. Whoever 
wants to answer that.
    Admiral Manazir. Senator Kaine, thank you very much.
    I am a fighter pilot. I have flown out of Oceana. It is a 
wonderful base. I also flew out of Cecil and Jacksonville. The 
facilities on the East Coast, particularly in Virginia, are 
very, very good.
    Having said that, sir, we have not decided, nor have 
commenced a process to look at East Coast basing. The current 
procurement profile of the F-35C allows us to look at NAS 
Lemoore on the West Coast and to fill those squadrons, up and 
then at the right time, we will start the entire environmental 
assessment process to look and see where we would base the F-
35C on the East coast. We have not started that yet, sir.
    Senator Kaine. Do you have a sense of when you would start 
that process?
    Admiral Manazir. That process typically takes 18 months to 
2 years to do the EIS [Environmental Import Statement]. We 
would do the EIS 18 months to 2 years prior. Then we would 
assess after the EIS the MILCON that it would take. It would be 
another 2-year process. So I would assess, sir, that probably 
fiscal year 2018 to 2019 we would be looking at a rate at which 
we need to start looking at the East Coast base.
    Senator Kaine. Great. That is helpful.
    General Davis. Sir?
    Senator Kaine. Yes, please.
    General Davis. If I could, on the F-35Cs and the East Coast 
laydown of F-35s to the Marine Corps, we will have at least one 
C squadron at Marine Corps Air Station Beaufort. We have an F-
35B squadron right there, a training squadron. We will have 
four squadrons. Then we also are flowing up to Cherry Point as 
well. So we will have a large number of Marine Corps F-35s on 
the East Coast.
    Senator Kaine. Great. Thank you, General.
    The President's budget indicates that depot level 
maintenance--I think it is at 83 percent of the requirement. I 
am curious how the Navy prioritizes between variants awaiting 
maintenance if you are at 83 percent. Assuming we get the 
President's budget level--that is a big assumption, but if you 
do or even if you do not, how do you prioritize among the 
variants in line for maintenance?
    Admiral Grosklags. Sir, well, as Admiral Manazir just spoke 
about, the depot induction process is rather complicated. The 
83 percent that we have requested is sufficient to fully fund 
the work that we know we can accomplish in fiscal year 2016 at 
our depots. So we do not want to request more money than what 
we can actually execute.
    One of our challenges that was alluded to earlier is that 
when we went through sequestration 2 years ago and a subsequent 
furlough, we lost a significant number of our workforce from 
our Government depots. We today have a shortfall of about 700 
aircraft artisans spread across all type model series, but they 
are somewhat focused right now on the F-18 and our Hornet 
shortage. That is 700 out of about a 6,800-person requirement. 
So it is a significant impact to us. We have to build that 
workforce back up.
    We have to build up our engineering workforce because, in 
addition to the artisans, we have engineering decisions that 
need to be made when we open up these aircraft and find a 
discrepancy. We need an engineer to come in and look at it and 
determine what type of repair has to happen. So we have to beef 
up our engineering expertise and numbers of people as well.
    Until we get through that hiring process, we can only 
execute so many aircraft at a time. The fleet prioritizes which 
aircraft come in, even within a certain type of aircraft and 
then across all the type model series that come into our 
Government depots. So it is a multi-pronged approach, but we 
believe what has been requested in PB 2016 is the funding we 
need to execute our depot workload.
    Senator Kaine. General Davis?
    General Davis. Thank you, Senator.
    On the depot issue, inside the Marine Corps, we are having 
a difficult time getting our ready bench--what General Dunford 
calls a ready bench--ready to deploy. It would be that crisis 
response force. We do a great job getting the guys out the door 
with assets and training, but it is training that next group 
that is ready to go.
    One of the prime reasons we have a hard time with that 
right now is because we have about 19 percent of our flight 
line inventory that we should have up and in operation that is 
not available to fly. A large portion of that is because of 
depot. The airplanes are stacked up in the depot and they 
cannot get through. So in the Marine Corps, I have got 20 
percent of my F-18s are stuck and not able to get through. But 
I have also got CH-53 helicopters. I have got Harriers. I have 
got V-22s that are coming through for normal depot rework, H-
1s. So we have about a 19 percent shortfall across the spectrum 
inside the Marine Corps, and it extends beyond the F-18.
    So just like Admiral Grosklags said, the depots can handle 
so much. What we have done is they have done, I think, a 
brilliant job, as Admiral Manazir said, working out the 
strategy to get our legacy Hornets back on the line, basically 
getting our young aviators out there flying and training. But 
we have had to go to industry to help to plus-up that 
capability, to get rid of the backlog that is on the back side 
of our depots because the real issue is getting those airplanes 
back on the line that the taxpayers have spent a lot of money 
to buy for us but we need to have them fixed or get them 
through the depot.
    The other part of that is--part of sequestration--we have 
constricted our operations and maintenance accounts, our parts 
and spares accounts. So if I got an airplane on the line that 
is not depot but it cannot be flown because I do not have the 
parts to put on there, that impacts our ability to generate 
readiness as well.
    Senator Kaine. I just want to summarize because I only have 
20 seconds left. But it sounds like a sequester effect is kind 
of a compounding effect. So because of sequester, it is 
affecting our purchase of new platforms. So to deal with that, 
we pushed the life from 6,000 to 10,000 hours. But to do that, 
we also need a more robust depot program because not only are 
we keeping these planes going longer, but the corrosion and 
other challenges of a plane late in life are more difficult 
than early. But then the third compounding factor is sequester 
and furloughs have caused you to lose some of your workforce 
because they have other options. They can go into the private 
sector. So those factors, not procuring as much, pushing the 
extension of life, more complex depot issues, but sequester and 
furlough also costing us some of the workforce--these issues 
kind of compound together to really affect our readiness. Am I 
understand the chain of events correctly?
    Admiral Grosklags. Yes, sir. I think you hit it right on 
the head. This is one of the complications that we warned the 
Congress about when we were talking about sequestration several 
years ago was particularly our depot throughput and the 
implications and the fact that it would take us several years 
to recover. That was compounded by the description that Admiral 
Manazir gave earlier about our high flight hour inspections 
kind of hitting us in the face for the F-18s as well.
    Senator Kaine. All right. Thank you.
    Thank you, Mr. Chair.
    Senator Wicker. Senator Kaine, that was the best use of 20 
seconds I have ever seen.
    [Laughter.]
    Senator Tillis, I am sure that testimony about Cherry Point 
was music to your ears.
    Senator Tillis. I was going to get him to repeat himself.
    [Laughter.]
    No, I appreciate that.
    I was kind of curious between the East Coast and West Coast 
deployment. Do you all have a rough idea as a percentage of the 
base that will be deployed, how that will go East Coast/West 
Coast?
    General Davis. Senator, the first base to stand up is MCS 
Yuma in Arizona. We are also standing up--next is Beaufort, and 
then it is between Cherry Point and Miramar for our four bases 
in the continental United States. Then also Japan as well to 
MCS Iwakuni. So we have got a fairly aggressive, but 
sustainable flow, thanks to your support and buying us those 
airplanes.
    Senator Tillis. What is the timeline on that?
    General Davis. I can get back to you as to exactly. We have 
been adjusting that a little bit. We are actually trying to 
move it to the left a little bit to go a little bit sooner into 
Cherry Point. It was further out in the late 2020s. We are 
trying to move that back in the 2024-2025. But I can get you 
exactly when the first squadron is supposed to go into Cherry 
Point. As long as we keep our ramp whole for both F-35 B and C, 
that is going to help us out and make sure we fill those.
    [The information referred to follows:]

    Dates for the arrival of the first F-35 squadrons at Marine Corps 
Air Stations are:
    a. MCAS Yuma--Nov 2012
    b. MCAS Beaufort--July 2014
    c. MCAS Iwakuni--Jan 2017
    d. MCAS Miramar--Oct 2022
    e. MCAS Cherry Point--Oct 2022

    Senator Tillis. The other question I had was back to the 
question the chair and the ranking member asked. But just to be 
clear on the software capabilities that will be deployed with 
the F-35 and your confidence that when it is ready, it is 
ready, that you will deal with any issues. There has been some 
discussion about fewer features and functions, but it sounds 
like to me the fusion capability, which is kind of a real-time 
network capability among several craft, would far outweigh a 
few features and functions that are isolated to the specific 
craft. Is that a----
    General Davis. Absolutely correct. They have had problems 
when they tied. It is a fighter-to-fighter data link, and they 
have had some problems. It is really a latency problem with 
tying all four together. When we tie just two together and two 
sections, it works out really, really well.
    Senator Tillis. It is just scaling it.
    General Davis. We are still connecting in through a link 
16. So it actually has two data links in the airplane, which 
really exceptional.
    It was real interesting. We did some close air support the 
other day, and initially the forward air control on the ground 
wanted to see streaming video. The F-35 will not get that till 
block 4 in 2019. But the clouds were coming in. So he says, 
well, the clouds are coming in. We cannot do the close air 
support anyway. The pilot in the F-35 says, hey, I see the 
target. I can see though the clouds. Let us do this thing.
    So we do not have that capability today. We do not. We will 
have that with the F-35. So we will do close air support and 
support our marines on the ground differently, but we will do 
it in a contested environment and we will do it also from our 
amphibious ships and we will do it through the weather. I think 
it is some breakthrough capability for us. Kind of like the V-
22 10 years ago, we are just scratching the itch and scratching 
the surface of what we can do with this airplane. I think it is 
going to be as wildly successful as the V-22 is right now.
    Senator Tillis. Thank you.
    Admiral Manazir, I think the Navy had in the President's 
2015 budget some 4,600 joint standoff weapons budgeted. In the 
2016 budget, there are none. What has changed and what are we 
doing to replace that capability?
    Admiral Manazir. Thank you, Mr. Senator, for that question.
    What has changed is we did a joint assessment of our 
targeting plans in the most stressing operational plans against 
the highest end threat. We recognized when we did the joint 
assessment that we actually had planned for too many of those 
joint standoff weapons.
    Senator Tillis. So it was not a capability you needed?
    Admiral Manazir. Yes, sir. Yes, we definitely need the 
capability, but we realize that we actually have enough.
    Senator Tillis. You have the scale.
    Admiral Manazir. Yes, sir. We have the scale. We have the 
capability. We do not have any gaps with the joint standoff 
weapon.
    What we are doing, however, in all of our weapons is 
modernizing our capability to do things like the JSOW with 
small diameter bomb to moving targets. The ability to reach 
into denied areas with our weapons is a capability we are 
looking at.
    But specific to your question, sir, when we did the joint 
look at it, we realized that we had been double counting and we 
actually have enough.
    Senator Tillis. I mean, that is an example of a good 
outcome on a downward pressure on budgeting. A bad outcome on 
budgeting is sequestration. That is the worst thing that I have 
seen up here that has been put into law in my opinion from a 
budgeting tool standpoint.
    General Grosklags--is that the right way to pronounce your 
name?
    Admiral Grosklags. It is Grosklags.
    Senator Tillis. I have heard it pronounced three different 
ways on this panel, so I thought I would try and get it right.
    [Laughter.]
    Senator Tillis. Back to sequestration, I am kind of 
interested in the lack of certainty that we have with 
sequestration, how it affects our industrial base because if I 
am out there trying to figure out what we are going to buy from 
our industrial, I am making decisions that downsize my capacity 
right now, just based on the sort of paycheck-to-paycheck 
approach we have for budgeting right now. Do you have any 
specific areas of concerns? I know we talked about shipyards, 
but other areas within the industrial base that you are 
concerned that we are reaching a tipping point in terms of 
being able to ramp up if necessary?
    Admiral Grosklags. Yes, sir. We are concerned across the 
industrial base. You just alluded to weapons. It is true in the 
aircraft industry, as well as you alluded to the shipbuilding 
industry.
    It is two-pronged. One is the uncertainty. As I mentioned 
in my opening statement, what we really need is a stable, 
predictable budget, and that is what industry needs as well to 
temper their investments. What areas are they going to invest 
in long-term? We as a department and we as taxpayers absolutely 
need those investments by industry to support our programs. So 
it is a two-way street there. We are making it very, very 
difficult on industry.
    From our internal Department of Defense perspective, if you 
will, the uncertainty in the planning quite honestly makes us 
much less efficient. We are not able to put in place some of 
the acquisition strategies and some of the long-term plans with 
industry that we would like to that would drive down our 
program costs. So much as Senator Kaine alluded to and kind of 
the vicious circle we got into with the depots and readiness 
and flying hours, we end up with the same problem with some of 
our acquisition strategies. The more uncertainty, the more it 
costs us. The more it costs us, the less certain we can become 
about the future.
    So I think your concern is right on the money, the 
unpredictability in stability and even the threat of 
sequestration, whether it is realized or not, hampers our 
ability to work with industry and get them to invest in the 
areas we think are important to our future.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Senator Wicker. You know, Senator Tillis, I think the 
Senate is almost unanimous in agreeing that a return to 
sequestration would be most harmful. The question is how do we 
find the offsets to avoid it. There is the rub, absolutely.
    Senator Ayotte, you are recognized.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you for being here.
    I wanted to ask about some specific programs. General 
Davis, I understand that the CH-53K is on schedule to conduct 
its first flight by the end of 2015. Is that true, and are we 
on track there?
    General Davis. We are on track. That is true.
    Senator Ayotte. How important is that new CH-53 to the 
Marine Corps in its modernization effort?
    General Davis. The 53 Kilo--ma'am, thanks for that 
question--is absolutely essential to our modernization effort. 
We talked a little bit earlier about the flight line deficit we 
have in all of our aircraft, and CH-53 Echo is our only heavy 
lift airplane. It lifts heavy equipment from a sea base and 
takes it ashore. So it is kind part and parcel of what the 
Marine Corps does and what we be able to do. The CH-53 Kilo 
replaces those 53 Echoes. Echoes have done 95,000 hours in 
combat in the last 14 years. So really performed brilliantly 
for us. But they are getting old and wearing out. We can only 
keep them going for so long. The 53 Kilo gives us three times 
the lift capability. It will lift 27,000 pounds. Unprecedented. 
The only helicopter in the world that can do that and take a 
27,000-pound load on a hot, heavy day and transport that gear 
110 miles. So absolutely critical for our Marine Corps.
    It is on track. Like every program, it has got its episodic 
things we learn in tests, but nothing would stop us from 
believing that we will fly that airplane this year and also 
too, we make an initial operating capability of the 53 Kilo in 
2019.
    Senator Ayotte. So fly this year and then operational 
capability in 2019?
    General Davis. Yes, ma'am.
    Senator Ayotte. Great. I appreciate that.
    Rear Admiral Manazir, I also wanted to ask about a 
particular program, and that is the P-8A Poseidon's first 
operational deployment was completed, I understand, in June 
2014 and that continuous 7th Fleet operational deployments are 
underway. How is the P-8 performing and how is that going?
    Admiral Manazir. Yes, ma'am. Thanks for the question.
    The P-8A is now in its third deployment. The third squadron 
is deploying it with their P-45 and have been essentially 
wildly successful.
    Senator Ayotte. I like to hear that. We hear about delays 
and things. Wildly successful----
    Admiral Manazir. Yes, ma'am. I was the deputy to my current 
position a couple years ago for 2 full years, and now I have 
been the Director of Naval Warfare in the Navy here for a year 
and a half. The P-8A is the most successful acquisition program 
that you have funded for us. Taking a commercial 737 and 
filling it with high-end equipment works very well.
    I actually flew that airplane last week. I went out of 
Jacksonville with a LRIP [Low Rate Initial Production] 
airplane, essentially a block 0 P-8A. We went out. They 
demonstrated for me dropping sonar buoys in a simulated 
targeted, tracking that target, building a synthetic aperture 
map of the eastern seaboard, connecting with platforms that 
were as far north as Norfolk and seeing the entire picture out 
over the water, and then the electronic support that it does. 
So that what we have in the back of that airplane is very good.
    On its very first flight out of Seattle, the very first 
flight of that airplane, they put it over the top of the P-3 
looking at a blue submarine, a United States Navy submarine, 
and the P-8 had more information right away than the P-3 had.
    We are incrementally improving that airplane to increments 
1, 2 and 3. Increment 1 is already funded. Increment 2 is fully 
funded. Increment 3 is in part this budget. We are completing 
the kill chain that it takes from high altitude ASW [anti-
submarine warfare] by buying a torpedo, the Mark 54. You put a 
wing kit on it. You can launch it from high altitude, which 
covers more water space and reduces the fatigue life on the 
airplane.
    So, ma'am, in summary, very successful.
    Senator Ayotte. Excellent. I appreciate that update.
    I wanted to ask. I am sure this was addressed to some 
extent by my colleagues, but I wanted to make sure that I 
understood where we are with the F-35, both the Marine Corps 
and Navy variants, and how things are going and what challenges 
remain. Who would love to go first on that?
    Admiral Grosklags. So let me touch on it just at kind of a 
macro level and cover both services and then General Davis and 
Admiral Manazir might tag back in.
    We follow that program very closely. Obviously, Mr. 
Stackley is the service acquisition executive responsible for 
that program today. We believe they are making steady progress. 
As you are well aware, they rebaselined the program back about 
4 years ago. Since that time, they have largely been executing 
to that schedule and to that funding profile. So from that 
perspective, they are making steady progress. They are making 
progress in development of the software that General Davis has 
talked about previously. The testing is moving forward. The 
production line is moving forward. We are spending a tremendous 
amount of time working with the JPO and our partners in both 
the Air Force, as well as the international community, on 
attacking affordability on that aircraft.
    Now, that is not to say that everything is perfect, and we 
have alluded to some of the problems or discussed some of the 
problems we are having already. We are very much focused on the 
software development. That will continue to be a challenge as 
long as we are in this development phase, which runs out 
through 2018. We continue to focus on the availability of the 
aircraft, its readiness, its maintainability, and the support 
from the autonomic logistics system that supports the 
operations and the maintenance. As I mentioned, we are very 
focused on affordability.
    We can talk more in detail about any one of those aspects, 
but the bottom line is they are making as a program steady 
progress forward to the IOC capability that General Davis has 
been talking about, and perhaps Admiral Manazir would like to 
talk just briefly about how we are progressing toward the 
Navy's IOC in 2018.
    Admiral Manazir. Ma'am, thanks.
    The Navy needs the F-35C to win the high-end fight.
    We have been very discerning customers. There is a healthy 
debate. In fact, tomorrow is the third joint executive steering 
board to go into the specifics of F-35, all models, all 
services. I am comfortable that in the last year and a half the 
program has stabilized to where we will achieve our IOC, 
following the Marine Corps and following the Air Force, in 
August 2018. Our risks are in software. The risks to block 3F, 
which is post-2B software, to development have been 4 to 6 
months of the original baseline that has been stabilized now at 
that 4- to 6-month risk now for over a year and a half. I am 
starting to get comfortable that we have that risk right.
    We have identified other challenges in modifications to the 
airplane, and we are comfortable those modifications will be on 
track.
    We think the funding is adequate to execute the plan. We 
just work with the Joint Program Office to actually execute 
that funding. So I believe that we are on a good track, but I 
will tell you that your scrutiny joins our scrutiny in working 
with the contractor to deliver this airplane.
    To General Davis' point, this is a game-changing airplane. 
The fusion that we talked about earlier is simply making what 
looks like four targets actually down into the reality that is 
one target. So it is making all of those signals come out and 
show us that one target without a shadow of a doubt, and that 
is what we are working towards. But the capabilities of that F-
35C are such that we need that for the war fight, and I believe 
that General Bogden and the rest of the program coupled with 
the services has us on a good track for both models, F-35 B and 
C.
    Senator Ayotte. Thank you.
    Senator Wicker. Rear Admiral Manazir, help me remember what 
you said about the unexpected corrosion because of sea air and 
desert. Was that with regard to the Hornets?
    Admiral Manazir. Yes, sir. Actually every airplane that we 
fly in the environments that we fly in, be it a desert 
environment or a salt air environment, experience some type of 
corrosion.
    Senator Wicker. Of course. But you did not expect to have 
to deal with it because you did not expect the aircraft life to 
be that lengthy. Is that your testimony?
    Admiral Manazir. That is correct, sir.
    Senator Wicker. When was the Hornet developed?
    Admiral Manazir. Early 1980s, sir. We IOCed the airplane in 
1983, the F-18C--F-18A and took it to C in 1983.
    Senator Wicker. We fly aircraft a long time.
    Admiral Manazir. Yes, sir.
    Senator Wicker. I got in the Air Force in 1976, and we were 
talking about how well the B-22s were. You know, here we are.
    With regard to programs going forward, are we being a 
little more realistic about the expected timeframe in which we 
are going to have to use these aircraft?
    Admiral Manazir. Sir, I believe we have been realistic the 
whole time. When we developed----
    Senator Wicker. Even with regard to the Hornets?
    Admiral Manazir. Yes, sir. NAVAIR SYSCOM assesses the 
airframe and designs the airplane with the contractor to go to 
a certain service length, every aspect of that airplane, 
including projected corrosion. We successfully got the entire 
fleet of 614 F-18A pluses through Cs to 6,000 hours through a 
maintenance program that was viable and it was positive, and we 
got them home at 6,000 hours. When we opened up the airplanes 
after--and we inspected them to 8,000 hours, by the way. So we 
increased the life another third. When we inspected them and 
opened them up after 8,000 hours, we saw corrosion that we had 
not planned on. When you couple the----
    Senator Wicker. It was not supposed to matter.
    Admiral Manazir. That is right, sir. It was not supposed to 
matter. We were not supposed to be flying out here.
    So we did the assessment of the service life, but when you 
opened the airplane deeply and look way inside--we are talking 
taking panels off and structure off--and the parts that we do 
not build anymore because they have become obsolete, and we 
need a range and depth--those parts were corroded. So the depot 
has had to design, engineer, build, and then install these 
parts that used to be put together by Boeing. That is the 
unplanned work we have, sir.
    Senator Wicker. I am not making a good point about whether 
we should have expected to have to use these aircraft longer.
    Admiral Manazir. You are making a great point, sir. A 30-
year service life, 6,000 hours, the F-35 was designed for 30 
years and 6,000 hours--8,000 hours.
    We will probably have to assess extension of the service 
life. Now, I will tell you, sir, that what we have learned--we 
did not do an early enough service life extension program 
assessment of the F-18 A through C. So we found ourselves 
without the analysis and we are behind. But we learned that 
lesson with our F-18E/F.
    We are going to extend the service life of the F-18E/F to 
9,000 hours. That extension will occur in the mid-2020s. We are 
already in phase two of the service life assessment program, 
which will also show us the corrosion that occurs at 6,000 
hours. So we have learned our lesson on the extension part.
    But I would still say, sir, we buy and procure aircraft 
with the planned service life and we engineer to that service 
life.
    I hope that answers your question.
    Senator Wicker. Thank you very much.
    Admiral Manazir, the Navy trains its future rotary wing 
pilots utilizing the legacy TH-57C Ranger helicopters. The B 
model is used for VFR and the C model is used for IFR. My 
understanding is that 125 helicopters currently support the 
Navy's daily requirement for 90 operational available aircraft. 
They are equipped with dated avionics and the maintenance and 
sustainment costs associated with these legacy aircraft are 
also increasing as the aircraft age.
    So give us an assessment of operational reliability, 
sustainment plan, and replacement intentions.
    Admiral Manazir. Yes, sir. You have characterized exactly 
how we train our initial rotary wing aviators. That TH-57 is a 
very effective initial trainer. I flew that. It is a good way 
to teach a kid how to fly a skid helicopter. It is obsolete.
    A couple of years ago, we tried to replace it with a TH-
57D. We were essentially going to make a glass cockpit in the 
Jet Ranger, and the FAA [Federal Aviation Administration]--we 
could not get the right configuration, so we canceled that 
program.
    So we have just come through about two-thirds of an 
analysis to see how we train our rotary wing aviators, not 
necessarily how to replace the 57, but how do we train them.
    But in the interim, sir, what I am really doing is working 
with the NAVAIR SYSCOM staff and the Army to bring down some of 
the TH-67 trainers that they have in Army training and to 
convert them to 57 configurations so at least we can give them 
a short-term better simulation than they have now. So we have a 
short-term plan for simulation and a longer-term plan 
potentially from a programmatic standpoint about how to train 
our rotary wing aviators. But we are looking at that very hard.
    Senator Wicker. Thank you.
    Senator Hirono?
    Senator Hirono. Thank you.
    Admiral Grosklags, so there has been discussion about 
corrosion which occurs on our planes, on our ships. Is there a 
DOD-funded research and development as to anti-corrosion 
research? Because we are probably living in an environment 
where we need to get a lot more life out of our assets.
    Admiral Grosklags. I will have to get back to you on 
specific programs. I do know that there are a number of 
programs, including with our office in naval research, that 
address corrosion. It has, obviously, been an issue that we 
have dealt with as long as we have put aircraft and ships to 
sea. I cannot give you the specifics of any of those programs 
today, but I will certainly get back to you.
    [The information referred to follows:]

    The Department of Navy (DON) has an established, department-wide 
program to address corrosion concerns. This program is comprised of the 
DON Systems Commands (NAVAIR, NAVFAC, NAVSEA, NAVSUP, SPAWAR, and 
Marine Corps Systems Command) and the Office of Naval Research working 
together to address both common and platform-specific corrosion issues. 
The program works on mitigating corrosion through research and 
development efforts, aiding corrosion resistant product designs in 
acquisition, training and education of the fleet on preventative and 
corrective corrosion maintenance, and developing long-lasting 
corrective maintenance procedures for the system life cycle.
    As required by Title 10 U.S.C. Sec. 2228, DON has established a 
service Corrosion Control and Prevention Executive (CCPE) responsible 
for ensuring corrosion prevention and control are integrated into DON 
policy and guidance for system acquisition and production; logistics 
research and support analysis; equipment standardization programs; 
military infrastructure design, construction and maintenance; and 
research, development, test and evaluation programs and activities. 
Additionally, the DON CCPE is required to provide both an ``Annual 
Report on Corrosion'' and a ``Strategic Plan for Corrosion Prevention 
and Control'' to Congress.
    Attached are The Department of Navy Annual Report on Corrosion for 
Fiscal Year 2014 and The Department of Navy Strategic Plan for 
Corrosion Prevention and Control. The annual report addresses the 
questions regarding on-going Navy and Marine Corps anti-corrosion 
research and development programs funded through DON and the Department 
of Defense. In addition to research and development programs of note, 
the report outlines specific efforts to mitigate corrosion in the areas 
of acquisition and sustainment. On-going program efforts are being made 
in materials, coatings, and equipment design technical areas. These 
programs evaluate promising new technologies that meet stringent DON 
performance requirements to address corrosion control.

    Senator Hirono. Are we making progress in a longer life for 
parts and anti-corrosive research?
    Admiral Grosklags. Yes, ma'am, absolutely, not only in 
terms of the materials that the parts are made of but also the 
coatings that we use to protect them from the environment. As 
we go through modification programs on our aircraft and update 
them over time, we use those new materials and those new 
coatings which not only prevent the corrosion in many cases, 
but they also reduce the workload for our technicians that have 
to work on those aircraft.
    But the materials science continues to advance, but it is 
something we pay very close attention to. The difficulty is 
sometimes compounded by the other mission capabilities that we 
try to employ at the same time on those aircraft such as low 
observable coatings. That combination is not always the easiest 
to deal with. So there is a lot of effort going forward, and if 
you would like more details on specific programs, I can get 
that to you.
    Senator Hirono. There may be some nanotechnology that could 
be useful in this area. I know that every time you put a 
coating on, that reduces--that adds to the weight of the plane 
and all of that. So I understand that.
    I would be interested to know who is funding that kind of 
research for the Department of Defense.
    Can you also talk a little bit more about the specific 
improvements that have been implemented at our depots, I assume 
to effect efficiencies, and how long it takes for them to get 
the planes back out? Anyone?
    Admiral Manazir. Ma'am, the specific method that we are 
using now is called ``critical chain project management.'' It 
is a theory of constraints-based profile. The commanding 
officers of the depots have trained or are training their 
artisans, engineers, and supervisors to create a line in the 
depot that understands what the constraint on the airplane 
would be. So whether it is materials, a part, an engineering 
disposition, or some other factor, they understand what the 
constraint is for the airplanes coming through. They understand 
the organization.
    For instance, down at FRC Southeast in Jacksonville, 
Florida, they took a holistic look over the last several 
months, the last year at their system, and they figured out, 
they thought, that they had a capacity in their engineering 
force to run 17 airplanes through at a time. When they did an 
assessment of their engineers, they figured out they only had 
the engineering capacity to put six through. If they had not 
done that analysis, they would continue to be choked by the 
amount of work that goes through the depot.
    So they leaned out the line to bring it down to six, while 
at the same time they are hiring, certifying, and training the 
engineers to bring those through. So what they are going to do 
by the end of this year--they are projected to not only come 
back up to 17, but to double that to 34. That new critical 
chain project management is also being projected to go out to 
FRC Southwest and North Island in Coronado, CA, and they will 
apply that same methodology to double, then triple the output 
that we are currently seeing right now.
    Admiral Grosklags' point about the funding at 83 percent--
until we get that depot leaned out, the engineers hired, the 
artisans hired, and the parts in place, the funding is not the 
constraint. So once we get that all up, then we will go back up 
to 100 percent funding.
    I hope that answers the question.
    Senator Hirono. So can you give an estimate as to--by using 
this kind of critical project management process, how much more 
efficient we have become?
    Admiral Manazir. The depot will be easily efficient by 200 
percent more, so 100 percent more efficient. We see some 
projections that will take us up to even 300 percent. For 
instance, right now, we are putting 65 airplanes a year through 
that. We forecast in the next couple of years to get to 90 
aircraft through the depot, and we will be out of this current 
near-term shortfall problem by 2018.
    Senator Hirono. That is very commendable. We note that you 
do have a shortage of workers--right--skilled people?
    Admiral Manazir. Yes, ma'am.
    Senator Hirono. What can we do besides getting rid of 
sequester----
    Admiral Manazir. Do not sequester again. I have to join the 
chair and the ranking member to say that the sequestration was 
inherently deleterious to everything we were doing. It 
particularly hit us in the depots where the artisans were told 
to go home because we then furloughed them and they went to 
work somewhere else. So we are trying to recover from that 
labor shortage right now, and they do not exist. It is hard to 
hire them. We have to train them, and then we have to get that 
workforce on the airplanes and start to generate. So that is 
why the CNO [Chief of Naval Operations] testified that about 15 
months--about 13 months from now, we will start to see the 
depot effect because they have hired all the resources and now 
we can see that they are starting to put out those airplanes at 
the rate that we know we can do.
    Senator Hirono. Thank you.
    Senator Wicker. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Going back to the discussion about the corrosion, it 
occurred to me if you have got a tactical fighter you said had 
a 30-year life and 8,000 hours, you design for that. So if you 
wanted to have a 50-year life and 12,000 hours, you are going 
to pay the incremental costs for doing that up front which 
reduces the number of craft that are going to be deployed, 
which affects readiness. So you got to set limits.
    But then there is another question. When we have this 
discussion about extending the life of a 30-year-old tactical 
platform, are there not only certain capabilities that you can 
bring that underlying platform up to as compared to, say, an F-
35? So you are kind of putting a $100 saddle on a $10 horse in 
terms of the new technological platform that you have today. Is 
that a fair way to say it?
    General Davis. It is, sir. First off, as taxpayers, you 
would expect us to extract maximum value out of everything you 
give to us, and we do that. So an airplane that is designed for 
30 years like the F-18 and the Harrier--we are going to fly 
them as long as we possibly can and do good work. But there 
comes a knee in the curve where you can only modify and improve 
to a certain point to include I think actually doing a better 
job with corrosion control inside, teaching our maintenance 
marines and sailors how to do a better job with that. So we 
have kind of re-embraced that.
    But there comes a time out there you have got to embrace 
the technology and move out. I think we are there kind of with 
the V-22 and the F-35 inside the naval service P-8.
    Senator Tillis. I was thinking back when that plane was 
being deployed, I had a Mustang II. It was a dark chapter in 
Ford's history. The Mustangs of today I would much rather want 
to build capabilities and go fast in.
    So that is why I think we get into this discussion because 
of sequestration.
    General Davis. You remember the Mustang III.
    Senator Tillis. It was an upgrade from the Pinto.
    The sequestration mindset I think is getting into a 
discussion that does something that the Commandant says we 
ought not do. We should never get a point where our 
capabilities put our folks into a position of a fair fight. If 
we do not start looking at a way to get--see, one question I 
have for you all--just you all opine as much as you want.
    It seems to me that sequestration--the way that they go 
about it is a way that no business would go about driving 
efficiencies out of your organization. I know we had discussion 
about the worry about how we pay for increased defense 
spending, but I wonder whether the question should be if we 
gave you maximum flexibility to use your resources in the most 
efficient way, how could we--we talked about JSOW's. You found 
by looking at that, having the time to look and optimize your 
organization, you found a weapons system that you did not need 
any more of.
    If we got the distraction of sequestration out of the way 
and we started looking more at strategic sourcing, lean 
execution of processes, it seems to me that a lot of the net 
reductions achieved by sequestration, increases in efficiencies 
could be achieved but in a much more strategic way that gives 
you all the flexibility to do what you do for the highest level 
of readiness, for the lowest cost.
    I mean, if we were to go back and say, you know what, we 
are going to achieve roughly within some range, the ultimate 
bending of the curve in defense spending, but we want you all 
to tell us how to go about allowing you to do that, can you 
think through ways where it is not just spend more, spend more, 
spend more, but spend more smartly? Is there some way that we 
can actually get out of this rut of saying we want to get rid 
of sequestration, but we do not know how to actually budget in 
a way that achieves our budget priorities? Have you all given 
thought to how you can give us advice on how to get out of this 
rut?
    Admiral Manazir. Sir, let me try a couple of things.
    The first one is maybe my two colleagues will but I am not 
going to give you advice, sir. I thank you very much for the 
support of the programs that we do field.
    Back to the capability piece, I would like the opportunity 
to come give you a brief on the capabilities going into the F-
18 E and F. The airplane we have in there is eye-watering. The 
things that we are putting into that E and F--we are going to 
fly that airplane almost to 2040. We will require the airplane 
to wind with the F-35C. So we do put those modernization points 
in there.
    To your point about sequestration, it does affect our 
readiness. We have talked about that. It also affects our 
decisions to modernize, and so if the funding comes down, I 
cannot make those airplanes relevant.
    Admiral Grosklags testified that the stability of the 
funding is what is most important. General Davis and I are 
focused on a horizon that is out about 2025.
    Unfortunately for us, the threat gets a vote. They are 
expanding across the world. The threats to our forces are going 
up. We have to have the PB 2016 funding at least to address 
with risk all of the missions that we are going to do out 
there.
    But the stability of that funding is very important. As we 
program for the modernization, if you plan for a funding level 
that allows us to program the modernization in and then drop 
that level by 10 percent, fence some programs so the immediate 
effect on the rest of the discretionary budget is 14 percent, I 
have to stop the modernization. That disrupts the vendor base. 
That disrupts my modernization. It disrupts my research. It 
disrupts the----
    Senator Tillis. It ultimately drives up your long-term 
costs.
    Admiral Manazir. It is going to drive up the cost. Yes, 
sir.
    So while we are trying drive down the costs with 
sequestration, you are actually driving up the end cost of the 
things that we are trying to build. If we cannot build them and 
deploy them, we will not win.
    Admiral Grosklags. Yes, sir. I do not want to try to give 
you specifics, but much as we have discussed on a couple of 
topics here, kind of that vicious cycle that spirals us 
downward, I think what you are looking for is kind of that 
virtuous cycle that would enable us to put in place acquisition 
strategies to incentive industry to invest, to enable us to go 
to more of a commercial model where it is appropriate, which 
requires the stability and the predictability that we just 
talked about. There would be a certain virtuous cycle 
associated with that.
    The simple example is our ability to do multiyear 
contracts. I know there is House language that Congressman 
Thornberry has proposed that would ease our ability to put in 
place multiyear contracts where it is appropriate. It is that 
type of virtuous cycle where if we can drive down the cost of a 
particular capability or the capacity associated with it, then 
we have the choice of either buying more of those or investing 
more in readiness or simply not spending those dollars.
    Today, we have so many things on the unfunded list because 
we have been kind of nicked over time--even the BBA agreement 
that was alluded to earlier was a significant decrease from 
what we had proposed in the President's budget that year.
    So what I would propose is we need to get in that virtuous 
cycle as opposed to the death spiral that we kind of find 
ourselves in.
    Senator Tillis. Thank you, Mr. Chair.
    Senator Wicker. Thank you. Senator Tillis, when did you 
drive that Mustang?
    Senator Tillis. 1977 and 1978.
    Senator Wicker. Can we agree that the best thing to come 
out of the early Mustang was ``Mustang Sally''?
    [Laughter.]
    Senator Tillis. That is true. But it was the nicest car in 
my trailer park.
    Senator Wicker. Gentlemen, this has been a very productive 
hearing, and I think we are all agreed, a very impressive 
panel. So we thank you for your testimony and your give and 
take with us, and I think we are much better informed. Thank 
you so much, and we look forward to working with you.
    This hearing is adjourned.
    [Whereupon, at 10:18 a.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Roger Wicker
                         maritime surveillance
    1. Senator Wicker. Admiral Grosklags, General Davis, and Admiral 
Manazir, I am encouraged by continued investment in technologies that 
support our military strategy in the Asia-Pacific region. As you know, 
the Pacific is incredibly large--over 165 million square kilometers. 
While the vastness of the Pacific region presents a tremendous 
challenge, new technologies have the potential to greatly enhance 
operations in the Pacific. In particular, I am excited about how 
unmanned systems like the MQ-4C Triton, with its unparalleled 
persistence, endurance, and range, can meet the unique challenges of 
the region. How important is Triton to the Pacific strategy, and have 
you explored opportunities to accelerate Triton to meet our growing 
needs in the region?
    Admiral Grosklags and Admiral Manazir. The MQ-4C Triton is a key 
component of the Navy Maritime Patrol Reconnaissance Force. Its 
persistent sensor dwell, combined with networked sensors, will enable 
it to effectively meet Intelligence, Surveillance, and Reconnaissance 
(ISR) requirements in support of the Navy Maritime Strategy. MQ-4C 
Triton will operate from Guam beginning in 2017 where it will be an 
integral part of increasing our presence in the Asia-Pacific region. 
The remaining development and test work combined with the current 
fiscal environment limits our ability to accelerate the MQ-4C program 
without incurring significant risk elsewhere. Timely and predictable 
system delivery is crucial to the Navy's plan for meeting the intent of 
the fiscal year 2011 NDAA. Due to the Navy's Maritime ISR and Targeting 
Transition Plan dependence on timely fielding to limit increased costs 
of sustaining legacy (EP-3E) platforms, continued Congressional support 
for the MQ-4C program is vital to transition success.
    General Davis. The Marine Corps does not participate in the MQ-4C 
Triton program and defers to the Navy on a response to this question.

    2. Senator Wicker. Admiral Grosklags and Admiral Manazir, the 
Navy's maritime surveillance fleet is reaching the end of its service 
life and the Navy is recapitalizing this mission. Given the critical 
importance of maritime surveillance to our national security and our 
economy, we cannot afford a gap in this capability. A big part of the 
recapitalization plan is the MQ-4C Triton unmanned system, which will 
provide persistent surveillance with an advanced maritime radar capable 
of providing detailed surveillance of millions of square miles of 
ocean. Does the Navy have sufficient resources to meet its global 
requirements for maritime surveillance?
    Admiral Grosklags and Manazir. The fiscal year 2016 budget request 
reduces risk in the Navy's Maritime Intelligence, Surveillance, 
Reconnaissance, and Targeting (MISR&T) Transition Plan in both capacity 
and capability. In addition, the Navy continues to work with the Joint 
Staff, Office of the Secretary of Defense, and the Fleet to optimize 
the Navy's MISR&T Transition Plan and comply with the fiscal year 2011 
National Defense Authorization Act. Despite budgetary pressures forcing 
a reduction in procurement quantities of baseline air vehicles, the 
Navy was able to maintain fielding timelines for the future force and 
continue development of future sensors.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                                  f-35
    3. Senator Ayotte. Admiral Grosklags, if sequester returns next 
fiscal year, how many F-35s will the Navy and Marine Corps buy and how 
would this impact unit costs?
    Admiral Grosklags. A return to sequestration funding levels in 
fiscal year 2016 would necessitate a review and possible revision of 
the defense strategy. Until such a review is completed, the Department 
cannot determine how a reduction in the overall budget would impact 
specific programs. Even without sequestration, the Department was 
compelled to defer procurement of sixteen F-35C aircraft across the 
2016 Future Years Defense Program due to resource constraints. 
Additional reductions which might be driven by sequestration would 
nominally result in increased unit costs. This increase would likely be 
exacerbated by the potential for sequester driven reductions in USAF 
quantities.

    4. Senator Ayotte. Admiral Grosklags and Admiral Manazir, please 
describe the importance of the F-35C program to the Navy's ability to 
potentially conduct future operations against near-peer adversaries 
with advanced anti-access and area-denial capabilities.
    Admiral Grosklags and Admiral Manazir. The F-35C is absolutely 
essential to the future combat capability of our Carrier Strike Groups 
and Carrier Air Wings. It provides Combatant Commanders with a 5th 
generation strike fighter aircraft that combines low observable 
technology, data fused sensors and advanced weapons capabilities to 
outpace future threats. The F-35C will be employed in a complementary 
manner with the F/A-18E/F, EA-18G and E-2D to provide an ideal balance 
of versatility, lethality, survivability, and capacity that will enable 
access and overmatch of threats in contested environments.

    5. Senator Ayotte. Admiral Manazir, the Navy plans to buy 38 F-35C 
aircraft over the next 5 years. I understand that that represents a 
reduction of 16 aircraft compared to last year's plan of 54 aircraft 
over the same period. Was that reduction purely budget driven or was 
there some other reason?
    Admiral Manazir. The Fiscal Year 2016 budget request delivers a 
balanced budget that adheres to fiscal guidance. Due to fiscal 
constraints, the Navy was compelled to defer procurement of 16 F-35C 
aircraft as a budgetary decision.

    6. Senator Ayotte. Admiral Manazir, when will the F-35C reach full 
operational capability?
    Admiral Manazir. The Navy expects to achieve initial operational 
capability (IOC) in fiscal year 2018 and deploy its first squadron with 
block 3F capability in 2021. The F-35C is projected to reach full 
operational capability (FOC) in 2034. FOC will be achieved when all 
active duty, reserve, training, and support squadrons have received 
their F-35C primary aircraft authorization (PAA) with all required 
logistical, maintenance, and training support.

    7. Senator Ayotte. Admiral Manazir, does the Navy have a shortfall 
in tactical aviation?
    Admiral Manazir. The Navy remains challenged with end of life 
planning for F/A-18A-D aircraft that reach the end of their service 
life before replacement aircraft (F-35B/C) can be fully delivered into 
service. Strike Fighter inventory management risk increases with the 
Fiscal Year 2016 President's budget submission, further increasing the 
gap between supply and the Department's Master Aviation Plan demand.
    Strike fighter inventory management should be viewed in two 
separate and distinct phases. The near term challenge is due to a 
combination of reduced strike fighter aircraft procurement, higher than 
planned TACAIR utilization rates, and F/A-18A-D depot production 
falling short of the 2013 and 2014 required output. Aggressive efforts 
across the Department were instituted in 2014 to improve depot 
productivity and return more aircraft back to service. Aviation depots 
are expected to improve throughput to meet annual production 
requirements by fiscal year 2017 and fully recover by fiscal year 2019, 
at which time the focus will include F/A-18E/F service life extension. 
In the far term, strike fighter inventory management is predominantly 
affected by new aircraft procurement, particularly the F/A-18E/F and F-
35. COCOM-driven operations and Fleet Response Training Plan (FRTP) 
training and readiness requirements are driving a strike fighter 
utilization rate which currently outpaces procurement.

    8. Senator Ayotte. Admiral Manazir what is the plan to meet the 
Navy's tactical aviation requirement before the F-35C reaches full 
operational capability?
    Admiral Manazir. The Navy's strike fighter inventory management 
strategy requires the sustainment of legacy F/A-18A-D aircraft, the 
procurement and sustainment of the current F/A-18E/F fleet, and 
procurement of the F-35C. The Department carefully monitors inventory 
requirements and projected aircraft availability to meet operational 
demands.
    F/A-18A-D aircraft have been, and will remain operationally 
relevant through upgrades. On-going high flight hour (HFH) inspections, 
repairs and recurring inspections allow continued flight past the 
current flight hour service life limit of 8,000 hours. The current 
Service Life Extension Program (SLEP) efforts will extend the airframe 
life of 150 aircraft to 10,000 hours and will maintain F/A-18A-D 
tactical relevance through their active duty sundown in 2026, and 
reserve sundown in the 2030's.
    The F/A-18E/F will be the predominant aircraft in the Navy's 
carrier air wing strike fighter force through 2035. Sustainment 
includes needed capability upgrades with a focus on completing both 
passive and active kill-chains, which significantly improve the 
survivability and strike capability of the carrier air wing. To meet 
the operational requirements out to 2035, the F/A-18E/F is undergoing a 
Service Life Assessment Program (SLAP) designed to extend the airframe 
service life to 9,000 flight hours. The Service Life Management Plan 
philosophy has been applied to the F/A-18E/F fleet at an earlier point 
in its lifecycle than the F/A-18A-D. This will facilitate optimization 
of Fatigue Life Expended, flight hours, and total landings, thereby 
better aligning aircraft service life with fleet requirements.
    To meet far-term inventory challenges and incorporate advanced 
strike fighter capabilities, the Navy remains fully committed to the F-
35C. The Fiscal Year 2016 President's budget request supports the 
procurement of low rate initial production (LRIP) aircraft to support 
System Design and Development (SDD), Fleet Replacement Squadron (FRS) 
integration and Developmental and Operational Test and Evaluation. The 
Department's goal is to increase F-35C development and procurement 
funding over the next five years to achieve full rate production.

    9. Senator Ayotte. Admiral Manazir, how many Super Hornets would it 
take to meet the Navy's tactical aviation requirement?
    Admiral Manazir. The Navy requires two to three additional 
squadrons (24-36 aircraft) of Super Hornets to meet the strike fighter 
inventory requirement.
                                  f-18
    10. Senator Ayotte. General Davis and Admiral Manazir, the joint 
prepared statement points out that the F-18 Hornet depot backlog will 
not be resolved until 2019. How has this backlog impacted Navy and 
Marine Corps readiness?
    General Davis. The Department prioritizes and continues to meet 
deployed readiness requirements above all else. However, achieving 
these standards has come at the expense of force training for 
operational squadrons preparing to deploy. This poses risk to our 
future readiness, and impacts our surge capacity through 2019.
    While Marine Corps F/A-18 squadrons are manned and trained to 
maintain readiness levels, the current F/A-18A-D depot throughput 
challenge has reduced the number of aircraft available to fleet 
squadrons. Consequently, the Marine Corps is currently deploying F/A-18 
squadrons with a temporary Flight Line Entitlement of 10 aircraft 
versus the required 12 aircraft, directly reducing their capacity to 
fight and train. Deploying at this reduced capacity allows the ready 
bench of non-deployed squadrons more of the assets they need to train 
and prepare for deployment. The Marine Corps also is fully resourcing 
its FRS with enough in-reporting aircraft to meet its Pilot Throughput 
Requirement (PTR). We are doing this today with no pool of students, 
cutting down on time to train and keeping the fleet as healthy as 
possible. As depot throughput improves, the Marine Corps will return to 
forward deploying 12 aircraft squadrons, regaining warfighting and 
training capacity.
    The compound effect of achieving deployed readiness standards in 
this manner is an overall reduced readiness posture of the non-deployed 
strike fighter-force and over-utilization of available aircraft. This 
process strains the operational fleet of aircraft, leading to greater 
service life consumption across the strike-fighter inventory. Improved 
depot throughput, careful management of aircraft utilization, and more 
utilization of shore based Forward Arming and Refueling Points (FARPs) 
for operational missions will return strike-fighter squadrons to the 
optimum readiness profiles, which in turn will improve non-deployed 
force readiness and surge capacity.
    Admiral Manazir. The Department prioritizes and continues to meet 
deployed readiness requirements set forth in the Fleet Response 
Training Plan (FRTP). However, achieving these standards has come at 
the expense of force training for operational squadrons in the early 
stages of the FRTP and the Fleet Replacement Squadrons responsible for 
aircrew initial and refresher training. This poses risk to our future 
readiness and impacts our surge capacity through 2019.
    The Navy manages risk in readiness through the FRTP, which is based 
on a structure of tiered readiness that prepares units for operational 
deployment. To support more intensive aircraft maintenance efforts and 
reduced aircrew training requirements during the initial FRTP phases, 
operational squadrons are assigned and operate fewer aircraft than 
required for deployment. With an increased number of strike-fighter 
aircraft in an out-of-reporting status for planned or unplanned depot 
level maintenance, aircraft available for these squadrons are below 
their prescribed entitlements. Consequently, their readiness levels are 
degraded for lack of training opportunities due to insufficient 
aircraft. However, as each strike-fighter squadron approaches the 
intermediate and advanced phases of the FRTP, they receive the full 
complement of entitled aircraft and complete current and missed 
training events required to achieve deployed readiness standards.
    The compound effect of achieving deployed readiness standards in 
this manner is an overall reduced readiness posture of the non-deployed 
strike fighter-force. Additionally, this process strains the 
operational fleet of aircraft through overutilization in the advanced 
phases of the FRTP, which leads to greater service life consumption 
across the strike-fighter inventory. Improved depot throughput capacity 
and careful management of aircraft utilization will return strike-
fighter squadrons to the optimum readiness profiles across the FRTP, 
which in turn will improve non-deployed force readiness and surge 
capacity.

    11. Senator Ayotte. General Davis and Admiral Manazir, what can we 
do to solve this depot backlog sooner?
    General Davis. The Fiscal Year 2016 President's Budget request 
provides funding to align F/A-18 depot throughput to projected 
capacity.
    In 2014, Navy leadership incorporated a multifaceted strategy to 
improve F/A-18 depot efficiency and throughput. The current constraints 
to the Hornet line are both manpower and material related. The strategy 
addresses these issues with an aggressive hiring and training plan for 
artisans and engineers, kitting of materials for the high flight hour 
(HFH) events based on common repair requirements, and the 
implementation of an enterprise-wide improvement to production flow 
using a theory of constraints method called critical chain project 
management. Additionally, the Navy has collaborated with Boeing in 
identifying several areas to improve overall depot throughput, such as 
employing Boeing Engineering Support and incorporating the use of its 
Cecil Field facility. The strategy is proving successful as depot 
production levels are improving. With the requested funding, and under 
this plan, the Department anticipates continued improvement in depot 
throughput to meet annual production requirements by fiscal year 2017 
and full recovery by fiscal year 2019.
    A return to sequestration in fiscal year 2016 is a recurring 
concern. The Department requires a stable budget to meet these 
objectives. Sequestration and the compound effects of the 2013 
government shutdown drove manning shortfalls for both artisans and 
engineers and hampered the Navy's ability to respond to unplanned work 
found during HFH inspections. Any further reductions in the depot 
maintenance, engineering and contractor support budgets below requested 
levels will impede the depot throughput improvement strategy. A return 
to sequestration would have a compounding effect that will further 
increase risk in our strike fighter inventory management strategy and 
reduce the availability of warfighting assets.
    Admiral Manazir. The Fiscal Year 2016 President's Budget request 
provides funding to align F/A-18A-F depot throughput to projected 
capacity.
    In 2014, Navy leadership incorporated a multifaceted strategy to 
improve F/A-18 depot efficiency and throughput. The current constraints 
to the Hornet line are both manpower and material related. The strategy 
addresses these issues with an aggressive hiring and training plan for 
artisans and engineers, kitting of materials for the high flight hour 
(HFH) events based on common repair requirements, and the 
implementation of an enterprise-wide improvement to production flow 
using a theory of constraints method called critical chain project 
management. Additionally, the Navy has collaborated with Boeing in 
identifying several areas to improve overall depot throughput, such as 
employing Boeing Engineering Support and incorporating Super Hornet 
modifications at its Cecil Field facility. The strategy is proving 
successful as depot production levels are improving. With the requested 
funding, and under this plan, the Department anticipates continued 
improvement in depot throughput to meet annual production requirements 
by fiscal year 2017 and full recovery by fiscal year 2019.
    In 2014 Navy leadership incorporated a multifaceted strategy to 
improve F/A-18 depot efficiency and throughput capacity. The strategy 
is proving successful and the Naval Aviation Enterprise will reassess 
the controls. This strategy includes an aggressive hiring plan for 
artisans and engineers, kitting of materials for the HFH events, which 
previously resulted in unplanned repairs and the implementation of an 
enterprise wide improvement to production flow using critical chain 
theory tools. Additionally, the Navy has collaborated with Boeing and 
identified several areas to improve overall depot throughput, such as 
employing Boeing Engineering Support and incorporating Super Hornets 
modifications at its Cecil Field facility. With the requested funding, 
and under this plan, the Department anticipates an improvement in depot 
production by fiscal year 2017 and a positive contribution to the 
strike fighter inventory calculus by fiscal year 2019.
    A return to sequestration in fiscal year 2016 is a recurring 
concern. The Department requires a stable budget to meet these 
objectives. Sequestration and the compound effects of the 2013 
government shutdown drove manning shortfalls for both artisans and 
engineers and hampered the Navy's ability to respond to unplanned work 
found during HFH inspections. Any further reductions in the depot 
maintenance, engineering and contractor support budgets below requested 
levels will impede the depot throughput improvement strategy. Moreover, 
a return to sequestration will affect recent initiatives including the 
F/A-18E/F service life assessment and extension programs (SLAP/SLEP). 
Current efforts for Super Hornet SLAP/SLEP include fatigue life 
analysis, stress predictions, and inspection and modification 
development. Ongoing efforts will inform future work and ensure 
material kits are developed to better support life extension efforts. 
However, these analyses are required prior to the first aircraft 
reaching its 6,000 hour limit, expected in CY2017. A return to 
sequestration would have a compounding effect that will further 
increase risk in our strike fighter inventory management strategy and 
reduce the availability of warfighting assets.
    The Department requires a stable budget to realize the full 
benefits of our strategy. Sequestration and the compound effects of the 
2013 government shutdown drove shortfalls in both artisans and 
engineers, and hampered the Navy's ability to respond to unplanned work 
found during HFH inspections. A recurring concern is the impact of a 
return to sequestration funding levels in fiscal year 2016. Any further 
reductions in the depot maintenance, engineering and contractor support 
budgets below requested levels will hamper the depot throughput 
improvement strategy. Moreover, a return to sequestration will affect 
recent initiatives including the F/A-18E/F SLAP/SLEP. Current efforts 
for Super Hornet SLAP/SLEP include fatigue life analysis, hot spot 
predictions, and inspection and modification development. These ongoing 
efforts will inform future work and ensure material kits are developed 
to better support the life extension efforts. Analysis is needed prior 
to the first aircraft reaching its 6,000 hour limit, expected in 
CY2017. A return to sequestration funding levels would disrupt the 
ground work of the analysis and delay any efficiencies gained. This 
compound effect will further increase risk in our strike fighter 
inventory management strategy and reduce the availability of 
warfighting assets.
                        usmc harrier replacement
    12. Senator Ayotte. General Davis, in September 2012, six Harriers 
were destroyed in Helmand Province, Afghanistan. Has the Marine Corps 
replaced those six jets?
    General Davis. No, the Marine Corps has not replaced these six 
aircraft. We have identified this shortfall on previous Unfunded 
Priority Lists (UPL) and the Opportunity, Growth, and Security 
Initiative (OGSI) list in March of fiscal year 2014. Most recently, the 
Marine Corps has again included the six jets on this year's UPL. The 
request for six F-35Bs represents the direct replacement of the 6 AV-8B 
Harrier tactical aircraft lost due to enemy action at FOB Bastion in 
Afghanistan. To date, no funding has been received. However, the HASC 
has marked this program + $974.9 Million (fiscal year 2016) as of the 
full committee mark up.

    13. Senator Ayotte. General Davis, if the Marine Corps had the 
funding, would it replace those jets?
    General Davis. Unequivocally, yes.

    14. Senator Ayotte. General Davis, what would replace the Harriers?
    General Davis. The AV-8B is no longer in production, so the Marine 
Corps is unable to procure additional Harrier airframes. The Marine 
Corps is currently in the process of transitioning all of its TACAIR 
fleet, to include F/A-18A-D, EA-6B and the AV-8B to the F-35B STOVL 
Joint Strike Fighter. If given the requested funds, the Marine Corps 
would replace the lost AV-8Bs with F-35Bs.

    15. Senator Ayotte. General Davis, how much would the replacements 
cost?
    General Davis. The current replacement cost for the AV-8B loss with 
six F-35Bs is $1.050B for fiscal year 2016.

    16. Senator Ayotte. General Davis, would it be better to replace 
one or two jets than to replace none at all?
    General Davis. Yes, every replacement jet that we can procure will 
help aid the Marine Corps in transitioning as quickly as possible to 
the F-35 and allow us to diminish our flight line gap. Given that the 
AV-8B is out of production and the procurement plan to replace all of 
the tactical jets in the Marine Corps with the F-35B, it is critical 
that we replace the six AV-8Bs that were lost with six F-35Bs. When the 
Marine Corps lost those six AV-8Bs, we had to stand down a fleet 
Harrier squadron. Procuring the six additional F-35Bs would allow us to 
stand up another F-35B squadron almost a year earlier than is currently 
scheduled, directly reducing risk we have assumed in our legacy 
aircraft.
                       health of industrial base
    17. Senator Ayotte. Admiral Grosklags, please describe the health 
of the industrial base that supports Navy and Marine Corps aviation 
programs.
    Admiral Grosklags. The industrial base that supports the Navy and 
Marine Corps aviation programs is moderately healthy. There is 
substantial overlap between military and commercial suppliers in the 
aerospace manufacturing industry which ameliorates the impacts of 
declining defense spending in the sector. The commercial sector has 
benefitted from the decline in oil prices which has allowed commercial 
customers to reallocate funding from fuel to the replacement of aging 
aircraft. As such, a substantial portion of the aerospace manufacturing 
supply chain is experiencing growth, even as defense aviation spending 
declines. However the Department of the Navy does have significant 
concerns relative to sustaining critical design capabilities and unique 
skill sets associated with the design and development of tactical 
aircraft.
    At the prime contractor level for Navy and Marine Corps aviation 
programs, there continues to be a relatively small number of companies 
with the requisite expertise to develop complex, military-unique 
aircraft and weapons systems. In order to drive down ownership costs, 
the trend has been to buy fewer different types of aircraft and weapons 
by making each more flexible and capable. The result is fewer but 
larger programs which reduce competitive opportunities and place 
unsuccessful bidders at greater risk of not surviving to compete in the 
future. Additionally, there is a significant risk of losing design 
teams due to fewer programs. As a result, it is likely that 
significantly less experienced engineers and scientists will tackle 
future technical challenges, leading to longer and more expensive 
development and initial production costs. As the pool of potential 
prime contractors and subcontractors shrinks, the environment for 
innovation and competition is similarly diminished. Although the Navy 
and Marine Corps currently draw from an adequate aviation industrial 
base, the limited number of viable prime contractors and military-
unique suppliers is an area of concern.

    18. Senator Ayotte. Admiral Grosklags, how would a full return of 
defense sequestration next fiscal year impact the health of the 
industrial base that supports Navy and Marine Corps aviation programs?
    Admiral Grosklags. A return to sequestration funding levels in 
fiscal year 2016 would necessitate a review and possible revision of 
the defense strategy. Until such a review is completed, the Department 
cannot determine how a reduction in the overall budget would be 
apportioned across programs. However, it can be assumed that a number 
of budget lines will be ``protected'' from funding reductions--e.g. 
manpower accounts and strategic deterrence programs. The ``protection'' 
of these budget lines will necessitate a greater reduction be 
apportioned to all other programs. The final size of the required 
funding reductions will be combined with results of the strategy review 
to determine which aviation programs will be reduced, retained 
unaffected, or terminated. Industrial base health will be one of many 
considerations as we work through this balancing of funding and 
strategy.
    It must also be recognized that simply the outstanding potential of 
a full return of defense sequestration has a negative impact on the 
health of the industrial base. The uncertainty directly impacts their 
ability to plan and execute investment strategies, execute to the most 
efficient operating model(s), and raise capital--all contributing to a 
less healthy industrial base and increased costs to the Department.
                         joint standoff weapon
    19. Senator Ayotte. Admiral Manazir, in the President's fiscal year 
2015 budget, the Navy projected buying 4,632 more Joint Standoff 
Weapons (JSOWs) over the life of the program, including 200 in fiscal 
year 2016. In the President's fiscal year 2016 budget, the program was 
terminated. What has changed to make those JSOWs no longer necessary to 
the Navy's requirements?
    Admiral Manazir. [Deleted.]

    20. Senator Ayotte. Admiral Manazir, what is the plan to replace 
that lost capability?
    Admiral Manazir. [Deleted.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
